IN

T H E

S U P R E M E

C O U R T

O F

A L A B A M A

September 11, 2020
1190647
Ex parte Antonio Devoe Jones. PETITION FOR WRIT OF CERTIORARI TO THE COURT OF
CRIMINAL APPEALS (In re: Antonio Devoe Jones v. State of Alabama) (Houston Circuit
Court: CC-00-353.60; Criminal Appeals : CR-13-1552).

CERTIFICATE OF JUDGMENT
WHEREAS, the petition for writ of certiorari in the above referenced cause has been
duly submitted and considered by the Supreme Court of Alabama and the judgment indicated
below was entered in this cause on September 11, 2020:

Writ Denied. No Opinion. Bolin, J. - Bryan, Sellers, Stewart, and Mitchell, JJ., concur.
Parker, C.J., dissents. Shaw, Wise, and Mendheim, JJ., recuse themselves.
NOW, THEREFORE, pursuant to Rule 41, Ala. R. App. P., IT IS HEREBY ORDERED
that this Court's judgment in this cause is certified on this date. IT IS FURTHER ORDERED
that, unless otherwise ordered by this Court or agreed upon by the parties, the costs of this
cause are hereby taxed as provided by Rule 35, Ala. R. App. P.
I, Julia J. Weller, as Clerk of the Supreme Court of Alabama, do hereby certify that the foregoing is
a full, true, and correct copy of the instrument(s) herewith set out as same appear(s) of record in said
Court.
Witness my hand this 11th day of September, 2020.

l i t a

Clerk, S uprem e Court of A lab am a

App. 1

C O U R T

O F

C R IM IN A L

S T A T E

O F

A P P E A L S

A L A B A M A

D. Scott Mitchell
Clerk
Gerri Robinson
Assistant Clerk

P. O. Box 301555
Montgomery, AL 36130-1555
(334) 229-0751
Fax (334) 229-0521

May 15, 2020
CR-13-1552

Death Penalty

Antonio Devoe Jones v. State of Alabama (Appeal from Houston Circuit Court:
CC00-353.60)

NOTICE
You are hereby notified that on May 15, 2020, the following action was taken in the above
referenced cause by the Court of Criminal Appeals:
Application for Rehearing Overruled.

X

’.

-Jts&MfiiM—

D. Scott Mitchell, Clerk
Court of Criminal Appeals
cc: Hon. Henry T. "Sonny" Reagan, II, Circuit Judge

Hon. Carla H. Woodall, Circuit Clerk
Carmen F. Howell, Attorney
Steven A Miller, Attorney - Pro Hac
Denise Michelle Ware, Attorney - Pro Hac
Kevin Wayne Blackburn, Asst. Attorney General
Audrey K. Jordan, Asst. Attorney General

App. 2

Rel: November 22, 2019

Notice: This opinion is subject to formal revision before publication in the advance
sheets of Southern Reporter. Readers are requested to notify the Reporter of Decisions,
Alabama Appellate Courts, 300 Dexter Avenue, Montgomery, Alabama 36104-3741 ((334)
229-0649), of any typographical or other errors, in order that corrections may be made
before the opinion is printed in Southern Reporter.

ALABAMA COURT OF CRIMINAL APPEALS
OCTOBER TERM, 2019-2020
_________________________
CR-13-1552
_________________________
Antonio Devoe Jones
v.
State of Alabama
Appeal from Houston Circuit Court
(CC-00-353.60)
On Remand from the Alabama Supreme Court
KELLUM, Judge.
The appellant, Antonio Devoe Jones, an inmate currently
incarcerated on Alabama's death row, appeals the circuit
court's summary dismissal of his petition for postconviction
relief filed pursuant to Rule 32, Ala. R. Crim. P., in which

App. 3

CR-13-1552
he attacked his capital-murder conviction and sentence of
death.
Facts and Procedural History
In 2004, Jones was convicted of murdering Ruth Kirkland
during the course of a burglary.
Code 1975.

See § 13A-5-40(a)(4), Ala.

The jury, by a vote of 11 to 1, recommended that

Jones be sentenced to death.

The trial court sentenced Jones

to death. This Court affirmed Jones's conviction and sentence
on direct appeal.
App. 2006).

Jones v. State, 987 So. 2d 1156 (Ala. Crim.

The Alabama Supreme Court denied certiorari

review, and this Court issued the certificate of judgment on
January 25, 2008.

The United States Supreme Court denied

certiorari review on October 6, 2008.

Jones v. Alabama, 555

U.S. 833 (2008).
On direct appeal, this Court set out the facts of the
crime:
"The State's evidence tended to show that on the
afternoon of December 31, 1999, 80–year–old Ruth
Kirkland drove her 1990 white Cadillac automobile to
the grocery store to purchase groceries. Mrs.
Kirkland, who had lived alone since the death of her
husband, was a petite woman, who had suffered a
stroke, leaving her with a limp and a weak right
arm. As a result of the stroke, Mrs. Kirkland used
a walker or a cane to get around. It was generally

2

App. 4

CR-13-1552
known in the community that Mrs. Kirkland kept money
inside her house.
"According to testimony at trial, because of her
condition, it took Mrs. Kirkland several trips to
carry her groceries inside, and it became dark
before she got all her groceries into her house.
Because Mrs. Kirkland did not like to be outside
after dark, she left the remaining groceries in her
car for the night.
"Some time later, Antonio Jones went to Mrs.
Kirkland's house, turned off the circuit breakers
outside, and went inside. From the evidence, the
police were unable to determine whether Jones broke
into the house or whether Mrs. Kirkland opened the
door to investigate the power failure, allowing
Jones to enter unimpeded.
"Upon gaining entry to the house, Jones beat and
kicked Mrs. Kirkland as she attempted to defend
herself. Jones broke Mrs. Kirkland's wrists as she
attempted to ward off his blows. In addition to
using his hands and feet to assault Mrs. Kirkland,
Jones also used one of Mrs. Kirkland's walking canes
and a broken chair leg to savagely beat Mrs.
Kirkland. Splatters of Mrs. Kirkland's blood were
found in various locations and pieces of her broken
cane were found in several different rooms.
"At some point, Jones dumped the contents of
Mrs. Kirkland's purse on the floor. Mrs. Kirkland
kept the keys to her car in her purse. He also
searched the house for the money Mrs. Kirkland
reportedly kept in her house, ransacking the house,
leaving open several drawers and cabinets. Mrs.
Kirkland's body was found near the armoire where she
kept her money. Jones took Mrs. Kirkland's car keys
–- and possibly other undetermined items –- and left
Mrs. Kirkland's house driving her white Cadillac.

3

App. 5

CR-13-1552
"That same evening, Linda Parrish, Mrs.
Kirkland's daughter, became concerned when she was
unable to contact her mother by telephone. Mrs.
Parrish asked her son, Brent Parrish –- a Dothan
police officer –- to go by Mrs. Kirkland's house and
check on her. Officer Parrish arrived at his
grandmother's house shortly before 8:00 p.m. He
noticed that no lights were on inside the house and
that Mrs. Kirkland's white Cadillac was missing. As
he approached the house, Officer Parrish discovered
that the back door was open. Officer Parrish
notified the police and waited for help to arrive.
When the other officers arrived, the police entered
Mrs. Kirkland's house and discovered her body lying
on the floor.
"Concluding that Mrs. Kirkland's assailant had
taken her automobile, the police began searching for
the white Cadillac. Around 9:00 p.m., an officer
spotted a white Cadillac matching the description of
Mrs. Kirkland's. The officer activated his emergency
lights, signaling the driver to stop; however, the
driver failed to stop. The officer requested
assistance, and several other patrol cars responded.
Eventually, the police were able to stop the car
near a K–Mart discount department store on the north
side of Dothan. Inside the car were Jones; his
sister, Lakeisha Jones; Lakeisha's baby; and
Lakeisha's boyfriend. Jones, whose clothes and shoes
were bloodstained, was taken into custody. During a
search of the car, police discovered a number of
items,
including
Mrs.
Kirkland's
remaining
groceries, two of Mrs. Kirkland's walking canes, and
a torn and empty envelope from SouthTrust Bank
apparently given to Mrs. Kirkland when she made a
withdrawal. Neither Lakeisha nor her boyfriend knew
anything about Mrs. Kirkland's murder.
Lakeisha
did, however, tell the police that Jones was acting
strangely when he picked them up earlier that
evening.

4

App. 6

CR-13-1552
"Jones was transported to the Dothan Police
Department. At some point, Jones voluntarily stated
that he knew where to find bloody clothes related to
Mrs. Kirkland's murder. Officer Jon Beeson then
informed Jones of his constitutional rights in
accordance with Miranda v. Arizona, 384 U.S. 436, 86
S.Ct. 1602, 16 L.Ed.2d 694 (1966). Jones declined
to sign a waiver-of-rights form, but he did agree to
accompany police officers to a bridge on Honeysuckle
Road where, he claimed, the true killers of Mrs.
Kirkland had disposed of their bloody clothing.
Before taking Jones to the bridge, officers had him
remove the clothes and shoes he was wearing when he
was taken into custody.
Jones agreed, and he
changed clothes. The clothing he had been wearing
was taken to the Alabama Department of Forensic
Sciences for testing.
"Thereafter, the police took Jones to the bridge
on Honeysuckle Road, where they unsuccessfully
searched for the reported bloody clothing. The
officers also searched for footprints in the area
and found none.
After daylight, the officers
returned to the site but again found no evidence
that would support Jones's claims.
"Back at the police station, Jones asked to
speak to Officer Beeson again. Before talking with
Jones, Beeson informed Jones of his Miranda rights
a second time. At 2:55 a.m. on January 1, 2000,
Jones signed a waiver-of-rights form, acknowledging
that he understood his rights and that he had not
been threatened or promised anything in exchange for
his statement. Jones told Beeson that three other
men had killed Mrs. Kirkland. Jones denied any
involvement in Mrs. Kirkland's killing; he claimed
that he was not present when Mrs. Kirkland was
killed and that the blood on his clothes came from
being around the three killers. Additionally, Jones
claimed that the white Cadillac he was driving
belonged to his grandfather.

5

App. 7

CR-13-1552
"Around 5:30 a.m., Jones asked to speak with
Officer Beeson again, stating that he wanted to tell
Beeson the 'whole story.' Sgt. Jim Stanley told
Jones that Beeson was unavailable, and Jones
indicated that he wished to tell Stanley 'the rest
of the story.'
Sgt. Stanley took Jones into his
office, where they were joined by Officer Donovan
Kilpatrick. Before allowing Jones to give his
statement, Sgt. Stanley asked Jones if he remembered
his Miranda rights. Jones indicated that he did.
Jones proceeded to give the officers additional
information regarding Mrs. Kirkland's murder. As
Jones related his version of events, Sgt. Stanley
made notes of what Jones told them. During Jones's
second statement, he admitted being present at Mrs.
Kirkland's house during the murder. Jones claimed,
however, that the other three men had entered the
house with the intent to commit a robbery. He
claimed that when he entered Mrs. Kirkland's house,
one of the three men was beating her with a walking
cane.
According to Jones, he took the cane away
from Mrs. Kirkland's assailant and telephoned 911
for emergency assistance in an attempt to save Mrs.
Kirkland. Jones also claimed that the other three
men took Mrs. Kirkland's car. He claimed that after
he telephoned for assistance and turned the circuit
breakers back on, he became scared and fled the
scene on foot. Only later, Jones claimed, did he
meet up with the other three who at that time were
driving Mrs. Kirkland's car. When the officers
attempted to verify Jones's claims, they discovered
that the three men Jones claimed had killed Mrs.
Kirkland all had alibis. Likewise, no 911 emergency
calls had been received from Mrs. Kirkland's home
that night."
Jones, 987 So. 2d at 1158-60 (footnotes omitted). 1

1

This Court may take judicial notice of its own records,
and we do so in this case. See Nettles v. State, 731 So. 2d
626, 629 (Ala. Crim. App. 1998).
6

App. 8

CR-13-1552
On January 23, 2009, Jones timely filed the instant Rule
32 petition.2

He filed an amended petition in April 2013.

In

July 2013, the State filed its response and moved to dismiss
the petition.

On June 19, 2014, the circuit court issued a

72-page order summarily dismissing the amended petition, and
Jones appealed.

By order dated December 12, 2017, this Court

dismissed the appeal on the ground that Jones's notice of
appeal was untimely filed.

On certiorari review, the Alabama

Supreme Court reversed this Court's judgment and remanded the
case for this Court to consider the appeal as timely filed.
Ex parte Jones, [Ms. 1170546, April 26, 2019] ___ So. 3d ___
(Ala. 2019).
Standard of Review
Rule 32.7(d), Ala. R. Crim. P., authorizes a circuit
court to summarily dismiss a Rule 32 petition
"[i]f the court determines that the petition is not
sufficiently specific, or is precluded, or fails to
state a claim, or that no material issue of fact or
law exists which would entitled the petitioner to
relief under this rule and that no purpose would be
served by any further proceedings ...."

2

The time for filing a Rule 32 petition in a case in which
the death penalty has been imposed was changed by Act No.
2017-417, Ala. Acts 2017. However, that Act does not apply
retroactively. See § 3, Act No. 2017-417, Ala. Acts 2017.
7
App. 9

CR-13-1552
See also Hannon v. State, 861 So. 2d 426, 427 (Ala. Crim. App.
2003); Cogman v. State, 852 So. 2d 191, 193 (Ala. Crim. App.
2002); Tatum v. State, 607 So. 2d 383, 384 (Ala. Crim. App.
1992). "'"'[W]here a simple reading of the petition for
post-conviction relief shows that, assuming every allegation
of the petition to be true, it is obviously without merit or
is precluded, the circuit court [may] summarily dismiss that
petition.'"'"

Shaw v. State, 148 So. 3d 745, 764-65 (Ala.

Crim. App. 2013) (quoting Bryant v. State, 181 So. 3d 1087,
1102 (Ala. Crim. App. 2011), quoting other cases).

On direct

appeal, this Court reviewed the trial proceedings for plain
error.

See Rule 45A, Ala. R. App. P.

However, the plain-

error standard of review does not apply in a postconviction
proceeding.

See, e.g., Ferguson v. State, 13 So. 3d 418, 424

(Ala. Crim. App. 2008).

Additionally, "[t]he procedural bars

of Rule 32 apply with equal force to all cases, including
those in which the death penalty has been imposed."

Brownlee

v. State, 666 So. 2d 91, 93 (Ala. Crim. App. 1995).

With

certain exceptions not applicable here, "this Court may affirm
the judgment of the circuit court for any reason, even if not

8
App. 10

CR-13-1552
for the reason stated by the circuit court."

Acra v. State,

105 So. 3d 460, 464 (Ala. Crim. App. 2012).
The majority of the claims on Jones's petition were
claims of ineffective assistance of counsel, and the circuit
court summarily dismissed some of those claims on the ground
that they were insufficiently pleaded.

To prevail on a claim

of ineffective assistance of counsel, the petitioner must meet
the standard articulated by the United States Supreme Court in
Strickland v. Washington, 466 U.S. 668 (1984). The petitioner
must show:

(1) that counsel's performance was deficient, and

(2) that the petitioner was prejudiced by counsel's deficient
performance.
the

test,

466 U.S. at 687.

the

representation
reasonableness.
counsel's

the

fell

must

below

show

an

that

objective

his

counsel's

standard

of

The performance inquiry must be whether

assistance

circumstances."
1987).

petitioner

"To meet the first prong of

was

reasonable,

considering

all

the

Ex parte Lawley, 512 So. 2d 1370, 1372 (Ala.

"'This court must avoid using "hindsight" to evaluate

performance

of

counsel.

We

must

evaluate

all

the

circumstances surrounding the case at the time of counsel's
actions

before

determining

whether

9
App. 11

counsel

rendered

CR-13-1552
ineffective assistance.'"

Lawhorn v. State, 756 So. 2d 971,

979 (Ala. Crim. App. 1999) (quoting Hallford v. State, 629 So.
2d 6, 9 (Ala. Crim. App. 1992)).

"A court must indulge a

strong presumption that counsel's conduct falls within the
wide

range

of

reasonable

Strickland, 466 U.S. at 689.

professional

assistance."

As the United States Supreme

Court explained:
"Judicial scrutiny of counsel's performance must
be highly deferential. It is all too tempting for
a defendant to second-guess counsel's assistance
after conviction or adverse sentence, and it is all
too easy for a court, examining counsel's defense
after it has proved unsuccessful, to conclude that
a particular act or omission of counsel was
unreasonable.
A fair assessment of attorney
performance requires that every effort be made to
eliminate the distorting effects of hindsight, to
reconstruct
the
circumstances
of
counsel's
challenged conduct, and to evaluate the conduct from
counsel's perspective at the time. Because of the
difficulties inherent in making the evaluation, a
court must indulge a strong presumption that
counsel's conduct falls within the wide range of
reasonable professional assistance; that is, the
defendant must overcome the presumption that, under
the circumstances, the challenged action 'might be
considered sound trial strategy.'
There are
countless ways to provide effective assistance in
any given case.
Even the best criminal defense
attorneys would not defend a particular client in
the same way."
Strickland, 466 U.S. at 689 (citations omitted).

To meet the

second prong of the test, the petitioner "must show that there
10
App. 12

CR-13-1552
is

a

reasonable

probability

that,

but

for

counsel's

unprofessional errors, the result of the proceeding would have
been different."

466 U.S. at 694.

"A reasonable probability

is a probability sufficient to undermine confidence in the
outcome."

Id.

"It is not enough for the defendant to show

that the errors had some conceivable effect on the outcome of
the proceeding."

Id. at 693.

"The likelihood of a different

result must be substantial, not just conceivable." Harrington
v. Ricter, 562 U.S. 86, 112 (2011).
"The petitioner shall have the burden of pleading ... the
facts necessary to entitle the petitioner to relief."

Rule

32.3, Ala. R. Crim. P.
"[t]he petition must contain a clear and specific
statement of the grounds upon which relief is
sought, including full disclosure of the factual
basis of those grounds. A bare allegation that a
constitutional right has been violated and mere
conclusions of law shall not be sufficient to
warrant any further proceedings."
Rule

32.6(b),

Ala.

R.

Crim.

P.

"The

'notice

pleading'

requirements relative to civil cases do not apply to Rule 32
proceedings.

'Unlike the general requirements related to

civil cases, the pleading requirements for postconviction

11
App. 13

CR-13-1552
petitions are more stringent. ...'"

Washington v. State, 95

So. 3d 26, 59 (Ala. Crim. App. 2012).
"'Rule 32.6(b) requires that the petition itself
disclose the facts relied upon in seeking relief.'
Boyd v. State, 746 So. 2d 364, 406 (Ala. Crim. App.
1999). In other words, it is not the pleading of a
conclusion
'which,
if
true,
entitle[s]
the
petitioner to relief.' Lancaster v. State, 638 So.
2d 1370, 1373 (Ala. Crim. App. 1993). It is the
allegation of facts in pleading which, if true,
entitle a petitioner to relief. After facts are
pleaded, which, if true, entitle the petitioner to
relief, the petitioner is then entitled to an
opportunity, as provided in Rule 32.9, Ala. R. Crim.
P., to present evidence proving those alleged
facts."
Boyd v. State, 913 So. 2d 1113, 1125 (Ala. Crim. App. 2003).
"The burden of pleading under Rule 32.3 and Rule
32.6(b) is a heavy one. Conclusions unsupported by
specific facts will not satisfy the requirements of
Rule 32.3 and Rule 32.6(b). The full factual basis
for the claim must be included in the petition
itself. If, assuming every factual allegation in a
Rule 32 petition to be true, a court cannot
determine whether the petitioner is entitled to
relief, the petitioner has not satisfied the burden
of pleading under Rule 32.3 and Rule 32.6(b). See
Bracknell v. State, 883 So. 2d 724 (Ala. Crim. App.
2003). To sufficiently plead an allegation of
ineffective assistance of counsel, a Rule 32
petitioner not only must 'identify the [specific]
acts or omissions of counsel that are alleged not to
have been the result of reasonable professional
judgment,' Strickland v. Washington, 466 U.S. 668,
690, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984), but also
must plead specific facts indicating that he or she
was prejudiced by the acts or omissions, i.e., facts
indicating 'that there is a reasonable probability
12
App. 14

CR-13-1552
that, but for counsel's unprofessional errors, the
result of the proceeding would have been different.'
466 U.S. at 694, 104 S.Ct. 2052. A bare allegation
that prejudice occurred without specific facts
indicating how the petitioner was prejudiced is not
sufficient."
Hyde v. State, 950 So. 2d 344, 356 (Ala. Crim. App. 2006).
"The sufficiency of pleadings in a Rule 32 petition is a
question of law [and] '[t]he standard of review for pure
questions of law in criminal cases is de novo.'"

Ex parte

Beckworth, 190 So. 3d 571, 573 (Ala. 2013) (quoting Ex parte
Lamb, 113 So. 3d 686, 689 (Ala. 2011)).
Analysis
I.
Jones contends that the circuit court erred in summarily
dismissing his claims that his trial counsel were ineffective
during the guilt phase of his capital-murder trial. Jones was
represented at trial, and on direct appeal, by Clark Parker
and Thomas Brantley.
A.
Jones argues that the circuit court erred in dismissing
his claim that his trial counsel were ineffective for relying
on what he characterizes as a "legally invalid defense."
(Jones's brief, p. 14.) Jones alleged in his amended petition
13
App. 15

CR-13-1552
that counsel erroneously relied on the fact that no property
had been taken from Kirkland's house to argue that there was
no evidence of a burglary when evidence of a theft is not an
element of burglary.
In dismissing this claim, the circuit court stated:
"Jones alleges that his trial counsel were
ineffective for arguing that the State did not prove
burglary because nothing was taken from inside the
victim's home, where the victim's car was stolen
from her carport. ... This claim is not facially
meritorious.
"Jones cites no authority for his allegation
that trial counsel is constitutionally deficient for
pursing an argument that ultimately did not work.
Trial counsel's decision to highlight that nothing
within the victim's home was taken was entirely
consistent with the defense's theory that Jones may
have been at the murder scene, but did not murder
the victim.
"For these reasons, Jones would not show
deficient performance or prejudice upon these facts.
... Accordingly, this claim is dismissed."
(C. 1244.)
The record from Jones's direct appeal indicates that
counsel moved for a judgment of acquittal, in part, on the
ground that the State had presented no evidence indicating
that Jones had the intent to commit a theft in Kirkland's
residence, as was charged in the indictment.

During closing

argument, counsel argued that there was no evidence that
14
App. 16

CR-13-1552
anything had been taken from Kirkland's house or that Jones
had even been in Kirkland's house because Jones's fingerprints
were not found in the house.

Nothing in the record suggests

that Jones's counsel did not know the law regarding burglary,
and the arguments made by counsel were consistent with Jones's
statements to police that he did not participate in the events
that resulted in the victim's murder.

Therefore, summary

dismissal of this claim was proper.
B.
Jones argues that the circuit court erred in dismissing
his claim that he was deprived of the effective assistance of
counsel because, he alleged, one of his attorneys, Clark
Parker, had a drinking problem and had been arrested for
driving under the influence of alcohol ("DUI") while he was
representing Jones.

He argues that Parker's drinking problem

infected every stage of the proceedings against Jones and that
his other attorney, Thomas Brantley, was aware of Parker's
drinking

problem

but

failed

to

notify

the

trial

court.

Although Jones makes a general argument that Parker was
ineffective because of alcohol, he cites to no specific
instances

where

Parker's

alleged

performance during Jones's trial.
15
App. 17

drinking

affected

his

In essence, Jones argues

CR-13-1552
that Parker's performance was per se ineffective because he
drank alcohol during Jones's trial.
In dismissing this claim, the circuit court stated:
"The United States District Court for the
Northern District of Illinois examined a similar
issue in United States v. Lloyd, 983 F. Supp. 738,
742 (N.D. Ill. 1997). Lloyd claimed that one of his
two trial attorney, F. Lee Bailey, was drunk during
portions of his trial. The district court held that
a claim alleging ineffective assistance due to a
drunk attorney must allege how counsel's alleged
alcohol impairment actually caused constitutionally
deficient performance and prejudice. Id. at 743.
"While Jones pleads in detail that Parker had an
alcohol problem, Jones does not plead that an act or
omission by Parker was caused by Parker's being
drunk. Accordingly, Jones fails to plead sufficient
facts to support a finding of deficient performance.
Likewise, Jones does not plead with adequate
specificity that he was prejudiced by Parker's
allegedly impaired performance.
"Furthermore, as the district court noted in
Lloyd, 983 F. Supp. at 743, Lloyd had another
attorney who he did not allege was impaired by
alcohol during trial.
Like Lloyd, Jones had a
second attorney. Tom Brantley represented Jones and
actually served as Jones's primary counsel.
This
fact weighed against a finding of a Strickland [v.
Washington, 466 U.S. 668 (1984),] violation in Lloyd
as it does here. Id. This claim is dismissed."
(C. 1205-06.)
In United States v. Lloyd, 983 F. Supp. 738 (N.D. Ill.
1997), the United States District Court considered whether
defense

counsel

was

ineffective
16
App. 18

because,

Lloyd

alleged,

CR-13-1552
counsel was drunk during parts of Lloyd's trial.

The federal

court stated:
"[Lloyd] thus gives us no basis to infer that
[counsel's] conduct at trial left some important
stone unturned or some thematic question unanswered
in the jurors' minds. In short, [Lloyd] has not
demonstrated anything near the deprivation of
'fundamental fairness' which he must show before we
will consider his underlying claims. ...
"....
"... [W]e note that [F. Lee] Bailey was not
[Lloyd's] only attorney. In a case such as this one,
where the ineffective assistance claim requires this
Court
to
distinguish
between
the
'strategic
mistakes' of effective counsel and the 'uninformed
blunders' of ineffective counsel, [United States v.]
Jackson, 930 F. Supp. [1228] at 1233 [N.D. Ill.
1996)], we believe that a petitioner with multiple
attorneys must, as a practical matter, make a
particularly strong showing that counsel's putative
errors were of the latter type. Thus, even if [trial
counsel's] trial prowess arguably fell below the
level which Strickland [v. Washington, 466 U.S. 668
(1984)]
requires, [second counsel's] ability to
monitor and correct any of [trial counsel's]
mistakes makes Mario's case a tougher one to make.
Cf. Stoia v. United States, 109 F.3d 392, 398–99
(7th Cir. 1997) (discussing multiple attorneys and
ineffective assistance in the conflict of interest
context)."
Lloyd, 983 F. Supp. at 743.

See also Commonwealth v. Burton,

491 Pa. 13, 21, 417 A.2d 611, 615 (1980) ("[O]ther than
implying that his counsel's drinking resulted in counsel's
failure to object to the questioning of defense witness Bowen
17
App. 19

CR-13-1552
about his prior arrests and convictions, an allegation of
ineffectiveness we have already disposed of, Burton does not
assert any instance in which counsel's drinking resulted in
ineffective assistance.).
"It is well-settled that alcoholism, mental illness, and
other conditions are not enough to show ineffective assistance
of counsel in the absence of a specific showing of deficient
performance

resulting

from

these

conditions."

Snow

v.

Pfister, 240 F. Supp. 3d 854, 876 (N.D. Ill. 2016).
"We agree with the District Court that the
general allegations of alcohol use do not require a
departure from Strickland’s [v. Washington, 466 U.S.
668 (1984)] two-prong standard –- a point conceded
by [the appellant] in his new-trial memorandum.
Alcohol or drug use by trial counsel can certainly
be relevant to both parts of an ineffectiveness
inquiry, especially if amplified or systemic, or on
close questions of strategy and jury perception.
But on these facts, alleged substance abuse is not,
without more, one of the rare forms of dereliction
amounting to the per se denial of a defendant’s
Sixth Amendment right to the effective assistance of
counsel."
United States v. Washington, 869 F.3d 193, 204 (10th Cir.
2017).

"[U]nder Strickland the fact that an attorney used

drugs is not, in and of itself, relevant to an ineffective
assistance claim.
whatever

reason,

The critical inquiry is whether, for
counsel's

performance
18

App. 20

was

deficient

and

CR-13-1552
whether that deficiency prejudiced the defendant."

Berry v.

King, 765 F.2d 451, 454 (5th Cir. 1985).
"[I]n order for an attorney's alcohol addiction to
make his assistance constitutionally ineffective,
there must be specific instances of deficient
performance attributable to alcohol. See Bonin v.
Calderon, 59 F.3d 815, 838 (9th Cir. 1995);
Caballero v. Keane, 42 F.3d 738, 740 (2d
1994);
Berry v. King, 765 F.2d 451, 454 (5th Cir. 1985);
Young v. Zant, 727 F.2d 1489, 1492–93 (11th Cir.
1984). In this case, there is no evidence of
specific instances of defective performance caused
by [counsel's] alcohol abuse. Furthermore, it is
significant that [the appellant] was not represented
by [counsel] alone –- he had the benefit of two
court-appointed lawyers assisting in his defense.
And no attack is made on the professional capacity
of [the second attorney].
See Lopez–Nieves v.
United States, 917 F.2d 645, 647 (1st Cir. 1990)
('[T]he presence of a second attorney during the
proceedings seriously undermines appellant's claim
of ineffective assistance of counsel.')."
Frye v. Lee, 235 F.3d 897, 907 (4th Cir. 2000).

See also Snow

v. Pfister, 240 F. Supp. 3d 854, 876 (N.D. Ill. 2016), quoting
United States v. Dunfee, 821 F. 3d 120, 128 (1st Cir. 2016)
("Where a 'defendant was represented by multiple attorneys, an
ineffective assistance challenge is particularly difficult to
mount.'").
It is not per se ineffective for a lawyer to have used
alcohol or drugs during the representation of a client and, as
noted above, Jones failed to plead in his amended petition
19
App. 21

CR-13-1552
specific instances where the consumption of alcohol rendered
Parker's performance deficient.

Also, Jones was represented

by a second attorney who Jones does not allege drank alcohol
during the trial.

Because Jones failed to plead any specific

instances where Parker's actions or inactions were deficient
as

a

result

of

his

alleged

drinking,

Jones

failed

to

sufficiently plead his claim. Therefore, summary dismissal of
this claim was proper.
C.
Jones

also

argues

that

the

circuit

court

erred

in

dismissing his claim that his trial counsel had a conflict of
interest because the same district attorney prosecuting Jones
had charged Parker with DUI and Brantley had represented
Parker in the DUI proceedings.
In his amended petition, Jones alleged that Parker had
been arrested for DUI in April 2004, after Jones had been
convicted of capital murder and the jury had recommended a
sentence of death, but before the trial court had sentenced
him; that Brantley represented Parker in the DUI proceedings
and Parker was convicted of DUI in November 2004; and that he
was

never

informed

of

Parker's

20
App. 22

arrest

and

subsequent

CR-13-1552
conviction

even

though

Brantley

and

Parker

continued

represent him on appeal.
In dismissing this claim, the circuit court stated:
"Jones alleges that his trial counsel, Clark
Parker and Tom Brantley, were actually conflicted
because Parker was charged with DUI by Doug Valeska,
who prosecuted Jones for capital murder, and because
Brantley represented Parker in the DUI proceedings.
Assuming the facts pleaded were proved by a
preponderance of the evidence at an evidentiary
hearing, Jones would not establish that his trial
counsel were conflicted. For the reasons stated
below, this claim is not facially meritorious;
therefore, it is dismissed.
"A defendant claiming that his trial counsel had
an actual conflict must show 'that his counsel
actively represented conflicting interests,' or that
his counsel 'made a choice between possible
alternative courses of action, such as eliciting (or
failing to elicit) evidence helpful to one client
but harmful to the other.' M.S. v. State, 822 So.
2d 449, 453 (Ala. Crim. App. 2000).
"Jones alleges that Parker -– and Brantley,
acting as Parker's lawyer -– had an 'incentive and
duty' to protect Parker's interests. Of course, as
Jones's lawyer, Brantley also had an 'incentive and
duty' to protect Jones's interests. The prosecution
of Parker for DUI by the same prosecutor who was
prosecuting Jones does not itself give rise to an
actual conflict. Essentially, Jones makes a bald
allegation that his trial counsel could have made
decisions against Jones's interests to 'curry favor'
with Doug Valeska. However, Jones does not plead
that there was an agreement between his trial
counsel and Valeska for trial counsel to do anything
in exchange for special treatment of Parker in his
DUI case.
Nor does Jones plead with adequate
specificity
that
trial
counsel
actually
did
21
App. 23

to

CR-13-1552
something that was against Jones's interest, or
failed to do something that would have benefitted
Jones, because of the alleged conflict.
"The record shows that Jones's trial counsel
filed appropriate motions on his behalf and
adequately represented him at trial.
For these
reasons, this claim is not facially meritorious and
therefore is dismissed."
(C. 1206-08.)
The record from Jones's direct appeal reflects that Jones
was convicted of capital murder on March 12, 2004; that, on
March 15, 2004, the jury recommended that he be sentenced to
death; and that the sentencing hearing before the trial court
was conducted on June 8, 2004.
arrested for DUI.

On April 11, 2004, Parker was

Parker pleaded not guilty on April 23,

2004, and was convicted of DUI in the district court on
November 23, 2004. Counsel's brief on direct appeal was filed
with

this

Court

in

March

2005,

months

after

Parker's

conviction.
Jones relies on the case of United States v. DeFalco, 644
F.2d 132 (3d Cir. 1979), to support his claim that an actual
conflict of interest existed in this case that automatically
rendered counsel's performance deficient. In DeFalco, counsel
was

appointed

to

represent

DeFalco

on

direct

appeal.

Unbeknownst to DeFalco, counsel had been "indicted three
22
App. 24

CR-13-1552
times," had entered into plea negotiations, and had entered
into a "guilty plea for himself in the same court and with the
tangential involvement of the sentencing judge from which his
client's appeal is prosecuted."
court held:

644 F.2d at 136. The DeFalco

"We are persuaded that, even without proof of an

actual conflict of interest, legitimate decisions of counsel
were rendered suspect because of the potential for conflicting
loyalties to himself and his client."

644 F.2d at 137.

However, DeFalco was released before the United States
Supreme Court released its decision in Cuyler v. Sullivan, 446
U.S. 335 (1980), and is readily distinguishable from the facts
of this case.

In Cuyler, the Supreme Court held that there

must be an actual conflict of interest, not a potential
conflict of interest, in order to render counsel's assistance
ineffective. In applying the standard announced by the United
States Supreme Court in Cuyler, the United States Court of
Appeals for the Sixth Circuit explained:
"The instant case involves a specific type of
ineffectiveness claim, that of conflict of interest,
which is also examined under a slightly different
standard
from
that
used
in
a
traditional
ineffectiveness claim. The Supreme Court set forth
the standard for determining conflict of interest
cases in Cuyler v. Sullivan, 446 U.S. 335, 100 S.Ct.
1708, 64 L.Ed.2d 333 (1980), and summarized it again
in Strickland as follows:
23
App. 25

CR-13-1552
"'In Cuyler ... [we] held that
prejudice is presumed when counsel is
burdened by an actual conflict of interest.
In those circumstances, counsel breaches
the duty of loyalty, perhaps the most basic
of counsel's duties. Moreover, it is
difficult to measure the precise effect on
the defense of representation corrupted by
conflicting interests. Given the obligation
of counsel to avoid conflicts of interest
and the ability of trial courts to make
early inquiry in certain situations likely
to give rise to conflicts ... it is
reasonable for the criminal justice system
to maintain a fairly rigid rule of presumed
prejudice for conflicts of interest. Even
so, the rule is not quite the per se rule
of prejudice that exists for the Sixth
Amendment claims mentioned above [actual or
constructive denial of the assistance of
counsel altogether]. Prejudice is presumed
only if the defendant demonstrates that
counsel 'actively represented conflicting
interests' and that 'an actual conflict of
interest adversely affected his lawyer's
performance.'
"Strickland, 466 U.S. at 692, 104 S.Ct. at 2067
(emphasis added) (quoting Cuyler, 446 U.S. at
345–50, 100 S.Ct. at 1716–19). This Circuit has
interpreted the Cuyler test as directing courts 'to
determine, on the facts of each case, whether there
is an actual conflict of interest and whether that
conflict has caused ineffective performance in
violation
of
the
provisions
of
the
Sixth
Amendment....'
Smith v. Bordenkircher, 671 F.2d
986, 987 (6th Cir.), cert. denied, 459 U.S. 848, 103
S.Ct. 107, 74 L.Ed.2d 96 (1982)."
Thomas v. Foltz, 818 F.2d 476, 480 (6th Cir. 1987).

24
App. 26

CR-13-1552
In a scenario similar to the one in this case, the United
States Court of Appeals for the Seventh Circuit stated:
"[The appellant] claims that he did not get a
fair trial. ... The first is that his lawyer had a
conflict of interest.
He was under investigation
for bribing police officers to reduce charges
against his clients. The prosecutor's office –- the
same office that prosecuted [the appellant] –- had
given
the
lawyer
immunity
in
exchange
for
cooperation and had promised, if the lawyer
fulfilled his part of the bargain, to help him
retain his license to practice law. A situation of
this sort (the criminal defendant's lawyer himself
under criminal investigation), which unfortunately
is all too common, see, e.g., United States v.
Balzano, 916 F.2d 1273, 1292–93 (7th Cir. 1990);
United States v. Levine, 794 F.2d 1203 (7th Cir.
1986), can create a conflict of interest. It may
induce the lawyer to pull his punches in defending
his client lest the prosecutor's office be angered
by an acquittal and retaliate against the lawyer.
Such retaliation would be unethical; but still the
defense lawyer may fear it, at least to the extent
of tempering the zeal of his defense of his client
somewhat. Yet presumably the fear would have to be
shown before a conflict of interest could be thought
to exist. But let us pass that point by and assume
that the situation in this case as we have outlined
it created a conflict of interest. The existence of
a conflict does not automatically entitle the
defendant to habeas corpus on the ground that he was
deprived of his constitutional right to the
effective assistance of counsel. Unless the conflict
was brought to the trial judge's attention, the
defendant must point to specific instances in which
the lawyer would have done something different in
his conduct of the trial had there been no conflict
of interest. Cuyler v. Sullivan, 446 U.S. 335, 348,
100 S.Ct. 1708, 1718, 64 L.Ed.2d 333 (1980); United
States v. Cirrincione, 780 F.2d 620, 630–31 (7th
Cir. 1985)."
25
App. 27

CR-13-1552
Thompkins v. Cohen, 965 F.2d 330, 332 (7th Cir. 1992).

See

also United States v. Cirrincione, 780 F.2d 620, 629 (7th Cir.
1985) ("An actual conflict of interest that adversely affected
the defendants' lawyers' performance must be evidenced by
specific instances in the record.").
The Colorado Supreme Court has also stated:
"[W]e conclude that no actual conflict of interest
was created by the pendency of these charges.
Prosecution for failure to obey a traffic signal and
failure to present proof of insurance does not put
counsel in fear of his or her own zealous advocacy
or in a position 'inherently conducive to and
productive of divided loyalties.' See People v.
Castro, supra, 657 P.2d [932] at 945 [(Colo. 1983)];
cf. United States v. DeFalco, supra, 644 F.2d [132]
at 136 [(3d Cir. 1979)] (federal mail fraud charges
create
'inherent
emotional
and
psychological
barriers'
to
counsel's
ability
to
compete
'vigorously with the government').
"Nor does defendant show any adverse effect on
counsel's representation. Defendant does not point
to any instance where counsel's actions might have
been hindered by concern for his own traffic
violation charges. See Cuyler v. Sullivan, [446 U.S.
335 (1980)]; United States v. Baker, 256 F.3d 855
(9th Cir. 2001) (bare allegation of conflict based
on attorney's cooperation and plea on unrelated
charges insufficient basis on which to predicate
actual conflict); United States v. Balzano, 916 F.2d
1273 (7th Cir. 1990) (no conflict where defendant
did not show actual effect on trial); Sanchez v.
State, 296 Ark. 295, 756 S.W.2d 452 (1988) (same);
cf. United States v. McLain, [823 F.2d 1457 (11th
Cir. 1987)] (actual conflict where defense counsel
had personal interest in extending duration of
defendant's trial)."
26
App. 28

CR-13-1552
People v. Mata, 56 P.3d 1169, 1173 (Colo. 2002).
Here, Jones did not plead in his amended petition any
specific instances where counsel's representation was affected
by Parker's arrest and prosecution for DUI.

In fact, Jones

had been convicted and a sentencing recommendation had been
made by the jury before Parker was arrested for DUI. Parker's
case was pending in the district court, before a different
judge, and not the same judge presiding over Jones's capitalmurder case.

Also, counsel filed the appellate brief in this

Court months after Parker had been convicted of DUI; thus,
counsel's actions on appeal could not have possibly been
affected by his "pending" DUI charges.
Therefore, summary dismissal of this claim was proper.
D.
Jones

also

argues

that

the

circuit

court

erred

in

dismissing his claim that his trial counsel were ineffective
for not obtaining a blood-spatter expert to challenge the
testimony given by State's witness Katherine McGeehan.
In his amended petition, Jones alleged that his counsel
should have retained blood-spatter expert Gene N. Gietzen, who
he said was available in 2004, to refute "McGeehan's testimony
that 'high velocity' bloodstains can result from 'a pool of
27
App. 29

CR-13-1552
blood being hit very hard' causing 'the blood to fly in the
air and the higher the velocity the smaller the stain.'" (C.
510.)

According to Jones, Gietzen would have testified that

high-velocity bloodstains are "most frequently" seen with
gunshot wounds; that blunt-force trauma -- the cause of
Kirkland's

death

--

generally

produces

medium-velocity

bloodstains; that he saw no high-velocity bloodstains in the
photographs of the crime scene; and that there would likely be
a significant amount of larger medium-velocity bloodstains on
an

assailant

inflicting

blunt-force

trauma,

"'pinpoint' bloodstain" found on Jones's clothing.

not

the

(C. 511-

12.)
Although Jones identified in his petition the name of the
expert

he

believed

counsel

should

have

retained

and

specifically identified the testimony he believed the expert
would have provided, he failed to allege sufficiently specific
facts to overcome the presumption that counsel's not retaining
a blood-spatter expert was sound trial strategy, and he made
only bare allegations of prejudice, i.e., that McGeehan's
testimony was of "extreme importance" to the State's case and
that a blood-spatter expert was "essential to undermining the
State's case" because "the only physical evidence in this case
28
App. 30

CR-13-1552
suggesting that [he] was ever in direct contact with the
victim was the State's DNA analysis of a 'pinpoint' bloodstain
allegedly obtained from [his] clothing." (C. 512.)
As Jones conceded in his petition, however, it was the
evidence indicating that the DNA of the bloodstains on Jones's
clothing belonged to Kirkland, not McGeehan's testimony about
blood-spatter, that linked Jones to the murder.3
Jones's

claim

assumption

appears

that

to

McGeehan

be

premised

testified

on

that

the
the

In fact,
incorrect
"pinpoint"

bloodstains on his clothing were, in fact, high-velocity
bloodstains.

She did not.

After McGeehan testified that

there were several small "pinpoint" bloodstains on Jones's
clothing, the following occurred:
"[Prosecutor]:
Do you have an opinion, once
again, if you can tell me, how you use the
terminology pinpoint stains, how they could be
transferred from one human being on clothing like
that in your opinion if you have one?
And the
design that you saw you use pinpoint. What could
cause that?
"[McGeehan]:
That can be caused by blood
floating in the air at a high velocity or -- there's
a couple of ways that it can be caused, but blood
3

McGeehan tested various pieces of evidence to determine
the presence of blood, but another forensic scientist, Phyllis
Rollan, conducted the DNA testing.
We note that Jones's
counsel did request funds to hire a serologist or DNA expert.
29
App. 31

CR-13-1552
being -- a pool of blood being hit very hard can
cause blood to fly in the air and the higher the
velocity the smaller the stain.
"[Prosecutor]: Is it consistent there's a large
amount of blood, in other words, all over my
clothes, on me particularly hypothetically because
I'm showing you here on my pants and I bump up
against those white pants hypothetically, would I
get pinpoint touching like that?
"[McGeehan]: No. That type of staining would be
considered transferred stains, and it would be -depending on the amount of blood on the item you
touched and how long that touch or that contact is
made would depend on how much blood would transfer
from the bloody item to the other item, and that
would be more of a smear or a soaking stain. It
would not be small pinpoint stains."
(Trial

R.

638-39.)

On

cross-examination,

the

following

occurred:
"[McGeehan]: In this case the majority of the
stains were small pinpoint stains.
"[Jones's counsel]: And [the prosecutor] asked
you earlier about how the method or the way that
those stains got there that would have been flying
through the air I believe you described it as.
"[McGeehan]: I described that as possible, yes.
"[Jones's counsel]: Do you -- and I believe you
said also that the -- that it would be traveling at
a high rate of speed? Do I recall that correctly?
"[McGeehan]:
Small pinpoint stains can come
from high velocity.
"[Jones's counsel]: Now, you don't have any way
to know exactly how those stains got there, do you?
30
App. 32

CR-13-1552
"[McGeehan]:

No, I do not.

"[Jones's counsel]:
And is it possible that
these stains could have gotten on some of this
clothing from a person stepping into a pool of blood
and making a splash? Is that not possible? Just as
if someone -"[McGeehan]: I step -- it would not -- those
stains would probably not be there was a step.
Possibly a running or a stomp.
"[Jones's counsel]: Yes.
"[McGeehan]: But not a casual step.
"[Jones's
counsel]:
And
I
should
have
characterized that. A stomp or a forceful motion
with a foot down, a stomp is a good way to describe
it, can splatter that and send it airborne, is that
correct?
"[McGeehan]: Yes.
"[Jones's counsel]: That's possible. And also
it can be slung off of an object that the blood is
on, could it not? Just like if you take a paint
brush and sling a paint brush, is that possible?
"[McGeehan]: Yes. Small stains can come from
another object moving at a high velocity being slung
off in various methods, yes."
(Trial R. 688-89.)
As the above-quoted portion of the record reflects,
McGeehan testified that there were a number of ways to create
"pinpoint" bloodstains like those found on Jones's clothing
and that blood floating in the air at a high velocity was one
31
App. 33

CR-13-1552
way.

However, she never testified that the "pinpoint" stains

found

on

Jones's

bloodstains.

clothing

were,

in

fact,

high-velocity

She also did not testify that there were high-

velocity bloodstains found at the crime scene or that the
infliction of blunt-force trauma would result in high-velocity
bloodstains

and

not

assailant's clothing.

medium-velocity

bloodstains

on

the

Gietzen's testimony, as pleaded in

Jones's amended petition, would not have refuted McGeehan's
testimony.

Moreover, McGeehan's testimony, both on direct

examination and cross-examination, was consistent with Jones's
statement to police that he was present at the time of the
murder but did not participate in it.
"The decision of how to deal with the presentation
of an expert witness by the opposing side, including
whether to present counter expert testimony, to rely
upon cross-examination, to forgo cross-examination
and/or to forgo development of certain expert
opinion, is a matter of trial strategy which, if
reasonable, cannot be the basis for a successful
ineffective assistance of counsel claim."
Thomas v. State, 284 Ga. 647, 650, 670 S.E.2d 421, 425 (2008).
Under these circumstances, we cannot say that Jones
pleaded sufficient facts to overcome the presumption that
counsel's not retaining a blood-spatter expert was sound trial
strategy or to establish that he was prejudiced by counsel's
32
App. 34

CR-13-1552
performance.

Therefore, summary dismissal of this claim was

proper.
E.
Jones argues that the circuit court erred in dismissing
his claim that his trial counsel were ineffective for not
challenging the admissibility of DNA evidence.
In dismissing this claim, the circuit court stated:
"Jones argues that trial counsel were deficient
in failing to demand a ... hearing to challenge the
admissibility of the DNA evidence, but a hearing is
unnecessary when there are no legitimate challenges
to the DNA evidence. The record shows that a proper
predicate was laid for the introduction of DNA
evidence. None of the arguments Jones raised would
have resulted in the exclusion of DNA evidence in
this case.
"Jones also argues that the State did not meet
admissibility requirements for DNA evidence because
it did not introduce any evidence of the rate of
error for its technique, but, as Jones admits in his
amended petition, the Alabama Court of Criminal
Appeals has held that 'the absence of testimony
regarding the factor [error rate] will not, alone,
render DNA evidence inadmissible.' Lewis v. State,
889 So. 2d 623, 672 (Ala. Crim. App. 2003).
"Jones also argues that trial counsel should
have challenged the chain of custody of the DNA
evidence, but Jones's trial counsel would have been
unsuccessful if they had challenged the chain of
custody.
As an initial matter, Jones does not
contend that the alleged missing link in the chain
–- Holli Spiers -– would not have been able to
provide direct testimony had a challenge to the
chain of custody been made.
33
App. 35

CR-13-1552
"The State's reliance on circumstantial evidence
of the chain of custody was adequate.
See e.g.,
Smith v. State, 677 So. 2d 1240, 1245 (Ala. Crim.
App. 1995) ('If the State, or any other proponent of
demonstrative evidence, fails to identify a link ...
the result is a 'missing' link, and the item is
inadmissible. If, however, the State has shown each
link, but has done so with circumstantial evidence,
as opposed to the direct testimony of the 'link,'
as to one or more criteria or as to one or more
links, the result is a 'weak' link. When the link
is 'weak,' a question of credibility and weight is
presented, not one of admissibility.').
'In the
absence of any evidence to the contrary, the trial
judge was entitled to assume that this official
would not tamper with the sack and can or their
contents. Where no evidence indicating otherwise is
produced, the presumption of regularity supports the
official acts of public officers, and courts presume
that they have properly discharged their official
duties.' Thomas v. State, 824 So. 2d 1, 45-46 (Ala.
Crim. App. 1999) (overruled on other grounds by Ex
parte Carter, 889 So. 2d 528 (Ala. 2004)). Under
these precedents, DNA evidence was properly admitted
in this case.
"Jones further argues that effective trial
counsel would have challenged admissibility under
the Confrontation Clause and the hearsay rules.
Specifically, Jones argues that the Confrontation
Clause was violated because [Hollie] Spiers -— the
laboratory technician who cut a patch containing a
blood sample from Jones's sweatpants that was
subjected to DNA testing -– did not testify.
However, neither the Confrontation Clause nor the
hearsay rules are implicated where there is no
testimonial evidence at issue.
See Davis v.
Washington, 547 U.S. 813, 824 (2006) (stating that
Confrontation Clause jurisprudence is 'applied only
in the testimonial context.'). Here, Spiers did not
prepare a report. The State's DNA expert, Phyllis
Rollan, testified at trial and was subject to cross34
App. 36

CR-13-1552
examination. Hence, an objection on these grounds
would have been overruled.
"....
"For these reasons, Jones fails to plead a
facially meritorious claim; accordingly, this claim
is dismissed."
(C. 1225-29.)
We agree with the circuit court.
direct

appeal

reflects

that

The record from Jones's

Phyllis

Rollan

testified

extensively about her qualifications and the DNA testing
procedures employed by the Alabama Department of Forensic
Sciences, as well as the controls used to ensure the accuracy
of DNA tests.

Her testimony was sufficient to satisfy the

requirements for the admissibility of DNA evidence. See § 3618-30, Ala. Code 1975.

In addition, the lack of testimony

from Hollie Spiers -- the laboratory technician who cut the
samples from Jones's clothing -- did not result in a missing
link in the chain of custody nor did it violate Jones's right
to confrontation.

"Counsel cannot be said to be ineffective

for not filing a motion for which there is no legal basis."
Boyd v. State, 746 So. 2d 364, 397 (Ala. Crim. App. 1999).
Moreover, because the DNA evidence was properly admitted, we

35
App. 37

CR-13-1552
cannot

say

that

trial

counsel

were

ineffective

for

not

requesting a pretrial hearing on the matter.
Therefore, summary dismissal of this claim was proper.
F.
Jones

also

argues

that

the

circuit

court

erred

in

dismissing his claim that his trial counsel were ineffective
for not objecting to numerous instances of what he alleged was
prosecutorial misconduct.
"'[E]ffectiveness of counsel does not lend itself to
measurement by picking through the transcript and
counting the places where objections might be made.
Effectiveness of counsel is not measured by whether
counsel objected to every question and moved to
strike every answer.' Brooks v. State, 456 So. 2d
1142, 1145 (Ala. Crim. App. 1984). '"[D]ecisions of
when and how to raise objections are generally
matters of trial strategy."' Daniels v. State, 296
Ga. App. 795, 800, 676 S.E.2d 13, 19 (2009) (quoting
Holmes v. State, 271 Ga. App. 122, 124, 608 S.E.2d
726, 729 (2004))."
Washington v. State, 95 So. 3d 26, 66 (Ala. Crim. App. 2012).
"'Isolated failures to object are typically not sufficient
grounds

for

a

finding

of

ineffective

assistance.'"

Id.

(quoting Nadal v. State, 348 S.W.3d 304, 321 (Tex. App.
2011)).

Moreover, this Court has stated:

"'[I]nterruptions of arguments, either by
opposing counsel or the presiding judge, are matters
to be approached cautiously.' United States v.
Young, 470 U.S. 1, 13, 105 S.Ct. 1038, 84 L.Ed.2d 1
36
App. 38

CR-13-1552
(1985). 'A decision not to object to a closing
argument is a matter of trial strategy.' Drew v.
Collins, 964 F.2d 411, 423 (5th Cir. 1992). To
constitute error a prosecutor's argument must have
'so infected the trial with unfairness as to make
the resulting [verdict] a denial of due process.'
Darden v. Wainwright, 477 U.S. 168, 181, 106 S.Ct.
2464, 91 L.Ed.2d 144 (1986)."
Benjamin v. State, 156 So. 3d 424, 454 (Ala. Crim. App. 2013).
1.
First, Jones contends that his trial counsel should have
objected to what he says was the improper admission of victimimpact

evidence.

He

asserts

that

this

evidence

was

prejudicial and totally irrelevant to his guilt and resulted
in reversible error.
Although some of the evidence cited by Jones in his
amended petition could arguably be considered victim-impact
evidence, its admission was, at most, harmless.
"It is presumed that jurors do not leave their
common sense at the courthouse door. It would
elevate form over substance for us to hold, based on
the record before us, that [Jones] did not receive
a fair trial simply because the jurors were told
what they probably had already suspected –- that
[the victim] was not a 'human island,' but a unique
individual whose murder had inevitably had a
profound impact on [his] children, spouse, parents,
friends, or dependents (paraphrasing a portion of
Justice Souter's opinion concurring in the judgment
in Payne v. Tennessee, 501 U.S. 808, 838, 111 S.Ct.
2597, 115 L.Ed.2d 720 (1991))."
37
App. 39

CR-13-1552
Ex parte Rieber, 663 So. 2d 999, 1006 (Ala. 1995).

"[W]hen,

after considering the record as a whole, the reviewing court
is

convinced

that

the

jury's

verdict

was

based

on

the

overwhelming evidence of guilt and was not based on any
prejudice that might have been engendered by the improper
victim-impact testimony, the admission of such testimony is
harmless error."
1993).

Ex parte Crymes, 630 So. 2d 125, 126 (Ala.

"'Harmless error does not rise to the level of the

prejudice required to satisfy the Strickland test.'" State v.
Kerley, 260 So. 3d 891, 902 (Ala. Crim. App. 2017) (quoting
Gaddy v. State, 952 So. 2d 1149, 1160 (Ala. Crim. App. 2006)).
Therefore, summary dismissal of this claim was proper.
2.
Jones also contends that his trial counsel should have
objected to the admission of what he describes as "aggravating
factors" and the prosecutor's comments on that evidence.
(Jones's brief, p. 59.) Specifically, he argues that evidence
was presented about, and the prosecutor frequently referred
to, the severity of the beating Kirkland suffered before her
death.
In dismissing this claim, the circuit court stated:

38
App. 40

CR-13-1552
"Jones ... alleges that his trial counsel were
ineffective for not objecting to evidence of the
brutality of the murder offered during the guilt
phase. He argues that the evidence was not relevant
in the guilt phase because it was relevant in the
penalty phase to prove the Alabama Code [1975,] §
13A-5-49(8), aggravating circumstances that the
crime was 'especially heinous, atrocious, or cruel.'
This claim is not facially meritorious.
"A prosecutor is allowed to make reasonable
inferences
from facts in evidence. ... The
complained-of evidence was mere res gestae evidence.
Accordingly, Jones would not be able to establish
deficient performance and prejudice on these facts
at an evidentiary hearing. Therefore, this claim is
dismissed."
(C. 1243.)

We agree.

"The pain and suffering of the victim is a circumstance
surrounding the murder -- a circumstance that is relevant and
admissible during the guilt phase of a capital trial." McCray
v. State, 88 So. 3d 1, 38 (Ala. Crim. App. 2010).

And the

prosecutor's comments were proper comments on the evidence.
"Whatever

is

in

evidence
he

may

is

argue

subject
every

to

comment

legitimate

by

the

prosecutor,

and

inference

therefrom."

Lewis v. State, 24 So. 3d 480, 503 (Ala. Crim.

App. 2006), aff'd, 24 So. 3d 540 (Ala. 2009). "Counsel cannot
be ineffective for failing to raise an issue that has no
merit."

Bush v. State, 92 So. 3d 121, 140 (Ala. Crim. App.

2009).
39
App. 41

CR-13-1552
Therefore, summary dismissal of this claim was proper.
3.
Jones

contends

that

his

trial

counsel

should

have

objected when, he says, the prosecutor improperly vouched for
Jones's guilt during voir dire, opening statement, and closing
argument.
In dismissing this claim, the circuit court stated:
"Jones alleges that trial counsel should have
objected to alleged improper vouching by the
prosecutor.
He takes certain remarks by the
prosecutor out of context in an effort to show that
the prosecutor vouched for Jones's guilt, but the
record shows that the prosecutor did not actually
vouch for Jones's guilt. Whether to object here was
a matter of trial strategy. See Ray [v. State], 80
So. 3d [965] at 995 [(Ala. Crim. App. 2011)].
Counsel's decision not to object was not objectively
unreasonable, and the facts pleaded would not
establish prejudice.
"As for the remaining allegations in this claim,
the prosecutor's actions at most amounted to
harmless error. Again, counsel was not objectively
unreasonable for not objecting, and even if the
facts pleaded here are true, Jones would not
establish prejudice at an evidentiary hearing."
(C. 1223-24.)

We agree.

We have reviewed the complained-of comments and conclude
that they did not so infect the trial with such unfairness as
to deny Jones due process. See Darden v. Wainwright, 477 U.S.
168 (1986). We agree with the circuit court that the comments
40
App. 42

CR-13-1552
were,

at

most,

harmless.

In

addition,

the

jurors

instructed that arguments of counsel are not evidence.

were
As

noted previously, "'[h]armless error does not rise to the
level of the prejudice required to satisfy the Strickland
test.'"

State v. Kerley, 260 So. 3d 891, 902 (Ala. Crim. App.

2017) (quoting Gaddy v. State, 952 So. 2d 1149, 1160 (Ala.
Crim. App. 2006)).
Therefore, summary dismissal of this claim was proper.
G.
Jones argues that the circuit court erred in dismissing
his claim that his trial counsel were ineffective for not
timely making an objection pursuant to Batson v. Kentucky, 476
U.S. 79 (1986), but, instead, waiting until after the jury had
been sworn and the venire had been excused before making the
objection.
However, the record from Jones's direct appeal reflects
that trial counsel timely made a Batson objection after the
jury was struck but before it was sworn.

Although the trial

court declined to hear the objection at that time and did not
conduct a hearing until after the jury had been sworn and the
venire dismissed, counsel's objection was nonetheless timely.
Moreover, in dismissing this claim, the circuit court found
41
App. 43

CR-13-1552
that Jones's Batson objection had been properly overruled and
that, therefore, Jones was not prejudiced even if counsel's
objection had been untimely.

We agree.

The record from Jones's direct appeal reflects that there
were 69 prospective jurors on the venire; that the State
struck 25 prospective jurors, 6 of whom were black; and that
2 black jurors sat on the petit jury.4

Jones made a Batson

objection immediately after the jury was struck, and the trial
court conducted a hearing after the jury had been sworn and
the venire released.

At the hearing, the prosecutor provided

his reasons for striking the six black prospective jurors:
Prospective Juror C.M. was struck because she failed to
disclose during voir dire that she had been convicted of
driving without a driver's license and that she had a brother
who worked as a security guard at the Houston County jail;
Prospective Juror B.L.M., was struck because he had been
convicted
because

of

she

assault;
stated

Prospective

during

voir

Juror

dire

P.S.

that

was

she

struck

had

been

represented by defense counsel and "he had got her off" (Trial

4

For purposes of this Batson analysis, alternate jurors
are included.
See Ashley v. State, 651 So. 2d 1096, 1099
(Ala. Crim. App. 1994).
42
App. 44

CR-13-1552
R. 232); Prospective Juror S.L. was struck because she had
been convicted of harassing communications; Prospective Juror
C.P. was struck because he knew one of the defense attorneys
and

had

a

relative

who

had

mental-health

problems;

and

Prospective Juror C.W. was struck because he stated during
voir dire that his house had been burglarized and that no one
had been arrested for the crime, and he laughed loudly during
this questioning and did not appear to take the proceedings
seriously. With respect to C.W., one of the other prosecutors
also stated that C.W. had laughed very loudly during the
questioning about him being the victim of a crime, but Jones's
counsel indicated that they did not witness any laughing. The
trial court denied counsel's Batson objection.
All of the prosecutor's reasons for striking the black
prospective jurors were race-neutral.

See, e.g., Snyder v.

Louisiana, 552 U.S. 472, 477 (2008) ("[R]ace-neutral reasons
for peremptory challenges often invoke a juror's demeanor
(e.g., nervousness, inattention), making the trial court's
first-hand observations of even greater importance.");

Ex

parte Brown, 686 So. 2d 409 (Ala. 1996) (holding that the fact
that a prospective juror has a criminal history or has a
relative who has a criminal history is a race-neutral reason
43
App. 45

CR-13-1552
for a peremptory strike); Graham v. State, [Ms. CR-15-0201,
July 12, 2019] ___ So. 3d ___, ___ (Ala. Crim. App. 2019)
(holding that the fact that a prospective juror has been the
victim of a crime or has a relative who has been the victim of
a crime is a race-neutral reason for a peremptory strike); and
Whatley v. State, 146 So. 3d 437, 456 (Ala. Crim. App. 2010)
("A juror's knowing defense counsel is a valid race-neutral
reason for striking a juror.").

In addition, the record from

Jones's direct appeal does not indicate that the struck jurors
shared only the characteristic of race.

There was nothing in

the type or manner of the prosecutor's statements or questions
during voir dire indicating an intent to discriminate against
black prospective jurors, and there was no lack of meaningful
voir dire directed at black prospective jurors.
black

and

white

differently.
ruling

on

prospective

jurors

were

Moreover,

not

treated

"It is well settled that '[a] trial court's
a

Batson

motion

depends

on

its

credibility

determinations.' ... In other words, this Court 'will give a
trial court's ruling great deference. ...'"

Wilson v. State,

142 So. 3d 732, 757 (Ala. Crim. App. 2010).

Because the trial

court properly denied Jones's Batson objection, even had
counsel's objection been untimely Jones was not prejudiced.
44
App. 46

CR-13-1552
Therefore, summary dismissal of this claim was proper.
H.
Jones argues that the circuit court erred in dismissing
his claim that his trial counsel were ineffective for not
challenging for cause two prospective jurors who, he claimed,
were biased against him.

Specifically, Jones argues that

trial counsel should have challenged Prospective Juror S.W. on
the ground that S.W. had a sister who had been murdered
approximately 10 years before Jones's trial and stated during
voir dire that this would affect his ability to be impartial.
He also argues that trial counsel should have challenged for
cause Prospective Juror H.P. on the ground that H.P. knew
Officer Donovan Kilpatrick, a State's witness, and that he
would be inclined to trust his testimony.
The

record

from

Jones's

direct

appeal

reflects

following exchange with S.W. during voir dire:
"[S.W.]: My sister was murdered.
"[Jones's counsel]: How long ago was that?
"[S.W.]: About nine or ten years ago.
"[Jones's counsel]: Do you think that fact would
affect you as sitting in this case as a juror?
"[S.W.]: (Nodded.)"
45
App. 47

the

CR-13-1552
(Trial R. 160.) However, the record does not indicate whether
this "nod" was an affirmative or a negative response to
counsel's question, and S.W. stated nothing else about this
during voir dire.

The record does show that prospective

jurors were asked if anyone had any bias that would prevent
them from being impartial in the case and that S.W. did not
indicate that he had any such bias.

"To justify a challenge

for cause, there must be a proper statutory ground or '"some
matter which imports absolute bias or favor, and leaves
nothing to the discretion of the trial court."'"

Ex parte

Davis, 718 So. 2d 1166, 1171 (Ala. 1998) (quoting Clark v.
State, 621 So. 2d 309, 321 (Ala. Crim. App. 1992), quoting in
turn, Nettles v. State, 435 So. 2d 146, 149 (Ala. Crim. App.),
aff'd, 435 So.2d 151 (Ala. 1983)).

S.W.'s answers did not

warrant his removal for cause.
H.P. stated during voir dire that he worked with and was
friends with Off. Kilpatrick.

The following then occurred:

"[Jones's counsel]: You would place a lot of
weight in what he said on the stand, wouldn't you?
"[H.P.]:

Probably so, yes.

"[Jones's counsel]: Do you think you could sit
on this case and be unbiased and -- especially when
listening to Mr. Kilpatrick's testimony, the fact
that you're his friend and work with him on a daily
46
App. 48

CR-13-1552
basis, it would be hard for you to do that, wouldn't
it? It would be hard for you to be objective?
"[H.P.]:
(Trial R. 183.)

Probably so, yes."

"It is only where the potential juror would

'"unquestioningly credit the testimony of law enforcement
officers over that of defense witnesses,"' that would render
a prospective juror incompetent to serve." Duke v. State, 889
So. 2d 1, 23 (Ala. Crim. App. 2002), vacated on other grounds
by Duke v. Alabama, 544 U.S. 901 (2005).

H.P. did not

indicate

credit

that

he

would

unquestioningly

Off.

Kilpatrick's testimony over that of a witness for the defense
or that he was biased.
"probably"

place

a

Rather, he stated only that he would

lot

of

weight

on

Off.

Kilpatrick's

testimony and that it would "probably" be difficult for him to
be objective.

H.P.'s answers did not warrant his removal for

cause.
"[C]ounsel could not be ineffective for failing to raise
a baseless objection."

Bearden v. State, 825 So. 2d 868, 872

(Ala. Crim. App. 2001).

Because there was no basis to

challenge for cause S.W. or H.P., summary dismissal of this
claim was proper.

47
App. 49

CR-13-1552
I.
Jones

also

argues

that

the

circuit

court

erred

in

dismissing his claim that his trial counsel were ineffective
for making what he claims were insensitive statements during
voir dire.

Specifically, he argues that counsel stated that

they

afraid

were

of

Jones

and

that

those

"statements

legitimized the insidious notion that it was permissible for
the jurors to convict Jones based on their personal fears,
without the requirement of due process."

(Jones's brief, p.

75.)
In dismissing this claim, the circuit court stated:
"Jones argues that his trial counsel were
ineffective because they made the following comments
during voir dire:
"'We all hate to pick up the paper or
hear on the news, that someone in the
community has been murdered, much less an
elderly lady. I'm one of those people. I
despise reading that. It makes me sick at
my stomach and scares me. I'm wondering,
you know, am I going to be next. I'm not
far. Probably already am a senior citizen.
... We fear that we one day might be a
victim or our children might be a victim.
How many of you ... would convict [Jones]
of capital murder ... simply out of fear
that he may have committed this or ...
simply out of fear that you suspect he may
have but not convinced beyond a reasonable
doubt? There's people that would do that.
I might be one of them.'
48
App. 50

CR-13-1552
"(R. 147-49).
"This claim is meritless on its face.
The
record demonstrates that trial counsel's comments
were designed to ferret out potential jurors who may
vote to convict Jones based on fear and not the
evidence in the case or the appropriate beyond-areasonable-doubt standard. Jones's allegation, if
true, would not establish deficient performance or
prejudice at an evidentiary hearing.
Therefore,
this claim is dismissed."
(C. 1218-19.)

We agree.

"'Generally, "[a]n attorney's actions
during voir dire are considered to be
matters of trial strategy," which "cannot
be the basis" of an ineffective assistance
claim "unless counsel's decision is ... so
ill chosen that it permeates the entire
trial with obvious unfairness."'
"Neill v. Gibson, 263 F.3d 1184, 1193 (10th Cir.
2001) (quoting Nguyen v. Reynolds, 131 F.3d 1340,
1349 (10th Cir. 1997)). 'Counsel, like the trial
court, is granted "particular deference" when
conducting voir dire.' Keith v. Mitchell, 455 F.3d
662, 676 (6th Cir. 2006)."
Washington v. State, 95 So. 3d at 64.
Therefore, summary dismissal of this claim was proper.
J.
Jones argues that the circuit court erred in summarily
dismissing his claim that his trial counsel were ineffective
for "botching the pretrial publicity issue."
p. 75.)

(Jones's brief,

Specifically, Jones argues that his trial counsel
49
App. 51

CR-13-1552
were ineffective for not asking prospective jurors about their
exposure to media coverage of the crime and that, therefore,
counsel could not effectively conduct voir dire.
In dismissing this claim, the circuit court stated:
"Jones does not specifically plead what
effective trial counsel would have asked prospective
jurors about their exposure to media coverage or
what the jurors's response would have been. ...
Furthermore, the media coverage Jones describes, if
proved, would not establish that it was impossible
for Jones to receive a 'fair and impartial' trial in
Houston County.
"For these reasons, the facts pleaded in Jones's
amended Rule 32 petition would not establish
deficient
performance
and
prejudice
at
an
evidentiary hearing.
Accordingly, this claim is
meritless on its face and is dismissed."
(R. 1215.)

We agree with the circuit court.

Jones failed to

allege in his petition what questions he believed counsel
should have asked prospective jurors, and, other than a bare
allegation that "the majority of the jurors almost certainly
had been exposed to publicity surrounding the case," he failed
to identify in his petition a single prospective juror who had
been exposed to media coverage of the crime.

(C. 459.)

He

also made only a bare allegation that counsel's failure to
adequately

question

prospective

jurors

"den[ied]

him

the

ability to discover actual prejudice due to media saturation"
50
App. 52

CR-13-1552
without alleging any specific facts indicating that, but for
counsel's performance, there is a reasonable probability that
the outcome of his trial would have been different.
Moreover, the record from Jones's direct appeal reflects
that the trial court questioned prospective jurors about their
exposure to media coverage:
"THE COURT: Have you read, heard, or seen
anything about the facts in this case that would
bias your mind and prejudice your verdict and
prevent you from giving a fair and impartial trial
both to the State of Alabama and to [Jones], if you
were selected as a juror to try this case?
"(Hands raised.)
"....
"[Prospective Juror T.L.]: I have some relatives
that actually live on the street that this lady
lived on.
"THE COURT: You have some relatives that live on
Stadium Street.
Do you know anything about the
facts in this case or heard or read or seen
anything?
"[Prospective Juror T.L.]: I just heard there
was a lady on the street that got killed.
"THE COURT: That's all you know. And would that
have any effect on the way you look at the case?
"[Prospective Juror T.L.]: No, sir.
"THE COURT: Would it prejudice you in any way
either for the State or for [Jones]?
51
App. 53

CR-13-1552
"[Prospective Juror T.L.]:

No, sir.

"....
"[Prospective Juror C.S.]: I knew Ms. Kirkland
personally and professionally.
"THE COURT: If you would, would you approach the
bench, please, ma'am?
"(At which time the following proceedings
were held at the bench outside of the
hearing of the jury venire.)
"[Prospective Juror C.S.]:
SouthTrust. I knew her from there.
basically all my life.

I worked at
I've known her

"....
"THE COURT: I'm going to excuse [C.S.] as far as
this case is concerned.
"....
"THE COURT: Did I see another hand?
"THE COURT: Your name?
"[Prospective Juror W.W.]:
I have met Ms.
Kirkland's daughter. She lives beside my daughter.
And I also met another family member in Florida in
January of this year.
"THE COURT: Would that bias your mind and
prejudice your verdict the fact that you know the
family and be impartial and -"[Prospective Juror W.W.]: No.
"THE COURT: It would not?
"[Prospective Juror W.W.]: No."
52
App. 54

CR-13-1552
(R. 46-50.)

This was the extent of the prospective jurors who

indicated that they had heard or had any knowledge concerning
the facts of the case. The trial court also asked prospective
jurors if any had a fixed opinion that would prevent them from
being impartial and no one responded.

The prospective jurors

also completed lengthy juror questionnaires that included
questions about their exposure to media coverage.
Therefore, summary dismissal of this claim was proper.
K.
Jones

also

argues

that

the

circuit

court

erred

in

dismissing his claim that his trial counsel were ineffective
for not arguing that his statements to police should have been
suppressed on the ground that he was physically assaulted by
police to secure the statements.
In dismissing this claim, the circuit court stated:
"Jones alleges that the police coerced his
statements 'by violently ramming his head into a
door.'
He claims his trial counsel should have
argued for exclusion of his statements on this
ground. This claim is not facially meritorious.
"Jones fails to plead that his counsel knew or
explain why they should have known of the alleged
assault by police. See Alderman v. State, 647 So.
2d 28, 33 (Ala. Crim. App. 1994) (noting that a
petitioner
alleging
a
claim
of
ineffective
assistance must plead that counsel had 'knowledge of
facts giving rise to the claim asserted.'). Jones
53
App. 55

CR-13-1552
argues that counsel should have interviewed him and
reviewed the transcript of his statement in which he
complains of a headache. However, an assault like
the one described is not something that counsel
would routinely ask a client about.
There would
have to be some reason to ask, and Jones offers no
reason other than the transcript in which he
complains of a headache. This Court cannot find,
even if the facts pleaded are true, that trial
counsel performed deficiently because they did not
ask Jones why he had a headache during a police
interview. Furthermore, Jones does not allege that
he told his counsel that his statement to police was
beaten out of him, something one would imagine a
defendant would tell his counsel in a capital murder
trial.
"Finally, Jones alleges that his sister,
Lakeisha Jones, witnessed the alleged assault and
could have told counsel about it if only they had
asked her, but again Jones does not allege a reason
why counsel should have asked Lakeisha Jones about
any incident involving police brutality. Certainly,
one would suspect that Lakeisha Jones would tell
Jones's trial counsel about such an incident, if it
actually happened and she knew about it.
"For the foregoing reasons, Jones's allegations
that his trial counsel were constitutionally
ineffective in moving to suppress his statements are
not facially meritorious. Accordingly, these claims
are summarily dismissed."
(C. 1211-12.)

We agree.

The United States Supreme Court has held:
"The reasonableness of counsel's actions may be
determined or substantially influenced by the
defendant's own statements or actions. Counsel's
actions are usually based, quite properly, on
informed strategic choices made by the defendant and
on information supplied by the defendant."
54
App. 56

CR-13-1552
Strickland v. Washington, 466 U.S. 668, 691 (1984).

See also

Crum v. State, 611 So. 2d 495, 497 (Ala. Crim. App. 1992)
("Absent information from his client alerting him to a latent
defect in the prior conviction that renders that conviction
unavailable to enhance sentence, counsel is not ineffective
for failing to challenge the use of a facially-valid prior
conviction for enhancement purposes. The appellant's Rule 32
petition did not allege that he informed his attorney at the
guilty plea proceedings that the prior convictions upon which
the State relied to enhance his sentence occurred during his
minority and were not preceded by advice regarding his right
to apply for youthful offender treatment.").
Here, Jones failed to allege in his amended petition that
his trial counsel were aware that he had been assaulted by
police in order to secure his statements.
unsupported

by

specific

facts

will

"'Conclusions

not

requirements of Rule 32.3 and Rule 32.6(b).

satisfy

The full factual

basis must be included in the petition itself.'"
State, 44 So.

the

Lee v.

3d 1145, 1153 (Ala. Crim. App. 2009) (quoting

Hyde v. State, 950 So. 2d 344, 356 (Ala. Crim. App. 2006)).
Therefore, summary dismissal of this claim was proper.

55
App. 57

CR-13-1552
L.
Jones argues that the circuit court erred in summarily
dismissing his claim that his trial counsel were ineffective
for not timely objecting to the admission of his second
statement to police.

Specifically, Jones argues that, "[a]t

trial, when the officer who allegedly took Jones's unrecorded
statement testified, counsel did not object until after the
officer's testimony" and that, therefore, this Court reviewed
the issue of the admissibility of that statement under the
plain-error standard of review.

(Jones's brief, p. 82.)

On direct appeal, this Court addressed the admissibility
of Jones's second statement:
"Initially, we note that no objection was raised
regarding Officer Beeson's rebuttal testimony
concerning Jones's second statement until the end of
his testimony, at which time defense counsel
requested that Beeson's testimony be struck.
Because, however, Jones was sentenced to death, we
will review the admissibility of the statement under
the plain-error standard.
"As previously stated, at no point while he was
making the second statement did Jones admit any
involvement in Mrs. Kirkland's killing. Indeed,
Jones claimed that Mrs. Kirkland had been killed by
three other men whom he had come into contact with
later that evening. Accordingly, Jones's statement
was not a compelled confession protected by the
Fifth Amendment. 'A false statement made by an
accused, in an offer to exculpate or divert
suspicion from himself or to explain away apparently
56
App. 58

CR-13-1552
incriminating circumstances, is provable without
regard to the rules governing the admissibility of
confessions.'
2 Charles W. Gamble, McElroy's
Alabama Evidence § 200.02(4)(c) (5th ed. 1996)
(footnote omitted).
Further, the State did not
offer this statement as evidence of Jones's guilt,
but, rather, to rebut his claim that he was with
[Malik Ali] Hasan on the night Mrs. Kirkland was
killed. Therefore, because the State did not offer
Jones's statement for the purpose of establishing
Jones's guilt or to show that Jones otherwise
incriminated himself, the State was not obliged to
establish that the statement was voluntarily given
as a prerequisite for its admission into evidence.
See, e.g., Ringstaff v. State, 451 So. 2d 375, 384
(Ala. Crim. App. 1984); McGehee v. State, 171 Ala.
19, 55 So. 159 (1911); Franklin v. State, 145 Ala.
669, 39 So. 979 (1906).
"In any event, the trial court properly admitted
Jones's statement because it was knowingly and
voluntarily given. ...
"....
"... Because the State offered ample evidence
indicating that Jones was informed of his Miranda
rights, chose to waive those rights and voluntarily
consented to be interviewed by Officer Beeson, and
that Officer Beeson made neither threats nor implied
promises of leniency, the trial court correctly
determined that Jones's second statement was
voluntary and admissible."
Jones,

987

So.

2d

at

1164-65.

We

also

addressed

admissibility of Jones's other statements and concluded:
"Jones was properly advised of his Miranda
rights, and none of his statements to lawenforcement officials was the product of either
threats or implied promises of leniency. ... Based
on the totality of the circumstances, the trial
57
App. 59

the

CR-13-1552
court correctly determined that Jones's statements
were voluntarily made. ....
"Moreover, in light of the fact that none of
Jones's statements contained an outright confession
to killing Mrs. Kirkland, together with the physical
evidence connecting him to the offense –- Jones was
found driving Mrs. Kirkland's car shortly after her
body was discovered, wearing clothes stained with
Mrs. Kirkland's blood –- any error in allowing
testimony regarding Jones's statements was harmless
beyond a reasonable doubt."
Jones v. State, 987 So. 2d at 1166.
Even had counsel timely objected to admission of the
statement and even had this Court reviewed the admissibility
of that statement under the preserved-error standard of review
rather

the

plain-error

standard

of

review,

this

Court's

conclusion would have been the same. Therefore, Jones was not
prejudiced by counsel's failure to object to his second
statement

until

after

it

had

been

admitted

and

summary

dismissal of this claim was proper.
II.
Jones argues that the circuit court erred in summarily
dismissing his claims that his trial counsel were ineffective
during the penalty phase of his capital-murder trial.

58
App. 60

CR-13-1552
A.
Jones argues that the circuit court erred in summarily
dismissing his claim that his trial counsel were ineffective
for not adequately investigating and presenting additional
mitigation evidence.

Jones alleged in his amended petition

that trial counsel failed to present mitigation evidence
regarding his dysfunctional family life, the extreme poverty
in which he was raised, the instability of his home life, his
drug

use,

grandmother.

and

his

physical

abuse

by

his

mother

and

Jones also alleged that counsel failed to hire

a mitigation expert.
In dismissing this claim, the circuit court stated:
"Jones alleges that his trial counsel were
ineffective
in
investigating
and
presenting
mitigation evidence at the penalty phase. Jones has
presented mitigation evidence in his amended
petition that was not presented by trial counsel at
the penalty phase of the trial.
Some of the
evidence, he argues, could have been presented
through
three
family
witnesses
and
clinical
psychologist Dr. Robert DeFrancisco, all of whom
testified at the penalty phase. Other evidence, he
alleges,
could
have
been
presented
through
additional family witnesses, one of his former
medical doctors, and a mitigation expert. Assuming
the facts pleaded as true, Jones would not show
deficient performance or prejudice at an evidentiary
hearing; therefore, this claim is not facially
meritorious.
"....
59
App. 61

CR-13-1552
"In the sentencing order in this case, the trial
court considered and found, in addition to Jones's
age,
the
following
nonstatutory
mitigating
circumstances:
"1. The defendant was reared in a single-parent
home with no relationship with his father.
"2.

The defendant was hyperactive as a child.

"3. The defendant's family was visited by DHR
[Department of Human Resources] several times during
his childhood.
"4.

The defendant did not resist arrest.

"5. The defendant had learning disabilities as
a child and was a special education student.
"6. The defendant was reared in lower end of
socio-economic scale.
"7.
The defendant
psychological problems.

suffered

emotional

and

"(C. 316-17.)
"The mitigation evidence presented during the
penalty phase was the kind of evidence typically
presented during the penalty phase of a capital
murder trial.
Jones's trial counsel selected
mitigation evidence that 'develop[ed] an image of
[Jones] as a human being who was generally a good
public citizen, who had a background of poverty but
who had worked hard as a child and as an adult to
support his family and close relatives.'
Collier
[v. Turpin], 177 F.3d [1184] at 1202 [(11th Cir.
1999)].
"....
"As discussed above, the record shows that
Jones's trial counsel presented a variety of
60
App. 62

CR-13-1552
mitigating evidence at the penalty phase.
Jones
argues that additional evidence -– such as evidence
of 'beatings' Jones received and that he lived in
houses with cockroaches and rats -– should have been
presented. For purposes of its analysis here, this
Court assumes that Jones was indeed subjected to
corporal punishment and that he lived in houses with
pest problems, along with all of the other
mitigating evidence that was not presented at
Jones's trial. However, this Court also considers
the strong aggravating evidence in this case.
"The trial court found the existence of three
aggravating circumstances: (1) the capital offense
was committed during a burglary; (2) the capital
offense was especially heinous, atrocious, or cruel
('HAC') compared to other capital offenses; and (3)
Jones was under a sentence of imprisonment when he
committed the capital offense. With regard to the
HAC aggravator, the trial court specifically noted
in the sentencing order that 'Dr. [Alfredo] Paredes
testified that an 80 year old disabled women was
brutally beaten. He established that these injuries
were painful and most preceded her death. This type
of cruelty was unnecessary given the age and
physical infirmities experienced by the victim.'
"Given that trial counsel presented appropriate
mitigating evidence and that there was serious
aggravating evidence in this case, there is no
reasonable probability that the outcome of Jones's
trial would have been different had trial counsel
presented the additional mitigating evidence Jones
discusses in his amended Rule 32 petition.
"For these reasons, Jones could not establish
deficient performance and prejudice upon these facts
at an evidentiary hearing. Accordingly, this claim
is dismissed."
(C. 1245-54.)

We agree.

61
App. 63

CR-13-1552
"Although Petitioner's claim is that his trial counsel
should have done something more, we first look at what the
lawyer did in fact."

Chandler v. United States, 218 F.3d

1305, 1320 (11th Cir. 2000).

Several witnesses testified at

the penalty phase of Jones's trial.

Jill Whitsett,5 Jones's

mother, testified that Jones never had a relationship with his
father; that there was no father at home for Jones; that she
and the family were on welfare and food stamps; that the
Department of Human Resources visited her house "from time to
time" when Jones was growing up; that she had been accused of
child abuse in Houston County; that she had a child born with
syphilis

who

died;

that

Jones

had

been

diagnosed

as

hyperactive when he was young; that Jones had been seen by a
psychiatrist and a psychologist; that Jones was placed on the
medications Prozac, Tenex, Ritalin, and Zoloft; that Jones's
behavior improved with the medication; that Jones became
calmer with the medication; that the school told her that
Jones needed to be placed in a special class because he was
"dumb" and that Jones was placed in special-education classes.

5

Jones's mother's name is spelled "Whitsett" in the record
in this appeal.
However, in the record in Jones's direct
appeal, her name was spelled "Witsett."
62
App. 64

CR-13-1552
On

cross-examination,

Whitsett

testified

that

"human

resources" came to her house on four or five occasions, that
Jones had gotten in trouble at school for fighting, and that
she took Jones out of school when he was in the 11th grade.
Whitsett further testified that the medication Jones took
bothered him at night so she took him off the medications.
Edwina Culp, an adult-education instructor at Alfred
Saliba Family Services Center, testified that she met Jones
when he was studying to get his general-equivalency diploma in
January 1998.
April 1999.
Jones

was

She said that he stayed in that program until
Culp testified that, based on her observations,

kind

and

meek;

he

was

not

aggressive

or

a

troublemaker; he stayed to himself; and he cooperated with
her.

She further testified that Jones was 16 years old when

she met him but that his education was at a sixth- to eighthgrade level.

It was her understanding that Jones had an

attention-deficit disorder.
Marilyn Walker, Jones's maternal aunt, testified that
Jones and his mother and sister lived with her and her husband
in Dothan for years.

She said that Jones was always a good

person when he was on his medication and was not violent,
"[b]ut when he didn't take his medicine, he was just a totally
63
App. 65

CR-13-1552
different person.
for no reason."

You could tell he just get upset and angry
(Trial R. 1393.)

Walker further testified

that Jones was truant and lied a lot and that he had taken his
grandmother's

automobile

and

it

was

destroyed.

Walker

testified that Jones's mother provided a decent home for him.
On cross-examination, Walker testified that, as a result of
the death of one of Jones's siblings, the family got a $70,000
settlement that helped Jones's mother take care of Jones and
his siblings.

Walker had no problems with Jones, she said,

because Jones respected her.
Lakeisha Jones, Jones's sister, testified that Jones was
a good brother to her; that if she got in trouble she would go
to Jones; that Jones was helpful; that Jones took medication
to make him calm; that from "time to time" he would not take
his medication; and that when he did not take his medication
he was more hyperactive.

She also testified that Jones's

mother took him off his medication when Jones was about 15 or
16 years old.
Dr. Robert DeFrancisco, a clinical forensic psychologist,
testified that he conducted a clinical evaluation of Jones.
He testified that Jones's IQ was 81 and that Jones was a "gap
child."

After

explaining

the
64

App. 66

term

"gap

child,"

Dr.

CR-13-1552
DeFrancisco testified that he reviewed Jones's medical records
and that Jones was hyperkinetic.

He described the effect of

Jones's medication on his ability to "learn and to behave."
Dr. DeFrancisco then testified:
"[I]n [Jones's] case, he has no father, he has a
mother that's a drunk and a drug addict. He has no
role models.
And you add that into his school
failure, he has no mental help at home, all he's
around is drug abuse by his own admission and own
history will tell you his history is awful.
He
basically raised himself. What do you expect from
someone like this?"
(Trial R. 1437.)

He further stated:

"Under the right guidance and instruction, [Jones]
can be a productive person. He is not stupid. He
is not mentally retarded.
And he is not crazy.
He's totally misguided. And he has suffered from a
horrible, horrible childhood.
And I'm not
justifying anything he's done.
I'm explaining to
you the fact that behavior does not occur in a
vacuum. You just can't look at an act. You have to
understand the individual.
That is my job.
I'm
trying to give you some understanding of this person
who didn't care about himself because we as society
didn't care about him as well.
We are failing
miserably with people like Antonio Jones."
(Trial R. 1438.)
In closing argument at the penalty phase, Jones's counsel
argued that there were several mitigating circumstances based
on the evidence that had been presented at the penalty phase,
but counsel's main argument was Jones's medical condition.
65
App. 67

CR-13-1552
Counsel also argued for mercy and said that, based on Dr.
DeFrancisco's

testimony,

Jones

would

function

well

in

a

structured environment like prison.

The record from Jones's

direct

counsel

appeal

also

reflects

that

requested

and

received funds for an investigator to, among other things,
search

for

mitigating

evidence

such

as

"Jones's

medical

history, educational history, employment and training history,
family and social history, his correctional history, and any
religious or cultural influences."

(Trial C. 201.)6

Counsel

asserted in their motion for funds that they "must direct an
investigator to obtain records from all doctors, hospitals,
schools, employers, and correctional facilities and interview
people

with

knowledge

background."

of

these

(Trial C. 201.)

aspects

of

Mr.

Jones's

Counsel also requested and

received funds to secure "expert psychiatric and psychological
assistance."
This

is

(Trial C. 207.)
not

a

case

where

counsel

conducted

no

investigation into mitigation or where no mitigation evidence
was presented.
6

This Court held in Hall v. State, 979 So. 2d 125 (Ala.
Crim. App. 2007), that counsel is not ineffective for
delegating
to
a
subordinate
the
responsibility
for
investigating.
66
App. 68

CR-13-1552
"[T]rial counsel is afforded broad authority in
determining what evidence will be offered in
mitigation.' State v. Frazier (1991), 61 Ohio St.
3d 247, 255, 574 N.E.2d 483. We also reiterate that
post-conviction proceedings were designed to redress
denials or infringements of basic constitutional
rights and were not intended as an avenue for simply
retrying the case. ... Further, the failure to
present evidence which is merely cumulative to that
which was presented at trial is, generally speaking,
not indicative of ineffective assistance of trial
counsel. State v. Combs (1994), 100 Ohio App.3d 90,
105, 652 N.E.2d 205."
Jells

v.

Mitchell,

538

F.3d

478,

489

(6th

Cir.

2008).

"'[C]ounsel does not necessarily render ineffective assistance
simply because he does not present all possible mitigating
evidence.'"

Boyd v. State, 913 So. 2d 1113, 1139 (Ala. Crim.

App. 2003) (quoting Williams v. State, 783 So. 2d 108, 117
(Ala. Crim. App. 2000)).
"[A] claim of ineffective assistance of counsel for
failure to investigate and present mitigation
evidence will not be sustained where the jury was
aware of most aspects of the mitigation evidence
that the defendant argues should have been
presented. Troy v. State, 57 So. 3d 828, 835 (Fla.
2011). Although the evidence offered by [the
petitioner] at the evidentiary hearing was not
exactly the same as that presented during the
penalty phase, in consideration of the testimony of
Dr. Cunningham, the majority of the evidence
presented at the evidentiary hearing was referenced
at trial."
Frances v. State, 143 So. 3d 340, 356 (Fla. 2014).

67
App. 69

CR-13-1552
"'"[T]he
failure
to
present
additional
mitigating evidence that is merely cumulative of
that already presented does not rise to the level of
a constitutional violation."
Nields v. Bradshaw,
482 F.3d 442, 454 (6th Cir. 2007) (quoting Broom v.
Mitchell, 441 F.3d 392, 410 (6th Cir. 2006)).' Eley
v. Bagley, 604 F.3d 958, 968 (6th Cir. 2010). 'This
Court has previously refused to allow the omission
of cumulative testimony to amount to ineffective
assistance of counsel.'
United States v. Harris,
408 F.3d 186, 191 (5th Cir. 2005). 'Although as an
afterthought this [defendant's father] provided a
more detailed account with regard to the abuse, this
Court has held that even if alternate witnesses
could provide more detailed testimony, trial counsel
is not ineffective for failing to present cumulative
evidence.' Darling v. State, 966 So. 2d 366, 377
(Fla. 2007)."
Daniel v. State, 86 So. 3d 405, 429–30 (Ala. Crim. App. 2011).
"'[I]n order to establish prejudice [under
Strickland],
the
new
evidence
that
a
[postconviction] petitioner presents must differ in
a substantial way -- in strength and subject matter
-- from the evidence actually presented at
sentencing.' Hill v. Mitchell, 400 F.3d 308, 319
(6th Cir. 2005), cert. denied, 546 U.S. 1039, 126
S.Ct. 744, 163 L.Ed.2d 582 (2005). In other cases,
we have found prejudice because the new mitigating
evidence is 'different from and much stronger than
the evidence presented on direct appeal,' 'much more
extensive,
powerful,
and
corroborated,'
and
'sufficiently different and weighty.'
Goodwin v.
Johnson, 632 F.3d 301, 328, 331 (6th Cir. 2011). We
have also based our assessment on 'the volume and
compelling nature of th[e new] evidence.' Morales v.
Mitchell, 507 F.3d 916, 935 (6th Cir. 2007). If the
testimony 'would have added nothing of value,' then
its absence was not prejudicial. [Bobby v.] Van
Hook, [558 U.S. 4, 12,] 130 S.Ct. [13,] 19 [(2009)].
In short, 'cumulative mitigation evidence' will not
suffice. Landrum v. Mitchell, 625 F.3d 905, 930 (6th
68
App. 70

CR-13-1552
Cir. 2010), petition for cert. filed (Apr. 4, 2011)
(10–9911)."
Foust v. Houk, 655 F.3d 524, 539 (6th Cir. 2011).
"'"Prejudicial ineffective assistance of counsel
under Strickland cannot be established on the
general claim that additional witnesses should have
been called in mitigation. See Briley v. Bass, 750
F.2d 1238, 1248 (4th Cir. 1984); see also Bassette
v. Thompson, 915 F.2d 932, 941 (4th Cir. 1990).
Rather, the deciding factor is whether additional
witnesses would have made any difference in the
mitigation phase of the trial." Smith v. Anderson,
104 F. Supp. 2d 773, 809 (S.D. Ohio 2000), aff'd,
348 F.3d 177 (6th Cir. 2003). "There has never been
a case where additional witnesses could not have
been called." State v. Tarver, 629 So. 2d 14, 21
(Ala. Crim. App. 1993).'"
Hunt v. State, 940 So. 2d 1041, 1067–68 (Ala. Crim. App.
2005).
In Wiggins v. Smith, 539 U.S. 510 (2003), the United
States Supreme Court stated:
"In Strickland [v. Washington, 466 U.S. 668 (1984)],
we made clear that, to establish prejudice, a
'defendant must show that there is a reasonable
probability that, but for counsel's unprofessional
errors, the result of the proceeding would have been
different. A reasonable probability is a probability
sufficient to undermine confidence in the outcome.'
Id., at 694, 104 S.Ct. 2052. In assessing prejudice,
we reweigh the evidence in aggravation against the
totality of available mitigating evidence."
539 U.S. at 534.

See also Stafford v. Saffle, 34 F.3d 1557,

1564 (10th Cir. 1994).
69
App. 71

CR-13-1552
The great majority of mitigation evidence that Jones
alleged in his amended petition should have been, but was not,
presented by counsel was, in fact, presented at the penalty
phase of Jones's trial.

We, like the circuit court, are

confident that the alleged omitted mitigation evidence would
have had no impact on the verdict in this case.

Therefore,

summary dismissal of this claim was proper.
B.
Jones argues that the circuit court erred in summarily
dismissing his claim that his trial counsel were ineffective
for

not

objecting

to

what

he

characterizes

as

numerous

instances of prosecutorial misconduct during the penalty phase
of his trial.
"An ineffectiveness of counsel claim does not
lend itself to a search of the record to pick the
instances in which an objection could have been
made. Stringfellow v. State, 485 So. 2d 1238 (Ala.
Cr. App. 1986).
An attorney looking at a trial
transcript can always find places where objections
could have been made.
Hindsight is not always
20/20, but hindsight is always ineffective in
evaluating performance of trial counsel."
State v. Tarver, 629 So. 2d 14, 19 (Ala. Crim. App. 1993).
1.
Jones

contends

that

his

trial

counsel

should

have

objected when, he says, the prosecutor impermissibly commented
70
App. 72

CR-13-1552
on his right to remain silent. Specifically, Jones challenges
the following statement made by the prosecutor during closing
argument: "Did you watch [Jones] during the trial when they
testified, when his own mother was crying?
could be."

He was cold as he

(Trial R. 622.)

In dismissing this claim, the circuit court stated:
"[T]he prosecutor did not impermissibly comment on
Jones's right to remain silent. The record reflects
that the prosecutor was asking the jury to consider
Jones's physical reaction to the testimony of
another witness, which is permissible. See James v.
State, 564 So. 2d 1002 (Ala. Crim. App. 1989)
(holding that a defendant's conduct or demeanor
during trial is a proper subject of comment; Haywood
v. State, 501 So. 2d 515 (Ala. Crim. App. 1986)
(same); Wherry v. State, 402 So. 2d 1130 (Ala. Crim.
App. 1981) (same)."
(C. 1257.)

We agree.

The prosecutor's comment was not a comment on Jones's
right to remain silent.

"The conduct of the accused or the

accused's demeanor during the trial is a proper subject of
comment."

Wherry v. State, 402 So. 2d 1130, 1133 (Ala. Crim.

App. 1981).

"The prosecutor [is] entitled to make a comment

on the demeanor of [the defendant] in the courtroom." Woodall
v. Commonwealth, 63 S.W.3d 104, 125 (Ky. 2001).

See also

Thompson v. State, 153 So. 3d 84, 175 (Ala. Crim. App. 2012).
"[C]ounsel could not be ineffective for failing to raise a
71
App. 73

CR-13-1552
baseless objection."

Bearden v. State, 825 So. 2d 868, 872

(Ala. Crim. App. 2001).
Therefore, summary dismissal of this claim was proper.
2.
Jones
objected

contends
when,

he

that

his

trial

counsel

says,

the

prosecutor

should

argued

have

improper

aggravating circumstances by stating that Kirkland's grandson
was a police officer, that Jones had filed a federal lawsuit,
and that Jones used "curse words."
In dismissing this claim, the circuit court stated:
"Jones alleges that trial counsel should have
objected to the prosecutor mentioning that the
victim's grandson was a police officer, that Jones
had filed a federal lawsuit, and that Jones used
curse words.
Jones argues that these comments
constituted impermissible aggravating evidence.
Yet, the record shows that the prosecutor did not
rely on any of these comments in arguing aggravating
circumstances to the jury.
Again, the jury was
properly instructed on aggravating and mitigating
circumstances."
(C. 1258.)

We agree.

The

prosecutor did not argue any

improper aggravating circumstances, and the jury was properly
instructed on the aggravating circumstances the State relied
on in the penalty phase.

In addition, some of the above

comments constituted victim-impact evidence, and "we have
repeatedly held that victim-impact evidence is admissible at
72
App. 74

CR-13-1552
the penalty phase of a capital trial."

Lee v. State, 44 So.

3d 1145, 1174 (Ala. Crim. App. 2009). "[C]ounsel could not be
ineffective

for

failing

to

raise

a

baseless

objection."

Bearden v. State, 825 So. 2d 868, 872 (Ala. Crim. App. 2001).
Therefore, summary dismissal of this claim was proper.
3.
Jones

also

contends

that

trial

counsel

should

have

objected to the prosecutor questioning Dr. Alfredo Paredes,
the pathologist who conducted the autopsy on Kirkland, about
other capital murders.
At the penalty phase, the State submitted to the jury the
aggravating
heinous,

atrocious,

offenses."
added).

circumstance
or

that
cruel

the

murder

compared

to

was

"especially

other

capital

Section 13A-5-49(8), Ala. Code 1975 (emphasis

The jury was properly instructed on the application

of this aggravating circumstance.

If any error did occur in

the prosecutor's questioning of Dr. Paredes, we conclude that
the error was harmless beyond a reasonable doubt.

"'Harmless

error does not rise to the level of the prejudice required to
satisfy the Strickland test.'"

State v. Kerley, 260 So. 3d

891, 902 (Ala. Crim. App. 2017) (quoting Gaddy v. State, 952
So. 2d 1149, 1160 (Ala. Crim. App. 2006)).
73
App. 75

CR-13-1552
Therefore, summary dismissal of this claim was proper.
4.
Jones

contends

that

his

trial

counsel

should

have

objected when the prosecutor stated during closing argument
that there was no evidence that Jones's family had a history
of drug use.

However, as the State correctly argues in its

brief, this claim was not raised in Jones's amended petition;
therefore, it is not properly before this Court and will not
be considered.
"'It is well settled that "[a]n appellant cannot
raise an issue on appeal from the denial of a Rule
32 petition which was not raised in the Rule 32
petition." Arrington v. State, 716 So. 2d 237, 239
(Ala. Crim. App. 1997).'
Mashburn v. State, 148
So. 3d 1094, 1106 (Ala. Crim. App. 2013). See also
Ex parte Clemons, 55 So. 3d 348, 351 (Ala. 2007)
('We cannot, however, consider the issue whether the
trial court erred in failing to consider Clemons's
borderline intellectual capacity as a mitigating
factor in the sentencing phase of his trial because
the issue was not presented to the trial court in
Clemons's Rule 32 petition.'); Dunaway v. State,
[198 So. 3d 530] (Ala. Crim. App. 2009) ('This issue
was not raised in Dunaway's consolidated amended
Rule 32 petition. Therefore, it is not properly
before this Court.'); Hooks v. State, 21 So. 3d 772,
795 (Ala. Crim. App. 2008) ('These claims were not
raised in Hooks's third amended postconviction
petition.')."
Stallworth v. State, 171 So. 3d 53, 74-75 (Ala. Crim. App.
2013).
74
App. 76

CR-13-1552
5.
Jones

contends

that

his

trial

counsel

should

have

objected when, he says, the prosecutor misstated the law on
mitigating evidence.

Specifically, Jones argues that the

prosecutor improperly characterized mitigating evidence as
"excuses."

(Jones's brief, p. 68.)

argument, the prosecutor stated:

During rebuttal closing
"And [defense counsel]

evidently he wants to stand up here and says because he didn't
have a father, didn't have a father figure, he has low
intelligence.

These are excuses."

(Trial R. 1497.)

"This Court has long recognized that a prosecutor
cannot improperly denigrate mitigation during a
closing argument. See Brooks v. State, 762 So. 2d
879, 904 (Fla. 2000) (holding that characterizing
mitigating circumstances as 'excuses' was an
improper denigration of the case offered in
mitigation). However, we do not reach the assertion
in this claim that counsel was ineffective under
Strickland because we find no error in the
postconviction court's determination that Williamson
failed to meet the prejudice prong of Strickland.
The sentencing judge found three aggravating
circumstances:
(1)
Williamson
was
previously
convicted of another capital felony or of a felony
involving the use or threat of violence to the
person; (2) the capital felony was committed while
Williamson was engaged or was an accomplice in the
commission of or an attempt to commit burglary,
robbery, and kidnapping; and (3) the capital felony
was especially HAC. As detailed above, he found
evidence supporting eleven nonstatutory mitigating
factors and gave each factor some or little weight.
In reviewing the comments in light of the record, we
75
App. 77

CR-13-1552
do not conclude that the brief mention of the word
'excuses' undermines confidence in the outcome."
Williamson v. State, 994 So. 2d 1000, 1014-15 (Fla. 2008).
Similarly, here, "even if counsel should have objected to
the prosecutor's arguments, [we conclude that] the absence of
objections

did

not

affect

the

outcome

of

the

trial."

Stallworth v. State, 171 So. 3d 53, 67 (Ala. Crim. App. 2013).
The jury was properly instructed on "their responsibility and
the

proper

role

mitigating

evidence

was

to

play

in

the

discharge of that responsibility," State v. Feaster, 156 N.J.
1, 87, 716 A. 2d 395, 438 (1998), and "jurors are presumed to
follow,

not

disregard,

the

trial

court's

instructions."

Brooks v. State, 973 So. 2d 380, 409 (Ala. Crim. App. 2007).
Therefore, summary dismissal of this claim was proper.
6.
Jones

also

contends

that

the

cumulative

effect

of

counsel's failure to object to multiple incidents of alleged
prosecutorial misconduct prejudiced him and warrants a new
trial. When discussing the application of cumulative error to
claims of ineffective assistance of counsel, this Court has
stated:
"Other states and federal courts are not in
agreement as to whether the 'cumulative effect'
76
App. 78

CR-13-1552
analysis applies to Strickland claims. As the
Supreme Court of North Dakota noted in Garcia v.
State, 678 N.W.2d 568, 578 (N.D. 2004):
"'Garcia
argues
that
even
if
trial
counsel's individual acts or omissions are
insufficient
to
establish
he
was
prejudiced, the cumulative effect was
substantial enough to meet Strickland's
test. See Williams v. Washington, 59 F.3d
673, 682 (7th Cir. 1995) ("In making this
showing, a petitioner may demonstrate that
the
cumulative
effect
of
counsel's
individual
acts
or
omissions
was
substantial enough to meet Strickland's
test"); but see Scott v. Jones, 915 F.2d
1188, 1191 (8th Cir. 1990) ("cumulative
error does not call for habeas relief, as
each habeas claim must stand or fall on its
own").'"
"See also Holland v. State, 250 Ga. App. 24, 28, 550
S.E.2d 433, 437 (2001) ('Because the so-called
cumulative error doctrine is inapplicable, each
claim of inadequacy must be examined independently
of other claims, using the two-prong standard of
Strickland v. Washington.' (footnote omitted)); Carl
v. State, 234 Ga. App. 61, 65, 506 S.E.2d 207, 212
(1998) ('Georgia does not recognize the cumulative
error rule.'); Fisher v. Angelone, 163 F.3d 835, 852
(4th Cir. 1998) ('Not surprisingly, it has long been
the practice of this Court to individually assess
claims under Strickland v. Washington, 466 U.S. 668,
104 S.Ct. 2052, 80 L.Ed.2d 674 (1984). See, e.g.,
Hoots v. Allsbrook, 785 F.2d 1214, 1219 (4th Cir.
1986) (considering ineffective assistance claims
individually
rather
than
considering
their
cumulative impact.).').
"We can find no case where Alabama appellate
courts have applied the cumulative-effect analysis
to claims of ineffective assistance of counsel.
However, the Alabama Supreme Court has held that the
77
App. 79

CR-13-1552
cumulative effect of prosecutorial misconduct
necessitated a new trial in Ex parte Tomlin, 540 So.
2d 668, 672 (Ala. 1988) ('We need not decide whether
either of the two errors, standing alone, would
require a reversal; we hold that the cumulative
effect of the errors probably adversely affected the
substantial rights of the defendant and seriously
affected the fairness and integrity of the judicial
proceedings.'). Also, in Ex parte Bryant, [951 So.
2d 724] (Ala. 2002), the Supreme Court held that the
cumulative effect of errors may require reversal.
"If we were to evaluate the cumulative effect of
the ineffective assistance of counsel claims, we
would find that Brooks's substantial rights were not
injuriously affected. See Bryant and Rule 45, Ala.
R. App. P."
Brooks v. State, 929 So. 2d 491, 514 (Ala. Crim. App. 2005).
Similarly, here, if we were to evaluate the cumulative
effect

counsel's

alleged

errors,

we

would

conclude

Jones's substantial rights were not violated.

that

Therefore,

summary dismissal of this claim was proper.
III.
Jones argues that his appellate counsel were ineffective
for not raising certain issues on appeal. Specifically, Jones
alleged in his amended petition that his appellate counsel
should have raised the following issues on appeal: (1) that
the State violated Batson v. Kentucky, 476 U.S. 79 (1986);
(2) that the prosecutor engaged in prosecutorial misconduct;
(3) that the death penalty is unconstitutional because Jones
78
App. 80

CR-13-1552
was only 18 years old when he committed the murder; and (4)
that the trial court improperly placed the burden of proof on
him at the suppression hearing.
When considering claims of ineffective assistance of
appellate counsel, this Court has stated:
"'As
to
claims
of
ineffective
appellate counsel, an appellant has a clear
right to effective assistance of counsel on
first appeal. Evitts v. Lucey, 469 U.S.
387, 105 S.Ct. 830, 83 L.Ed.2d 821 (1985).
However,
appellate
counsel
has
no
constitutional obligation to raise every
nonfrivolous issue. Jones v. Barnes, 463
U.S. 745, 103 S.Ct. 3308, 77 L.Ed.2d 987
(1983).
The United States Supreme Court
has
recognized
that
'[e]xperienced
advocates since time beyond memory have
emphasized the importance of winnowing out
weaker arguments on appeal and focusing on
one central issue if possible, or at most
on a few key issues.' Jones v. Barnes, 463
U.S. at 751–52, 103 S.Ct. 3308. Such a
winnowing process 'far from being evidence
of incompetence, is the hallmark of
effective advocacy.' Smith v. Murray, 477
U.S. 527, 536, 106 S.Ct. 2661, 91 L.Ed.2d
434 (1986). Appellate counsel is presumed
to exercise sound strategy in the selection
of issues most likely to afford relief on
appeal. Pruett v. Thompson, 996 F.2d 1560,
1568 (4th Cir. 1993), cert. denied, 510
U.S. 984, 114 S.Ct. 487, 126 L.Ed.2d 437
(1993). One claiming ineffective appellate
counsel must show prejudice, i.e., the
reasonable probability that, but for
counsel's errors, the petitioner would have

79
App. 81

CR-13-1552
prevailed on appeal. Miller v. Keeney, 882
F.2d 1428, 1434 and n. 9 (9th Cir. 1989).'"
Moody v. State, 95 So. 3d 827, 836 (Ala. Crim. App. 2011)
(quoting Thomas v. State, 766 So. 2d 860, 876 (Ala. Crim.
1998), overruled on other grounds, Ex parte Taylor, 10 So. 3d
1075 (Ala. 2005)).
"If a legal issue 'would in all probability have
been found to be without merit' had counsel raised
the issue on direct appeal, the failure of appellate
counsel to raise the meritless issue will not render
appellate
counsel's
performance
ineffective.
Rutherford v. Moore, 774 So. 2d 637, 643 (Fla.
2000)."
Frances v. State, 143 So. 3d 340, 357 (Fla. 2014).
In dismissing this claim, the circuit court stated:
"The record does not establish that purposeful
racial
discrimination
occurred
during
jury
selection, so appellate counsel is not deficient for
deciding not to raise Batson on direct appeal.
However, Jones raised Batson in his petition for a
writ of certiorari in the Alabama Supreme Court. In
capital cases, the Alabama Supreme Court has granted
certiorari on a Batson issue, even when the issue
was not raised in the Court of Criminal Appeals.
See e.g., Ex parte Sharp, [151 So. 3d 329] (Ala.
2009).
Appellate counsel did not waive Jones's
Batson argument by failing to raise it in the Court
of Criminal Appeals.
"....
"Jones references other portions of his amended
petition in which he argues that prosecutorial
misconduct occurred. Specifically, Jones references
80
App. 82

CR-13-1552
Section II.O, II.D.2, II.D.6, II.P., and III.D of
his amended Rule 32 petition. In the sections of
this order that correspond to those sections, this
Court finds that there was no prosecutorial
misconduct, or if there was, it was harmless. For
these reasons, this Court finds that Jones could not
prove deficient performance of trial or appellate
counsel or prejudice on the facts pleaded, assuming
they
are
true,
at
an
evidentiary
hearing.
Accordingly, this claim is dismissed.
"....
"Jones makes that same argument [that appellate
counsel was ineffective for not arguing that the
death penalty was unconstitutional due to his age
and mental capacity] with regard to his trial
counsel. ... Because Jones was eighteen years old
when he committed murder, he is eligible for the
death penalty and is due no relief under Roper [v.
Simmons, 543 U.S. 551 (2005)]. Accordingly, Jones
could not show at an evidentiary hearing that his
appellate counsel were deficient in deciding not to
raise an argument based on Roper. Likewise, Jones
would not show prejudice.
"....
"Jones alleges that his appellate counsel should
have argued on appeal that the trial court erred in
requiring him to establish at trial that his
statements to police were voluntary. This claim is
not facially meritorious.
"The record does not reflect that the trial
court required Jones to establish that his
statements were voluntary.
The trial court
instructed the defense to go forward with its motion
to suppress, but the court did not indicate that it
required Jones to prove that the statements were
voluntary.

81
App. 83

CR-13-1552
"For these reasons, Jones would be unable to
prove deficient performance or prejudice upon these
facts at an evidentiary hearing. Accordingly, this
claim is dismissed."
(R. 1265-68.)
The

We agree with the circuit court.

Batson

claim

and

the

claims

of

prosecutorial

misconduct have been addressed previously in this opinion and
found not to constitute error or, at the most, to constitute
harmless error.

Also, Jones was 18 years of age when he

committed the murder.

The United States Supreme Court in

Roper v. Simmons, 543 U.S. 551 (2005), held that it was
unconstitutional to execute a defendant for a crime that was
committed when the defendant was under the age of 18.

Thus,

the death penalty is not unconstitutional as applied to Jones.
Last, there is no indication that the trial court applied the
incorrect

standard

when

evaluating

Jones's statements to police.

the

admissibility

of

In fact, at the beginning of

the suppression hearing, Jones's counsel specifically stated:
"Judge, I believe when we filed the motion, the burden shifted
to the State."

(Trial R. 252-325.)

Regardless, on direct

appeal, this Court held that the statements were properly
admitted into evidence and that, even if error occurred, the
admission of the statements was harmless.
82
App. 84

Appellate counsel

CR-13-1552
cannot be ineffective for not raising on appeal an issue that
has no merit.
Therefore, summary dismissal of this claim was proper.
IV.
Jones argues that the State violated Brady v. Maryland,
373 U.S. 83 (1963), and Napue v. Illinois, 360 U.S. 264
(1959), when, he says, it suppressed evidence and knowingly
used false evidence at trial.7 Specifically, Jones alleged in
his amended petition that the State suppressed evidence of a
report regarding an interrogation that occurred before Jones
was advised of his rights under Miranda v. Arizona, 384 U.S.
436 (1966), and that, during this interrogation, Jones was
assaulted by police.

Jones further alleged that the State

knowingly used false testimony from Jones's mother, Jill
Whitsett, that she did not use drugs or alcohol despite the

7

Jones raised additional Brady violations in his amended
petition; however, he does not pursue those claims on appeal.
See Ferguson v. State, 13 So. 3d 418, 436 (Ala. Crim. App.
2008) ("[C]laims presented in a Rule 32 petition but not
argued in brief are deemed abandoned.").
83
App. 85

CR-13-1552
fact that Whitsett's husband had been prosecuted for the sale
of a controlled substance. 8
In dismissing these claims, the circuit court stated:
"[Jones] alleges that the State elicited false
testimony of a defense witness. Specifically, Jones
alleges that the prosecutor would have known that
the testimony of Jones's mother, Jill Whitsett, that
she did not use drugs or abuse alcohol was untrue,
because the State prosecuted Jill Whitsett's
husband, Demetrius Whitsett, for sale of a
controlled substance, and her husband was arrested
at her house. Jones cites Napue [v. Illinois, 360
U.S. 264 (1959)], which is distinguishable because
the prosecutor in Napue called a witness for the
State who falsely testified that he had received no
promise or consideration
in return for his
testimony, though in fact the prosecutor had
promised witness consideration, and the prosecutor
did nothing to correct false testimony of witness.
Napue, 360 U.S. at 265.
"The prosecutor was under no duty to provide
information on Demetrius Whitsett's prosecution,
especially considering Jill Whitsett was not the
State's witness. It is unclear based upon Jones's
pleading whether the prosecutor actually remembered
Demetrius Whitsett's prosecution at the time of
Jones's trial. But even if he did remember, simply
because Demetrius Whitsett sold drugs does not mean
that Jill Whitsett used drugs and alcohol. Jones
does not allege that the prosecutor or Jill Whitsett
were present when Demetrius Whitsett was arrested at
this home, and there is no allegation that the
prosecutor knew about Demetrius Whitsett's federal
prosecution.

8

We noted that Whitsett was called by Jones and not the
State.
84
App. 86

CR-13-1552
"[Jones] alleges that the State did not provide
'any report' of a police interrogation that occurred
the night Jones was arrested for capital murder.
However, Jones does not allege that any report
actually exists. The record shows that the State
provided
appropriate
discovery
regarding
the
interrogation of Jones, and the trial court heard
argument on whether the interrogation violated
Jones's constitutional rights.
The trial court
decided that Jones's rights were not violated."
(C. 1262-63.)

We agree with the circuit court.

"To prove a Brady violation, a defendant must
show:(1) that the prosecution suppressed evidence,
(2) that the evidence was of a character favorable
to the defense, (3) that the evidence was material
[or the defendant was prejudiced]."
Jefferson v. State, 645 So. 2d 313, 315 (Ala. Crim. App.
1994).
"'There is no Brady violation where the information
in question could have been obtained by the defense
through its own efforts.' Johnson [v. State], 612
So. 2d [1288] at 1294 [(Ala. Crim. App. 1992) ]; see
also Jackson v. State, 674 So. 2d 1318 (Ala. Cr.
App. 1993), aff'd in part and rev'd in part on other
grounds, 674 So. 2d 1365 (Ala. 1995). '"Evidence is
not 'suppressed' if the defendant either knew ... or
should have known ... of the essential facts
permitting him to take advantage of any exculpatory
evidence." United States v. LeRoy, 687 F.2d 610,
618 (2d Cir. 1982)[, cert. denied, 459 U.S. 1174,
103 S.Ct. 823, 74 L.Ed.2d 1019 (1983)].' Carr v.
State, 505 So. 2d 1294, 1297 (Ala. Cr. App. 1987)
(noting, 'The statement the appellant contends was
suppressed in this case was his own, and no reason
was set forth to explain why he should not have been
aware of it.'). Where there is no suppression of

85
App. 87

CR-13-1552
evidence, there is no Brady violation.
So. 2d at 1297."

Carr, 505

Freeman v. State, 722 So. 2d 806, 810–11 (Ala. Crim. App.
1998).
have

No Brady violation occurs when the facts alleged to

been

defendant.

suppressed

were

within

the

knowledge

of

the

Clearly, information that Jones was interrogated

and assaulted before he was advised of his Miranda rights was
information within Jones's knowledge.
"'[A] conviction obtained through use of false
evidence, known to be such by representatives of the
State, must fall under the Fourteenth Amendment....'
Napue v. Illinois, 360 U.S. 264, 269, 79 S.Ct. 1173,
3 L.Ed.2d 1217 (1959).
"[T]he knowing use of material false evidence by
the state in a criminal prosecution does violate due
process.
Giglio v. United States, 405 U.S. 150,
153, 92 S.Ct. 763, 766, 31 L.Ed.2d 104, 108 (1972);
Napue v. Illinois, 360 U.S. 264, 269, 79 S.Ct. 1173,
1177, 3 L.Ed.2d 1217, 1221 (1959); Mooney v.
Holohan, 294 U.S. 103, 112, 55 S.Ct. 340, 341–42, 79
L.Ed. 791, 794 (1935); Skipper v. Wainwright, 598
F.2d 425, 427 (5th Cir.) (per curiam), cert. denied,
444 U.S. 974, 100 S.Ct. 469, 62 L.Ed.2d 389 (1979).
This rule applies equally when the state, although
not soliciting perjured testimony, allows it to go
uncorrected after learning of its falsity. Giglio,
405 U.S. at 153, 92 S.Ct. at 766, 31 L.Ed.2d at 108;
Napu[e], 360 U.S. at 269, 79 S.Ct. at 1177, 3
L.Ed.2d at 1221. In addition, "[i]t is of no
consequence that the falsehood [bears] upon the
witness' credibility rather than directly upon [the]
defendant's guilt."
Napue, 360 U.S. at 269, 79
S.Ct. at 1177, 3 L.Ed.2d at 1221 (quoting People v.
Savvides, 1 N.Y.2d 554, 557, 136 N.E.2d 853, 854,
86
App. 88

CR-13-1552
154 N.Y.S.2d 885, 887 (1956)); see Giglio, 405 U.S.
at 154, 92 S.Ct. at 766, 31 L.Ed.2d at 108."
Williams v. Griswald, 743 F.2d 1533, 1541 (11th Cir. 1984).
"To prove a Giglio v. United States, 405 U.S. 150,
92 S.Ct. 763, 31 L.Ed.2d 104 (1972), violation [or
a Napue v. Illinois, 360 U.S. 264 (1959),
violation], the petitioner must show that: (1) the
State used the testimony; (2) the testimony was
false; (3) the State knew the testimony was false;
and (4) the testimony was material to the guilt or
innocence of the accused. Williams v. Griswald, 743
F.2d [1533] at 1542 [(11th Cir. 1984)]. '[T]he
defendant must show that the statement in question
was "indisputably false," rather than merely
misleading.' Byrd v. Collins, 209 F.3d 486, 517 (6th
Cir. 2000) (quoting United States v. Lochmondy, 890
F.2d 817, 823 (6th Cir. 1989)). 'The burden is on
the defendants to show that the testimony was
actually perjured, and mere inconsistencies in
testimony by government witnesses do not establish
knowing use of false testimony.'
Lochmondy, 890
F.2d at 822. '[I]t is not enough that the testimony
is challenged by another witness or is inconsistent
with prior statements, and not every contradiction
in fact or argument is material.' United States v.
Payne, 940 F.2d 286, 291 (8th Cir. 1991) (citing
United States v. Bigeleisen, 625 F.2d 203, 208 (8th
Cir. 1980)). '[T]he fact that a witness contradicts
himself or herself or changes his or her story does
not establish perjury.'
Malcum v. Burt, 276 F.
Supp. 2d 664, 684 (E.D. Mich. 2003) (citing Monroe
v. Smith, 197 F. Supp.2d 753, 762 (E.D. Mich.
2001))."
Perkins v. State, 144 So. 3d 457, 469–70 (Ala. Crim. App.
2012).

87
App. 89

CR-13-1552
Here, Whitsett's testimony that she did not use drugs or
alcohol was elicited by Jones's counsel, not the State, during
the penalty phase of the trial. Although Jones alleged in his
amended petition that the State knew the testimony was false
because Whitsett's husband had been arrested for the unlawful
distribution of a controlled substance, as the circuit court
pointed out, "simply because Demetrius Whitsett sold drugs
does not mean that Jill Whitsett used drugs and alcohol." (C.
1263.)

Nor

does

it

indicate

that

the

State

knew

that

Whitsett's testimony was false.
Therefore, summary dismissal of these claims was proper.
V.
Finally, Jones argues that the circuit court erred in
adopting the State's proposed order as its own.

He relies on

Ex parte Ingram, 51 So. 3d 1119 (Ala. 2010), and

Ex parte

Scott, 262 So. 3d 1266 (Ala. 2011), to support his argument.
"'Alabama courts have consistently held that even
when a trial court adopts verbatim a party's
proposed order, the findings of fact and conclusions
of law are those of the trial court and they may be
reversed only if they are clearly erroneous.'
McGahee v. State, 885 So. 2d 191, 229–30 (Ala. Crim.
App. 2003). '[T]he general rule is that, where a
trial court does in fact adopt the proposed order as
its own, deference is owed to that order in the same
measure as any other order of the trial court.' Ex
88
App. 90

CR-13-1552
parte Ingram, 51 So.3d 1119, 1122 (Ala. 2010). Only
'when the record before this Court clearly
establishes that the order signed by the trial court
denying postconviction relief is not the product of
the trial court's independent judgment' will the
circuit court's adoption of the State's proposed
order be held erroneous. Ex parte Jenkins, 105 So.3d
1250, 1260 (Ala. 2012)."
Riley v. State, 270 So. 3d 291, 297-98 (Ala. Crim. App. 2018).
In Ex parte Ingram, the Alabama Supreme Court found
reversible error in the circuit court's adoption of the
State's proposed order where the circuit court made patently
erroneous statements that it had personal knowledge of the
case and had "'presided over Ingram's capital murder trial and
personally observed the performance of both lawyers throughout
Ingram's trial and sentencing,'" 51 So. 3d at 1123 (citation
and emphasis omitted), when, in fact, it had not.

In Ex parte

Scott, the Alabama Supreme Court found reversible error in the
circuit

court's

adoption

of

the

State's

answer

to

the

petition, which, "by its very nature, is adversarial and sets
forth one party's position in the litigation." 262 So. 3d at
1274.
However, the circuit court's order here is not infected
with the errors that warranted reversal in Ex parte Ingram and
Ex parte Scott.

To the contrary, there is nothing in the
89
App. 91

CR-13-1552
order that suggests that it was not the product of the circuit
court's own independent judgment. Therefore, we find no error
in the circuit court's adoption of the State's proposed order.
VI.
Based on the foregoing, the judgment of the circuit court
summarily dismissing Jones's Rule 32 petition is affirmed.
AFFIRMED.
Windom, P.J., and McCool and Minor, JJ., concur. Cole,
J., recuses himself.

90
App. 92

AlaFile E-Notice

38-CC-2000-000353.60
Judge: TEH
To: HOWELL CARMEN FRANCIS
cfhowell@gmail.com

NOTICE OF ELECTRONIC FILING
IN THE CIRCUIT CRIMINAL COURT OF HOUSTON COUNTY, ALABAMA
STATE OF ALABAMA V. JONES ANTONIO DEVOE
38-CC-2000-000353.60
The following matter was FILED on 6/19/2014 9:04:38 PM

Notice Date:

6/19/2014 9:04:38 PM

CARLA H. WOODALL
CIRCUIT COURT CLERK
HOUSTON COUNTY, ALABAMA
114 NORTH OATES STREET
P.O. DRAWER 6406
DOTHAN, AL 36302
334-677-4859

App. 93

ELECTRONICALLY FILED
6/19/2014 9:04 PM
38-CC-2000-000353.60
CIRCUIT COURT OF
HOUSTON COUNTY, ALABAMA
CARLA H. WOODALL, CLERK

IN THE CIRCUIT COURT OF HOUSTON COUNTY, ALABAMA
ANTONIO DEVOE JONES,

)
)
)
)
)
)
)
)
)

Petitioner,
v.
STATE OF ALABAMA,
Respondent.

Case No. CC-2000-353.60

FINAL ORDER
Having considered the record on appeal in this case,
Petitioner Jones’s first and amended Rule 32, Ala. R. Crim.
P., petitions, the State’s answers, the State’s motion to
dismiss

the

amended

State’s

motion

to

petition,

dismiss,

the

and

oral

Court

argument

hereby

on

the

grants

the

State’s motion and summarily DISMISSES Jones’s amended Rule
32 petition.
INTRODUCTION
Jones

was

convicted

of

capital

murder

on

March

12,

2004, for the December 31, 1999 murder of Ruth Kirkland.
(R. 841-43.)
completion

of

Jones was sentenced to death.
his

direct

appeals,

Jones

Following the
timely

filed

a

petition for postconviction relief pursuant to Rule 32 of
the Alabama Rules of Criminal Procedure.

1
App. 94

In Jones’s amended petition, he alleges that instances
of deficient performance on the part of his trial counsel
rendered his trial fundamentally unreliable and that the
State failed to meet its discovery obligations at trial.
Jones filed his Rule 32 petition on January 23, 2009.
State filed an answer on February 25, 2009.

The

This Court

entered an order summarily dismissing the petition for lack
of

prosecution

on

reinstated

by

Jones

given

was

petition.

August

agreement
until

4,

of
May

2010.

the
2,

The

parties.
2011,

to

case

was

later

At

that

time,

file

an

amended

Jones later requested additional time to file an

amended petition and was given additional time, up to July
1, 2011.

However, Jones did not file an amended petition

by July 1, 2011.
On July 12, 2012, the Court set an evidentiary hearing
for

October

18,

2012,

in

getting the case moving.
misunderstood

as

having

this

case

for

the

purpose

of

The Court does not want to be
found,

implicitly

or

explicitly,

any of Jones’s claims to be facially meritorious simply
because an evidentiary hearing was set in this case.

The

Court is aware of the Alabama Supreme Court’s holding in Ex
parte McCall, 30 So. 3d 400, 404 (Ala. 2008). “By holding
2
App. 95

[an evidentiary] hearing, the trial court implicitly found
that the issues presented were material issues of law or
fact which would entitle McCall to relief, Rule 32.7(d)
[Ala.

R.

Crim.

P.],

and,

under

Rule

32.9(d),

the

trial

court therefore had a responsibility to make findings of
fact

as

to

each

of

those

issues.”

Id.

(brackets

quotation marks omitted; emphasis added).

and

However, this

Court has not held an evidentiary hearing in this case;
therefore,

McCall

does

not

apply,

and

Rule

32.9(d)’s

written-findings requirement has not triggered.
Jones

requested

a

continuance

hearing, which was granted.
29, 2012.

of

the

October

2012

A hearing was set for November

Jones again requested a continuance, and the

Court again granted his request.
Jones filed an amended Rule 32 petition on April 4,
2013.

The

State

answered

Jones’s

amended

petition

moved to summarily dismiss it on July 2, 2013.

and

The Court

heard argument on the State’s motion to dismiss on November
1, 2013.
For the reasons stated below, this Court grants the
State’s

motion

to

dismiss

and

hereby

DISMISSES

Jones’s

Amended Rule 32 Petition.
3
App. 96

LEGAL PRINCIPLES CONSIDERED
Rule 32.3 of the Alabama Rules of Criminal Procedure,
provides:
The petitioner shall have the burden of pleading
and proving by a preponderance of the evidence the
facts necessary to entitle the petitioner to
relief.
The state shall have the burden of
pleading any ground of preclusion, but once a
ground of preclusion has been pleaded, the
petitioner shall have the burden of disproving its
existence by preponderance of the evidence.
Further,

Rule

32.6(b)

of

the

Alabama

Rules

of

Criminal

Procedure provides:
The petition must contain a clear and specific
statement of the grounds upon which relief is
sought, including full disclosure of the factual
basis of those grounds. A bare allegation that a
constitutional right has been violated and mere
conclusions of law shall not be sufficient to
warrant any further proceedings.
To be entitled to an evidentiary hearing, a petition
must be meritorious on its face.
A
petition
for
[postconviction
relief]
is
“meritorious on its face” only if it contains a
clear and specific statement of the grounds upon
which relief is sought, including full disclosure
of the facts relied upon (as opposed to a general
statement concerning the nature and effect of
those facts), Thomas v. State, [274 Ala. 531, 150
So. 2d 387 (1963)]; Ex parte Phillips, 276 Ala.
282, 161 So. 2d 485 (1964); Stephens v. State, 420
So. 2d 826 (Ala. Crim. App. 1982), sufficient to
show that the petitioner is entitled to relief if
those facts are true.
4
App. 97

Ex parte Clisby, 501 So. 2d 483, 486 (Ala. 1986).
Rule

32.7(d),

Ala.

R.

Crim.

P.,

provides

for

the

summary disposition of a petition for postconviction relief
as follows:
If the court determines that the petition is not
sufficiently specific, or is precluded, or fails
to state a claim, or that no material issue of
fact or law exist which would entitle the
petitioner to relief under this rule and that no
purpose
would
be
served
by
any
further
proceedings, the court may either dismiss the
petition or grant leave to file an amended
petition.
The

United

States

Supreme

Court

in

Strickland

v.

Washington, 466 U.S. 668 (1984), set out a two-prong test
to

be

used

by

courts

in

assistance of counsel.

judging

claims

of

ineffective

First, a defendant must identify

the specific acts or omissions that he alleges were not the
result

of

reasonable

professional

judgment

on

counsel’s

part and show that these acts or omissions fall “outside
the

wide

range

Id. at 690.
that

“there

counsel’s

of

professionally

competent

If he meets this burden, he then must show
is

a

reasonable

unprofessional

probability

errors,

the

proceeding would have been different.”
reasonable

assistance.”

probability

is

a

that,
result

but

for

of

the

Id. at 694.

probability

sufficient

“A
to
5

App. 98

undermine confidence in the outcome.”

Id.; see Ex parte

Lucas, 865 So. 2d 418, 421 (Ala. 2002) (upholding the trial
court’s denial of a Rule 32 petition on the basis that
“‘when a simple reading of a Rule 32 petition shows that,
assuming the allegations of the petition to be true, it is
obviously

without

merit

summarily

dismiss

the

.

.

.

,

petition

the

trial

without

court

may

requiring

any

response from the State’”) (internal citation omitted).
In a Rule 32 proceeding, the petitioner has the burden
of pleading “a clear and specific statement of the grounds
upon which relief is sought, including full disclosure of
the factual basis for those grounds.”
32.3, 32.6(b).
petition

a

full

Ala. R. Crim. P.

Thus, the petitioner must include in his
disclosure

of

the

facts

that,

if

true,

would establish both deficient performance and prejudice.
If the petitioner fails to specifically plead these facts,
summary dismissal is appropriate.

See Bracknell v. State,

883 So. 2d 724, 727-28 (Ala. Crim. App. 2003).

Courts do

not have to consider the deficient performance prong if
they find that facts do not support the prejudice prong,
and vice versa.

See McWilliams v. State, 897 So. 2d 437,

441-42 (Ala. Crim. App. 2004).
6
App. 99

ANALYSIS
I.

INEFFECTIVE-COUNSEL CLAIMS
ATTORNEY CLARK PARKER

RELATED

SPECIFICALLY

TO

A. THE CLAIM THAT JONES WAS “SEVERELY PREJUDICED”
PARKER’S ALLEGED “ALCOHOL-RELATED IMPAIRMENT”

BY

Clark Parker was one of the two attorneys appointed to
represent Jones in his capital murder trial.

Jones argues

that Parker had an alcohol problem during the trial and
that

Parker

Jones.

was

impaired

during

(Am. Pet. at ¶¶ 15-22.)

his

representation

of

This claim is not facially

meritorious; therefore, this claim is dismissed.
The

United

States

District

Court

for

the

Northern

District Of Illinois examined a similar issue in United
States v. Lloyd, 983 F. Supp. 738, 742 (N.D. Ill. 1997).
Lloyd claimed that one of his two trial attorneys, F. Lee
Bailey,

was

district
assistance
counsel’s

drunk

court
due

during

held
to

alleged

portions

that
a

a

drunk

alcohol

claim

of

his

alleging

attorney
impairment

must

trial.

The

ineffective
allege

actually

how

caused

constitutionally deficient performance and prejudice.

Id.

at 743.
While Jones pleads in detail that Parker had an alcohol
problem, Jones does not plead that an act or omission by
7
App. 100

Parker was caused by Parker’s being drunk.

Accordingly,

Jones fails to plead sufficient facts to support a finding
of deficient performance.
with

adequate

Likewise, Jones does not plead

specificity

that

he

was

prejudiced

by

Parker’s allegedly impaired performance.
Furthermore, as the district court noted in Lloyd, 983
F. Supp. at 743, Lloyd had another attorney who he did not
allege was impaired by alcohol during trial.

Like Lloyd,

Jones

represented

had

a

second

attorney.

Tom

Brantley

Jones and actually served as Jones’s primary counsel.

This

fact weighed against a finding of a Strickland violation in
Lloyd, as it does here.

Id.

This claim is dismissed.

B. THE ALLEGATION THAT ATTORNEYS PARKER AND
LABORED UNDER AN ACTUAL CONFLICT OF INTEREST

BRANTLEY

Jones alleges that his trial counsel, Clark Parker and
Tom Brantley, were actually conflicted because Parker was
charged with DUI by Doug Valeska, who prosecuted Jones for
capital murder, and because Brantley represented Parker in
the DUI proceedings.

(Am. Pet. at ¶¶ 23-49.)

facts

proved

pleaded

evidence

at

were
an

evidentiary

by

a

Assuming the

preponderance

hearing,

Jones

of

the

would

not
8

App. 101

establish that his trial counsel were conflicted.
reasons

stated

below,

this

claim

is

not

For the
facially

meritorious; therefore, it is dismissed.
A

defendant

actual

conflict

represented
“made

a

claiming
must

show

conflicting

choice

that

his

“that

his

interests,”

between

possible

trial

or

counsel

counsel
that

an

actively

his

alternative

had

counsel

courses

of

action, such as eliciting (or failing to elicit) evidence
helpful to one client but harmful to the other.”

M.S. v.

State, 822 So. 2d 449, 453 (Ala. Crim. App. 2000) (internal
citation omitted).
Jones alleges that Parker — and Brantley, acting as
Parker’s lawyer — had an “incentive and duty” to protect
Parker’s interests.
also

had

interests.

an

Of course, as Jones’s lawyer, Brantley

“incentive

and

duty”

to

protect

Jones’s

The prosecution of Parker for DUI by the same

prosecutor who was prosecuting Jones does not itself give
rise to an actual conflict.
bald

allegation

that

his

Essentially, Jones makes a

trial

counsel

could

have

made

decisions against Jones’s interests to “curry favor” with
Doug Valeska.
an

agreement

However, Jones does not plead that there was
between

his

trial

counsel

and

Valeska

for
9

App. 102

trial

counsel

to

do

anything

in

exchange

treatment of Parker in his DUI case.

for

special

Nor does Jones plead

with adequate specificity that trial counsel actually did
something that was against Jones’s interests, or failed to
do something that would have benefited Jones, because of
the alleged conflict.
The

record

appropriate

shows

motions

that
on

represented him at trial.

Jones’s
his

trial

behalf

counsel

and

filed

adequately

For these reasons, this claim is

not facially meritorious and therefore is dismissed.

II.

CLAIMS ALLEGING THAT JONES’S TRIAL COUNSEL
INEFFECTIVE DURING THE GUILT PHASE OF HIS TRIAL

WERE

Jones alleges that his trial counsel were ineffective
during the guilt phase of his capital murder trial.
Pet.

at

¶¶

50-349.)

This

claim

is

meritorious; therefore, it is dismissed.
organized

in

several

subclaims,

independent claims for relief.

not

(Am.

facially

Jones’s claim is

which

are

considered

See, e.g., Washington v.

State, 95 So. 3d 26, 58 (Ala. Crim. App. 2012); Coral v.
State,

900

So.

2d

1274,

1284

(Ala.

Crim.

App.

2004),

overruled on other grounds by Ex parte Jenkins, 972 So. 2d
159

(Ala.

2005)

(both

recognizing

that

a

claim

of
10

App. 103

ineffective assistance of counsel is a general claim that
often consists of subcategories or subclaims and that each
subcategory

or

claim”).

subclaim

Therefore,

is

this

considered
Court

an

“independent

addresses

each

claim

individually.

A. THE CLAIM THAT TRIAL COUNSEL WERE INEFFECTIVE IN
ARGUING FOR THE SUPPRESSION OF JONES’S STATEMENTS TO
POLICE
Jones challenges his trial counsel’s effectiveness in
arguing for the suppression of his statements to police.
Jones first alleges that trial counsel should have argued
that

his

(1966),

rights
were

under

Miranda

violated

and

v.

Arizona,

second

alleges

coerced his statements by assaulting him.
¶¶ 55-72.)

384

U.S.

that

436

police

(Am. Pet. at

These allegations are not facially meritorious.

First, the record refutes Jones’s allegation that trial
counsel

did

violated.

argue

that

his

Miranda

rights

were

Trial counsel filed a pretrial motion requesting

suppression
grounds.

not

of

Jones’s

(C. 182-83.)

Furthermore,
Mirandized.

the

record

custodial

statements

on

The motion was denied.
shows

that

Jones

was

Miranda

(C. 257.)
properly

(R. 286-87.)
11
App. 104

The Alabama Court of Criminal Appeals reviewed Jones’s
Miranda

claim

for

plain

error

and

found

that

Jones

was

properly Mirandized and that his statements were voluntary
and properly admitted.

Jones v. State, 987 So. 2d 1156,

1162-65 (Ala. Crim. App. 2006).
plain

error

on

direct

appeal

Though a finding of no
does

not

automatically

foreclose Jones from arguing that he was prejudiced by his
counsel’s performance at the suppression hearing, the Court
of

Criminal

Appeals’

finding

is

relevant

here.

See

Ex

parte Taylor, 10 So. 3d 1075, 1078 (Ala. 2005) (“Although
it may be the rare case in which the application of the
plain-error test and the prejudice prong of the Strickland
test will result in different outcomes, a determination on
direct appeal that there has been no plain error does not
automatically foreclose a determination of the existence of
the prejudice required under Strickland to sustain a claim
of ineffective assistance of counsel.”).

Jones has not

alleged facts that, if true, would establish that his is a
“rare case.”
Second,

Id.
Jones

alleges

that

the

police

coerced

his

statements “by violently ramming his head into a door.”
(Am. Pet. at ¶ 67.)

He claims his trial counsel should
12
App. 105

have argued for exclusion of his statements on this ground.
This claim is not facially meritorious.
Jones fails to plead that his counsel knew or explain
why

they

police.

should

have

known

of

the

alleged

assault

by

See Alderman v. State, 647 So. 2d 28, 33 (Ala.

Crim. App. 1994) (noting that a petitioner alleging a claim
of

ineffective

assistance

must

plead

that

counsel

had

“knowledge of facts giving rise to the claim asserted”).
Jones argues that counsel should have interviewed him and
reviewed

the

transcript

complains of a headache.

of

his

statement

in

which

he

However, an assault like the one

described is not something that counsel would routinely ask
a client about.

There would have to be some reason to ask,

and Jones offers no reason other than the transcript in
which he complains of a headache.
even

if

the

facts

pleaded

are

This Court cannot find,
true,

that

trial

counsel

performed deficiently because they did not ask Jones why he
had a headache during a police interview.

Furthermore,

Jones does not allege that he told his counsel that his
statement to police was beaten out of him, something one
would

imagine

a

defendant

would

tell

his

counsel

in

a

capital murder trial.
13
App. 106

Finally, Jones alleges that his sister, Lakeisha Jones,
witnessed the alleged assault and could have told counsel
about it if only they had asked her, but again Jones does
not allege a reason why counsel should have asked Lakeisha
Jones

about

any

incident

involving

police

brutality.

Certainly, one would suspect that Lakeisha Jones would tell
Jones’s

trial

counsel

about

such

an

incident,

if

it

actually happened and she knew about it.
For the foregoing reasons, Jones’s allegations that his
trial counsel were constitutionally ineffective in moving
to suppress his statements are not facially meritorious.
Accordingly, these claims are summarily dismissed.

B. THE CLAIM THAT JONES’S TRIAL COUNSEL WERE INEFFECTIVE
FOR NOT ASSERTING HIS RIGHT TO A SPEEDY TRIAL
Jones
violated
trial

argues
because

counsel

¶¶ 73-80.)

that
he

did
This

his

right

awaited

not

assert

claim

is

to

trial
his

a

for

speedy
fifty

right.

not

trial

was

months

and

(Am.

facially

Pet.

at

meritorious;

therefore, it is dismissed.
There is no merit to Jones’s claim that he was denied
his right to a speedy trial.

“Counsel is not ineffective

for

issue

failing

to

object

to

an

that

has

no

merit.”
14

App. 107

Washington v. State, 95 So. 3d 26, 71 (Ala. Crim. App.
2012).

A

speedy

trial

motion

based

only

on

the

facts

pleaded in Jones’s amended petition would have been denied.
In Barker v. Wingo, 407 U.S. 514 (1972), the United
States Supreme Court set out factors to consider in judging
whether

a

defendant’s

right

to

speedy

trial

has

been

violated: (1) the length of the delay, (2) the reasons for
the delay, (3) the defendant’s assertion of his right to a
speedy

trial,

and

(4)

the

degree

of

prejudice

to

the

defendant.
Jones pleads only that there was a fifty-month delay in
his

trial.

However,

“the

length

of

delay

is

merely

a

starting point for a balancing of the remaining [Barker]
factors” and “is itself not dispositive.”
107 So. 3d 219, 227 (Ala. Crim. App. 2012).
explain the reasons for the delay.

Yocum v. State,
Jones does not

Rather, he makes a bald

allegation that the State is to blame.

(Am. Pet. at ¶ 75.)

Consequently, this claim is not facially meritorious and
therefore is dismissed.

15
App. 108

C. THE CLAIM THAT JONES’S TRIAL COUNSEL WERE INEFFECTIVE
FOR NOT SECURING A CHANGE OF VENUE
Jones alleges that his trial counsel were ineffective
in litigating his motion for a change of venue and that the
motion should have been granted because of “extensive media
saturation.”

(Am.

Pet.

facially meritorious.
Jones

argues

at

¶

83.)

This

claim

is

not

failed

to

Accordingly, it is dismissed.

that

his

trial

counsel

adequately voir dire potential jurors about their exposure
to

media

coverage,

and

that

they

motion for a change of venue.

failed

to

prepare

the

Assuming the facts pleaded

by Jones as true, Jones would not prove at an evidentiary
hearing

that

his

trial

counsel’s

performance

fell

below

professional standards or that he was entitled to a change
of

venue.

Therefore,

Jones

has

failed

to

plead

facts

sufficient to prove deficient performance and prejudice at
an evidentiary hearing.
Under

Alabama

Code

§

15-2-20(a),

a

defendant

is

entitled to a change of venue to another county only if he
can show to the reasonable satisfaction of the trial court
that a “fair and impartial” trial cannot be had in the
county in which the indictment is found.

Merely because

jurors are not totally ignorant of the facts and issues
16
App. 109

involved

in

this

particular

case

does

not

unbiased verdict could not be obtained.

mean

that

an

See Langham v.

State, 494 So. 2d 910, 913 (Ala. Crim. App. 1986).
First, Jones does not specifically plead what effective
trial

counsel

their

exposure

would
to

have

asked

media

prospective

coverage

responses would have been.

or

jurors

what

the

about

jurors’

Second, trial counsel presented

evidence in an attempt to show adequate negative pretrial
publicity to warrant a change of venue.

Jones does not

allege why trial counsel’s efforts on this front were not
constitutionally effective.

Rather, he alleges that trial

counsel could have done more in litigating the change-ofvenue

motion.

counsel

could

deficient

But,
have

even
done

performance.

if

Jones

more,

that

Furthermore,

is

right

that

trial

does

not

establish

the

media

coverage

Jones describes, if proved, would not establish that it was
impossible

for

Jones

to

receive

a

“fair

and

impartial”

trial in Houston County.
For these reasons, the facts pleaded in Jones’s amended
Rule 32 petition would not establish deficient performance
and prejudice at an evidentiary hearing.

Accordingly, this

claim is meritless on its face and is dismissed.
17
App. 110

D. THE CLAIM THAT TRIAL COUNSEL WERE INEFFECTIVE DURING
JURY SELECTION
Jones

argues

during

jury

failed

to

empanelled,

(1)

that

selection
prevent
(3)

prejudiced
a

that

trial

counsel’s

own

comments

him,

that

counsel

“death-prone”

counsel

failed

(2)
jury

to

from

ensure

being

that

the

prosecutor did not engage in racial discrimination during
jury selection, (4) that counsel failed to strike for cause
biased jurors, (5) that counsel did not utilize individual
voir dire for “sensitive” questioning, and (6) that counsel
failed to object to alleged prosecutorial misconduct during
jury selection.

(Am. Pet. at ¶¶ 113–153.)

For the reasons

stated below, these claims are meritless on their face;
therefore, they are dismissed.
When

reviewing

claims

of

ineffective

assistance

of

counsel related to counsel’s performance during voir dire
examination,

this

Court

counsel’s decisions.”

gives

“great

deference

to

the

Perkins v. State, No. CR-08-1927,

2012 WL 5381345, at *10 (Ala. Crim. App. Nov. 2, 2012).
“Counsel is accorded particular deference when conducting
voir

dire.

An

attorney’s

actions

during

voir

considered to be matters of trial strategy.”

dire

are

Id. (citing

Nguyen v. Reynolds, 131 F.3d 1340, 1349 (10th Cir. 1997))
18
App. 111

(citing
1995))
“Few

Teague

v.

(internal

decisions

individual

Scott,

60

quotation

at

trial

attorney

F.3d

marks

1167,
and

1172

(5th

ellipsis

are

as

subjective

strategy

as

juror

omitted).

or

voir

prone

dire,

decisions are often made on intangible factors.”
strategic

decision

cannot

be

the

basis

for

Cir.

a

to

where

Id.

“A

claim

of

ineffective assistance unless counsel’s decision is shown
to be so ill-chosen that it permeates the entire trial with
obvious unfairness.”
“Where

a

Id.

postconviction

motion

alleges

that

trial

counsel was ineffective for failing to raise or preserve a
cause

challenge,

juror

was

State,

actually

961

[Jones’s]

the

So.

claim

2d
of

defendant

biased.”
312,

must
Id.

324

ineffective

demonstrate

(citing

(Fla.

Carratelli

2007)).

assistance

that

of

a
v.

“Because
counsel

is

founded, [in part,] upon a claim that counsel failed to
strike a biased juror, [he] must show that the juror was
actually

biased

Francis,

269

against

F.3d

609,

him.”
616

Id.

(6th

(citing

Cir.

2001))

Miller

v.

(brackets

omitted).
“Seasoned trial counsel often decline to object for
strategic

purposes.

They

fear

that

frequent

objections
19

App. 112

irritate the jury and highlight the evidence complained of,
resulting in more harm than good.

Without evidence of the

reasons for trial counsel’s failure to object, a movant
does

not

overcome

the

presumption

that

the

failure

to

object was a strategic choice made by competent counsel.”
Ray v. State, 80 So. 3d 965, 995 (Ala. Crim. App. 2011)
(internal quotation marks and ellipses deleted).
1. The claim that Jones’s trial counsel rendered
ineffective assistance in comments about the
murder.
Jones argues that his trial counsel were ineffective
because they made the following comments during voir dire:
We all hate to pick up the paper or hear on the
news that someone in the community has been
murdered, much less an elderly lady.
I’m one of
those people.
I despise reading that.
It makes
me sick at my stomach and scares me.
I’m
wondering, you know, am I going to be next.
I’m
not
far.
Probably
already
am
a
senior
citizen. . . . We fear that we one day might be a
victim or our children might be a victim.
How
many of you . . . would convict Tony of capital
murder . . . simply out of fear that he may have
committed this or . . . simply out of fear that
you suspect he may have but not convinced beyond a
reasonable doubt?
There’s people that would do
that. I might be one of them.
(R. 147-49; Am. Pet. at ¶¶ 115–118.)
This

claim

is

meritless

on

its

face.

The

record

demonstrates that trial counsel’s comments were designed to
20
App. 113

ferret out potential jurors who may vote to convict Jones
based on fear and not the evidence in the case or the
appropriate

beyond-a-reasonable-doubt

allegation,

if

true,

would

performance

or

prejudice

at

standard.

not

establish

an

evidentiary

Jones’s
deficient
hearing.

Therefore, this claim is dismissed.
2. The claim that Jones’s trial counsel provided
ineffective assistance in failing to object to
“the prosecutor’s successful efforts to empanel a
conviction-prone, death-prone jury.”
Jones argues that his trial counsel were ineffective
for failing to object when the prosecutor asked the venire
during voir dire whether they “believe[d] that the death
penalty should be enforced in this state if the evidence
warrants it beyond a reasonable doubt and the aggravating
circumstances outweigh he mitigating circumstances?”
Pet.

at

¶¶

119–123,

citing

R.

64-65.)

This

(Am.

claim

is

meritless on its face.
The cases Jones cites do not prohibit the prosecutor’s
question here.
objection.

Jones’s trial counsel had no basis for an
Even

if

the

question

was

improper,

the

prosecutor asked the question to just one row of potential
jurors,

which

Lastly,

Jones

weighs
fails

to

against

a

identify

finding
actual

of

jurors

prejudice.
who

were
21

App. 114

“death-prone”

or

“conviction-prone.”

Jones

thus

cannot

show prejudice.
Consequently, this claim is meritless on its face and
therefore is dismissed.
3. The claim that Jones’s trial counsel provided
ineffective assistance in failing to object when
the trial court discharged struck jurors prior to
holding a Batson hearing.
Jones argues that his trial counsel were ineffective in
failing to object when the trial court dismissed potential
jurors who had been struck by the State before the court
conducted a Batson hearing.

(Am. Pet. at ¶¶ 124–129.)

He

also argues that dismissing jurors meant that they could
not be re-empanelled in the event that Batson relief were
awarded.
The

This claim is not facially meritorious.
record

shows

properly overruled.

that

Jones’s

Batson

objection

was

Thus, no jurors were due to be re-

empanelled, and Jones cannot show prejudice.

Furthermore,

had Batson relief been warranted, a new jury would have
been struck and Jones would not have had to go forward to
trial

with

a

discrimination.

jury
For

that

was

these

formed

reasons,

through
this

racial

claim

is

dismissed.

22
App. 115

4. The claim that Jones’s trial counsel rendered
ineffective assistance in failing to challenge
jurors for cause because they allegedly stated
that they could not be fair and impartial.
Jones argues that his trial counsel were ineffective in
failing to challenge Jurors S.W. and H.P. for cause because
they allegedly indicated that they could not be fair and
impartial.

(Am. Pet. at ¶¶ 130–137.)

Jones contends that

S.W. could not be fair and impartial because his sister was
murdered “nine or ten years” before Jones’s trial and that
H.P. could not be fair and impartial because he worked with
Officer Donovan Kilpatrick, who was one of the officers
involved

in

Jones’s

case.

This

claim

is

not

facially

meritorious; hence, it is dismissed.
Regarding counsel’s decision not to strike Juror S.W.,
the record shows that several prospective jurors disclosed
that they had friends or family who had been recent crime
victims, yet counsel did not move to strike for cause any
of these individuals.

Counsel apparently did not find this

to be a compelling reason to challenge a juror for cause.
Similarly,

counsel

apparently

chose

not

to

exercise

a

peremptory strike on S.W.

Though this Court does not know

the

did

reasons

why

counsel

not

strike

S.W.

venire, striking a jury is a matter of strategy.

from

the

Perkins,
23

App. 116

2012 WL 5381345, at *10.
would

show

that

Jones does not plead facts that

counsel’s

decision

here

was

objectively

unreasonable.
Concerning counsel’s decision not to strike Juror H.P.,
the record demonstrates that a challenge for cause would
have been overruled.

Trial counsel moved to strike for

cause the following jurors: Juror L.W., because she was the
warden

of

a

jail

where

Jones

was

housed;

Juror

J.S.,

because he was friends with trial counsel and the victim’s
son-in-law;

and

Juror

victim’s son-in-law.
challenge.

H.S.,

because

he

worked

with

the

Yet, the trial court overruled each

(R. 213-16.)

This Court finds that the trial

court likely would have overruled a challenge of H.P. for
cause because H.P. merely worked with Officer Kilpatrick.
For

these

reasons,

this

claim

is

not

facially

meritorious; therefore, it is dismissed.
5. The claim that trial counsel were ineffective for
failing to utilize individual voir dire for
“sensitive questioning.”
Jones

alleges

ineffective
jurors

about

¶¶ 138–139.)

that

assistance
their

his

by

prior

not

trial

counsel

individually

victimizations.

provided

questioning

(Am.

Pet.

at

This claim is not is facially meritorious.
24
App. 117

Jones alleges he was prejudiced by his trial counsel’s
questions about victimization because the jurors’ responses
“unscientifically suggested that burglary [— an aggravating
circumstance alleged in this case —] was rampant in Dothan
and played well into the prosecution’s later admonition to
the jury to send a message to the community.”
¶ 139.)

(Am. Pet. at

However, Jones does not allege that the responses

of potential jurors led any particular juror to believe
that

burglary

was

rampant

in

Dothan

prejudiced Jones in his trial.

or

how

that

belief

Also, counsel’s questions

were not objectively unreasonable.

Accordingly, this claim

is not facially meritorious and therefore is dismissed.
6. The claim that trial counsel were ineffective for
not objecting to alleged prosecutorial misconduct
during jury selection.
Jones alleges that his trial counsel were ineffective
for

not

objecting

misconduct.

to

instances

of

alleged

(Am. Pet. at ¶¶ 140–153.)

prosecutorial

This claim is not

facially meritorious.
Jones alleges that trial counsel should have objected
to alleged improper vouching by the prosecutor.
certain
effort

remarks
to

show

by

the

that

prosecutor

the

out

prosecutor

of

He takes

context

vouched

for

in

an

Jones’s
25

App. 118

guilt, but the record shows that the prosecutor did not
actually vouch for Jones’s guilt.
was a matter of trial strategy.
Counsel’s

decision

unreasonable,

and

not
the

to

facts

Whether to object here

See Ray, 80 So. 2d at 995.

object

was

pleaded

not

would

objectively

not

establish

prejudice.
As for the remaining allegations in this claim, the
prosecutor’s actions at most amounted to harmless error.
Again,

counsel

was

not

objectively

unreasonable

for

not

objecting, and even if the facts pleaded here are true,
Jones

would

not

establish

prejudice

at

an

evidentiary

hearing.

E. THE CLAIM THAT JONES’S TRIAL COUNSEL WERE INEFFECTIVE
IN INVESTIGATING AND PRESENTING A “COHERENT DEFENSE”
IN CLOSING ARGUMENTS
Jones contends that his trial counsel did not conduct
an adequate investigation and did not present a “coherent
defense” in closing arguments.

(Am. Pet. at ¶¶ 154-67.)

This claim is meritless on its face.
“‘Closing argument is an area where trial strategy is
most evident.’ . . . ‘Entirely satisfactory representation
may include a brief closing argument intended to focus the
26
App. 119

jury’s attention on a single item of strategy which counsel
deems

most

likely

to

achieve

a

favorable

verdict.’”

Washington, 95 So. 3d at 55 (citations omitted).
Here, Jones does not address the defense that trial
counsel actually presented, which was to argue that the
State had not met its burden of proof as to capital murder.
Jones alleges that trial counsel should have additionally
argued that he was not involved at all in the crime, but
Jones’s

own

statements
clearly

—

not

proved

to

that

mention
he

was

other

reliable

evidence

—

involved

in

the

murder.

These strategies clearly would not have affected

the outcome of Jones’s trial, and trial counsel certainly
was not objectively unreasonable in failing to employ them.
Accordingly,

Jones

performance

and

would

be

prejudice

evidentiary hearing.

unable
upon

to

these

prove

deficient

facts

at

an

As such, this claim is dismissed.

F. THE CLAIM THAT JONES’S TRIAL COUNSEL WAS INEFFECTIVE
FOR FAILING TO CHALLENGE THE ADMISSIBILITY AND
ACCURACY OF THE STATE’S DNA EVIDENCE
Jones alleges that his trial counsel were ineffective
for

failing

admissibility

to
of

assert
DNA

several

evidence

from

challenges
the

to

victim’s

the

blood,
27

App. 120

which

was

found

¶¶ 168-204.)
Jones

on

Jones’s

sweatpants.

(Am.

Pet.

at

This claim is not facially meritorious.

argues

that

trial

counsel

were

deficient

in

failing to demand a preliminary hearing to challenge the
admissibility

of

the

DNA

evidence,

but

a

hearing

is

unnecessary when there are no legitimate challenges to the
DNA evidence.

The record shows that a proper predicate was

laid for the introduction of DNA evidence.

None of the

arguments Jones raised would have resulted in the exclusion
of DNA evidence in this case.
Jones

also

argues

that

the

State

did

not

meet

admissibility requirements for DNA evidence because it did
not introduce any evidence of the rate of error for its
technique, but, as Jones admits in his amended petition,
the Alabama Court of Criminal Appeals has held that “the
absence of testimony regarding the factor [error rate] will
not, alone, render DNA evidence inadmissible.”

Lewis v.

State, 889 So. 2d 623, 672 (Ala. Crim. App. 2003).
Jones

also

argues

that

trial

counsel

should

have

challenged the chain of custody of the DNA evidence, but
Jones’s trial counsel would have been unsuccessful if they
had challenged the chain of custody.

As an initial matter,
28

App. 121

Jones does not contend that the alleged missing link in the
chain — Holli Spiers — would not have been able to provide
direct testimony had a challenge to the chain of custody
been made.
The State’s reliance on circumstantial evidence of the
chain of custody was adequate.
677

So.

2d

1240,

1245

(Ala.

See, e.g., Smith v. State,
Crim.

App.

1995)

(“If

the

State, or any other proponent of demonstrative evidence,
fails to identify a link . . . the result is a ‘missing’
link, and the item is inadmissible.

If, however, the State

has shown each link, but has done so with circumstantial
evidence, as opposed to the direct testimony of the ‘link,’
as to one or more criteria or as to one or more links, the
result

is

a

‘weak’

link.

When

the

link

is

‘weak,’

a

question of credibility and weight is presented, not one of
admissibility.”).

“In the absence of any evidence to the

contrary, the trial judge was entitled to assume that this
official would not tamper with the sack and can or their
contents.
produced,

Where
the

no

evidence

presumption

of

indicating

otherwise

regularity

supports

is
the

official acts of public officers, and courts presume that
they

have

properly

discharged

their

official

duties.”
29

App. 122

Thomas v. State, 824 So. 2d 1, 45-46 (Ala. Crim. App. 1999)
(overruled on other grounds by Ex parte Carter, 889 So. 2d
528 (Ala. 2004)).

Under these precedents, DNA evidence was

properly admitted in this case.
Jones further argues that effective trial counsel would
have

challenged

admissibility

under

Clause and the hearsay rules.

the

Confrontation

Specifically, Jones argues

that the Confrontation Clause was violated because Spiers —
the

laboratory

technician

who

cut

a

patch

containing

a

blood sample from Jones’s sweatpants that was subjected to
DNA

testing

—

did

not

testify.

However,

neither

the

Confrontation Clause nor the hearsay rules are implicated
where there is no testimonial evidence at issue.
v.

Washington,

547

U.S.

813,

824

(2006)

See Davis

(stating

that

Confrontation Clause jurisprudence is “applied only in the
testimonial
report.

context”).

Here,

Spiers

did

not

prepare

a

The State’s DNA expert, Phyllis Rollan, testified

at trial and was subject to cross-examination.

Hence, an

objection on these grounds would have been overruled.
Lastly, Jones argues that effective trial counsel would
have

objected

to

the

prosecutor’s

alleged

mischaracter-

ization of the statistical methods used in DNA testing.
30
App. 123

Jones

does

not

specifically

plead

what

trial

counsel’s

objection would have been or that the objection would have
been sustained.

Even if an objection had been sustained,

it would not have resulted in the exclusion of the DNA
evidence

itself.

Additionally,

the

jury

was

instructed

that the arguments of counsel are not evidence, and the
jury is presumed to follow instructions. See Burgess v.
State,

827

So.

2d

134,

162

(Ala.

Crim.

App.

1998).

Therefore, Jones cannot show prejudice.
For

these

reasons,

Jones

fails

to

plead

a

facially

meritorious claim; accordingly, this claim is dismissed.

G. THE CLAIM THAT JONES’S TRIAL COUNSEL FAILED TO
ADEQUATELY CHALLENGE THE STATE’S BLOOD SPATTER EXPERT
Jones alleges that his trial counsel were ineffective
for (1) failing to challenge Alabama Department of Forensic
Sciences expert Katherine McGeehan’s competence to testify
on

matters

adequately
retain

a

McGeehan’s

related

to

blood

cross-examine
blood

spatter

testimony.

spatter,

McGeehan,

and

expert

help

(Am.

Pet.

to
at

¶¶

(2)

failing

to

(3)

failing

to

in

challenging

205-230.)

This

claim is not facially meritorious.

31
App. 124

The record refutes this claim.

Initially, McGeehan did

not give unqualified expert testimony.

The record shows

that the State laid the proper predicate for McGeehan to
testify as an expert, and trial counsel also questioned her
about her qualifications in the specific areas that she was
testifying.

(R.

692-94.)

McGeehan

explained

her

qualifications, and there was no reason to challenge her
qualifications any further.
Jones criticizes his trial counsel’s cross-examination
of

McGeehan

for

making

reference

to

a

“stomp”

when

the

prosecutor said in his opening argument that the evidence
would show that the victim was “stomped.”
¶¶ 210-211.)

(Am. Pet. at

However, the record makes it clear that trial

counsel was not referring to a “stomp” on the victim, but
rather a “stomp” in a pool of blood that might have caused
the blood spatter on Jones’s clothes.
Regarding

Jones’s

argument

that

(R. 688-92.)
McGeehan

testified

inaccurately about “high velocity” bloodstains, McGeehan’s
testimony was that pinpoint bloodstains “can come from high
velocity” injuries and that they also could come from a
forceful

“stomp”

in

a

pool

of

blood.

(R.

688-89.)

McGeehan went on to testify that “[s]mall stains can come
32
App. 125

from another object moving at a high velocity being slung
off

in

various

methods.”

(R.

689.)

Eliciting

this

testimony was consistent with trial counsel’s strategy to
show that Jones may have been present at the murder scene
while someone else killed the victim.
Finally,

Jones

argues

that

his

trial

counsel

were

ineffective for not hiring a blood spatter expert.

More

specifically, he alleges that an expert would have “exposed
the errors in Ms. McGeehan’s opinions described above” and
would have assisted trial counsel in cross-examination of
McGeehan.

However, Jones does not specifically plead what

a blood spatter expert’s testimony would have been.
record

shows

that

there

were

no

errors

would

be

in

The

McGeehan’s

opinions.
For

these

reasons,

Jones

unable

to

prove

deficient performance and prejudice on these facts at an
evidentiary hearing.

As such, this claim is dismissed.

H. THE CLAIM THAT JONES’S TRIAL COUNSEL WERE INEFFECTIVE
FOR FAILING TO PROCURE A FINGERPRINT EXPERT
Jones argues that his trial counsel were ineffective in
failing to hire a fingerprint expert.

(Am. Pet. at ¶¶ 231–

234.) This claim is not facially meritorious.
33
App. 126

Jones does not plead with adequate specificity what
evidence a fingerprint expert would have presented or how
that evidence would have changed the outcome of his trial.
Additionally, Jones fails to identify a fingerprint expert
who was available to testify in his 2004 trial.

See, e.g.,

Yeomans v. State, No. CR-10-0095 2013 WL 1284361, at *7
(Ala.

Crim.

App.

Mar.

29,

2013)

(holding

postconviction

claim that trial counsel was ineffective for not procuring
expert

testimony

to

be

insufficiently

pleaded

where

petitioner “did not identify, by name, any expert who could
have

presented

pleading

of

that

a

specific

specific

testimony”).

expert

and

what

Specific

his

expected

testimony would be is important because “experts are not
fungible.”
1998).

State v. Delgado, 718 A.2d 437, 440 (Conn. App.

“There are many subjects about which experts with

apparently fungible qualifications can and do offer, with
comparably intense conviction, mutually exclusive views.”
Intermedics, Inc. v. Ventritex, Inc., 139 F.R.D. 384, 396
(N.D. Cal. 1991).
For
deficient

these

reasons,

performance

Jones

and

would

be

prejudice

at

unable
an

to

show

evidentiary

34
App. 127

hearing even if he proved the facts pleaded here to be
true.

Accordingly, this claim is dismissed.

I. THE CLAIM THAT JONES’S TRIAL COUNSEL WERE INEFFECTIVE
FOR FAILING TO CHALLENGE CHAIN OF CUSTODY FOR
EVIDENCE
Jones raises two allegations that his trial counsel
were

ineffective

for

failing

to

challenge

custody for evidence presented by the State.
¶¶ 235-237.)

the

chain

of

(Am. Pet. at

Neither allegation is facially meritorious.

First, Jones argues that his trial counsel should have
objected
offense.

to

the

release

of

the

victim’s

car

after

the

However, he fails to allege that trial counsel

knew about the release and could have objected in time to
prevent the release of the vehicle.
fails

to

plead

what

evidence,

if

Additionally, Jones
any,

would

have

been

obtained from the vehicle and how the evidence would have
affected the outcome of his trial.
Second, Jones argues that his trial counsel should have
objected

to

the

produced

by

police.

objection

been

admission

made,

of

a

crime

He

fails

to

the

State

could

links to the chain of custody.

scene

allege
not

videotape

that,
have

had

an

provided

Regarding prejudice, Jones
35

App. 128

argues

that

redacted,

the

videotape

enhanced,

or

“could

changed.”

have
(Am.

been

Pet.

at

altered,
¶

237.)

However, Sergeant Jim Stanley affirmed at trial that the
videotape “[h]adn’t been marked, altered, or changed in any
way.”

(R. 474-75.)

Assuming the facts pleaded here as true, Jones would
not

prove

deficient

evidentiary hearing.

performance

and

prejudice

at

an

Accordingly, this claim is dismissed.

J. THE ALLEGATION THAT JONES’S TRIAL COUNSEL WERE
INEFFECTIVE FOR FAILING TO STOP “UNQUALIFIED EXPERT
TESTIMONY”
Jones contends that his trial counsel were ineffective
for failing to object to: (1) the testimony of the victim’s
daughter, a nurse, who testified that blood becomes darker
in color and drier after leaving the body and that blunt
force trauma “could” cause a victim to urinate, and (2) the
testimony of the victim’s grandson, a police officer, who
also

testified

that

darker over time.

he

has

noticed

that

(Am. Pet. at ¶¶ 238–240.)

not facially meritorious.

blood

becomes

This claim is

(R. 382, 395-96.)

Rule 701 of the Alabama Rules of Evidence allows lay
testimony where the testimony is “(a) rationally based on
36
App. 129

the perception of the witness and (b) helpful to a clear
understanding

of

the

witness’s

testimony

determination of a fact in issue.”
witnesses

“was

knowledge

surrounding [the] murder.”

the

The testimony of both

[]rationally

perception . . . [and]

or

based
of

on

the

[their]

circumstances

Ex parte Sharp, No. 1080959,

2009 WL 4506564, at *7 (Ala. Dec. 4, 2009) (affirming where
nurse witness testified that the victim appeared to have
been raped) (citing Burke v. Tidwell, 101 So. 599 (1924)
(lay

witness

permitted

to

testify

that

a

person

was

“drunk”)).
The record shows that the State did not present the
nurse or the police officer’s testimony as Rule 702 expert
testimony and that the testimony was proper lay testimony;
therefore, Jones would not prove deficient performance and
prejudice based upon these facts, if they were presented at
an

evidentiary

hearing.

Consequently,

this

claim

is

dismissed.

37
App. 130

K. THE CLAIM THAT JONES’S TRIAL COUNSEL WERE INEFFECTIVE
FOR FAILING TO “GUARD AGAINST” THE INTRODUCTION OF
EXPERT TESTIMONY DESIGNED TO BOLSTER THE CREDIBILITY
OF ANOTHER WITNESS
Jones contends that trial counsel rendered ineffective
assistance by failing to object to the State’s introduction
of forensic scientist Katherine McGeehan’s testimony on the
ground

that

credibility
(Am.

Pet.

her
of

at

testimony

the

State’s

improperly
DNA

bolstered

expert,

¶¶

241-243.)

This

claim

for

improper

vouching

Phyllis
is

not

the

Rollan.
facially

meritorious.
The

test

is

whether

the

jury

could reasonably believe that the State or its witness was
indicating a personal belief in a witness’s credibility.
See United States v. Sims, 719 F.2d 375, 377 (11th Cir.
1983).

This test may be satisfied in two ways.

First, the

State may place the prestige of the government behind the
witness

by

making

witness’s veracity.
vouch

for

the

information

nor

Id.

McGeehan

veracity.

Id.

made

personal

assurances

of

the

Second, the State may implicitly

witness’s

not

testimony.

explicit

veracity

presented

to

by

the

indicating

jury

supports

that
the

The record shows that neither the State
personal

assurances

regarding

Rollan’s

The record also shows that neither the State nor
38
App. 131

McGeehan

suggested

the

existence

of

information

not

presented to the jury.
Additionally, the complained-of testimony amounted to,
at most, harmless error.
For these reasons, Jones would not establish deficient
performance

and

prejudice

based

upon

these

facts

at

an

evidentiary hearing; therefore, this claim is dismissed.

L. THE ALLEGATION THAT JONES’S TRIAL COUNSEL DID NOT
“ADEQUATELY INVESTIGATE” MALIK HASAN AND PREPARE FOR
HIS TESTIMONY
Jones alleges that trial counsel did not adequately
investigate and prepare for Malik Hasan’s testimony.
Pet. at ¶¶ 244-249.)

(Am.

The defense called Hasan in an effort

to show reasonable doubt as to Jones’s guilt in this case.
This claim is not facially meritorious.
Jones

fails

to

specifically

plead

what

his

trial

counsel should have done in its investigation of Hasan or
what additional testimony could have been presented through
Hasan.

He actually intimates that trial counsel should not

have called Hasan to testify at all.
to

call

counsel’s

Hasan

to

strategy

testify
to

However, the decision

was

consistent

with

establish

reasonable

doubt

trial
that
39

App. 132

someone

else

committed

the

murder.

Additionally,

Jones

does not plead facts that would show that calling Hasan
left the jury with a “binary choice” that either Jones or
Hasan committed the murder.
Accordingly,

(Am. Pet. at ¶ 248.)

Jones

would

not

prove

deficient

performance and prejudice upon these facts if they were
presented at an evidentiary hearing; therefore, this claim
is dismissed.

M. THE CLAIM THAT JONES’S TRIAL COUNSEL WERE INEFFECTIVE
BECAUSE THEY DID NOT CALL WITNESSES TO TESTIFY THAT
JONES WAS FASCINATED WITH CARS AND HAD A HISTORY OF
JOYRIDING
Jones alleges that his trial counsel were ineffective
for not calling at least one of six individuals who could
have testified in the guilt phase that he was fascinated
with cars and that he had a history of joyriding in cars
that he did not own.

(Am. Pet. at ¶¶ 250-262.)

This claim

is not facially meritorious.
Evidence of joyriding, like evidence of prior drug use,
is a “double-edged sword.”
1296

(11th

Cir.

2001).

murder during a robbery.

Housel v. Head, 238 F.3d 1289,
Jones

was

charged

with

capital

The State’s theory at trial was

that Jones robbed the victim of her car in the course of
40
App. 133

the murder.

Evidence of Jones’s love for joyriding and

fascination with cars “could [have] hurt as much as [it
could

have]

counsel

help[ed]

was

not

the

defense.”

objectively

Id.

unreasonable

Jones’s
for

trial

failing

to

present testimony that Jones enjoyed joyriding in cars or
was fascinated by cars.
For

these

reasons,

Jones

would

not

prove

deficient

performance and prejudice based upon these facts, if the
facts were proved at an evidentiary hearing; consequently,
this claim is dismissed.

N. THE CLAIM THAT JONES’S TRIAL COUNSEL
INVESTIGATE AND PREVENT JUROR MISCONDUCT

FAILED

TO

Jones alleges that his trial counsel were ineffective
for failing to voir dire Juror T.P. after T.P. approached
the prosecutor and attempted to speak to the prosecutor
during a break and because counsel’s objection to T.P.’s
possible
(Am.

Pet.

sleeping
at

¶¶

during

the

263-268.)

trial
This

was

claim

“half-hearted.”
is

not

facially

meritorious.
The record does not show that Juror T.P. actually spoke
to the prosecutor, and Jones does not allege otherwise.
Rather, Jones alleges that T.P. only attempted to speak to
41
App. 134

the prosecutor.

(Am. Pet. at ¶ 263.)

If T.P. never spoke

with the prosecutor, it was unnecessary for trial counsel
to voir dire T.P.

Furthermore, there was no prejudice in

failing to voir dire T.P.
With

regard

to

the

allegation

that

Juror

T.P.

was

asleep during trial, the record does not show — and Jones
does not allege — that T.P. was actually asleep at any
point

during

the

trial.

Rather,

the

record

shows

that

trial counsel objected when they thought that T.P. might be
asleep, and the trial judge overruled the objection, saying
“I don’t think he’s asleep.

He’s just resting his eyes.”

(R. 826.)
The facts pleaded in this claim, if true, would not
prove

deficient

performance

and

prejudice.

Accordingly,

this claim is dismissed.

O. THE CLAIM THAT JONES’S TRIAL COUNSEL WERE INEFFECTIVE
FOR FAILING TO OBJECT TO ALLEGED PROSECUTORIAL
MISCONDUCT
Jones

contends

ineffective
instances

that

assistance
of

¶¶ 269-318.)

his

in

trial

failing

prosecutorial

to

counsel
object

misconduct.

to

(Am.

provided
alleged
Pet.

at

This claim is not facially meritorious.
42
App. 135

“Objections
appellant
conduct

must
falls

are

a

matter

overcome
within

the
the

of

trial

strategy,

presumption
wide

and

an

that

‘counsel’s

of

reasonable

range

professional assistance,’ that is, the presumption that the
challenged

action

strategy.’”

‘might

be

considered

sound

trial

Moore v. State, 659 So. 2d 205, 209 (Ala.

Crim. App. 1994) (quoting Strickland, 466 U.S. at 687-88).
The transcript shows that none of the comments at issue
were actually improper.

Still, it is a matter of strategy

whether

to

to

object

even

improper

comments,

especially

where, like here, at most the comments were harmless error.
Assuming
establish

the

facts

deficient

evidentiary hearing.

pleaded

as

performance

true,
and

Jones

would

prejudice

at

not
an

Accordingly, this claim is dismissed.

P. THE CLAIM THAT JONES’S TRIAL COUNSEL WERE INEFFECTIVE
FOR FAILING TO OBJECT TO ALLEGED “PENALTY PHASE
EVIDENCE” PRESENTED DURING THE GUILT PHASE
Jones alleges that his trial counsel were ineffective
by failing to object to alleged victim impact testimony
during the guilt phase.

(Am. Pet. at ¶¶ 321-326.)

This

claim is not facially meritorious.

43
App. 136

“It is well settled that victim-impact statements are
admissible during the guilt phase of a criminal trial only
if the statements are relevant to a material issue of the
guilt phase.”
(Ala.

Crim.

citations

Gissendanner v. State, 949 So. 2d 956, 965
App.

2006)

omitted).

(quotation

Even

so,

marks

in

and

judging

internal

whether

a

defendant was prejudiced by such a statement, a court must
consider “the record as a whole” and decide whether “the
jury’s verdict was based on the overwhelming evidence of
guilt and was not based on any prejudice that might have
been engendered by the improper victim-impact testimony.”
Id.
The
impact

record

shows

testimony.

that

None

of

there
the

was

no

improper

witnesses

impact of the crime on their lives.

victim

described

the

See Stanley v. State,

No. CR–06–2236, 2011 WL 1604794, at *28 (Ala. Crim. App.
Apr. 29, 2011) (finding no victim impact testimony where
witness “did not describe the impact of the crime on her
life”) (vacated on grounds not relevant here).
testimony

did

not

distract

performing its duties.

the

jury

or

Still, the

keep

it

from

Therefore, these facts would not

44
App. 137

establish

deficient

performance

and

prejudice

at

an

evidentiary hearing, and this claim is dismissed.
Jones

also

alleges

that

his

trial

counsel

were

ineffective for not objecting to evidence of the brutality
of the murder offered during the guilt phase.
¶¶ 327-37.)

(Am. Pet. at

He argues that the evidence was not relevant

in the guilt phase because it was relevant in the penalty
phase to prove the Alabama Code § 13A-5-49(8) aggravating
circumstance
atrocious,

that
or

the

crime

cruel.”

was

This

“especially

claim

is

not

heinous,
facially

meritorious.
A prosecutor is allowed to make reasonable inferences
from facts in evidence.

See, e.g., Johnson v. State, No.

CR-99-1349, 2009 WL 3171220, at *19 (Ala. Crim. App. Oct.
2, 2009) (“During closing argument, the prosecutor, as well
as defense counsel, has a right to present his impressions
from

the

legitimate

evidence,

if

reasonable,

inference.”).

mere res gestae evidence.

The

and

may

complained-of

argue

every

evidence

was

Accordingly, Jones would not be

able to establish deficient performance and prejudice on
these facts at an evidentiary hearing.

Therefore, this

claim is dismissed.
45
App. 138

Q. THE CLAIM THAT JONES’S TRIAL COUNSEL WERE INEFFECTIVE
IN HOW THEY CHALLENGED THE BURLGARY ELEMENT OF THE
CAPITAL MURDER CHARGE
Jones alleges that his trial counsel were ineffective
for arguing that the State did not prove burglary because
nothing was taken from inside the victim’s home, where the
victim’s car was stolen from her carport.
¶¶ 338-349.)

(Am. Pet. at

This claim is not facially meritorious.

Jones cites no authority for his allegation that trial
counsel

is

constitutionally

deficient

for

argument that ultimately did not work.

pursuing

an

Trial counsel’s

decision to highlight that nothing within the victim’s home
was taken was entirely consistent with the defense’s theory
that Jones may have been at the murder scene, but did not
murder the victim.
For

these

reasons,

Jones

would

not

show

deficient

performance or prejudice upon these facts at an evidentiary
hearing.

Accordingly, this claim is dismissed.

R. JONES’S ASSERTION THAT HE WAS PREJUDICED BY TRIAL
COUNSEL’S ALLEGED ERRORS DURING THE GUILT PHASE
Jones asserts that he suffered prejudice due to trial
counsel’s alleged errors committed during the guilt phase.
(Am.

Pet.

at

¶¶

348–349.)

These

paragraphs

do

not
46

App. 139

represent an independent claim for relief.

However, to the

extent Jones intends them as such, they are dismissed.

III. CLAIMS ALLEGING THAT JONES’S TRIAL COUNSEL WERE
INEFFECTIVE DURING THE PENALTY AND SENTENCING PHASES OF
JONES’S TRIAL
Paragraphs 350 through 366 of Jones’s amended petition
appear

to

be

introductory

paragraphs

individual claims found in Claim III.

related

to

the

To the extent that

Jones intends these paragraphs to be independent claims,
they are dismissed.

A. THE CLAIM THAT JONES’S TRIAL COUNSEL WERE INEFFECTIVE
IN THEIR INVESTIGATION AND PRESENTATION OF MITIGATION
EVIDENCE
Jones alleges that his trial counsel were ineffective
in investigating and presenting mitigation evidence at the
penalty

phase.

(Am.

Pet.

at

¶¶

367-480.)

Jones

has

presented mitigation evidence in his amended petition that
was not presented by trial counsel at the penalty phase of
the trial.

Some of the evidence, he argues, could have

been presented through three family witnesses and clinical
psychologist Dr. Robert DeFrancisco, all of whom testified
at the penalty phase.

Other evidence, he alleges, could
47
App. 140

have

been

presented

through

additional

family

witnesses,

one of his former medical doctors, and a mitigation expert.
Assuming the facts pleaded as true, Jones would not show
deficient

performance

or

prejudice

at

an

evidentiary

hearing; therefore, this claim is not facially meritorious.
As

an

initial

matter,

Jones

cites

Guidelines

for

Association

(“ABA”)

appropriate

investigation

evidence in death cases.

into

the

American

Bar

conducting

potential

an

mitigating

As the Alabama Court of Criminal

Appeals recently held, “whether [a Rule 32 petitioner’s]
trial

attorneys’

investigation

into

potential

mitigating

evidence adhered to the ABA Guidelines is not dispositive
of

whether

counsel’s

investigation

was

reasonable.”

McWhorter v. State, No. CR–09–1129, 2011 WL 4511231, at *36
(Ala. Crim. App. Sept. 30, 2011).

The court in McWhorter

also held that the ABA Guidelines “may provide guidance as
to what is reasonable in terms of counsel’s representation,
but they are not determinative.”

Id. (quotation mark and

brackets omitted).
Moreover, the United States Supreme Court has stated:
Counsel
has
a
duty
to
make
reasonable
investigations or to make a reasonable decision
that makes particular investigations unnecessary.
A particular decision not to investigate must be
48
App. 141

directly assessed for reasonableness in all the
circumstances,
applying
a
heavy
measure
of
deference to counsel’s judgments.
Our principal
concern in deciding whether counsel exercised
reasonable professional judgment is not whether
counsel should have presented a mitigation case.
Rather, we focus on whether the investigation
supporting counsel’s decision not to introduce
mitigating evidence was itself reasonable. In
assessing counsel’s investigation, we must conduct
an objective review of their performance, measured
for reasonableness under prevailing professional
norms,
which
includes
a
context-dependent
consideration of the challenged conduct as seen
from counsel’s perspective at the time.
Wiggins v. Smith, 539 U.S. 510, 521–23 (2003) (brackets and
quotation marks omitted).
Jones

argues

investigation
unreasonable.
Bobby

v.

Van

that

into

the

mitigating

However,
Hook,

scope

130

as

his

evidence

the

S.

of

Supreme

Ct.

13,

trial
was
Court

19

counsel’s

objectively
stated

(2009),

in

while

rejecting a similar argument:
This is not a case in which the defendant’s
attorneys failed to act while potentially powerful
mitigating evidence stared them in the face, cf.
Wiggins, 539 U.S., at 525, 123 S. Ct. 2527, 156 L.
Ed. 2d 471, or would have been apparent from
documents any reasonable attorney would have
obtained, cf. Rompilla v. Beard, 545 U.S. 374,
389–393, 125 S. Ct. 2456, 162 L.Ed.2d 360 (2005).
It is instead a case, like Strickland itself, in
which defense counsel’s “decision not to seek
more” mitigating evidence from the defendant’s
background “than was already in hand” fell “well
within the range of professionally reasonable
judgments.”
49
App. 142

This is a case where additional mitigating evidence “would
barely have altered the sentencing profile presented to the
sentencing judge.”
trial

counsel

Strickland, 688 U.S. at 700.

investigated

his

social,

Jones’s

educational,

criminal, and medical histories and presented that evidence
in the penalty phase.
Jones’s mother, Jill Whitsett, was the first mitigation
witness called.

She testified (1) that Jones had no father

figure in the home, (2) that the family was poor and on
welfare, (3) that Jones had a brother who was born with
syphilis1 and later died, (4) that Jones took prescription
medication

for

hyperactivity

and

that

his

condition

improved with medication, (5) that Jones had difficulty in
school,

including

that

Jones

was

assigned

to

special

education classes and had a learning disability, (6) that
the

Alabama

Department

of

Human

Resources

(“DHR”)

was

called several times to investigate conditions at Jones’s
home, and (7) that Jones had a job.2

(R. 1349-64.)

1

The
sexually-transmitted
infection
“syphilis”
is
misspelled in the transcript as “Cephaelis,” which is
actually, according to Wikipedia, a plant.
2
It is worth noting that, at one point in Whitsett’s
testimony, she said, “I can’t do this,” and asked to be
excused. (R. 1356.)
50
App. 143

Edwina Culp, an adult education volunteer at a family
learning center, testified that she helped Jones study to
obtain a General Education Diploma (GED).
Jones’s test scores fluctuated.

Culp stated that

She gave her opinion that

hyperactivity and emotional conflict play heavy roles in a
student’s ability to retain information.

Regarding Jones’s

character, Culp testified that Jones was “kind,” “meek,”
“not aggressive,” and “not a troublemaker.”

(R. 1379.)

She also testified that Jones “cooperated” with

her and

would do what he was asked, “to the best of his ability.”
(Id.)

Last,

Culp

told

the

jury

that

Jones

performed

scholastically at a sixth- to eighth-grade level.
Marilyn
stated

that

Walker,
society

Jones’s
would

aunt,

testified

benefit

from

next.
Jones

sentenced to life without parole rather than death.

She
being
Walker

also testified that Jones was a “good person” and “nonviolent” so long as he took his medication.

(R. 1392-93.)

Lakeisha Jones, Jones’s sister, testified that Jones
could contribute positively as an inmate in prison.

Like

Walker, Lakeisha Jones testified that Jones was “helpful”
and “calmer” on his medication.

(R. 1402.)

Additionally,

Lakeisha Jones testified that her brother would “take up
51
App. 144

for [her]” because he did not want her to fight at school.
(R. 1401.)
Last,

trial

psychologist
Jones’s

Dr.

counsel
Robert

educational,

called

clinical

DeFrancisco,

social,

and

who

that

mentally
further

Jones’s

retarded
explained

IQ

placed

students
that,

and

in

his

testified

medical

Dr. DeFrancisco called Jones a “gap child.”
explained

forensic

him

problems.

(R. 1432.)

between

average
opinion,

to

educably

students.
the

He

He

education

system did not adequately educate “gap children.”

This

led,

“gap

in

his

opinion,

to

behavioral

problems

in

children” like Jones.
Dr. DeFrancisco testified that he had reviewed Jones’s
medical

records.

He

found

that

Jones

was

given

prescription medication for hyperkinesis, though he opined
that

medication

does

not

caused by hyperkinesis.

cure

the

(R. 1435.)

educational

problems

Dr. DeFrancisco also

opined that Jones could do well in a structured environment
like prison.

(R. 1443.)

In the sentencing order in this case, the trial court
considered

and

found,

in

addition

to

Jones’s

age,

the

following non-statutory mitigating circumstances:
52
App. 145

1.

The defendant was reared in a single-parent
home with no relationship with his father.

2.

The defendant was hyperactive as a child.

3.

The defendant’s family was visited
several times during his childhood.

4.

The defendant did not resist arrest.

5.

The defendant had learning disabilities as a
child and was a special education student.

6.

The defendant was reared
socio-economic scale.

7.

The
defendant
suffered
psychological problems.

in

by

lower

end

emotional

DHR

of
and

(C. 316-17.)
The mitigation evidence presented during the penalty
phase was the kind of evidence typically presented during
the penalty phase of a capital murder trial.

Jones’s trial

counsel selected mitigation evidence that “develop[ed] an
image of [Jones] as a human being who was generally a good
family man and a good public citizen, who had a background
of poverty but who had worked hard as a child and as an
adult to support his family and close relatives.”

Collier,

177 F.3d at 1202.
Furthermore, Jones alleges that his trial counsel were
ineffective

for

manufacturing

or

not

emphasizing

that

he

stuck

his
up

experience
for

his

in

sister

drug
by
53

App. 146

fighting other children on several occasions.

Evidence of

Jones’s history of violence or drug dealing was more likely
to hurt his case than help it.

See Wood v. Allen, 542 F.3d

1281, 1313 (11th Cir. 2008) (“[W]e have rejected prejudice
arguments where mitigation evidence would have opened the
door to damaging evidence.”); see, e.g., Lenz v. Warden of
Sussex

I

State

Prison,

593

S.E.2d

292,

304

(Va.

2004)

(calling evidence of history of drug dealing a “two edged
sword”).
Turning to prejudice, under Strickland, a defendant is
prejudiced by his counsel’s deficient performance if “there
is

a

reasonable

probability

that,

but

for

counsel’s

unprofessional errors, the result of the proceeding would
have been different.”

466 U.S. at 694.

facts

“show

that,

if

true,

that

but

Jones must allege
for

his

counsel’s

[alleged] deficiency, there is a reasonable probability he
would have received a different sentence.
probability,

we

consider

the

totality

of

To assess that
the

available

mitigation evidence — both that adduced at trial, and the
evidence adduced in the habeas proceeding — and reweigh it
against the evidence in aggravation.”

Porter v. McCollum,

54
App. 147

558

U.S.

30,

41

(2009)

(internal

quotation

marks,

citations, and brackets omitted).
As discussed above, the record shows that Jones’s trial
counsel presented a variety of mitigating evidence at the
penalty phase.

Jones argues that additional evidence

—

such as evidence of “beatings” Jones received and that he
lived in houses with cockroaches and rats — should have
been presented.

(Am. Pet. at ¶ 385.)

For purposes of its

analysis here, this Court assumes that Jones was indeed
subjected
houses

to

with

mitigating
trial.

corporal
pest

punishment

problems,

evidence

However,

that

this

along

and

that

with

all

he
of

lived
the

in

other

was

not

presented

at

Jones’s

Court

also

considers

the

strong

existence

of

three

aggravating evidence in this case.
The

trial

aggravating

court

found

circumstances:

the

(1)

the

capital

offense

was

committed during a burglary, (2) the capital offense was
especially heinous, atrocious, or cruel (“HAC”) compared to
other capital offenses, and (3) Jones was under a sentence
of

imprisonment

(C. 315.)
court

when

he

committed

the

capital

offense.

With regard to the HAC aggravator, the trial

specifically

noted

in

the

sentencing

order

that
55

App. 148

“Dr. Paredes testified that an 80-year-old disabled woman
was brutally beaten.

He established that these injuries

were painful and most preceded her death.

This type of

cruelty

and

was

unnecessary

given

the

infirmities experienced by the victim.”
Given

that

trial

counsel

age

physical

(Id.)

presented

appropriate

mitigating evidence and that there was serious aggravating
evidence in this case, there is no reasonable probability
that the outcome of Jones’s trial would have been different
had

trial

counsel

presented

the

additional

mitigating

evidence Jones discusses in his amended Rule 32 petition.
For these reasons, Jones would not establish deficient
performance

and

prejudice

evidentiary hearing.

upon

these

facts

at

an

Accordingly, this claim is dismissed.

B. THE CLAIM THAT JONES’S TRIAL COUNSEL WERE INEFFECTIVE
BECAUSE THEY FAILED TO RETAIN A FORENSIC PATHOLOGIST
Jones alleges that his trial counsel were ineffective
because they did not obtain the assistance of a forensic
pathologist.

(Am. Pet. at ¶¶ 481-483.)

This claim is not

facially meritorious.
Jones

fails

to

specifically

plead

what

a

forensic

pathologist’s testimony would have been at trial.

Nor does
56

App. 149

he

identify

a

forensic

pathologist

available for his trial.
is

especially

who

would

have

been

Identifying an available expert

important

to

“experts are not fungible.”

a

prejudice

analysis

because

Delgado, 718 A.2d at 440; see

Intermedics, 139 F.R.D. at 396 (“There are many subjects
about which experts with apparently fungible qualifications
can

and

do

offer,

with

comparably

intense

conviction,

mutually exclusive views.”).
Furthermore, the record shows that the State’s forensic
pathologist was subjected to meaningful cross-examination
by trial counsel.
For

these

performance

reasons,

and

Jones

prejudice

would
upon

not
these

prove

deficient

facts

at

an

evidentiary hearing; hence, this claim is dismissed.

C. THE CLAIM THAT JONES’S TRIAL COUNSEL WERE INEFFECTIVE
FOR NOT CHALLENGING THE CHAIN OF CUSTODY OF THE
VICTIM’S BODY
Jones alleges that his trial counsel were ineffective
for not challenging the chain of custody of the victim’s
body before autopsy reports and other testimony regarding
the victim’s injuries were admitted into evidence.

(Am.

57
App. 150

Pet.

at

¶¶

484-485.)

This

claim

is

not

facially

meritorious.
First, Jones fails to plead facts that would show that
his

trial

counsel

were

unreasonable

challenge chain of custody.

in

deciding

not

to

Trial counsel had no reason to

suspect that there was a problem with chain of custody, and
Jones does not allege that the State would have been unable
to establish chain of custody.
“it

is

plausible

that

certain

Second, Jones avers that
of

the

injuries

or

marks

sustained by Ms. Kirkland’s body were incurred during the
transportation process.”
Jones

does

not

allege

(Am. Pet. at ¶ 485.)
that

any

injuries

or

However,
marks

were

created during transportation, nor does he allege evidence
of prejudice.
For

these

reasons,

Jones

would

be

unable

to

show

deficient performance and prejudice on these facts at an
evidentiary hearing; therefore, this claim is dismissed.

D. THE CLAIM THAT JONES’S TRIAL COUNSEL WERE INEFFECTIVE
FOR FAILING TO OBJECT TO INSTANCES OF ALLEGED
PROSECUTORIAL MISCONDUCT DURING THE PENALTY PHASE
Jones contends that his trial counsel were ineffective
for

failing

to

object

to

multiple

instances

of

alleged
58

App. 151

prosecutorial misconduct during the penalty phase.
Pet. at ¶¶ 486-509.)

(Am.

Specifically, Jones argues that his

trial counsel should have objected (1) “when the prosecutor
unlawfully infringed upon Mr. Jones’ right against selfincrimination, (2) misstated the law, (3) argued facts not
in

evidence,

(4)

relied

on

nonstatutory

aggravating

circumstances, and (5) made inflammatory remarks.”
486.)

At

most,

misconduct

were

the

alleged

harmless

instances

errors.

of

This

(Id. at

prosecutorial
claim

is

not

facially meritorious.
First, the prosecutor did not impermissibly comment on
Jones’s right to remain silent.

(Am. Pet. at ¶ 488.)

The

record reflects that the prosecutor was asking the jury to
consider

Jones’s

physical

reaction

to

another witness, which is permissible.

the

testimony

of

See James v. State,

564 So. 2d 1002 (Ala. Crim. App. 1989) (holding that a
defendant’s conduct or demeanor during trial is a proper
subject of comment); Haywood v. State, 501 So. 2d 515 (Ala.
Crim. App. 1986) (same); Wherry v. State, 402 So. 2d 1130
(Ala. Crim. App. 1981) (same).
Second,
regarding

the

prosecutor

mitigating

did

evidence.

not
Jones

misstate

the

law

argues

that

the
59

App. 152

prosecutor

misstated

the

law

in

telling

the

jury

that

evidence of Jones’s low intelligence and evidence that he
did not have a father in his home were “excuses.”
Pet. at ¶ 489.)

(Am.

However, “[t]he prosecutor has the right

to argue his opinion from the record.”

Henderson v. State,

584 So. 2d 841, 857 (Ala. Crim. App. 1988).

The jury was

properly instructed that the arguments of counsel were not
evidence, and the trial court properly instructed the jury
on

the

law

regarding

the

balancing

of

aggravating

and

mitigating circumstances.
Third, Jones alleges that trial counsel should have
objected to the prosecutor’s mentioning that the victim’s
grandson

was

a

police

officer,

that

Jones

had

filed

federal lawsuit, and that Jones used curse words.
Pet.

at

¶¶

493-500.)

Jones

argues

that

these

constituted impermissible aggravating evidence.

a

(Am.

comments
Yet, the

record shows that the prosecutor did not rely on any of
these comments in arguing aggravating circumstances to the
jury.

Again,

the

jury

was

properly

instructed

on

aggravating and mitigating circumstances.
Fourth, Jones alleges that trial counsel should have
objected

to

Dr.

Paredes’s

penalty-phase

testimony

as
60

App. 153

cumulative.

(Am.

Pet.

at

¶¶

501-509.)

However,

this

objection would have been overruled because the testimony
was relevant to the HAC aggravator, which the State had the
burden of proving at the penalty phase.
Fifth, contrary to Jones’s arguments, the prosecutor’s
questioning

of

Dr.

Paredes

regarding

other

capital

defendants and their crimes was appropriate and relevant to
the HAC aggravator.
For these reasons, Jones would not establish deficient
performance

and

prejudice

at

an

evidentiary

hearing;

accordingly, this claim is dismissed.

E. THE CLAIM THAT JONES’S TRIAL COUNSEL WERE INEFFECTIVE
FOR FAILING TO REQUEST APPROPRIATE JURY INSTRUCTIONS
ON MITIGATING FACTORS
Jones alleges that additional jury instructions would
have

been

necessary

additional

mitigating

(Am.

at

Pet.

¶¶

had

trial

evidence

510-512.)

counsel

presented

the

discussed

in

Claim

III.A.

However,

for

the

reasons

discussed above, assuming the facts pleaded in Claim III.A
as

true,

presenting
additional

trial

counsel

additional
mitigating

was

not

mitigating
evidence

was

ineffective
evidence.
not

for

not

Because

presented,

trial
61

App. 154

counsel cannot be held responsible for not asking for an
instruction on additional evidence.
For

these

performance

reasons,

and

Jones

prejudice

would
upon

not
these

prove

deficient

facts

at

an

evidentiary hearing; hence, this claim is dismissed.

F. THE CLAIM THAT JONES’S TRIAL COUNSEL WERE INEFFECTIVE
FOR FAILING TO ARGUE THAT HE IS INELIGIBLE FOR THE
DEATH PENALTY DUE TO HIS AGE AND MENTAL ABILITIES
Jones alleges that his trial counsel were ineffective
for not arguing that he is ineligible for the death penalty
due

to

his

age

and

mental

abilities,

Simmmons, 543 U.S. 551, 569 (2005).
520.)

under

Roper

v.

(Am. Pet. at ¶¶ 513-

This claim is not facially meritorious.

First,

Roper

was

not

decided

until

the

year

after

Jones’s trial; hence, it was unavailable to trial counsel.
Second, “Roper established a bright-line demarcation [under
the age of 18] for application of the standard announced
therein, rather than a standard which could be applied to a
defendant’s

‘mental

age’

on

a

case-by-case

basis.”

Thompson v. State, No. CR–05–0073, 2012 WL 520873, at *79
(Ala. Crim. App. Feb. 17, 2012) (quoting State v. Campbell,
983 So. 2d 810, 830 (La. 2008)).

Because Jones was not
62

App. 155

under eighteen when he committed the murder, he is clearly
eligible for the death penalty, under Roper.
For

these

performance

reasons,

and

Jones

prejudice

would

upon

not

show

these

deficient

facts

at

an

evidentiary hearing; consequently, this claim is dismissed.

IV. JONES’S ALLEGATIONS THAT THE STATE DID NOT MEET ITS
DISCOVERY OBLIGATIONS
Jones

contends

that

the

State

did

not

meet

its

discovery obligations, in violation of Brady v. Maryland,
373 U.S. 83, 87 (1963).

(Am. Pet. at ¶¶ 521-546.)

He also

argues that the State violated Napue v. Illinois, 360 U.S.
264, 270 (1959), by relying on allegedly false testimony of
a witness for the defense.
These

claims

are

procedurally

barred

under

Rules

32.2(a)(3) and (a)(5) because they could have been, but
were

not,

raised

at

trial

or

on

direct

appeal.

See

McWhorter, 2011 WL 4511231, at *58 (“Rule 32.2(a)(3) and
(5)

[of

preclude

the

Alabama

Pierce’s

Rules

[Brady]

of

Criminal

claim

if

it

Procedure]
could

have

would
been

raised at trial or on appeal.”) (quoting Ex parte Pierce,
851 So. 2d 606, 614 (Ala. 2000)).

63
App. 156

In the event that an appellate court disagrees with
this Court’s application of the procedural bars here, this
Court

also

finds

that

none

of

Jones’s

allegations

are

facially meritorious.
Claim
testimony
alleges

IV.A
of

alleges

a

that

that

defense

the

the

State

witness.

prosecutor

would

elicited

false

Specifically,

Jones

have

known

that

the

testimony of Jones’s mother, Jill Whitsett, that she did
not

use

State

drugs

or

abuse

prosecuted

Jill

Whitesett,
husband

was

for

sale

arrested

of
at

alcohol

was

Whitsett’s
a

controlled

her

house.

untrue,

because

husband,
substance,
Jones

the

Demetrius
and

cites

her

Napue,

which is distinguishable because the prosecutor in Napue
called a witness for the State who falsely testified that
he had received no promise of consideration in return for
his testimony, though in fact the prosecutor had promised
witness consideration, and the prosecutor did nothing to
correct false testimony of witness.

Napue, 360 U.S. at

265.
The prosecutor was under no duty to provide information
on Demetrius Whitsett’s prosecution, especially considering
Jill Whitsett was not the State’s witness.

It is unclear
64

App. 157

based upon Jones’s pleading whether the prosecutor actually
remembered Demetrius Whitsett’s prosecution at the time of
Jones’s trial.
Demetrius

But even if he did remember, simply because

Whitsett

sold

drugs

does

Whitsett used drugs and alcohol.
that

the

prosecutor

or

Jill

not

mean

that

Jill

Jones does not allege

Whitsett

were

present

when

Demetrius Whitsett was arrested at his home, and there is
no

allegation

that

the

prosecutor

knew

about

Demetrius

Whitsett’s federal prosecution.
Claim IV.B alleges that the State did not provide “any
report” of a police interrogation that occurred the night
Jones

was

¶ 536.)

arrested

for

capital

murder.

(Am.

Pet.

at

However, Jones does not allege that any report

actually exists.

The record shows that the State provided

appropriate discovery regarding interrogation of Jones, and
the trial court heard argument on whether the interrogation
violated Jones’s constitutional rights.

The trial court

decided that Jones’s rights were not violated.
Claim

IV.C

alleges

that

the

State

impermissibly

withheld statements of other suspects, but Jones fails to
plead what information is in the alleged statements.

Claim

IV.D alleges that the State withheld audio or transcript
65
App. 158

copies

of

Officer

scene,

but

Jones

Parrish’s
does

not

radio

plead

calls

the

at

content

the
of

murder
Officer

Parrish’s alleged radio calls or how they qualify as Brady
evidence.

Claim

IV.E

alleges

that

the

State

withheld

fingerprint evidence, but Jones fails to plead that there
actually was any fingerprint evidence withheld or what it
would prove.

Claim IV.F alleges that the State withheld

evidence of police interviews of restaurant employees who
could rebut the evidence of blood on Jones’s clothing, but
Jones fails to plead the content of the alleged interviews
and how the interviews would have been discoverable under
Brady.
For these reasons, this Court finds that Jones’s claims
are not facially meritorious.

V.

ALLEGATIONS OF INEFFECTIVE
APPELLATE COUNSEL
Jones

raises

several

ASSISTANCE

allegations

of

OF

JONES’S

ineffective

assistance of appellate counsel in paragraphs 547 through
583 of his amended Rule 32 petition.

The claims are not

facially meritorious.

66
App. 159

A. THE CLAIM THAT JONES’S APPELLATE COUNSEL FAILED TO
RAISE “NUMEROUS MERITORIOUS ISSUES ON DIRECT APPEAL”
1. Jones’s claim that his appellate counsel were
ineffective for failing to pursue a Batson v.
Kentucky, 476 U.S. 89 (1986), claim on direct
appeal.
This claim is contained in paragraphs 551 through 567
of Jones’s amended Rule 32 petition.

This claim is not

facially meritorious.
As the United States Supreme Court stated in Jones v.
Barnes, 463 U.S. 745, 746 (1983):
Experienced
advocates
have
emphasized
the
importance of winnowing out weaker arguments on
appeal and focusing on one central issue if
possible, or at most on a few key issues.
Selecting the most promising issues for review has
assumed a greater importance in an era when the
time for oral argument is strictly limited in most
courts and when page limits on briefs are widely
imposed.
The record does not establish that purposeful racial
discrimination occurred during jury selection, so appellate
counsel is not deficient for deciding not to raise Batson
on

direct

appeal.

However,

Jones

raised

Batson

in

his

petition for a writ of certiorari in the Alabama Supreme
Court.

In capital cases, the Alabama Supreme Court has

granted certiorari on a Batson issue, even when the issue
was not raised in the Court of Criminal Appeals.

See,
67

App. 160

e.g., Ex parte Sharp, No. 1080959, 2009 WL 4506564, at *10
(Ala.

Nov.

4,

2009).

Appellate

counsel

did

not

waive

Jones’s Batson argument by failing to raise it in the Court
of Criminal Appeals.
Additionally, the Alabama Supreme Court often grants
certiorari on Batson issues raised in cert petitions filed
by death-row inmates.

See, e.g., id.; Ex parte Floyd, No.

1080107, 2012 WL 4465562 (Ala. Sept. 28, 2012); Ex parte
Smith, No. 1080973, 2010 WL 4148528 (Ala. Oct. 22, 2010);
Ex parte Walker, 972 So. 2d 737 (Ala. 2007).

However, the

Alabama Supreme Court did not grant Jones’s petition for a
writ

of

certiorari.

It

is

noteworthy

that

the

Batson

arguments he puts forth in his amended Rule 32 petition are
virtually

identical

to

the

arguments

presented

to

and

passed over by the Alabama Supreme Court.
For

these

reasons,

Jones

would

not

prove

deficient

performance and prejudice on these facts, if true, at an
evidentiary hearing.
2. Jones’s claim that his appellate counsel were
ineffective
for
deciding
not
to
raise
prosecutorial misconduct claims.
Jones references other portions of his amended petition
in which he argues that prosecutorial misconduct occurred.
68
App. 161

(Am. Pet. at ¶¶ 568-569.)
Sections

II.O,

II.D.2,

Specifically, Jones references

II.D.6,

amended Rule 32 petition.

II.P,

and

III.D

of

his

In the sections of this order

that correspond to those sections, this Court finds that
there was no prosecutorial misconduct, or if there was, it
was harmless.

For those reasons, this Court finds that

Jones would not prove deficient performance of trial or
appellate
assuming

counsel
they

or

are

prejudice
true,

at

on
an

the

facts

pleaded,

evidentiary

hearing.

Accordingly, this claim is dismissed.
3. Jones’s claim that his appellate counsel were
ineffective for deciding not to argue that it
would be unconstitutional to execute him due to
his age and mental capacity.
Jones makes that same argument here with regard to his
appellate

counsel

as

he

made

counsel in Claim III.F.
discussed

above,

with

regard

to

his

(Am. Pet. at ¶¶ 570-576.)

“Roper

established

a

trial
As

bright-line

demarcation [under the age of 18] for application of the
standard announced therein, rather than a standard which
could be applied to a defendant’s ‘mental age’ on a caseby-case basis.”

Thompson, 2012 WL 520873, at *79 (quoting

Campbell, 983 So. 2d at 830).

Because Jones was eighteen

years old when he committed murder, he is eligible for the
69
App. 162

death

penalty

and

is

due

no

relief

under

Roper.

Accordingly, Jones would not show at an evidentiary hearing
that his appellate counsel were deficient in deciding not
to raise an argument based on Roper.

Likewise, Jones would

not show prejudice.

B. THE CLAIM THAT JONES’S APPELLATE COUNSEL FAILED TO
ARGUE THAT THE TRIAL COURT ERRED IN IMPROPERLY
REQUIRING
THE
DEFENSE
TO
ESTABLISH
THAT
HIS
STATEMENTS WERE VOLUNTARY
Jones alleges that his appellate counsel should have
argued on appeal that the trial court erred in requiring
him to establish at trial that his statements to police
were voluntary.

(Am. Pet. at ¶¶ 577-581.)

This claim is

not facially meritorious.
The

record

required

Jones

voluntary.

does
to

not

reflect

establish

that

that

his

the

trial

statements

court
were

The trial court instructed the defense to go

forward with its motion to suppress, but the court did not
indicate

that

it

required

Jones

to

prove

that

the

statements were voluntary.
For

these

reasons,

Jones

would

be

unable

to

prove

deficient performance or prejudice upon these facts at an
evidentiary hearing.

Accordingly, this claim is dismissed.
70
App. 163

C. JONES’S ALLEGATION THAT HE WAS PREJUDICED
APPELLATE COUNSEL’S ALLEGED ERRORS
At

the

conclusion

of

Jones’s

BY

HIS

ineffective-appellate-

counsel claim, he alleges that he was prejudiced by his
appellate counsel’s failures.

(Am. Pet. at ¶¶ 582-583.)

This section of Jones’s amended petition does not represent
an independent claim for relief.

To the extent that Jones

intends it as such, it is dismissed.

CONCLUSION
Jones is not entitled to either an evidentiary hearing
or relief on any of the claims in his amended Rule 32
petition because the claims are procedurally barred from
review under Rule 32.2(a) of the Alabama Rules of Criminal
Procedure, fail to state a facially meritorious claim under
Rule 32.7(d), or fail to meet the specificity in pleading
requirements of Rules 32.3 and 32.6(b).
Jones

was

properly

sentenced to death.

convicted

of

capital

murder

and

He received a fair trial and is not

entitled to any relief from his capital murder conviction
or death sentence.

71
App. 164

Accordingly,

this

Court

hereby

summarily

DISMISSES

Jones’s entire amended petition for relief pursuant to Rule
32 of the Alabama Rules of Criminal Procedure.
DONE THIS THE 19th day of June, 2014.

/s/ Thomas E. Head, III
CIRCUIT JUDGE

72
App. 165

ELECTRONICALLY FILED
4/4/2013 11:01 PM
38-CC-2000-000353.60
CIRCUIT COURT OF
HOUSTON COUNTY, ALABAMA
CARLA H. WOODALL, CLERK

IN THE CIRCUIT COURT FOR HOUSTON COUNTY, ALABAMA

ANTONIO DEVOE JONES,
Petitioner,

*
*

v.

*

STATE OF ALABAMA,

*

Respondent

No. CC-2000-353.60

*

AMENDED PETITION FOR RELIEF FROM JUDGMENT
PURSUANT TO RULE 32 OF THE ALABAMA RULES OF
CRIMINAL PROCEDURE

Petitioner Antonio Devoe Jones (“Mr. Jones” or “Tony”), now incarcerated on death row
at Holman State Prison in Atmore, Alabama, hereby submits his Amended Petition pursuant to
Rule 32 of the Alabama Rules of Criminal Procedure and petitions for relief from his
unconstitutionally obtained conviction and sentence of death. In support of this petition, Mr.
Jones states the following:
INTRODUCTORY STATEMENT
1.

As set forth below, a “perfect storm” of errors renders Mr. Jones’ conviction and

death sentence constitutionally invalid. The junior lawyer responsible for most case preparation
at the guilt phase was Clark Parker (“Mr. Parker”). He had never before handled a capital case,
yet most case preparation was delegated to him by the senior partner, Thomas Brantley (“Mr.
Brantley”). Mr. Parker’s lack of experience was exacerbated by his heavy drinking and an
impending emotional crisis leading up to and through both the guilt and penalty phases of Mr.
Jones’ trial. Mr. Parker would show up for court each day drunk or hung over. Before the trial,

App. 166

Mr. Brantley learned that Mr. Parker had done very little to prepare, was undergoing an
emotional crisis, and drinking heavily. Having done little to prepare himself, Mr. Brantley
decided to try the case by the “seat of his pants” rather than disclose their lack of trial preparation
and Mr. Parker’s impairment to their client or the Court. By the time of Mr. Jones’ sentencing –
a critical stage – Mr. Parker was mounting his defense against criminal charges relating to his
drinking and Mr. Brantley was representing Mr. Parker in relation to those charges. Neither Mr.
Brantley nor Mr. Parker disclosed this egregious conflict to Mr. Jones. To make matters worse,
the same prosecutor was prosecuting both Mr. Jones and Mr. Parker.
2.

The guilt phase – from voir dire, to jury selection, motion practice, to putting on

witnesses – displayed jaw-dropping incompetence and lack of preparation.

This included

invitations to each potential juror to disregard the applicable legal standard in criminal cases,
expressing personal fear of being killed by their own client, fear he would kill children, failing to
strike biased jurors, failing to present appropriate motions, not objecting to inadmissible DNA
evidence, not objecting to repeated prosecutorial misconduct, calling defense witnesses with no
knowledge of what they would say, repeatedly eliciting detrimental testimony from their own
witnesses, and generally asserting an incoherent defense with no strategy or thought behind it.
3.

The penalty phase was equally a fiasco. The defense failed to conduct a proper

investigation of Mr. Jones’ upbringing and history. Crucial mitigation evidence, all of which
was easily known at the time, included Mr. Jones having been beaten hundreds of times starting
at age five, living in rat/bug infested homes, and being enlisted into his stepfather’s drug
business as a teenager.

Counsel failed to introduce into evidence easily admissible social

service, educational, psychological, and testing records, all of which would have corroborated
key mitigation witness testimony. By virtue of this series of errors, the prosecutor was able to

-2App. 167

invite the jury to disregard crucial mitigation evidence precisely because no corroboration was
presented.
4.

The final culmination of these cascading errors was counsel’s failure to tender

appropriate jury mitigation instructions for jury consideration. Had things been done properly,
the jury would have heard testimony, viewed documentary evidence, and deliberated about the
long list of mitigating factors – all of which would have been supported by very strong,
corroborating testimony and exhibits. Instead, what they were given to deliberate was banal, hohum factors, not supported by a fraction of the available evidence.
5.

On appeal, counsel raised virtually none of the issues presented in this Motion.

The ineffective assistance of counsel detailed in this Amended Petition is as egregious as any in
which the United States Supreme Court, lower federal, and Alabama appellate courts have
vacated convictions and the penalty of death.
6.

Furthermore, the trial and sentencing were tainted by numerous instances of

prosecutorial misconduct, including knowing reliance on false testimony, suppression of
favorable evidence, impermissible comment on the defendant’s decision not to testify, and the
use of inflammatory penalty phase evidence at the guilt phase, among others.
PROCEDURAL HISTORY
7.

Antonio Devoe Jones was indicted by the April 2000 term of the Houston County

Grand Jury for one count of capital murder for intentionally causing the death of Ruth Kirkland
during the course of a burglary. (C. 11.) 1

1

This petition follows the following format throughout for citations to the record:
Clerk’s record on appeal: (C. [page]);
Court reporter Carla Woodall’s Transcript of Motion Hearing: (M. [page]);
Trial proceedings: (R. [page]);
Court reporter Carla Woodall’s Transcript of Sentencing Hearing: (S. [page]).

-3App. 168

8.

On March 27, 2003, the Honorable Jerry White, Houston County Circuit Judge,

appointed trial counsel, Thomas Brantley and Clark Parker, to represent Mr. Jones due to his
inability to afford private counsel. (C. 23.)
9.

On the afternoon of March 12, 2004, Mr. Jones was convicted of capital murder.

(C. 285-86, R. 1293-94.) Following a weekend recess, there was a short penalty hearing in
which defense counsel presented four perfunctory, unprepared lay witnesses and one expert
witness. (R. 1296-1535.) That same day, the jury returned an 11-1 vote in favor of the death
penalty after deliberating for just thirty-seven minutes. (C. 287-88, R. 1531.) On June 8, 2004,
Judge White accepted the jury’s vote and sentenced Mr. Jones to death. (C. 310-17.)
10.

On August 25, 2006, the Alabama Court of Criminal Appeals affirmed Mr. Jones’

conviction and sentence. Jones v. State, 987 So. 2d 1156 (Ala. Crim. App. 2006). On October
20, 2006, that Court denied Mr. Jones’ application for rehearing. See id.
11.

On January 25, 2008, the Alabama Supreme Court denied Mr. Jones’ petition for

a writ of certiorari, Ex parte Jones, No. 1060155 (Ala. Jan. 25, 2008), as did the United States
Supreme Court on October 6, 2008. Jones v. Alabama, 129 S. Ct. 2008).
12.

On January 23, 2009 a Petition for Relief from Judgment under Rule 32 was filed.

On March 19, 2013, this Court granted an extension until April 4, 2013 in which to file an
Amended Petition.
13.

Mr. Jones now timely files this Amended Petition pursuant to Rule 32 of the

Alabama Rules of Criminal Procedure.
APPLICABLE LAW
14.

Mr. Jones’ defense counsel, Thomas Brantley and Clark Parker, rendered

deficient legal representation throughout Mr. Jones’ capital murder trial. Their actions and
omissions denied Mr. Jones his rights under the Fourth, Fifth, Sixth, Eighth, and Fourteenth
-4App. 169

Amendments to the United States Constitution, Article I, Section 6 of the Alabama Constitution,
and Alabama law. See Rompilla v. Beard, 545 U.S. 374 (2005); Wiggins v. Smith, 539 U.S. 510
(2003); Williams v. Taylor, 529 U.S. 362 (2000); Strickland v. Washington, 466 U.S. 668 (1984).
A criminal defendant is entitled to effective legal representation at all phases of trial. Strickland,
466 U.S. at 668; Gideon v. Wainwright, 372 U.S. 335 (1963). Indeed, the adversarial system of
justice depends on effective defense counsel. United States v. Cronic, 466 U.S. 648 (1984). To
effectively prepare for a capital trial, counsel must conduct a reasonable investigation,
investigate and challenge all assertions by the State, and subject the State’s case to rigorous
examination and testing. Strickland, 466 U.S. at 688; Wiggins, 539 U.S. at 487-88 (trial counsel
ineffective where failure to adequately investigate precluded making informed strategic
decision).
GROUNDS SUPPORTING PETITION FOR RELIEF
I.

Mr. Jones was deprived of the effective assistance of counsel due to the alcoholrelated impairment of his principal trial lawyer.
A.

Mr. Jones was severely prejudiced by the alcohol-related impairment of his
principal trial lawyer, which infected every stage of the proceedings.

15.

In order to fully understand the manner in which Mr. Jones was deprived of

effective assistance of counsel, it is essential to know that the lawyer who had primary
responsibility for preparing Mr. Jones’ defense – Clark Parker – had a serious drinking problem
prior to and during the guilt phase, the penalty phase, and Mr. Jones’ direct appeal. In addition
to his lead role in preparing for trial, Mr. Parker took the lead during the guilt phase and in the
appeal. Mr. Parker gave the defense’s opening statement, Mr. Parker cross examined key factual
and expert witnesses, and Mr. Parker delivered the closing argument leading to Mr. Jones’
conviction for capital murder. Mr. Parker was also assigned primary drafting responsibilities for

-5App. 170

Mr. Jones’ direct appeal, and represented Mr. Jones at the oral argument in the Alabama Court of
Criminal Appeals. Mr. Parker’s drinking problem directly interfered with his ability to prepare
for trial, to investigate fundamental and effective avenues of defense, and to subject the State’s
case to rigorous examination and testing. See, e.g., Strickland v. Washington, 466 U.S. 668, 6878 (1984). The ineffectiveness of the defense crafted by Mr. Parker is detailed in this Amended
Petition.
16.

Thomas Brantley, the senior trial attorney and co-counsel working with Mr.

Parker, was aware of Mr. Parker’s drinking problem and failed to intervene to either timely take
responsibility away from Mr. Parker or otherwise seek appropriate relief from the trial court.
Mr. Brantley has attributed Mr. Parker’s drinking during this critical period to Mr. Parker’s
inability to cope with a tumultuous personal life while simultaneously being overwhelmed by
serving as lead counsel in Mr. Jones’ capital murder trial.
17.

On April 11, 2004, Mr. Parker’s drinking problem became a more complex issue

when he was arrested in Houston County for driving under the influence (“DUI”). The arrest
was 27 days after the jury recommended the death penalty for Mr. Jones, and eleven days before
Mr. Parker was scheduled to appear for Mr. Jones’ sentencing hearing on April 22, 2004.
(Exhibit L, Case Action Summary, Case No. CC-2005-01.)
18.

On April 19, 2004, Mr. Brantley entered his appearance as counsel for Mr. Parker

in his DUI case. (See id., Case Action Summary Consultation, Case No. CC-2005-01, p. 3.)
That criminal prosecution was handled by the Houston County district attorney, Douglas
Valeska, who was simultaneously prosecuting Mr. Jones. (Id.) The pending criminal charges
against Mr. Parker and Mr. Brantley’s representation of his colleague on those charges, gave rise

-6App. 171

to conflicts of interest with Mr. Jones on behalf of both lawyers. Those conflicts were not
disclosed to Mr. Jones.
19.

Mr. Parker pled not guilty on April 23, 2004, but he continued to represent Mr.

Jones at sentencing and on appeal. On November 23, 2004, Mr. Parker was convicted by the
district court and sentenced to be imprisoned for 12 months, which sentence was suspended
during 24 months of probation. (See id., Notice of Appeal from District Court to Circuit Court,
Case No. TR-04-910.) On the same day, he appealed to the circuit court. (Id.) Furthermore, in
an information filed in the circuit court on December 11, 2004 and signed by Mr. Valeska, the
State charged Mr. Parker with a first offense under Alabama Code § 32-5A-101(a)(2). (See id.,
Information, Case No. TR-04-910.) The information made no reference to Mr. Parker’s prior
DUI conviction. That conviction, also for “DUI – liquors” occurred in 1987 in Houston County.
(See id. Ala. Dept. Public Safety Driver History Abstract, Clark Parker.)

An order dated

September 1, 2005 reduced Mr. Parker’s jail time to 30 days, which was suspended subject to the
lesser condition of one year without a “serious traffic offense.” (See id., Sentencing Order, No.
CC-2005-01.)
20.

At the time of the March 2004 murder trial, Mr. Parker was a relatively new

partner at Mr. Brantley’s firm. But it was Mr. Parker who was primarily responsible for
gathering information, preparing witnesses, and ensuring that the defense team was ready for
trial. Mr. Parker’s influence was not limited to the guilt phase. He also participated in the
penalty phase and assisted with Mr. Jones’ unsuccessful appeal until withdrawing in July 2006,
one month before the appellate court issued its opinion. See Jones v. State, 987 So. 2d 1156,
1158 (Ala. Crim. App. 2006).

-7App. 172

21.

Mr. Brantley reported that, prior to and during the period when the trial was

conducted, Mr. Parker generally drank alcohol at night and showed up for work in the mornings
either still drunk or hung-over.
22.

Despite Mr. Brantley’s knowledge of his partner’s impaired state, Mr. Parker was

given a leading role in the defense at the trial of Mr. Jones, and Mr. Parker participated in all
phases of the process leading to the death penalty and its affirmance on appeal. As a result, and
as detailed below, trial counsel’s performance was constitutionally deficient and severely
prejudiced Mr. Jones, depriving him of effective assistance of counsel and ultimately a fair trial.
B.

Mr. Jones’ conviction was rendered unconstitutional because both of his trial
lawyers labored under an actual conflict of interest arising from the criminal
charges against Mr. Parker.

23.

Mr. Jones’ trial – the guilt and sentencing phases – and appeal were

fundamentally unfair and in violation of his Sixth Amendment right to counsel because his
attorneys operated under an actual conflict of interest that adversely affected their representation.
While he attempted to represent Mr. Jones before the trial and appellate courts, Mr. Parker was
being prosecuted for driving under the influence. Mr. Valeska, who prosecuted Mr. Jones,
simultaneously prosecuted Mr. Parker. Mr. Brantley, who served as co-counsel with Mr. Parker
at every stage of Mr. Jones’ proceedings, simultaneously represented Mr. Parker in his criminal
case. These facts – of which Mr. Jones was never notified – created a conflict of interest that
tainted each subsequent stage of the proceedings.
1. The conflicts arising from Mr. Parker’s prosecution violated Mr. Jones’
Sixth Amendment rights.
24.

At the same time Mr. Parker was representing Mr. Jones in a capital murder trial

and appeal, Mr. Parker was himself being prosecuted by the same Houston County District
Attorney for driving under the influence. Mr. Parker’s contemporaneous criminal prosecution,

-8App. 173

by Mr. Valeska and defended by Mr. Brantley, presented a conflict of interest rendering the
Parker/Brantley representation of Mr. Jones fundamentally unfair and unconstitutionally
ineffective as a matter of law. “[E]very person is entitled not only to the assistance of counsel,
but also to the effective assistance of counsel.” Taylor v. State, 291 Ala. 756, 760 (1973); Powell
v. Alabama, 287 U.S. 45, 53 (1932); U.S. Const. amend. VI; Ala. Const. art. I, § 6.
25.

The right to effective assistance of counsel necessarily includes the right to

conflict-free representation. See, e.g., Cuyler v. Sullivan, 446 U.S. 335, 345 (1980); Jones v.
State, 937 So. 2d 96, 99 (Ala. Crim. App. 2005).

A conflict of interest exists when

“representation of [a] client may be materially limited by . . . the lawyer’s own interests.” Ala.
Rules of Prof. Conduct, Rule 1.7(b).
26.

In the criminal context, an actual (as opposed to a merely potential) conflict of

interest presents such a serious threat to the defense that prejudice is presumed; the trial is so
thoroughly tainted that the defendant need not show that the outcome would have been different
absent the conflict. McConico v. Alabama, 919 F.2d 1543, 1548 (11th Cir. 1990); see also
Brooks v. State, 686 So. 2d 494, 503 (Ala. Crim. App. 1996); Browning v. State, 607 So. 2d 339,
343 (Ala. Crim. App. 1992).
27.

“‘An actual conflict of interest occurs when a defense attorney places himself in a

situation inherently conducive to divided loyalties.’” Browning, 607 So. 2d at 342 (quoting Zuck
v. Alabama, 588 F.2d 436, 439 (5th Cir. 1979)). A conflict becomes “actual,” rather than
“potential,” when the defendant can “demonstrate that [it] adversely affected his lawyer’s
performance.” M.S. v. State, 822 So. 2d 449, 453 (Ala. Crim. App. 2000) (quoting Cuyler, 446
U.S. at 350). “To prove that an actual conflict of interest adversely affected his counsel’s
performance, a defendant must make a factual showing ‘that his counsel actively represented

-9App. 174

conflicting interests.’” Id. Because of the insidious nature of such a conflict, a showing that it
adversely affected counsel’s performance in some way is sufficient; the courts then presume that
the defendant has been prejudiced.
28.

Here, there was an actual conflict of interest shortly after the jury verdict and

before Mr. Jones’ capital sentencing hearing. Once Mr. Parker’s ongoing drinking problem
resulted in his being criminally cited for DUI, he and Mr. Brantley had the incentive and duty to
protect Mr. Parker’s personal interests to avoid time in prison and the likely resulting lost
earnings. There was an actual conflict where the manner of handling of Mr. Jones’ defense, in a
case of higher profile and greater significance to the prosecutor than Mr. Parker’s DUI, could be
used to curry favor with the prosecutor.
29.

It was during the weeks before Mr. Jones was sentenced to death, that the

attorneys for the prosecution and the defense in his case became involved in Mr. Parker’s
criminal prosecution. On April 19, 2004, Mr. Brantley filed his appearance to represent Mr.
Parker in the DUI proceedings and served discovery on Mr. Valeska, even as Mr. Brantley
should have been preparing for Mr. Jones’ sentencing.

On June 8, 2004, the lawyers turned

back to Mr. Jones’ case – all three argued at Mr. Jones’ sentencing, and Mr. Jones was sentenced
to death.
30.

Mr. Parker’s conflict of interest was nearly as personal to his partner and co-

counsel, Mr. Brantley, as it was to Mr. Parker. To Mr. Brantley, this was not just another
criminal defendant, Mr. Parker was his law and business partner. Mr. Brantley’s personal
income would also be affected by Mr. Parker’s imprisonment. Mr. Brantley had a professional
interest in seeing his partner, whose career was closely intertwined with his own, acquitted of

- 10 App. 175

this embarrassing charge or punished as lightly as possible. See Ala. Rules Prof. Conduct Rule
1.10(a).
2. Mr. Parker’s simultaneous DUI prosecution and the resulting actual
conflict of interest were not disclosed to Mr. Jones.
31.

At no time did anyone tell Mr. Jones about the parallel criminal proceeding by

Mr. Valeska’s office against Mr. Parker. This failure to disclose was itself constitutionally
impermissible, and compounded the fundamental unfairness of the proceedings.
32.

The Sixth Amendment requires a trial court to inquire into a conflict of interest of

which it becomes aware. Wood v. Georgia, 450 U.S. 261, 272 (1981); see also United States v.
Carmichael, 381 F. Supp. 2d 1317, 1323 (M.D. Ala. 2005) (the court “has an independent
obligation to protect [the right to conflict-free representation] by conducting an inquiry when it is
made aware of an alleged conflict”). Here, the court did not address the conflict, and no one –
not Mr. Parker, Mr. Brantley, or Mr. Valeska raised the issue.
33.

In the months after Mr. Jones was sentenced to death, Mr. Parker and Mr.

Brantley continued to manage Mr. Parker’s own criminal case, even as they prepared for Mr.
Jones’ appeal. Through the summer and fall of 2004, as they also shepherded Mr. Parker’s DUI
case through conviction and appeal, Mr. Parker and Mr. Brantley sought multiple extensions to
file Mr. Jones’ appellate brief due, among other things, to the pending trial date in Mr. Parker’s
DUI case.2 They eventually filed the brief – late, despite the numerous extensions – on March
11, 2005. That was only three days before Mr. Parker’s DUI case was set for hearing in the
circuit court on the appeal that resulted in his reduced sentence. (Exhibit L, Motion to Continue
dated March 14, 2005, Case No. CC-2005-1.) The brief could fairly be described as wholly
2

The appellate court granted a 60-day extension for the filing of the brief in support of Mr. Jones’ appeal on
November 22, 2004 – the day before Mr. Parker’s DUI case was set for trial. (Exhibit B, 11/22/04 Court Order.)
The appellate court granted another 30-day extension on January 12, making the appellate brief due February 23,
2005. (Exhibit C, 1/12/05 Court Order.)

- 11 App. 176

inadequate, raising only three issues on appeal, one of which was based on Mr. Parker’s since
admitted misunderstanding of the elements of a burglary. (See section II.Q. below, incorporated
herein by reference.) Mr. Parker and Mr. Brantley failed to raise any issues of prosecutorial
misconduct identified and alleged in this Amended Petition. (Exhibit D, 3/11/05 Brief of the
Appellant.) The failure to raise any issues of prosecutorial misconduct on appeal of Mr. Jones’
death penalty was directly related to the interests of Mr. Parker and Mr. Brantley to secure a
more favorable resolution of the criminal charges pending against Mr. Parker.
34.

Mr. Parker’s appeal of his DUI conviction to the circuit court was heard on

September 1, 2005 – after briefing on Mr. Jones’ appeal was completed. (Exhibit L, Sentencing
Order, Case No. CC-2005-01.) Although Mr. Parker was found guilty in the circuit court, this
time the original suspended sentence was reduced from one year to one month, and Mr. Parker’s
original two-year probation period was reduced to one year without a “serious traffic offense.”
Id. In contrast, the hapless appeal of Mr. Jones’ conviction was rejected in its entirety. Mr.
Valeska’s politically-valuable death penalty conviction was affirmed.
3.
35.

This actual conflict of interest adversely affected Mr. Jones’
representation at sentencing.

The penalty phase is a critical stage of a criminal proceeding, for which a

defendant is entitled to effective assistance of counsel. Golden v. Newsome, 755 F.2d 1478,
1482 (11th Cir. 1985). At the time of Mr. Jones’ sentencing, Mr. Brantley had just entered a notguilty plea on Mr. Parker’s behalf in the DUI case, and was preparing to serve discovery on Mr.
Valeska. The conflict was alive and active at that critical time. Mr. Parker and Mr. Brantley had
reason to curry Mr. Valeska’s favor in hopes of receiving favorable treatment in Mr. Parker’s
case.

- 12 App. 177

36.

Mr. Parker’s direct conflict of interest and Mr. Brantley’s imputed conflict

deterred them from raising powerful arguments, supported by readily available evidence, that
could have swayed the judge at Mr. Jones’ sentencing.
37.

For example, the conflict was a disincentive to investigating or challenging Mr.

Valeska’s blatantly false assertion at trial that Mr. Jones’ family had no history of drug use. (R.
1445–46, 1479–80). Mr. Valeska made that claim in the closing argument at trial, and Mr.
Parker and Mr. Brantley had nearly three months from the end of the jury trial until the
sentencing hearing to respond to Mr. Valeska’s misrepresentation.

Interviews of family

members or review of the Houston County prosecutor’s records would have revealed that, while
he was the head of the household where Mr. Jones resided, his stepfather, Demetrius Whitsett,
was convicted of drug offenses prosecuted by Mr. Valeska’s office. (See Exhibit R, D. Whitsett
Criminal Records, Case No. CC-97-1231.)

The prosecutor had knowledge of the drug

conviction and pervasiveness of drugs in Mr. Jones’ childhood home when he misled the jury
and the court during the penalty phase of the trial to believe that evidence did not exist – for the
purpose of obtaining a death sentence.

Counsel’s failure to investigate or challenge Mr.

Valeska’s demonstrably false and misleading argument before the sentencing hearing adversely
affected Mr. Jones’ defense. An opportunity was lost, which could have provided powerful
mitigation evidence while undercutting Mr. Valeska’s credibility before the trial court.
38.

The conflict of interest deterred both defense attorneys from zealously

advocating on behalf of Mr. Jones at the sentencing hearing. Mr. Brantley’s argument consisted
of little more than a disjointed listing of the small amount of mitigation evidence that he and Mr.
Parker had presented at the penalty phase of the trial. Mr. Parker attempted to show the victim
was unconscious when many of her injuries were inflicted, but his argument actually reinforced

- 13 App. 178

the State’s position by highlighting the most graphic and horrifying aspects of the victim’s
injuries. (S. at 11–12). Mr. Parker and Mr. Brantley failed to present a coherent narrative of the
teenager’s nomadic life story or his squalid childhood environment that would tend to mitigate
any sentence of death. The failure of the two defense attorneys to zealously advocate on Mr.
Jones’ behalf during the sentencing proceeding cannot be separated from their active conflict of
interest in securing a favorable resolution of the criminal charges then pending against Mr.
Parker.
39.

As is discussed in greater detail below, if such a presentation had been made

effectively based on the available facts, there is at least a reasonable probability that Mr. Jones
would have been sentenced to life imprisonment without parole. But under Alabama law, where
a conflict like this one exists, Mr. Jones need not even show such a probability. Mr. Parker and
Mr. Brantley’s actual conflict of interest, coupled with its adverse effects on their representation,
constitutes ineffective assistance of counsel and entitles Mr. Jones to a presumption of prejudice
as a matter of law. McConico, 919 F.2d at 1548. (“A petitioner need not show that the result of
the trial would have been different without the conflict of interest, only that the conflict had
some adverse effect on counsel’s performance.”). This reason alone is sufficient for the Court to
grant the relief sought in this Amended Petition.
4.
40.

This actual conflict of interest adversely affected Mr. Jones’
representation on appeal.

In addition, because the criminal charges against Mr. Parker remained pending

throughout the appeal of Mr. Jones’ conviction to the Court of Criminal Appeals, the conflict
continued and adversely affected Mr. Parker and Mr. Brantley’s performance. The adverse
effect on Mr. Jones’ right to effective counsel presented by the conflicts of interest during appeal
was at least as great as during the trial stage.

- 14 App. 179

Although allegations of error in a criminal case are directed at the
trial court, they are, more often than not, presented in terms that
the error was caused or importuned by the government. Thus, the
substance of a criminal appeal usually consists of complaints
against both the trial court and the government. For there to be the
minimal level of attorney competence on the prosecution of an
appeal, counsel must be totally unshackled in his presentation to
the appellate court. It is essential that the advocate owe no fealty
that conflicts, or even appears to conflict, with the paramount
ethical loyalty he owes his client.
United States v. DeFalco, 644 F.2d 132, 136 (3d Cir. 1979) (emphasis added).
41.

During this period, when the defense attorneys continued to have an interest in

currying the favor of Mr. Valeska and the prosecutor’s office, Mr. Parker and Mr. Brantley failed
to raise a number of substantial issues on appeal of Mr. Jones’ conviction.
42.

Astonishingly for a capital appeal, only three issues were raised. Further, one of

those issues was based upon an argument that was completely fallacious as a matter of law: Mr.
Parker and Mr. Brantley argued in the opening brief on appeal, as they did in the trial court, that
“the State failed to produce evidence that a theft had occurred . . . in that the victim’s car was not
in the victim’s dwelling and there was no evidence that anything was taken from within the
victim’s dwelling.” (Exhibit D, 3/11/05 Brief of the Appellant, at 67.) Mr. Parker later admitted
that he had simply misunderstood the elements of the crime of burglary.
43.

The Court of Criminal Appeals affirmed the conviction and sentence, and

correctly described the elements of burglary. Jones v. State, 987 So. 2d 1156, 1168 (Ala. Crim.
App. 2006) (noting that the State need only prove that the defendant “merely unlawfully entered
a dwelling with the intent to commit a crime) (emphasis original).

In addition to this

fundamental mistake of basic criminal law, Mr. Parker and Mr. Brantley also failed to raise any
of the numerous instances of prosecutorial misconduct as issues on direct appeal. For example,

- 15 App. 180

counsel failed to raise the following issues on appeal, all of which reflected poorly on the
prosecutor, Mr. Valeska:
Mr. Valeska violated Mr. Jones’ Fifth Amendment rights by improperly
commenting on Mr. Jones’ decision not to testify at trial, see infra at II.O.10,
incorporated herein by reference;
Mr. Valeska violated Batson v. Kentucky, 476 U.S. 79, 89 (1986) in selecting
jurors pursuant to discriminatory criteria, see infra at V.A.1, incorporated herein
by reference;
Mr. Valeska improperly death-qualified the jury, see infra at II.D.2, incorporated
herein by reference;
Mr. Valeska improperly vouched for the integrity of the State’s case and its
witnesses throughout the trial, see infra at II.D.6, II.O.6, incorporated herein by
reference;
Mr. Valeska improperly suggested that the elderly are entitled to greater
protection under Alabama law, see infra at II.D.6, incorporated herein by
reference;
Mr. Valeska mischaracterized the statistical basis of the State’s DNA evidence,
see infra at II.D.6, incorporated herein by reference;
Mr. Valeska improperly introduced penalty phase evidence during the guilt phase
of the trial, including victim impact evidence and evidence of allegedly heinous,
atrocious, or cruel aggravating circumstances, see infra at II.O.3, II.P,
incorporated herein by reference.
44.

These, and many other instances of prosecutorial misconduct detailed throughout

this Amended Petition, see infra at II.D, II.O, and III.D (all incorporated herein by reference),
could and should have been raised by Mr. Parker and Mr. Brantley on direct appeal (see Section
V.A.2, incorporated herein by reference). Their failure to raise the courts’ denial of Mr. Jones’
Batson motion as an issue on appeal is particularly troubling. That example of prosecutorial
misconduct was challenged in the trial court but – after their conflicts arose as a result of Mr.
Parker’s DUI – Mr. Parker and Mr. Brantley failed to pursue the Batson issues, or any other act
of prosecutorial misconduct, on appeal. Omitting the prosecutorial misconduct from the appeal

- 16 App. 181

was because of their interest in securing a favorable resolution of the criminal charges pending
against Mr. Parker.
45.

Regardless of whether Mr. Parker and Mr. Brantley objected to each instance of

prosecutorial misconduct at trial, any such issue could still have been raised and reviewed under
a plain error standard. Jones, 987 So. 2d at 1164. Here, each of these instances of prosecutorial
misconduct, considered alone or as a whole, could have provided grounds for reversal, had they
been raised on appeal. The failure to raise any issues of prosecutorial misconduct is attributable
to their interest in a favorable resolution of the charges pending against Mr. Parker. Accordingly,
Mr. Parker and Mr. Brantley had an actual, active conflict of interest that rendered them
ineffective at both the trial and appellate stages.
46.

The effect of this actual conflict with the interests of Mr. Jones is further

demonstrated by the fact that Mr. Brantley’s firm engaged in much more zealous advocacy on
behalf of Mr. Jones once Mr. Parker’s DUI case had been resolved. On December 1, 2006, well
after Mr. Parker’s criminal prosecution had concluded, after his sentence had been reduced, and
after he left the firm (and begun winding up the practice of law entirely), Mr. Brantley’s firm
filed Mr. Jones’ petition for certiorari to the Alabama Supreme Court. That petition stands in
stark contrast to the weak appellate brief counsel filed during the period in which the criminal
charges were pending against Mr. Parker, and their conflict of interest with Mr. Jones existed.
47.

In the petition for certiorari, Mr. Brantley’s firm raised 21 enumerated issues, all

of which could and should have been raised on appeal to the Court of Criminal Appeals. (See
Exhibit F, 12/1/06 Petition for Writ of Certiorari to the Alabama Court of Criminal Appeals).
Mr. Parker’s error regarding the elements of burglary was not repeated in the petition. Of

- 17 App. 182

course, there was no obligation on the part of the Supreme Court to grant discretionary review,
and, as a result, these substantial additional issues were never addressed in the appellate process.
48.

In addition to these and many more obvious omissions apparent by comparison to

the petition for certiorari, it is clear that Mr. Parker and Mr. Brantley’s halfhearted representation
of Mr. Jones in the Court of Criminal Appeals was attributable to and itself constitutes an
adverse effect of the conflict of interest arising out of the pending criminal charges against Mr.
Parker. After obtaining 90 days of extensions of the date their appellate brief was due, Mr.
Parker and Mr. Brantley failed to comply with the new deadline. They simply forgot to file the
opening brief in an appeal from a capital murder conviction. (Exhibit B, 11/22/04 Court Order.)
Only after receiving a notice from the appellate court of their failure to timely file a brief did Mr.
Parker and Mr. Brantley submit their brief, on March 11, 2005. They did, however, during this
time manage to contest and successfully reduce Mr. Parker’s own sentence for driving under the
influence.
49.

Mr. Parker and Mr. Brantley’s failure to prepare an adequate appellate brief,

including their failure to raise Mr. Valeska’s numerous instances of prosecutorial misconduct as
issues on appeal, constituted an adverse effect of their conflict of interest, raises a presumption of
prejudice, and requires reversal. McConico, 919 F.2d at 1548; see also, Cuyler, 446 U.S. 335,
349 (1980).
II.

Mr. Jones was denied effective assistance of counsel at the guilt phase of his trial.
50.

A criminal defendant is entitled to effective legal representation. Strickland, 466

U.S. 668; Gideon v. Wainwright, 372 U.S. 335 (1963). Indeed, the adversarial system of justice
depends on effective defense counsel. United States v. Cronic, 466 U.S. 648, 666 (1984). Mr.
Jones’ trial attorneys were ineffective at all stages of the criminal proceedings against him and
did not subject the prosecution’s case to meaningful adversarial testing.
- 18 App. 183

Trial counsel’s

performance fell below “an objective standard of reasonableness” and failed “to make the
adversarial process work.”

Strickland, 466 U.S. at 688.

Trial counsel’s errors cannot be

construed as part of a sound trial strategy. Trial counsel’s deficient performance “undermine[d]
confidence in the outcome” of Mr. Jones’ case. Id. There is a reasonable probability that, but for
counsel’s deficient performance, the determinations of guilt and penalty would have been
different. Rompilla v. Beard, 545 U.S. 374 (2005); Wiggins v. Smith, 539 U.S. 510 (2003);
Williams (Terry) v. Taylor, 529 U.S. 362 (2000); Strickland v. Washington, 466 U.S. 668 (1984).
51.

Mr. Jones contends that trial counsel’s deficiencies, including deficiencies related

to Mr. Parker’s drinking problem, failures to investigate and prepare, and numerous other
deficiencies enumerated throughout this amended petition had an all-encompassing impact on
trial counsel’s actions and inactions during the guilt phase of this trial.
52.

The trial attorneys’ ineffectiveness at the guilt phase emanated from their failures

to properly investigate the facts surrounding the offense and to properly prepare for trial. Trial
counsel, particularly in defending a capital case, have an obligation to thoroughly investigate the
prosecution’s case so as to be able to subject it to rigorous examination and adversarial testing.
Gregg v. Georgia, 428 U.S. 153 (1976); Goodwin v. Balkcom, 684 F.2d 794, 805 (11th Cir.
1982). This duty further obliges defense counsel to investigate all possible avenues of defense.
Williams (Terry) v. Taylor, 529 U.S. 362 (2000) (finding ineffective assistance of counsel for
failing to investigate and present available evidence); Strickland v. Washington, 466 U.S. 668
(1984); Code v. Montgomery, 799 F.2d 1481, 1483 (11th Cir. 1986) (finding ineffective
assistance of counsel where defense counsel failed to investigate alibi witnesses). Trial counsel’s
obligation to conduct an adequate investigation extends to the penalty phase as well. Wiggins v.
Smith, 539 U.S. 510, 523, 534-38 (2003).

- 19 App. 184

53.

Trial counsel in capital cases have an obligation “to conduct thorough and

independent investigations relating to the issues of both guilt and penalty.” ABA Guidelines for
the Appointment and Performance of Defense Counsel in Death Penalty Cases, Guideline 10.7
(Investigation) (2003).3 The investigation regarding guilt must be conducted “regardless of any
admission or statement by the client concerning the facts of the alleged crime, or overwhelming
evidence of guilt, or any statement by the client that evidence bearing upon guilt is not to be
collected or presented.” Id.
54.

By virtue of the individual and cumulative effect of the errors enumerated below,

Mr. Jones was denied his right to effective assistance of trial counsel in violation of the Sixth,
Eighth, and Fourteenth Amendments to the United States Constitution, Article I, Sections 1, 6, 8,
and 15 of the Alabama Constitution, and other applicable law. For the sake of expediency, Mr.
Jones hereby expressly incorporates all of the foregoing paragraphs, including Section I, into his
guilt phase ineffectiveness allegations.
A.

Counsel failed to properly challenge the admission of Mr. Jones’ statements
on all available grounds.
1.

55.

Counsel failed to properly challenge the admission of Mr. Jones’
statements on Miranda grounds.

Counsel deficiently and prejudicially failed to demand that the State establish a

Miranda predicate before all of Mr. Jones’ custodial statements were admitted into evidence.
For a statement to be admissible, the State must prove that the defendant waived his Miranda
rights and the statement was acquired voluntarily. See Miranda v. Arizona, 384 U.S. 436 (1966);
Ex parte Jackson, 836 So. 2d, 979, 982 (Ala. 2002) (holding that the “burden is on the State to
show voluntariness and a Miranda predicate before such a statement can be admitted”).
3

See also ABA Guidelines for the Appointment and Performance of Defense Counsel in Death Penalty Cases,
Guideline 11.4.1 (1989); ABA Standards for Criminal Justice: Defense Function Standard 4-4.1, 4-6.1, in ABA
Standards for Criminal Justice: Prosecution Function and Defense Function (3d ed. 1993).

- 20 App. 185

56.

After his arrest, the police interrogated Mr. Jones, before any Miranda warning

was given, and multiple times throughout the night and morning following his arrest. There is no
dispute that the police failed to read a Miranda warning to Mr. Jones prior to the first
interrogation at the police station around 9:00 p.m. (R. 277-78.) With respect to the second
conversation that occurred around 1:35 a.m., the State failed to provide any evidence that Mr.
Jones waived his Miranda rights. To the contrary, the only factual evidence establishes that Mr.
Jones refused to sign a Miranda waiver. (R. 289.) The police improperly used information from
both of these un-Mirandized statements to gather additional evidence. (R. 278–79.)
57.

Because testimonial fruits of a statement given without Miranda warnings are

inadmissible, trial counsel should have objected on Miranda grounds to the admission of Mr.
Jones’ subsequent statements, but they failed to do so. As a result, the State was permitted to rely
upon the statements in proving its case.
58.

At the end of the suppression hearing, counsel did challenge the statements on

voluntariness grounds, but they failed to argue that the statements should be suppressed pursuant
to Miranda v Arizona, 384 U.S. 436 (1966). (R. 318-21.) Furthermore, while the State has
previously contended that “Trial counsel filed a pretrial motion requesting suppression of Jones’
custodial statements on Miranda grounds,” (Exhibit I, Proposed Order to State’s Motion to
Dismiss Rule 32 Petition, ¶ 35), the Court of Criminal Appeals in fact “note[d] that no objection
was raised regarding Officer Beeson’s rebuttal testimony concerning Jones’ second statement
until the end of his testimony,” which resulted in the Court of Criminal Appeals applying only a
plain-error standard of review. Jones v. State, 987 1156, 1164 (Ala. Crim. App. 2006). The fact
that the statements were challenged in a suppression hearing and that the trial objection was
raised belatedly shows there was no strategic reason not to have objected earlier during trial.

- 21 App. 186

59.

Had counsel properly and timely objected at trial on Miranda grounds, there is a

reasonable probability that the trial court would have suppressed Mr. Jones’ statements. Absent
those statements, there was no admission that Mr. Jones had been at the scene of the murder.
The other prosecution evidence would be less persuasive to the jurors, and could be explained as
connecting Mr. Jones only to the vehicle, rather than the scene. In the absence of the admissions
in the custodial statements, there is a reasonable probability that the jurors would have had a
reasonable doubt about Mr. Jones’ guilt and that he would not have been convicted of capital
murder or sentenced to death.
2.

60.

Counsel’s failure to timely and properly object to the admission of
Mr. Jones’ statements prejudiced Mr. Jones’ appeal of the trial
court’s denial of his motion to suppress by causing the appellate court
to use a more deferential standard of review.

Counsel’s failure to timely and properly object at trial to the admissibility of Mr.

Jones’ statements materially prejudiced Mr. Jones’ ability to appeal the trial court’s denial of his
motion to suppress. As the appellate court noted: “Although Jones’ failure to object at trial will
not preclude this Court’s review of an issue in this case, it will, nevertheless, weigh against any
claim of prejudice he makes on appeal.” Jones v. State, 987 1156, 1162 (Ala. Cr. App. 2006).
Indeed, the appellate court specifically noted that “no objection was raised regarding Officer
Beeson’s rebuttal testimony concerning Jones’ second statement until the end of his testimony . .
. . Because, however, Jones was sentenced to death, we will review the admissibility of the
statement under the plain-error standard.” Id. at 1164. However, as the appellate court noted,
“[t]he standard of review in reviewing a claim under the plain-error doctrine is stricter than the
standard used in reviewing an issue that was properly raised in the trial court or on appeal.” Id.
at 1162 (citation omitted). Thus, counsel’s failure to object in the trial court significantly
prejudiced Mr. Jones by causing the appellate court to apply a much more deferential standard in

- 22 App. 187

reviewing the trial court’s decision not to suppress Mr. Jones’ statements. Had counsel objected
in the trial court, the appellate court would have applied a less deferential standard of review, id.,
and would have almost certainly reversed Mr. Jones’ conviction and remanded for a new trial.
61.

That the appellate court would have reached a different result under a more

searching standard of review is reflected in the fact that its opinion is otherwise entirely
inconsistent with decisions from the United States Supreme Court and the Supreme Court of
Alabama.

In finding Mr. Jones’ statements to be admissible, the appellate court placed

substantial reliance on the fact that Mr. Jones did not “confess,” but intended his statements to be
exculpatory. Jones, 987 So. 2d at 1164-66. The appellate court’s reliance on that distinction,
however, flies in the face of the United States Supreme Court’s instruction in Miranda that “no
distinction may be drawn between inculpatory statements and statements alleged to be merely
‘exculpatory.’” Miranda, 384 U.S. at 477.
62.

The appellate court’s rationale is also at odds with the Alabama Supreme Court’s

holding in Harrison v. State, 358 So. 2d 763, 765 (Ala. 1978), where the court wrote: “we hold
that, in any ‘custodial interrogation,’ the duty is on the state to prove, in accordance with the
mandates of Miranda, that the Miranda warnings were given, in order to use, at trial, any
statements, exculpatory or inculpatory, where, as here, there was an objection thereto.” See also
Hodges v. Stake, 926 So. 2d 1060, 1071 (Ala. Crim. App. 2005) (“It is well established that the
prosecution may not use statements, whether exculpatory or inculpatory, of the defendant unless
it demonstrates the use of procedural safeguards effective to secure the privilege against selfincrimination.”) (internal quotations omitted).
63.

Moreover, the appellate court’s use of the distinction between inculpatory and

exculpatory statements pervaded its analysis of Mr. Jones’ statements. See Jones, 987 So. 2d at

- 23 App. 188

1164 (“A false statement made by an accused, in an offer to exculpate or divert suspicion from
himself or to explain away apparently incriminating circumstances, is provable without regard to
the rules governing the admissibility of confessions,”) (citation omitted); id. at 1165 (“In light of
the fact that Jones continued to deny any involvement in Mrs. Kirkland’s killing after Officer
Beeson made the reference regarding the electric chair, his comments cannot be said to have
‘overborne’ Jones will and forced him into confessing.”); id. at 1166 (“The record indicates that
Jones repeatedly lied to law-enforcement officials in order to protect himself from punishment.
Thus, Jones’ claim that his third statement was the result of coercion is without merit.”).
64.

The only explanation for the appellate court’s use of this distinction in a complete

departure from prior decisions of higher courts is that the appellate court believed it had a freer
hand due to a less-demanding standard of review that was more deferential to the trial court than
if counsel had properly and timely objected at trial. See Jones, 987 So. 2d at 1164 (stating that
the court would apply the plain-error standard of review because counsel failed to timely object
to the admission of Mr. Jones’ statements at trial). Had counsel timely and properly objected in
the trial court, there is a reasonable probability that the appellate court would not have
distinguished between inculpatory and exculpatory statements but would have followed
controlling precedent and reversed Mr. Jones’ conviction.
65.

The appellate court’s determination on direct appeal that there was no plain error

does not foreclose a finding during post-conviction proceedings that Mr. Jones suffered prejudice
under Strickland v. Washington, 466 U.S. 668 (1984) for ineffective assistance of counsel in
failing to preserve the appellate standard requiring greater scrutiny of the admissibility of the
statements. See ex Parte Taylor, 10 So. 3d 1075 (Ala. 2005).

- 24 App. 189

3.

66.

Counsel failed to investigate and present readily available evidence
that Mr. Jones’ statements were the products of physical coercion and
intimidation by the police.

In yet another example of counsel’s failure to adequately investigate and prepare

for Mr. Jones’ trial, they failed to obtain or introduce available evidence showing that Mr. Jones’
statements were the results of physical coercion and intimidation by the police. This failure
prejudiced Mr. Jones both at trial and on appeal. The appellate court found that “[b]ased on the
totality of the circumstances, the trial court correctly determined that Jones’ statements were
voluntarily made.” Jones, 987 So. 2d at 1166. However, due to the failure of trial counsel to
investigate and present all relevant facts, neither the trial court nor the appellate court was
presented with a record that fairly, fully, and accurately contained the “totality of the
circumstances.” Specifically, counsel failed to either investigate or present evidence establishing
that the police physically assaulted Mr. Jones while he was in custody and during interrogation.
67.

The police caused serious physical injury to Mr. Jones’ by violently ramming his

head into a door. This incident was witnessed by Mr. Jones’ sister, LaKeisha Jones, who was
also in custody at the time and kept in the same room as him.

Had counsel effectively

interviewed Ms. Jones prior to trial, they would have learned this fact and introduced it both
during the suppression hearing and also at trial to undermine the State’s evidence. In addition,
counsel failed to learn or present evidence that Mr. Jones’ mother saw the injury to Mr. Jones’
head when she visited him after his arrest.
68.

The record also shows that the injury to Mr. Jones’ head was not minor, but that

the pain from that injury adversely impacted his ability to deal with his interrogators. Mr. Jones
referenced his head injury seven times during his second statement:
“Man, I got a headache.” (C. 351);

- 25 App. 190

“Can I get an aspirin or something, sir, cause I’m . . . I’m about out already.” (C.
362);
“My head is hurting.” (C. 372);
“Damn, my head hurts. Damn, my head.” (C. 372);
“Man, my head hurts. Y’all ain’t got no aspirin, Tylenol or nuthin’?” (C. 372);
“See my head hurts.” (C. 374);
“My head is hurting now. I can’t take too much.” (C. 384).
Mr. Jones was in such distress that he repeatedly requested pain medication to alleviate his
suffering. (C. 362, 372.) These pleas were completely ignored by the police officers conducting
the interview. Not only did they not provide Mr. Jones’ with aspirin or another pain reliever as
he requested, they did not inquire as to whether Mr. Jones’ head injury affected his ability to
understand what was happening or make knowing voluntary, and intelligent decisions regarding
his statement.
69.

This is objective evidence that the pain from Mr. Jones’ head injury made it

impossible for him to make a voluntary, knowing, and intelligent decision about his statement.
That statement should not have been admitted at his capital murder trial. See Mincey v. Arizona,
437 U.S. 385 (1978) (finding confession involuntary because inter alia defendant was in pain).
Furthermore, the officers’ treatment of Mr. Jones – both in causing his injury and in ignoring his
obvious suffering – created an atmosphere that undermined Mr. Jones’ personal dignity and
overbore his will to remain silent. See Miranda, 384 U.S. at 445-58 (describing police
interrogation techniques designed to subtly create an atmosphere of police domination as
destructive of the human dignity guaranteed by the privilege against self-incrimination).
70.

Additionally, investigation leading to target questioning of police witnesses

during the suppression hearing would have revealed that while Mr. Jones was in custody and
- 26 App. 191

being interrogated, the police repeatedly kicked him in the chest so hard that he fell backwards
out of his chair. Thus, regardless of whether any Miranda warnings given prior to the second
statement were effective, the second statement was involuntary because the police used coercive
tactics that overbore Mr. Jones’ will to remain silent. Mincey, 437 U.S. 385.
71.

Further, the evidence that Mr. Jones’ will was overborne is even more compelling

when these acts of physical assault are viewed in combination with the psychological
intimidation the police used against Mr. Jones – threatening to send him to the electric chair.
During Mr. Jones’ second statement Officer Beeson told the teenager, “I’m sitting here holding
your life in my hands.” (C. 378.) He then effectively stated that he would send Mr. Jones to the
electric chair. (C. 378.) This statement went beyond telling Mr. Jones that he was facing capital
charges. Rather, it exploited Mr. Jones’ youth, lack of education, and already expressed fear of
the death penalty, and the message conveyed to him that the police officers personally had
control over whether or not he would receive that penalty. This comment heightened the
atmosphere of fear in which police – who had already physically assaulted Mr. Jones – now
stated that they controlled Mr. Jones’ fate and necessarily produced a compulsion for him to
speak. That threat, coupled with the acts of physical coercion that counsel failed to present,
overbore Mr. Jones’ will and rendered all of his subsequent statements involuntary. See Harris
v. Dugger, 874 F.2d 756, 761 (11th Cir. 1989) (noting that for a statement to be voluntary it
“must not be extracted by any sort of threats”); Ex parte Pardue, 661 So. 2d 268, 270 (Ala.
1994) (same).
72.

The fact that Mr. Jones did not “confess” to the murder does not demonstrate that

his will was not overborne; it is sufficient that he felt compelled to speak at all and forgo his
right to remain silent. See Miranda, 384 U.S. at 477; Harrison, 358 So. 2d at 765; Hodges, 926

- 27 App. 192

So. 2d at 1071. Here his inconsistent recorded exculpatory statements and Mr. Jones’ purported
unrecorded partial confession that he was present at the crime scene were used by the
prosecution at trial. Had counsel performed an adequate investigation and introduced the police
officers’ acts of physical coercion against Mr. Jones, there is a reasonable probability that his
statements would have been suppressed and that he would not have been convicted of capital
murder or sentenced to death.
B.

Counsel failed to assert Mr. Jones’ right to a speedy trial despite the fifty (50)
month delay in the commencement of his case.

73.

Mr. Jones’ counsel were ineffective because they failed to assert his right to a

speedy trial. The Sixth Amendment to the United States Constitution provides, “[i]n all criminal
prosecutions, the accused shall enjoy the right to a speedy and public trial.” U.S. Const. amend.
VI; see also Barker v. Wingo, 407 U.S. 514, 530 (1972). The guarantee of a speedy trial is a
“fundamental right” on footing with any of the basic liberties described in the Bill of Rights.
Klopfer v. North Carolina, 386 U.S. 213, 223 (1967). Here, trial counsel’s failure to assert this
right resulted in an unjustified delay in the commencement of Mr. Jones’ trial for over four years
that prejudiced Mr. Jones by subjecting him to oppressive pretrial incarceration and unnecessary
anxiety as well as impairing his defense.
1.
74.

The lengthy delay in bringing Mr. Jones to trial results in a
presumption of prejudice.

As a threshold matter, the length of the delay means that Mr. Jones is entitled to a

presumption of prejudice as a result of his trial counsel’s failure to assert his right to a speedy
trial. See Wingo, 407 U.S. at 530-31. Under Alabama law, the delay of more than 50 months
between Mr. Jones’ arrest on December 31, 1999, and the commencement of his trial on March
8, 2004, is more than sufficient to meet the presumptive prejudice standard. See Howard v.
State, 678 So. 2d 302, 304 (Ala. Crim. App. 1996) (29-month delay was presumptively
- 28 App. 193

prejudicial); Vincent v. State, 607 So. 2d 1290 (Ala. Crim. App. 1992) (31-month delay was
presumptively prejudicial). Because Mr. Jones was presumptively prejudiced by his counsel’s
failure to exercise his right to a speedy trial, the court must consider the reason for the delay, Mr.
Jones’ assertion of his right, and the magnitude of the prejudice to Mr. Jones. See Wingo, 407
U.S. at 530-33.
2.
75.

The delay has not been explained.

The delay in bringing Mr. Jones’ case to trial has not been explained. Notably,

while trial counsel was deficient for failing to assert Mr. Jones’ right to a speedy trial, the delay
itself is attributable to the State. Because trial counsel was not appointed until March 27, 2003,
none of the delays throughout the first 38 months are attributable to Mr. Jones. (C. 1.) The State
has not explained its delay in bringing Mr. Jones to trial; but even a negligent delay is a
violation, because the ultimate responsibility for the delay lies with the State. Wingo, 407 U.S. at
531.
3.
76.

Counsel failed to assert Mr. Jones’ right to a speedy trial despite the
fact that Mr. Jones himself tried to assert that right.

Counsel’s failure to assert Mr. Jones’ right to a speedy trial is all the more

deficient because Mr. Jones himself repeatedly attempted to assert it. (C. 14, 15, 16, 18, 19.) On
four separate occasions, Mr. Jones sent letters to the circuit judge and circuit clerk requesting
that they advance proceedings in his case. Id. In those letters, he specifically attempted to assert
his right to a speedy trial. On June 10, 2002, Mr. Jones wrote, “Your Honor, I have a capital
case and time is always of the essence when dealing with capital cases. My knowledge of the
law is limited and I’ve been locked up since December 31, 1999.” (C. 14 (emphasis added).)
4.

The delay in bringing Mr. Jones to trial resulted in actual, not just
presumptive, prejudice, including four years of oppressive
- 29 App. 194

incarceration, needless anxiety and concern about his case, and an
impaired defense.
77.

Mr. Jones suffered extensive prejudice as a result of his counsel’s failure to assert

his right to a speedy trial. The United States Supreme Court has identified three interests that the
right to a speedy trial protects:

(1) prevention of oppressive pretrial incarceration, (2)

minimizing anxiety and concern of the accused, and (3) limiting the possibility that the defense
will be impaired. See Wingo, 407 U.S. at 514. Here, Mr. Jones was prejudiced by injuries to
each of these three interests. Four-plus years of incarceration prior to receiving a trial is
inherently oppressive. As a result of that lengthy pre-trial incarceration, during which time little
progress was made on his case, Mr. Jones suffered needless anxiety and concern about his
defense, as reflected in Mr. Jones’ letters to the judge and clerk. (C. 14, 15, 16, 18.) Finally,
counsel’s failure to assert Mr. Jones’ right to a speedy trial resulted in an impaired defense.
Numerous witnesses were unable to recall crucial pieces of evidence. (See, e.g., R. 464, 466,
491–92, 496, 497, 500, 503, 528-29, 760, 767, 788-89, 806-07, 810-11, 816-17, 850–51, 872,
877, 879, 884-86, 908.) Indeed, even the prosecutor himself admitted that this considerable
delay negatively impacted the reliability of evidence, because some witnesses might not be
capable of accurately remembering information because the offense occurred over four years
prior. (See, e.g., R. 489, 537.) The witnesses’ inability to remember critical details significantly
hindered Mr. Jones’ ability to make out his case and effectively cross-examine State witnesses.
78.

Perhaps most importantly, the more than four-year delay in bringing Mr. Jones to

trial greatly undermined and reversed important mitigating evidence. His youth, as an 18-and-ahalf-year-old teenager, was gone, and by the time of trial, Mr. Jones had been transformed by the
delays into a nearly 23 year-old man. As a matter of law, his youth was entitled to great weight.
At the time of his arrest, Mr. Jones was just a few months past the age that would automatically

- 30 App. 195

render him constitutionally ineligible for the death penalty. Roper v. Simmons, 543 U.S. 551
(2005). He was not even yet of the age of majority under Alabama law on December 31, 1999,
at the time of the offense). Ala. Code § 26-1-1. But the judge and the jury did not see the
youthful teenager who allegedly committed the offense and was interrogated by 20 and 30-year
veterans of the police force. Instead, they saw a man, hardened by more than four years of
incarceration. He was 23% older at the time of trial than at the time of the offense. Thus, the
delay precluded the jury from giving this mitigating circumstance its due weight. The prosecutor
took advantage of the matured appearance of the defendant by asking the jurors to look at him
and imagine the defendant, obviously the significantly older and stronger man, in relation to the
frail senior-citizen victim. (See R. 1184 (“She was in her home in Houston County defenseless,
weak, unable to protect herself. Someone that’s six foot a hundred and eighty-five pounds, you
see him as he sits here in the courtroom, destruction and death came.”); see also, e.g., R. 118788.)
79.

There is no strategic or tactical reason to explain trial counsel’s failure to raise the

denial of Mr. Jones’ right to a speedy trial. The delays created by the State and greatly
benefiting the State’s case, already existed when counsel were appointed.
80.

Had Mr. Jones’ counsel asserted his right to a speedy trial, they would have

established that the State’s delay in bringing this case to trial resulted in oppressive pretrial
incarceration, considerable anxiety, and impaired Mr. Jones’ defense. Trial counsel’s failure to
do so resulted in violations of his rights to a speedy trial, due process, a fair trial, and a reliable
sentence protected by the Fifth, Sixth, Eighth, and Fourteenth Amendments of the United States
Constitution, the corresponding provisions of the Alabama Constitution, and Alabama law. Had
Mr. Jones’ counsel asserted his right to a speedy trial, there is a reasonable probability that the

- 31 App. 196

case against Mr. Jones would have been dismissed or that he would not have been convicted of
capital murder or sentenced to death.
C.

Counsel failed to secure a change of venue despite extensive media coverage
of the crime.

81.

Counsel were ineffective in failing to secure a change of venue. A criminal

defendant is entitled to a trial by an impartial jury “free from outside influences.” Sheppard v.
Maxwell, 384 U.S. 333, 351 (1966).

Due process mandates that when there is pervasive,

inflammatory pre-trial publicity, a defendant is entitled to a change of venue.

Rideau v.

Louisiana, 373. U.S. 723 (1963). Alabama law also entitles a defendant to a change of venue
where a fair and impartial jury cannot be seated. Ala. Code § 15-2-20; Arthur v. State, 472 So.
2d 650, 659 (Ala. Crim. App. 1984), rev’d on other grounds, 472 So. 2d 665 (Ala. 1985).
82.

Here, the crime was reported as a “brutal murder” and was the repeat banner-

headline story on the front page of The Dothan Eagle daily newspaper, in a close-knit
community.

The crime was highly publicized due to the timing (on the eve of the new

millennium), the police connection (the victim’s grandson was a Dothan police officer who
discovered the crime), and the nature of the offense.
83.

Due to extensive media saturation, the trial court granted defense counsel’s

motion to discover news coverage from all local news organizations. (C. 102–06.) Counsel,
however, failed to adequately investigate and prepare for their motion for change of venue. As a
result, of counsel’s failures, Mr. Jones was tried before a jury drawn from a community in which
there had been extensive media coverage of the crime and its impact on the community, in
violation of his constitutional right to an impartial jury. See Ala. Const. art. I, § 6; U.S. Const.
amend. VI.

- 32 App. 197

1.
84.

Counsel failed to voir dire potential jurors regarding the impact of
media coverage.

Trial counsel flat-out forgot to ask the potential jurors about the effect of the

extensive publicity on them. At trial, counsel expressly asked that the judge to reserve ruling on
the motion for change of venue until after voir dire, as counsel claimed juror responses would
enable counsel to prove the prejudice flowing from the media’s coverage of the offense. (C.
165–66.) The court granted counsel’s request. Yet, during voir dire, counsel failed to ask any
questions pertaining to media saturation and its impact.
85.

Counsel’s failure to engage in such questioning could not have resulted from a

reasonable trial strategy because the record shows they expressly intended to inquire about the
issue on voir dire, and the court set the change of venue motion for hearing after voir dire
specifically for that purpose. Counsel, however, overlooked their own stated objective. There
was no change in strategy or any sound tactical basis for the omission. Any claim that this
glaring oversight might have been intentional is eliminated by counsel’s own panicked request
after the jury selection to engage in voir dire on the subject of media saturation. (R. 251 (counsel
belatedly asked to “poll the jury to determine whether they have been – whether they have heard
news accounts or anything of that nature, read the newspaper, been exposed to publicity about
the case”)). By that point, however, it was too late, and the judge, who had approved such
questioning before the jury selection process, denied the tardy request. (R. 251.)
86.

The “most important way to guard against the effects of pretrial publicity is to

conduct an extensive examination of the jurors, during jury selection.” Madden v. State, 628 So.
2d 1050, 1051-52 (Ala. Crim. App. 1993). Counsel missed this “most important” opportunity to
examine the jury pool regarding the prejudicial effect of pretrial publicity, thereby causing Mr.

- 33 App. 198

Jones to go to trial before a jury that in all likelihood had prejudicial, preconceived notions about
his involvement in Ms. Kirkland’s death.
87.

Further reinforcing the significance of counsel’s failure to conduct voir dire on

this subject is that, due to the inadequacy of general questions glossing over the impact of
publicity, historically “[c]ourts have condemned the use of general voir dire questions
concerning pretrial publicity when the majority of the jurors have been exposed to publicity
surrounding a case.” See Lam Luong v. State, No. CR-08-1219, 2013 WL 598119, at *22 (Ala.
Crim. App. Feb. 15. 2013). Here, as detailed below, the majority of the jurors almost certainly
had been exposed to publicity surrounding the case due to its coverage in The Dothan Eagle,
which counsel failed to inquire about. Under such circumstances, counsel could not even
arguably rely upon general questioning on the subject of publicity by the prosecutor or court
because “simply asking members of the jury venire to indicate by a show of hands whether the
publicity would impair their ability to render an impartial decision did not adequately protect the
defendant's constitutional rights.” Id. at *23. Here, “the nature and extent of the media coverage
mandated that individual voir dire be conducted.” Id. at 24. Counsel, however, failed to conduct
any, not even general, voir dire.
2.
88.

Counsel failed to adequately investigate and prepare for the change of
venue motion.

Further establishing that counsel’s failure to voir dire regarding media saturation

was not part of a reasonable trial strategy, after jury selection Mr. Parker futilely elicited
testimony at a hearing in support of his request for a change of venue. Yet, even with respect to
the evidence Mr. Parker did present, he was ineffective.
89.

Although counsel had obtained permission from the judge to obtain discovery

from “all” news organizations in the area, counsel presented testimony from just a single

- 34 App. 199

individual, from a single television station. (R. 325.) Mr. Parker failed to obtain and present
readily available evidence from the local newspaper about the coverage of the crime and its
impact on the community.
a.

90.

Counsel failed to adequately prepare their media witness and
failed to elicit readily available testimony that would have
established media saturation immediately prior to trial.

Moreover, the testimony of the only media witness, Wayne May, revealed that

Mr. Parker failed to meaningfully engage the witness prior to trial and ensure he came equipped
with appropriate statistics and other information critical to prove their venue claim. Mr. Parker’s
failure to so properly engage the witness resulted in Mr. May bringing with him just rough
excerpts of certain television news reports. (R. 326.) Due to counsel’s failings, the unprepared
journalist was unable to present specific testimony about precisely how many news stories in
total relating to the crime had been broadcast on the local station and when those stories had run,
other than to acknowledge that the station had run at least thirty stories on the case. (R. 326,
328-31.)
91.

Mr. Parker’s failure to prepare for this witness’ testimony is established by Mr.

Parker’s direct examination:
Q

Did you bring some documents with you with regard to publication of reports or
broadcasts?

A

Yes, sir. It’s a rough sample of what we’ve done with this case over the past four
years.

Q

And how many broadcasts have you published?

A

Well, now, I didn’t have a chance to run a complete copy . . . .

****
Q

And all these documents that we’ve got, these are with regard to the subsequent
documents, these are scripts?

- 35 App. 200

A

Yes, sir. Yes, sir. That’s just a rough sampling I pulled out in five minutes this
morning. Just ran to the computer, punched up a couple of things, and tried to
get something to go by.

(R. 326, 330 (emphasis added).)

This testimony establishes that, despite having sought

discovery from all news sources months prior to the trial, Mr. Parker failed to adequately prepare
the witness and that, prior to that very moment, had never even seen or reviewed the exhibits he
sought to use at trial as evidence to support the change of venue motion.
92.

In fact, had Mr. Parker properly prepared for this important witness, he could

have easily elicited testimony from Mr. May showing that the television coverage of the crime
and Mr. Jones’ trial was not limited to the period immediately following the crime, but also
occurred in the months leading up to the trial. For example, Mr. Parker could have easily elicited
testimony from Mr. May showing that in the months leading up to the trial, the television station
broadcast a story reporting the details of the crime, the highly prejudicial alleged existence of
DNA evidence, and the very fact of extensive media coverage:
22-year-old Antonio Jones was arrested on New Year’s Eve of 1999 while driving
the victim’s car. 80-year-old Ruth Kirkland had been beaten to death in her
home just a few hours earlier . . . and her Cadillac had been stolen. Sources say
D-N-A evidence links Jones to the crime. Defense Attorneys told Judge Jerry
White this morning they want the trial moved because of all the publicity
surrounding the case. They want a hearing on the motion held closer to the trial
date. Jury selection is scheduled to begin January 12th.
(C. 403 (Change of Venue Hearing: Defense Exhibit 1).)

Mr. Parker was holding this

information in his hands, but failed to elicit any testimony about it.
93.

Mr. Parker also failed to elicit testimony regarding a virtually identical television

broadcast, containing the same highly prejudicial information, which occurred just a week before
trial. Mr. May’s television station told its viewers that “[a]n accused killer stands trial in Dothan
next week. . . . Antonio Jones could get the death penalty if he’s convicted.” (C. 404 (Change of
Venue Hearing: Defendant’s Exhibit 1).) This broadcast repeated the details of the crime and the
- 36 App. 201

highly prejudicial alleged existence of DNA evidence, and concluded by saying “Jury selection
is scheduled to begin Monday at the Houston County Courthouse.” (Exhibit J, Media/Articles.)
Again, Mr. Parker was holding in his hands this highly relevant evidence of media saturation and
prejudice of the jury pool, but he failed to elicit testimony about it or otherwise bring it to the
trial court’s attention. Mr. May’s inability to deliver credible, specific testimony underscored
counsel’s failure to notify the witness of the purpose for his testimony; explain what information
he would be required to provide; and what data he would need to compile in order to
competently testify about the frequency and scope of coverage. Without any further evidence,
and after only five pages of direct examination by Mr. Parker, the trial court denied the defense’s
change of venue motion. (R. 332.)
94.

Recognizing that the defense made a fundamental blunder by failing to voir dire

the jurors about their individual exposure to and opinions from news about the murder, the
prosecution seized upon the opportunity to rhetorically ask the media witness whether he could
prove that any of the empaneled jurors were exposed to and/or impacted by media coverage in
the area. (R. 332.) Of course, the witness could not, but the prosecution’s point was made:
defense counsel had missed their opportunity to make that inquiry of the venire. See Irvin v.
Dowd, 366 U.S. 717, 725-28 (1961) (reversing conviction where pretrial publicity was so
extensive that it precluded jurors from rendering a fair and impartial determination); Madden,
628 at 1051-52.
b.

95.

Counsel failed to obtain and present readily available evidence
of media coverage of the crime and its impact on the
community.

Additionally, counsel was deficient because they utterly failed to obtain readily

available evidence of media saturation from the local newspaper, The Dothan Eagle, in which
the crime repeatedly made front page, headline news. Indeed, the murder was reported, among
- 37 App. 202

other things, in at least five front page stories, and Mr. Jones’ photograph appeared on the front
page at least twice. No reasonably diligent counsel would have failed to investigate The Dothan
Eagle for evidence of media saturation and community impact. Indeed, approximately 65% of
the population of Houston County lived in the City of Dothan.4
96.

On January 1, 2000, the first day of the new millennium, The Dothan Eagle ran a

headline story called “Elderly Dothan woman found murdered at home: Stadium Street woman
stabbed and beaten.” The article reported that “Three adults and a child were apprehended
Friday night riding in a car stolen from an elderly Dothan woman who was found murdered in
her dining room . . . . It looks like she’s got some stab wounds and some blunt force trauma to
the head . . . . Nothing appeared to be missing from the home except the 1990 Cadillac . . . . The
victim’s grandson found her body . . . . As Dothan police investigators processed the crime scene
inside the house, patrol officers spotted the victim’s Cadillac.” (Exhibit J, Media/Articles.) The
article included a photograph of a white Cadillac. This article was readily available to counsel,
but they failed to present it at the change of venue hearing.
97.

On Sunday, January 2, 2000, The Dothan Eagle ran a front-page headline story

about the murder called, “Last Death in Wiregrass a brutal murder.” The story reported:
Ruth Kirkland was one of those people you just know you would have liked. . . .
On Friday night, though, someone came in the backdoor of her Stadium Street
home and apparently beat her to death. The 80 year-old woman . . . was the last
person of the millennium to be pronounced dead in Houston County. An 18year old Dothan man, Antonio Jones, was arrested and booked into Houston
County Jail on a charge of capital murder in connection with the death. . . . If
found guilty, he could be sentenced to death in the electric chair. . . . “It was
brutal,” said [the] Houston County Coroner . . . . Kirkland was killed, apparently
for her 1990 Cadillac . . . . Police apprehended Jones several hours after
4

According to the U.S. Census Bureau, Profile of General Demographic Characteristics for the 2000 Census, the
population of the City of Dothan was 57,737 and the population of Houston County was 88,787.
See http://factfinder2.census.gov/bkmk/table/1.0/en/DEC/00_SF1/DP1/1600000US0121184;
see also http://factfinder2.census.gov/bkmk/table/1.0/en/DEC/00_SF1/DP1/0500000US01069. There was no daily
newspaper in Houston County, other than The Dothan Eagle.

- 38 App. 203

Kirkland’s grandson, Dothan police officer Brent Parrish discovered something
amiss when he went to check on Kirkland. . . . Investigators discovered Kirkland
lying in the brown, brick house’s dining room. She was pronounced dead after 11
p.m. Friday . . . . The Cadillac was the only thing missing from the house. . . .
The killing and its similarity to other crimes in Dothan has caused investigators to
see if Jones could be linked to other crimes . . . including unsolved murders in the
area.
(Emphasis added.) Ms. Kirkland’s obituary was reported by the newspaper that same day.
(Exhibit J, Media/Articles.) This sensationalized article, wrongly implying Mr. Jones could be
responsible for a series of “unsolved murders in the area,” was readily available to counsel, but
they failed to present it at the change of venue hearing.
98.

On January 4, 2000, The Dothan Eagle again led with a front-page headline story

about Mr. Jones, titled “Capital murder suspect appears in court.” The story included a frontpage photograph of Mr. Jones standing in court, and it repeated many of the alleged facts
regarding the murder. A call-out box referenced a second article on the third page calling for a
“district wide safety meeting.” (Exhibit J, Media/Articles.) (emphasis added.)
99.

That second front-page article reported the widespread impact the murder had on

the community: “Concerns about the New Year’s Eve murder of an elderly Stadium Street
woman . . . has prompted District IV Commissioner Jason Rudd to call a special meeting to
address safety.” The story quoted Rudd as saying: “We’re going to have a get together and were
going to talk about safety . . . The Dothan Police Department is going to be our special guest.”
According to the article, “Rudd has received calls from several residents concerned about their
safety,” which prompted him to schedule the meeting “at the Doug Tew Community Center.”
(Exhibit J, Media/Articles.) This article was readily available to counsel, but they failed to
present it at the change of venue hearing.
100.

On January 5, 2000, The Dothan Eagle ran not one, but two front page stories,

about the murder, both under the headline, “On the defensive.”
- 39 App. 204

101.

In the first article, “Neighborhood’s residents watching out after New Year’s Eve

murder,” the newspaper reported the impact of the murder on the community and linked the
crime to “illegal drug usage.” The article quoted a resident as saying, “we can’t build enough
jails to hold all these people.” (Exhibit J, Media/Articles.)
102.

The second January 4 front-page article concerned District Commissioner Rudd’s

district-wide “special meeting” regarding safety, which was “on everyone’s mind.” The article
repeated that Rudd had received calls from concerned residents after “80-year old Ruth Kirkland
was found murdered in her Stadium Street home on New Year’s Eve.” According to the article,
the special meeting was so well attended that people were “crammed” into the community
center. The article reported that Dothan Police Captain John Givens spoke to the crowd that
evening. (Exhibit J, Media/Articles.) Counsel knew about that meeting, (R. 326–27), but never
asked how many jurors were at the meeting.
103.

Both of these January 4 articles were readily available to counsel, but they failed

to present the articles at the change of venue hearing.
104.

On January 19, 2000, The Dothan Eagle ran yet another a front-page headline

story about the murder, called “Capital murder case forwarded to grand jury: Police say suspect
gave different stories after his arrest.” The article reported that Mr. Jones was “charged in the
brutal New Year’s Eve slaying of a Stadium Street woman,” and had “told police someone else
had committed the murder and that he had tried to intervene and get help for the victim.” The
article further reported that Mr. Jones “sat handcuffed in a Houston County courtroom,” while
“three Dothan police officers” testified during the preliminary hearing. According to the article,
“Before the hearing began, Jones strained to get a look at crime scene photos . . . including at
least one which showed the severe injuries 80-year old Ruth Kirkland suffered while being

- 40 App. 205

beaten to death with a cane and a chair.” The article also reported that officer Donovan
Kilpatrick – who would later testify at trial – “testified blood splatters were found on the ceiling
of the room where Kirkland was beaten to death.” The article stated that “marks on her body
were consistent with the shape of a broken wooden cane found at the scene,” that she “suffered
severe trauma to the back of her head, a broken rib, a fracture to her arm and puncture wounds to
a hand.” According to the article, “Kirkland’s body was found on New Year’s Eve Night. Her
Cadillac was missing from her carport and was later spotted by Dothan Patrol Officer David
Elkins, who carried out a traffic stop and found Jones behind the wheel . . . .” (Exhibit J,
Media/Articles.)
105.

The same article then went on to relate Jones’ interrogation by the Dothan Police

Department, stating that Jones had first said four other people picked him up in the Cadillac but
later “changed his story,” saying that “he had ridden to Kirkland’s house with the men who
killed her, but he waited outside in a car.” According to the article, Mr. Jones told Officer
Kilpatrick that “the other men turned off the power before going into Kirkland’s house and he
later turned the power back on, then went inside and tried to make them stop hitting Kirkland,”
and tried to call an ambulance. The article also reported that, “during a search of the car, officers
found photographs showing Jones in the stolen Cadillac. A receipt indicated the pictures were
developed at a local store on New Year’s Eve and paid for at 5:30 p.m. on the night Kirkland
was murdered.” The article stated that “When Jones was arrested, he was wearing white sweat
pants, black shoes and a red shirt, all of which were splattered with blood.”

(Exhibit J,

Media/Articles.) This article was readily available to counsel, but they failed to present it at the
change of venue hearing.

- 41 App. 206

106.

Counsel’s failure to obtain and present these articles in support of the change of

venue motion cannot have been part of a sound trial strategy. Their failure to obtain and present
these articles deprived Mr. Jones of evidence that, if presented to the trial judge, would have
resulted in a change of venue.
3.

107.

Counsel’s failures to secure a change of venue or to question local
jurors about their prior knowledge of the crime prejudiced Mr. Jones
by forcing him to be tried before a jury drawn from a community that
was saturated by media coverage of the crime and its impact on the
community in violation of his constitutional right to an impartial jury.

As a result, Mr. Jones was tried before a jury drawn from a community that had

been influenced by inflammatory media coverage of the crime and its impact on the community.
“In connection with pretrial publicity, there are two situations which mandate a change of venue:
1) when the accused has demonstrated ‘actual prejudice’ against him on the part of the jurors; 2)
when there is ‘presumed prejudice’ resulting from community saturation with such prejudicial
pretrial publicity that no impartial jury can be selected.” Sheppard v. Maxwell, 384 U.S. 333
(1966); Rideau v. Louisiana, 373 U.S. 723 (1963); Estes v. Texas, 381 U.S. 532 (1965); Ex parte
Grayson, 479 So. 2d 76, 80 (Ala. 1985), cert. denied, 474 U.S. 865 (1985); Coleman v. Zant,
708 F.2d 541 (11th Cir. 1983).5
108.

Here, counsel’s failure to voir dire the venire on the subject of media saturation

prejudiced Mr. Jones by denying him the ability to discover actual prejudice due to media
saturation. A defendant must show that “one or more jurors who decided the case entertained an
opinion, before hearing the evidence adduced at trial, that the defendant was guilty,” and that
those jurors could not lay those pre-formed opinions aside to render a verdict based upon the

5

For purposes of clarification, the Court should distinguish between the “prejudice” caused by counsel’s
ineffectiveness and the “prejudice” caused by media saturation.

- 42 App. 207

evidence presented at trial. Coleman v. Zant, 708 F.2d at 544 (citing Irvin v. Dowd, 366 U.S.
717, 727-28 (1961).
109.

Counsel failed to engage in any meaningful voir dire on this subject, let alone the

“individual voir dire,” historically required due to the magnitude of the crime and its impact on
the community, as revealed in the media publicity and community organizing that followed the
crime. See Lam Luong, 2013 WL 598119, at *24. Counsel, therefore, failed to identify those
jurors who had preconceived notions of Mr. Jones’ guilt that they were unable to put aside.
110.

Mr. Jones also suffered a presumption of a prejudiced jury due to counsel’s

failures to voir dire potential jurors, elicit readily available testimony regarding media coverage
in the months leading up to and immediately prior to trial, and introduce the articles from The
Dothan Eagle.

“Prejudice is presumed from pretrial publicity when pretrial publicity is

sufficiently prejudicial and inflammatory and the prejudicial pretrial publicity saturated the
community where the trials were held.” Coleman v. Kemp, 778 F.2d 1487, 1490 (11th Cir.
1985); Holladay v. State, 549 So. 2d 122, 125 (Ala. Cr. App. 1988), aff’d, 545 So. 2d 135 (Ala.
1989).

To determine whether “presumed prejudice” exists, the court should consider the

“totality of the surrounding facts.” Irvin v. Dowd, 366 U.S. at 721 Patton v. Yount, 467 U.S.
1025 (1984).
111.

There was a substantial likelihood of actual prejudice in Mr. Jones’ case in light

of the extensive media coverage and community meetings.

In an appellate decision from

Houston County, which involved less publicity about a murder and no community meetings,
questioning of the panel of prospective jurors revealed that “12 of the 70 initial venire members
had read or seen” media reports about the case, and “3 of those indicated that they had formed
opinions about the case that they could not set aside.” McCray v. State, 88 So. 3d 1, 70-71 n.29

- 43 App. 208

(Ala. Crim. App. 2010) (“Only 6 articles appeared in The Dothan Eagle and only 21 total news
stories were broadcast . . . .”). In McCray, the trial court’s decision to deny a change of venue
was affirmed because the effect of the media saturation was fully explored in voir dire, and
affected jurors were dismissed for cause. Here, Mr. Jones had no opportunity to know whether
twelve or three or some other number of his jurors had formed unshakable opinions about the
case from the publicity that they did not believe they could set aside. Because his attorneys
forgot to ask, we will never know for certain. But there is a likelihood appropriate questioning
would have netted findings that the larger volume of pretrial publicity resulted in bias in a greater
number of jurors than in McCray.
112.

Here, The Dothan Eagle articles, combined with the testimony of Mr. May that

counsel should have elicited, would have established that the crime and Mr. Jones’ alleged
involvement was discussed extensively within the Houston County community and elicited a
hostile community response, about which the community was expressly reminded in the months
and week prior to trial. Had counsel adequately investigated and prepared for the change of
venue hearing, the trial court would have recognized that the community was saturated with
media coverage of the event – both at the time of the crime and at the time of trial – and granted
a change of venue to ensure Mr. Jones’ right to a fair trial and impartial jury. Absent a change of
venue, the court and the parties would have learned the effect of the extensive media coverage,
and the media-biased jurors could have been identified and excused.
D.

Counsel were deficient during jury selection, which deprived Mr. Jones of a
fair and impartial jury.

113.

Counsel prejudiced Mr. Jones and rendered ineffective assistance of counsel

during the entire jury selection phase of trial. The importance of voir dire in protecting an
individual’s constitutional rights is well established. “[P]art of the guarantee of a defendant’s

- 44 App. 209

right to an impartial jury is an adequate voir dire to identify unqualified jurors.” Morgan v.
Illinois, 504 U.S. 719, 729 (1992); see also Gray v. Mississippi, 481 U.S. 648, 668 (1987)
(noting that jury selection “goes to the very integrity of the legal system”); Rosales-Lopez v.
United States, 451 U.S. 182, 188 (1981) (“Without an adequate voir dire the trial judge’s
responsibility to remove prospective jurors who will not be able impartially to follow the court’s
instructions and evaluate the evidence, cannot be fulfilled.”); United States v. Ford, 824 F.2d
1430, 1435 (5th Cir. 1987) (holding that “the selection of the jury [is] an essential component of
the trial itself ‘because the impartiality of the adjudicator goes to the very integrity of the legal
system’”) (citing Gray, 481 U.S. at 668).
114.

Further, jury selection has a heightened importance in capital cases. See Woodson

v. North Carolina, 428 U.S. 280, 305 (1976) (“Because of that qualitative difference, there is a
corresponding difference in the need for reliability in the determination that death is the
appropriate punishment in a specific case.”). Thus, when the State seeks the death penalty, there
must be assurances that the jury is capable of making a fair and evidence-based determination at
both phases of trial. Here, counsel’s ineffectiveness during voir dire deprived Mr. Jones of a fair
and impartial jury. Had counsel engaged in effective voir dire, there is a reasonable probability
that Mr. Jones would not have been convicted of capital murder or sentenced to death.
1.

115.

Counsel made prejudicial statements during voir dire, by
communicating his personal horror at the alleged crime, his fear of
being murdered by his own client, Mr. Jones, a fear that his and the
jurors’ children might be the next victims, and that it was proper to
convict Mr. Jones on a standard less than beyond a reasonable doubt.

As an initial matter, defense counsel’s own statements during voir dire were

prejudicial to Mr. Jones. During voir dire, counsel told every potential juror that counsel himself
was disgusted by the crime, feared for his life, and might even convict Mr. Jones without due
process:
- 45 App. 210

We all hate to pick up the paper or hear on the news that someone in the
community has been murdered, much less an elderly lady. I’m one of those
people. I despise reading that. It makes me sick at my stomach and scares me.
I’m wondering, you know, am I going to be next. I’m not far. Probably already
am a senior citizen. . . . We fear that we one day might be a victim or our children
might be a victim. How many of you . . . would convict Tony of capital murder . .
. simply out of fear that he may have committed this or … simply out of fear that
you suspect he may have but not convinced beyond a reasonable doubt? There’s
people that would do that. I might be one of them. (R. 147-149)
116.

These comments, by Mr. Jones’ own counsel, were extraordinarily prejudicial.

Counsel poisoned the well for his client during the earliest stages of the case.

Counsel

communicated to everyone who would sit on the jury counsel’s own personal horror at the
alleged crime; his personal fear of being murdered by his own client, Mr. Jones; and a collective
fear that his and the jurors’ children might be the next victims. Counsel’s comments are
inexplicable and, on their face, prejudicial to Mr. Jones’ right to an impartial jury.
117.

But counsel did not stop there. Instead, counsel went on to compound his error by

informing the jury that even he – the person charged with protecting the accused’s right to due
process – might convict Mr. Jones on a standard less than beyond a reasonable doubt. Counsel’s
comments disparaging the requirement of proof beyond a reasonable doubt eroded one of Mr.
Jones’ most fundamental and valuable constitutionally protected rights. In re Winship, 397 U.S.
358, 363-64 (1970) (“We explicitly hold that the Due Process Clause protects the accused
against conviction except upon proof beyond a reasonable doubt of every fact necessary to
constitute the crime with which he is charged.”); Knotts v. State, 686 So. 2d 431, 459 (Ala. Cr.
App. 1995).

Mr. Brantley’s inexplicable statement about the standard of proof, which

undeniably was essential to his client’s defense, also directly undermined the opening statement
given shortly thereafter by Mr. Parker. Although he had little to say about the facts of the case or
what his defense would be, Mr. Parker chose to emphasize that the State had to prove its case

- 46 App. 211

beyond a reasonable doubt.

(R. 1222.)

That is the very standard his co-counsel had

marginalized during voir dire.
118.

The entire purpose of voir dire is to seat an unbiased jury, see Morgan, 504 U.S.

at 729, but counsel biased the jury against his own client by making these highly improper and
prejudicial statements. Had counsel not made these damning statements about his own client and
the standard of proof, there is a reasonable probability that Mr. Jones would not have been
convicted of capital murder or sentenced to death.
2.
119.

Counsel failed to object to the prosecutor’s successful efforts to
empanel a conviction-prone, death-prone jury.

Counsel were ineffective because they failed to object to the prosecutor’s

improper (and ultimately successful) efforts to empanel a conviction-prone jury by improperly
death-qualifying the venire. While acknowledging Lockhart v. McCree, 476 U.S. 162, 187-88
(1986) and Witherspoon v. Illinois, 391 U.S. 510 (1968), here the prosecutor improperly deathqualified the jury. Alabama and federal law only allow for the State to have a jury that is willing
to apply the death penalty, not one that will do so. See Taylor v. State, 442 So. 2d 128, 131 (Ala.
Crim. App. 1983) (citing Witherspoon, 391 U.S. at 521). As the United States Supreme Court
stated in Witherspoon, “a State may not entrust the determination of whether a man should live
or die to a tribunal organized to return a verdict of death.” 391 U.S. at 521.
120.

Here, during voir dire, the district attorney sought assurances from the prospective

jury that they would impose the death penalty if the elements were proven: “Everybody on this
row can guarantee that you believe the death penalty should be enforced in this state if the
evidence warrants it beyond a reasonable doubt and the aggravating circumstances outweigh the
mitigating circumstances? Correct?” (R. 64-65) (emphasis added). The prosecutor’s question
was improper and prejudicial because it sought assurances from all potential jurors that the death

- 47 App. 212

penalty would be meted out. See Taylor, 442 at 132 (citing Witherspoon, 391 U.S. at 522 n.21).
Defense counsel should have objected, and their failure to do so prejudiced Mr. Jones by
allowing the prosecutor to empanel a death-qualified jury.
121.

The nature of the prejudice Mr. Jones suffered is well-known. As the United

States Supreme Court has acknowledged, death-qualified jurors have “perspectives on the
criminal justice system” that are “systematically different” from other potential jurors. Lockhart,
476 U.S. at 188. Specifically, death-qualifying a jury excludes a “disproportionate number of
blacks and women” and results in “pro-prosecution” jurors who are:
more likely to believe that a defendant’s decision not to testify is indicative of
guilt;
more mistrustful of defense attorneys;
more ready to convict;
less concerned about the danger of an erroneous conviction;
predisposed to believe that the accused is guilty.
Id. at 187-88.
122.

Here, prospective jurors were excluded because they were opposed to the death

penalty. (C. 253-55, R. 207–10.) Excluding those prospective jurors on that basis violated Mr.
Jones’ rights to due process, equal protection, a jury comprised of a fair cross section of the
community, an impartial jury, a fair trial and a reliable sentencing guaranteed by the Fifth, Sixth,
Eighth, and Fourteenth Amendments to the United States Constitution and Alabama law. Death
qualification also substantially reduces jury diversity.

African Americans and other racial

minorities, women, persons of certain religions, and members of other cognizable groups will be
less likely to survive the process. See James R. Acker et al., The Empire State Strikes Back:
Examining Death – and Life – Qualification of Jurors and Sentencing Alternatives Under New
York’s Capital-Punishment Law, 10 Crim. Just. Pol’y Rev. 49, 69 (1999) (death-qualification
causes greater than 50% reduction in proportion of non-whites eligible for capital jury service).

- 48 App. 213

123.

Mr. Jones was thus prejudiced by his counsel’s failure to object to the exclusion

of those jurors, which resulted in a jury that was predisposed to believe he was guilty, more
likely to believe his constitutionally protected decision not to testify indicated his guilt, more
distrustful of Mr. Jones’ attorneys, more ready to convict him; and less concerned about the
danger of doing so erroneously. Additionally, the prosecutor’s comments were improper and
prejudicial because the prosecutor misstated the law and sought assurances from all potential
jurors that the death penalty would be meted out. Had Mr. Jones’ counsel objected, there is a
reasonable likelihood that a more balanced jury would have been seated and Mr. Jones would not
have been convicted of capital murder or sentenced to death.
3.

124.

Counsel failed to ensure that Mr. Jones was tried by jurors selected
pursuant to nondiscriminatory criteria by failing to object when the
court discharged the struck jurors prior to holding a Batson hearing.

Counsel were ineffective because they failed to ensure that Mr. Jones received the

benefit of a proper Batson hearing because counsel failed to object to the trial court’s decision to
dismiss improperly struck jurors prior to holding a Batson hearing. (R. 223–24.) Counsel’s
failure to object resulted in a jury constituted through a process of racial discrimination by the
prosecutor, in violation of Mr. Jones’ constitutional rights to equal protection and a fair trial
under the Fifth, Sixth, Eighth, and Fourteenth Amendments to the United States Constitution.
Batson v. Kentucky, 476 U.S. 79, 89 (1986) (defendant has right to be tried by jury “whose
members are selected pursuant to nondiscriminatory criteria.”); Ala. Code § 12-16-55 (“all
qualified citizens have the opportunity, in accordance with this article, to be considered for jury
service in this state and an obligation to serve as jurors when summoned for that purpose.”).
125.

As explained in Section V.A.1, incorporated herein by reference, the prosecutor

violated Batson by using his peremptory strikes in a racially discriminatory manner.

- 49 App. 214

126.

The Alabama Supreme Court has held that the trial court must conduct a Batson

hearing “before the jury is sworn to try the case.” Ex Parte Branch, 526 So. 2d 609, 625 (Ala.
1987). Thus, the trial judge may rule on a Batson motion after the jury is sworn only when both
parties agree to conduct the Batson hearing at a later time. Id. at 625.
127.

Although counsel requested a Batson hearing, counsel failed to object when the

trial court swore in the jury panel and discharged the struck jurors before holding a Batson
hearing. (R. 223-224.) When the trial court finally held a hearing, counsel asked the trial court
to re-empanel the improperly struck African-American jurors, (R. 229), but that remedy was
impossible where those jurors had already been discharged and left the courthouse.
128.

Counsel’s failure to object to the discharge of the struck jurors before the Batson

hearing prejudiced Mr. Jones in at least two significant ways. First, it rendered the Batson
hearing effectively moot, because the trial court lacked the ability to recall the improperly struck
jurors and ensure that Mr. Jones received a properly constituted jury. The judge could not, as a
practical matter, grant the motion, no matter what the State’s reasons for striking were, because
doing so would necessitate breaking up the empaneled jury and bringing back the other jurors
who had already gone home. This failure of trial counsel prejudiced Mr. Jones by depriving him
of his constitutional opportunity to ensure an unbiased jury. Had counsel objected, there is a
reasonable probability that Mr. Jones would not have been convicted of capital murder or
sentenced to death.
129.

Second, counsel’s failure to object to the discharge improperly struck jurors prior

to the Batson hearing made it more difficult for Mr. Jones to challenge the State’s pretextual
reasons for striking African-American jurors. For example, during the Batson hearing, a debate
between the State and the defense ensued as to whether a particular juror, Clifford Wright, was

- 50 App. 215

laughing when he reported having been the victim of a burglary. Both sides adamantly asserted
opposing positions and the court had difficulty resolving the issue. Had the court not dismissed
the prospective juror, he could have been taken under voir dire and defense counsel could have
either established that he did not laugh at all or that the expression was from frustration with his
own plight when reporting he was a victim of an unsolved crime. (R. 156.) Because the defense
failed to object, this opportunity was missed, and the issue was erroneously resolved in favor of
the State.6 Had counsel objected, there is a reasonable probability that Mr. Jones would not have
been convicted of capital murder or sentenced to death.
4.
130.

Counsel failed to strike for cause jurors who expressly stated that they
could not be fair and impartial.

Counsel were ineffective because they failed to remove several jurors who

expressly stated that they could not be fair and impartial. Alabama and federal law are clear that
a juror must be excused if there is even a reasonable likelihood they will be unable to render a
fair and impartial verdict. See Irvin v. Dowd, 366 U.S. 717, 722 (1961) (“the right to jury trial
guarantees to the criminally accused a fair trial by a panel of impartial, ‘indifferent’ jurors. The
failure to accord an accused a fair hearing violates even the minimal standards of due process.”);
Ex parte Ellington, 580 So. 2d 1367 (Ala. 1990) (test for striking juror for cause is probable
prejudice); Ala. R. Crim. P. 18.4(e).
131.

Because several jurors expressly stated that they could not follow the law and

render an objective determination, counsel should have moved to strike them for cause. There is
simply no sound trial strategy in failing to excuse jurors who are clearly biased against the
accused. Counsel’s failure to excuse these biased jurors for cause denied Mr. Jones his rights to

6

As discussed below, defense counsel compounded its ineffectiveness by failing to raise the trial court’s erroneous
denial of Mr. Jones’ Batson motion as an issue on appeal.

- 51 App. 216

a fair trial, impartial jury, reliable sentencing determination, and free exercise of his peremptory
strikes.
a.
132.

Juror Shawn Walker

During voir dire, defense counsel asked all prospective jurors whether they “had a

close friend, relative or loved one who has been the victim of a crime in the past ten years.” (R.
157.) Numerous individuals responded, but one potential juror clearly stood out. In response to
counsel’s question, Juror Shawn Walker explained, “[m]y sister was murdered . . . about nine or
ten years ago.” (R. 160.) Juror Walker confirmed that this tragedy would impact his ability to
fairly and impartially serve as a juror on this case, agreeing “that fact would [sic] effect [me] as
sitting in this case as a juror.” (R. 160.) Though a juror must be struck if he is unable to render
an impartial verdict, defense counsel inexplicably failed to challenge Juror Walker for cause.
Had counsel done so, the court would have been obligated to strike Juror Walker as he expressed
not just probable bias, but a certainty that he could not serve impartially.
133.

Perhaps even more disturbing is that counsel had a second opportunity to identify

and correct this error during the round of preemptory strikes, but counsel again missed the
opportunity to dismiss this biased juror. Any effective counsel, exercising minimal diligence,
would have been sure to strike this juror for cause, so as to avoid using a peremptory strike. But,
failing that, any reasonable counsel would have assuredly then struck the juror peremptorily. In
this case, counsel did neither.
134.

As a result, Shawn Walker - a juror who expressly informed counsel that his

experience of having his sister murdered would preclude him from rendering a fair and impartial
verdict in this murder case - sat on Mr. Jones’ jury. (R. 246-47.) This failure prejudiced Mr.
Jones by depriving him of his right to be tried by an unbiased jury panel.

- 52 App. 217

b.
135.

Juror Hershel Peterson

Defense counsel also failed to strike Juror Hershel Peterson for cause despite his

admitted bias. Mr. Peterson explained during voir dire that he was very familiar with one of the
prosecution’s key witnesses, Officer Donovan Kilpatrick. (R. 181-83.) Officer Kilpatrick was
involved in acquiring Mr. Jones’ statements following his arrest. During voir dire, Mr. Peterson
explained that he was friends with, and worked with, Officer Kilpatrick, who Mr. Peterson saw
every day. (R. 181-83.) Mr. Peterson reported that he “would place a lot of weight in what
[Kilpatrick] said on the stand” and it would probably “be hard for [him] to be objective.” (R.
183.)
136.

Despite revealing his clear bias in favor of the State’s witness, defense counsel

failed to move to strike Mr. Peterson for cause. Had defense counsel so moved the court, Juror
Peterson would have been struck and the defense would not have been forced to exercise a
peremptory strike against him. See, e.g., General Motors Corp. v. Jernigan, 883 So. 2d 646,
669-72 (Ala. 2003).
137.

Had counsel ensured Mr. Walker was struck from the venire and not had to use a

preemptory strike to excuse Mr. Peterson, there is a reasonable probability that Mr. Jones would
not have been convicted of capital murder or sentenced to death.
5.
138.

Counsel failed to relegate sensitive questioning to individual voir dire.

Defense counsel compounded their ineffectiveness and the attendant prejudice to

Mr. Jones’ defense by asking venire members, in open court, whether they had ever been victims
of crimes and asking them to reveal the nature of the offense. (R. 154-60.) It is commonplace to
save such questions for individual voir dire, but counsel failed to guard against broad exposure to
this prejudicial information. As a result, about ten prospective jurors professed being victims,
mostly of burglary, which was the aggravating offense charged in this case. (R. 154-60.)
- 53 App. 218

139.

Their responses unscientifically suggested that burglary was rampant in Dothan

and played well into the prosecution’s later admonition to the jury to send a message to the
community. (R. 1509) (“Tell people in this community that eighty-year old women are just as
important as Mr. Brantley says some eighteen-year-old is who took the law into his own hands . .
. . It’s important you send a message twelve to zero in this case.”).7
6.
140.

Counsel failed to object to the prosecutor’s misconduct during jury
selection.

Throughout jury selection, the prosecution engaged in misconduct that tainted the

voir dire process. Counsel failed to object to the prosecution’s actions.
a.
141.

Counsel failed to object to the prosecutor’s improper vouching
as to the guilt of the accused.

Prosecutors are prohibited from vouching as to the guilt of the accused. Yet here

the prosecutor did so repeatedly, and counsel failed to object. The United States Supreme Court
in United States v. Young, 470 U.S. 1, 18-19 (1985), specifically condemned a prosecutor's
vouching for the credibility of a witness or expressing a personal opinion concerning a
defendant's guilt. As the Supreme Court stated:
The prosecutor's vouching for the credibility of witnesses and expressing his
personal opinion concerning the guilt of the accused pose two dangers: such
comments can convey the impression that evidence not presented to the jury, but
known to the prosecutor, supports the charges against the defendant and can thus
jeopardize the defendant's right to be tried solely on the basis of the evidence
presented to the jury; and the prosecutor's opinion carries with it the imprimatur
of the Government and may induce the jury to trust the Government's judgment
rather than its own view of the evidence.

7

See also R. 1509: “[H]ave the courage, the courage in this case to make sure they know everywhere in this
community.”

- 54 App. 219

Id. Here, both of these dangers were realized as the prosecutor asked the prospective jurors to
rely upon the prosecutor’s own experience trying cases and the prosecutor’s knowledge of the
underlying facts. Mr. Valeska told the jurors:
“I’ve tried more than four hundred and fifty jury trials” (R. 88);
“I’ve tried a lot of cases” (id. at 64); and
“I think I will be able to allegedly prove the things, I guarantee you I promise you
allegedly what we say” (id. at 67).
142.

Similarly prejudicial was the prosecutor’s statements during voir dire that the jury

should expect to get to the penalty phase in this case. (R. 57–58, 59–60.) Before Mr. Jones’ trial
even began, the prosecutor impliedly asked the jury to skip the guilt phase and begin thinking
about the sentencing stage of the trial:
[W]e will ask you to tell Judge White his punishment in this case should
be death. Death. I want to make sure that we’re thinking about that right
now because Judge White asked you some questions about that. And you
will have two options in this case, death or life without parole.
(R. 58) (emphasis added.)
I expect we will get to the penalty phase in this case.
(R. 60.)
143.

It was highly inappropriate for the District Attorney to ask the jury to focus on

sentencing when it was not yet known whether Mr. Jones would be found guilty. Such
statements impermissibly relieved the jury of their sense of responsibility, see Caldwell v.
Mississippi, 472 U.S. 320 (1985), by allowing them to believe that the guilt phase decision was a
foregone conclusion - one that had already been decided by the government.
144.

Counsel’s failure to object to the prosecutor’s comments cannot be considered

part of any “sound trial strategy.” King v. State, 518 So. 2d 191, 196 (Ala. Crim. App. 1987)

- 55 App. 220

(finding failure to object to prosecutor’s vouching “fell outside the range of reasonable trial
strategy and was an error”).8
145.

See also Section II.O.6, below, incorporated herein by reference (describing

counsel’s failure to object to the prosecutor’s improper vouching for the integrity of the State’s
case during closing argument).
146.

The prejudice this failure caused to Mr. Jones’ case cannot be understated. The

prosecutor’s improper vouching conveyed the impression to the jury that the prosecutor had
additional information that supported the State’s case and thus prejudiced Mr. Jones’ right to be
tried solely on the basis of the evidence presented at trial. See Young, 470 U.S. at 18-19. The
prosecutor’s vouching also improperly influenced the jury to trust the State’s judgment rather
than their own.

See id.

The prosecutor’s vouching also reduced the jurors’ sense of

responsibility by making them believe that guilt was a foregone conclusion, and that they need
only focus on sentencing. See Caldwell, 472 U.S. 320. Indeed, in a similar context, Alabama
courts have recognized that a prosecutor’s vouching is not harmless error, even where the
evidence of guilt is “strong and convincing,” because courts “cannot say that the [vouching]
error did not contribute to the verdict beyond a reasonable doubt.” See Guthrie v. State, 616 So.
2d 914, 931 (Ala. Crim. App. 1993) (citing Chapman v. California, 386 U.S. 18 (1967)).
Similarly here, the foregoing prejudice constitutes ineffective assistance of counsel under
Strickland because, had counsel objected to the prosecutor’s improper vouching, the jury would

8

Although the King court went on to affirm the defendant’s conviction, the court did so because five eyewitnesses
testified against the defendant, providing “overwhelming” evidence of the defendant’s guilt. Here, there were no
such eyewitnesses and, more importantly, Alabama courts subsequently rejected this approach, stating that “The
proper inquiry here is not whether the evidence of guilt is overwhelming, but whether a substantial right of the
[defendant] has or probably has been adversely affected.” Guthrie, 616 So. 2d at 931 (reversing judgment and
granting new trial).

- 56 App. 221

not have been improperly influenced in this fashion and there is a reasonable probability that Mr.
Jones would not have been convicted of capital murder or sentenced to death.
b.

147.

Counsel failed to object to the Prosecutor’s voir dire comments
suggesting that elderly persons enjoy greater protection under
Alabama’s capital punishment laws.

Counsel were similarly ineffective for failing to object to the prosecutor’s voir

dire questions that suggested that elderly persons enjoy greater protection under Alabama’s
capital punishment laws. Contrary to the prosecutor’s contention, neither Alabama’s capital
murder statute nor its capital sentencing statute provide for special protection of elderly persons.
See Ala. Code § 13A-5-40. However, the prosecutor informed jurors otherwise, asking them if
they disagreed that children and elderly persons are entitled to special protection, (R. 91–92), and
later imploring the jury to return a verdict of death because law accords eighty-year-old women
greater protection. (R. 1508.) Mr. Jones was prejudiced because, by allowing the prosecutor to
make such unsupported contentions, counsel permitted the jury to begin this trial believing that
the victim’s age was of special importance in resolving the issues at bar. Counsel should have
objected and required the court to instruct the venire that Ms. Kirkland’s age has no special
significance under the law.
c.
148.

Counsel failed to object to the Prosecutor’s use of voir dire to
preview his opening statement.

Counsel also improperly allowed the prosecution to use voir dire as an extended

preview of its opening statement. The Alabama Rules of Criminal Procedure limit voir dire
examination to questions about information that would provide a basis for a challenge for cause
or enable the parties to knowledgeably exercise their strikes. Ala. R. Crim. P. 18.4(d); see also
Peoples v. State, 375 So. 2d 561, 563 (Ala. Crim. App. 1979) (“[Q]uestions that border on
argument should be avoided while prospective jurors are being interrogated by the parties”). The

- 57 App. 222

prosecutor, however, spent much of the voir dire process asking few non-rhetorical questions,
instead arguing to jurors what he expected to prove at trial. (See, e.g., R. 68 (prosecutor
explaining, during voir dire, that he expects to prove, among other things, that Mr. Jones had a
specific intent to kill “by beating her with a chair or a cane causing more than fifty or sixty
bruises, contusions, lacerations, tears, fractures of her ribs and arms); see also id. at 57, 60, 69.)
Counsel’s failure to object to this impermissible use of voir dire allowed the State a head start in
arguing its themes and evidence against Mr. Jones during jury selection.
d.
149.

Counsel
failed
to
object
to
the
prosecutor’s
mischaracterization of DNA evidence during voir dire.

Counsel committed a serious failure in not objecting to the prosecutor’s

mischaracterization of DNA statistics and matching evidence during voir dire. As an initial
matter, as discussed further in Section II.F, incorporated herein by reference, counsel should
have objected to this line of questioning because the court had not yet held a preliminary hearing
regarding the admissibility of DNA evidence at Mr. Jones’ trial. See ex parte Hutcherson, 677
So. 2d 1205 (Ala. 1996); Turner v. State; 746 So. 2d 355 (Ala. 1998). Moreover, counsel should
have specifically objected to the prosecutor’s gross misstatement of the statistical methods used
in DNA testing. During voir dire, the prosecutor, Mr. Valeska, had the following exchange with
prospective jurors:
MR. VALESKA:

. . . . If you had to have a liver transplant, heart transplant,
or a kidney transplant and your surgeons and your doctors
have said, we have now found a donor that matches up
doing the DNA testing and that we have determined from
doing the DNA testing there’s one chance out of seven
hundred and thirty million times we can do this operation
that it would not match. In other words, there’s seven
hundred and thirty million times everything is going to be

- 58 App. 223

perfect, it's going to match. And, thank you, Judge. Then
would you –
A JUROR:

If the DNA matched, yes.

A JUROR:

It’s got to match.

MR. VALESKA:

That's what I'm saying.

(R. 99.) In this exchange, the prosecutor misled the jurors about the statistical theory behind the
State’s DNA evidence. There is no such match.
150.

The prosecutor’s mis-explanation of the already sufficiently complex area of

DNA statistical methodology was fundamentally different from what the State’s own DNA
expert witness, Phyllis Rollan, testified, when she explained her statistical conclusions: “If you
were to reach into a random population of approximately seven hundred and thirty million
people, you would expect to pull out one person that would have this DNA profile.” (R. 1084.)
Even if that opinion were admissible, it is a far cry from saying, as the prosecutor did, that
“there’s seven hundred and thirty million times everything is going to be perfect, it’s going to
match.” (R. 99.) Moreover, the prosecutor improperly conflated so-called DNA “matching”
with DNA population frequency statistics, despite the fact that the two are distinct types of
evidence, both scientifically and under Alabama law. See Hutcherson, 677 So. 2d at 1207.
151.

Counsel’s failure to object to the prosecutor’s mischaracterization of DNA

statistics and matching evidence cannot be considered part of any sound trial strategy. Indeed,
Mr. Jones’ counsel identified the State’s DNA evidence as a “crucial issue” in determining Mr.
Jones’ guilt or innocence and understood that the State’s case would “hinge” upon using DNA
evidence as part of its efforts to show that Mr. Jones participated in the murder. (C. 217-220.)
Allowing the prosecutor to confound the jury as to the nature of the statistical methods
underlying DNA evidence so as to make the jury believe that “there’s seven hundred and thirty

- 59 App. 224

million times everything is going to be perfect, it’s going to match,” simply cannot have been
part of any reasonable trial strategy.
152.

The prejudice flowing from this failure of counsel to object to the prosecutor’s

mischaracterization of DNA evidence during voir dire is that, from the very first time the jurors
heard about DNA in this case, they were misled about how to understand the already
complicated statistical theory underlying the State’s evidence. The Alabama Supreme Court has
expressly recognized the risk “that the prejudicial impact of the statistics might unduly impact on
the jury.” Hutcherson, 677 So. 2d at 1207. Indeed, “[t]he prejudicial impact of both DNA
‘matching’ evidence and DNA population frequency statistics creates such a possibility for
prejudicial impact upon the jury” that the improper admission of DNA evidence “can never be
harmless error.” Id. at 1209.9
153.

The jury, influenced by the prosecutor’s incorrect and overstated mis-explanation

of the statistics during voir dire, was given reason to believe that the statistical evidence they
heard meant that the State’s DNA evidence purporting to “match” the sample with Ms. Kirkland
had only a 1 in 730 million chance of being wrong. That is not what the population frequency
supports. The population frequency is not the error rate or the accuracy of the State’s test itself.
Yet that is the impression the prosecutor intended to and likely did create. Counsel should have
objected to the prosecutor’s mischaracterization of this crucial evidence of reliability. Had they
done so, there is a reasonable probability Mr. Jones would not have been convicted or sentenced
to death.

9

Counsel’s additional failure to object to the admissibility of the State’s DNA evidence is addressed in Section II.F.

- 60 App. 225

E.

Counsel failed to properly investigate the case and present a coherent defense
theme.

154.

The preview of the State’s case during voir dire was reinforced by the

prosecution’s opening statement, to which the defense seemed to have no response. Mr. Parker’s
opening statement was centered on abstract general concepts of criminal law:

that the

prosecution had the burden of proof and the defendant had the right not to incriminate himself.
But no defense theme, facts, or reason was suggested about why the jurors should have any
doubt that Mr. Jones was the murderer.
155.

In the opening, Mr. Parker included virtually nothing about the facts of the case,

other than to echo the prosecution’s theme that “there was a brutal murder. And it’s very – of an
elderly lady.” (R. 357). There was no indication in the opening that the defense knew any more
about the case than what the jury had just heard from the prosecution’s opening statement.
156.

Mr. Parker referred to jurors starting with a “blank chalkboard” or a “billboard”

and said, “By the end of the trial there’s going to be something up there.” (R. 359.) He never
suggested to the jurors what the defense contended should be on the board.
157.

Sadly, Mr. Parker emphasized that Mr. Jones had no evidence by stating: “The

fact that a person that has no evidence of their own to present, I want you to consider that as
well.” (R. 361-62.) In doing so, Mr. Parker not only drew attention to the fact that the defense
had no evidence (which was due to Mr. Parker’s and Mr. Brantley’s failure to prepare), Mr.
Parker asked the jury to “consider” the fact that the defense had no evidence. By comparison,
had the prosecutor made that argument, it would have been improper burden shifting. Mr. Parker
then exacerbated the situation by repeating that the prosecution had all the evidence. “They have
all the evidence. They have all the facts. They have all the witnesses.” (R. 358.)

- 61 App. 226

158.

In closing, Mr. Parker argued that the very small amount of blood on Mr. Jones’

clothing was inconsistent with his being the one who did the beating. (R. 1219-22). But Mr.
Parker failed to explain the significance of that evidence to the jurors. He said nothing about
how the lack of actual involvement in the beating precluded a finding of capital murder under
Alabama law or the jury instructions. And there was no suggestion in the closing of who did the
beating if the defendant did not.
159.

Even a cursory review of the evidence in this case confirms that trial counsel

failed to develop or highlight fundamental flaws in the prosecution’s case.

The available

evidence would have supported at least the two obvious defense themes that were set forth by
Mr. Jones himself in his statements to the police. The two obvious options were: (1) the defense
could deny any involvement in the crime, or (2) the defense could admit Mr. Jones was present
and deny he participated in the murder. Mr. Parker and Mr. Brantley did not need to look far to
find these themes. They are included in the police’s records of the two custodial statements
attributed to Mr. Jones.
160.

In Mr. Jones’ 2:55 a.m. to 4:35 a.m. recorded statement on January 1, 2000, as

shown in the 60-page transcript, he steadfastly denied being at the scene of the murder and
explained the car was transferred to him by other teenaged acquaintances. (See, e.g., C. 340-41
(referencing Portaque Morris, Robert Carroll, and others).) There was substantial circumstantial
evidence to support this theory. Properly presented, these facts could be stated along the
following lines to support a finding of reasonable doubt:
a.

The State’s theory of the case was that Ms. Kirkland was murdered to conceal a
burglary or theft. In other words, the motive for the murder was to eliminate
evidence (potential testimony) connecting the murderer to Ms. Kirkland and her
residence.

b.

The burglary was committed by someone with a strategy to avoid detection.
There were no fingerprints detected by the State, so the burglar or burglars may
- 62 App. 227

have been wearing gloves. The beating splattered blood all over the interior of
the dining area of the house, including the floor, furniture, walls, and even the
ceiling. Ms. Kirkland was beaten at close range with a wooden cane and with a
solid dining room chair, both of which were broken to pieces during the beating.
The murderer would likely have been covered in blood (a valid defense argument
made during closing but never mentioned in opening) and needed an escape from
the house without anyone noticing the blood. Because Ms. Kirkland’s car was
taken, the murderer likely arrived on foot and not by car.
c.

While being seen in the murder victim’s car covered with blood presented a
substantial risk to the murderer, it was superior to walking the streets of Dothan
covered with blood.

d.

But as soon as feasible, the murderer, who the State contended committed the
murder to avoid detection for a burglary or theft, would want to get out of that car,
a conspicuous large white Cadillac.

e.

Who better than Antonio Jones to dump the car on? Tony was the slow kid at
school. He had been a stutterer, who was made fun of by other kids. He was
diagnosed with attention deficit hyperactivity disorder in grade school and
periodically was given medication that made him extremely lethargic. His
intelligence was in the bottom 5 percent of normal, and he dropped out of school
completely after the 9th grade.

f.

Tony, an 18-year-old teenager who loved cars but had none of his own, was glad
to have use of the big old Cadillac for an early-evening cruise.

g.

Even though he had no driver’s license, he picked up a friend, his little sister, and
her 2-year-old son. They drove to McDonald’s, where Tony’s girlfriend worked,
and around Dothan in the Cadillac. Mr. Jones was cruising the streets of Dothan
for hours after the murder, providing rides to various friends as well as his sister
and nephew.

h.

This undisputed conduct, supported by the testimony of the police witnesses, is
absolutely inconsistent with the State’s theory that Tony was the one who
committed a murder for the purpose of eliminating evidence that he was at Ms.
Kirkland’s house. He spent hours showing anyone on the streets in Dothan who
cared to look that he was in Ms. Kirkland’s car.

i.

The actual murderer could not have found a better mark than Antonio Jones, a not
very swift and a teenager known by the police to come from a troubled family
headed by his stepfather, who had a history of drug dealing.

j.

Tony was wearing no gloves when he was arrested. He had his fingerprints all
over the steering wheel and the car. Tony was wearing white sweat pants that
would have clearly shown the presence of large spots of blood if he had been the
murderer.

- 63 App. 228

k.

When the police stopped him at nine o’clock, Tony, his sister and 2-year-old
toddler nephew, and Tony’s friend, Acaris Gordon, were still cruising.

l.

Tony was nervous when the police pulled him over. He had no driver’s license.
But he made no effort to avoid being stopped or to flee. The police were shocked
that their murder suspect did not try to get away.

m.

The police had Tony in custody and questioned him repeatedly from 9:00 p.m.
December 31, 1999 into the New Year at 5:30 a.m. on January 1, 2000. Although
the police recorded a lengthy discussion with their suspect starting at 2:55 a.m.,
Tony denied any involvement in the crime. In that recording, he also repeatedly
complained of pain he was suffering from being struck in the head while in police
custody. But he was given no medical attention or medication during the
recorded hour-and-40-minute interrogation.

n.

After 5:30 a.m., after the all-night questioning of the disoriented, unsophisticated,
and not especially bright teenager, after Tony had been awake for nearly 24 hours,
and after hours of discussion of the location, victim and other details of the crime
by the police, the police claim Tony admitted being present when others assaulted
Ms. Kirkland.

o.

There is no recording of this claimed admission that he was present at the crime
scene. The officer who took the statement, and who had been working on the
case all night and morning, claimed he was unprepared to use a tape
recorder. Only the police version of that claimed limited admission exists. The
police had no difficulty earlier recording the 2:55 a.m. statement in which Tony
repeatedly denied being present. They also took recorded statements from Tony’s
sister, LaKeisha (4:06 a.m.), from Acaris Gordon (6:30 a.m.), from Portaque
Morris (5:35 a.m.) and Tylon Smith (3:44 a.m.) all of whom denied involvement
in the murder in those recordings.

p.

The police admit there was never any confession to murder from Tony during all
of that questioning by numerous 20 and 30-year-veteran law enforcement
officers.

q.

Around 10 p.m. on December 31, 1999, the police took Tony’s clothes, including
his pants and shoes, and a jacket from the car, to be DNA tested. Those items sat
in the State’s forensic lab for years before they were finally DNA tested. The law
enforcement officers in the lab found nothing on the shoes sufficient to be tested
for DNA. The State claims Mr. Jones’ pants showed a small amount of the
murder victim’s DNA after he had been driving the Cadillac for hours. That is the
same Cadillac that the true murderer, likely heavily splattered with Ms.
Kirkland’s blood, had turned over to Tony shortly after the murder.

r.

Tony’s clothes did not have blood splattered all over. The State claims to have
detected “pinpoints” of blood on the toes of Tony’s shoes and his white pants.

s.

The State’s witness, Katherine McGeehan, claims these pinpoint stains were
- 64 App. 229

consistent with “high velocity” blood spatter. But, as is well-known among
qualified blood spatter experts, high velocity blood spatter is not consistent with
the kind of blunt force trauma that occurred in Ms. Kirkland’s death. See Stuart
H. James and William G. Eckert, Interpretation of Bloodstain Evidence at Crime
Scenes (1999). High velocity blood spatter refers to high-speed events such as
gunshot wounds or power-tool contact, not blunt force trauma, which is
considered medium velocity. Id. Whoever murdered Ms. Kirkland had to be
physically very close to her, and would have gotten large drops of blood on their
clothing as was evident on the walls, furniture and ceiling in the room. This was
medium velocity spattering. There were no medium velocity bloodstains on
Tony’s white pants.
t.

The State’s DNA analyst, Phyllis Rollan, admits the one sample from Tony’s
pants, which contained the DNA they say is consistent with Ms. Kirkland’s DNA,
was also contaminated with DNA from another person. Due to the manner in
which the State collected and tested the sample, there is no way to determine
whether the visible pinpoint contained the DNA supposedly consistent with Ms.
Kirkland, or whether that came from touching something with her DNA that was
in her car, such as blood from the murderer.

u.

The State’s DNA analysts also admits the DNA from the blood on the jacket
retrieved from the Cadillac and tested by the State, was from some unknown
female other than Ms. Kirkland.

v.

The police never tested the red interior of the car for blood. The car was returned
to Ms. Kirkland’s daughter, Linda Parrish, less than one month after it was
impounded (R. 398: 1-8) and before the defense had any opportunity to inspect it.

w.

The prosecution’s case is based primarily on two facts: (1) comments from a
teenager coming in a confused and inconsistent unrecorded statement after Mr.
Jones had experienced a painful head injury while in custody and had endured an
entire night of interrogation and still denied participating in any harm to Ms.
Kirkland, and (2) a test of fabric from the defendant’s pants conducted years after
the crime that found DNA consistent with that of Ms. Kirkland along with the
DNA of another unknown person, either of which may have come from a pinpoint
of dark material on the fabric sample.

x.

There is no evidence that Antonio Jones intended to kill, injure or harm anyone on
December 31, 1999.

This is the type of theme on the question of guilt that could have been developed and presented
by effective counsel based on the facts of the case. With appropriate expert witnesses for the
defense, adequate investigation, or successful motions to bar some of the unreliable opinions
from the State’s witnesses, the theme could be developed further.

- 65 App. 230

161.

Selecting the second option, conceding presence at the scene, would have been a

higher-risk defense. Reasonable defense counsel likely would not have elected that approach
without substantial factual and expert forensic testimony to support it. And in the absence of
overwhelming credibility issues with the theory that Mr. Jones was not present at the murder
scene, the first alternative would have been the preferred theme. Nevertheless, at trial counsel
seemed to vacillate between the two theories and never clearly advocated either. The opening
statement gave no explanation of the facts of the case at all.
162.

The second alternative approach to the defense would be higher risk, but it could

still avoid the death penalty. If Mr. Jones were found to have been present, and to have intended
only to commit a burglary, under Alabama law, he would not be guilty of a capital offense,
absent direct participation in the murder.
163.

Technical guilt of felony murder, where intent exists only for the associated

felony, is not a capital offense in Alabama. Capital murder is defined by the Code of Alabama §
13A-5-40. The definition of capital offenses encompasses the commission of murder during a
kidnapping (§ 13A-5-40(a)(1)), a robbery in the first degree (§ 13A-5-40(a)(2)), a rape in the
first or second degree (§ 13A-5-40(a)(3)), or a burglary in the first or second degree (§ 13A-540(a)(4)). In those instances, the capital offense is specifically defined as “committed by the
defendant.”
164.

The Alabama courts have clarified the need to prove specific intent in a capital

case: “no defendant is guilty of a capital offense unless he had an intent to kill, and that intent to
kill cannot be supplied by the felony murder doctrine.” Brown v. State, CR-08-0805, (Ala. Crim.
App. 2010) (quoting Beck v. State, 396 So. 2d 645, 662 (Ala. 1981), internal quotes removed).
Therefore, for a defendant to receive the death penalty in a case where a death occurred during

- 66 App. 231

the commission of another crime, such as burglary, the state requires a showing of intent to kill,
not simply an intent to commit the underlying felony.
165.

The Alabama statute also states that an accomplice or one “who does not

personally commit the act of killing” will not be guilty of capital murder unless the accomplice
was a complicit in the murder, itself. Ala. Code § 13A-5-40(c). Complicity, defined under §
13A-2-23, requires that the accomplice had the intent to promote or assist in the murder, not just
the underlying felony. An accomplice, may receive the death penalty, but only if that person was
an accomplice to the intentional killing. Ex parte Raines, 429 So. 2d 1111, 1112 (Ala. 1982),
cert. denied, 460 U.S. 1103 (1983); see also Brown v. State, 72 So. 3d 712, 715 (Ala. Crim. App.
2010).
166.

Many of the same themes outlined in the numbered theme summary paragraphs

above would also fit with this alternative theory of defense. To be viable, the defense would also
have required evidence from an expert in blood spatter – which defense counsel failed to obtain.
With the testimony and analysis of such an expert, (see Section II.G.2, incorporated herein by
reference), the defense would have been able to use the physical evidence to more strongly
support the fact that Mr. Jones did not participate in the murder and was not near Ms. Kirkland at
the time she was beaten, even if one were to assume the small pinpoints of blood on his pants
and shoes were her blood.
167.

While the second approach would have essentially conceded conviction on lesser

grounds, it could have resulted in Mr. Jones’ not being convicted of capital murder. The
problem is, it was never clear which, if either, of these defenses was being asserted by Mr. Jones’
counsel at trial due to their unfocused presentation. Neither defense was referenced in the
opening. And, at various times during trial, the attorneys seemed to be experimenting with each

- 67 App. 232

theme. Experimentation is what mock trials are for; not capital trials where the accused’s life is
at stake. There was no consistency and no credibility to defense counsel’s trial presentation.
F.

Counsel was deficient by failing to challenge the admissibility and accuracy
of the State’s DNA evidence, which was the only physical evidence linking
Mr. Jones to Ms. Kirkland.

168.

The sole physical evidence at trial directly linking Mr. Jones to Ms. Kirkland was

the State’s DNA analysis of a single pinpoint of blood allegedly obtained from Mr. Jones’ white
sweatpants, a pinpoint so small that the sample was consumed in the DNA testing process.
Although counsel acknowledged prior to trial that the State’s DNA evidence would be “crucial”
to proving its case, counsel failed to challenge the admissibility or reliability of the testimony of
the State’s DNA expert, Phyllis Rollan. Had counsel done so, Ms. Rollan’s testimony likely
would not have been admitted, and the jury, lacking any direct physical evidence that Mr. Jones
ever came into contact with Ms. Kirkland, likely would not have convicted Mr. Jones of capital
murder or sentenced him to death. See Ex Parte Hutcherson 677 So. 2d 1205, 1209 (Ala. 1996)
(“A specific example of how DNA evidence probably influenced the jury in this case is [the
DNA expert’s] testimony. The only evidence linking [the defendant] to the sodomy charge was
[the expert’s] testimony that semen found in the victim’s rectum “matched” [the defendant’s].”);
Barnes v. State, 704 So. 2d 487, 497 (Ala. Crim. App. 1997) (where DNA testing was the only
evidence that defendant “had been in physical contact with” the victim, admission of DNA
testing “was devastating to his defense” and “highly prejudicial”).
1.
169.

Counsel failed to demand a preliminary hearing outside the presence
of the jury as required by Alabama law.

Despite knowing the “crucial” role that DNA evidence would play at the trial, (C.

217-220), counsel failed to request that Ms. Rollan’s testimony be subject to a preliminary
hearing, outside the presence of the jury, as required by Alabama law. In Turner v. State, the

- 68 App. 233

Alabama Supreme Court held “that if the admissibility of DNA evidence is contested, the trial
court must hold a hearing, outside the presence of the jury,” to determine the admissibility of the
evidence. 746 So. 2d 355, 359 (Ala. 1998) (emphasis added).
170.

In so holding, the Alabama Supreme Court affirmed the continuing validity of

that portion of its holding in Ex Parte Perry, 586 So. 2d 242, 248 (Ala. 1991), that “It is the view
of this court that given the complexity of the DNA multi-system identification tests and the
powerful impact that they may have on a jury, passing muster under [the applicable evidentiary
standard] alone is insufficient to place this type of evidence before a jury without a preliminary,
critical examination of the actual testing procedures performed in a particular case.”10 (Citation
omitted.)
171.

The Alabama Supreme Court reiterated that warning in Ex Parte Hutcherson, in

which it warned that “this Court’s reasoning in Perry for establishing standards to be met before
the court admits DNA evidence is that DNA evidence is relatively new and the resulting
prejudice to the defendant is sufficiently great. Therefore, a foundation must be laid as to the
overall admissibility of the evidence.” 677 So. 2d at 1207 (Ala. 1996) (emphasis added); see
also id. at 1209 (reversing lower courts because “the trial court erred in failing to conduct a
hearing outside the presence of the jury on the admissibility of the DNA evidence”).
172.

The trial court has no choice. The procedural requirement of a preliminary

hearing, outside the presence of a jury, is mandatory. Id. at 1209 (“Perry sets out the predicate
for properly admitting DNA evidence, and it must be followed in order to ensure the reliability
and trustworthiness of the evidence.”); see also Barnes, 704 So. 2d at 497 (ordering new trial

10

Perry was decided under the Frye standard for admissibility of expert testimony. In Turner, the Alabama
Supreme Court recognized that, with respect to the admissibility of DNA evidence, the state legislature had
expressly required application of the Daubert standard of admissibility for all DNA evidence.

- 69 App. 234

where “the State was allowed to introduce DNA evidence after allowing the foundation for such
evidence to be presented at trial and in front of the jury”).
173.

Here, counsel’s failure to demand a preliminary hearing prejudiced Mr. Jones by

allowing the State to attempt to lay the complex foundation for its DNA evidence in front of the
jury and without the necessary preliminary, critical examination of the actual testing procedures.
2.

174.

Counsel failed to object to the admissibility of the State’s DNA
evidence, which did not satisfy the requirements of Daubert because
the State failed to introduce any evidence of the rate of error for its
technique.

Counsel’s failure to demand an evidentiary hearing was compounded when

counsel failed to object that the State failed to meet the admissibility requirements for DNA
evidence under Alabama and federal law. Alabama Code § 36-18-30 expressly prohibits DNAbased testimony unless it meets the criteria for admissibility set forth in Daubert v. Merrell Dow
Pharms., Inc., 509 U.S. 579 (1993). In Daubert, the United States Supreme Court held that for
any given “particular scientific technique” trial courts must consider, among other things, “the
known or potential rate of error.” Id. at 594; see also Turner, 746 So. 2d at 359 (courts should
consider “whether the technique’s ‘known or potential rate of error’ . . . are acceptable”).
175.

Here, the prosecutor failed to elicit any testimony from Ms. Rollan regarding the

known or potential rate of error for the specific scientific technique, polymerase chain reaction
(“PCR”), she used to perform DNA testing in this case. Counsel, however, failed to object to
this basic failure by the prosecutor to lay the foundation required by Daubert, Turner, and
Alabama Code § 36-18-30.11

11

While Mr. Jones acknowledges Lewis v. State, 889 So. 2d 623, 672 (Ala. Crim. App. 2003) (stating that “the
absence of testimony regarding this factor [error rate] will not, alone, render DNA evidence inadmissible), that
statement appears to be inconsistent with the express requirements of Alabama and federal law as set forth in
Alabama Code § 36-18-30, Turner, and Daubert.

- 70 App. 235

176.

Had counsel challenged Ms. Rollan regarding error rate, Ms. Rollan would have

testified that her laboratory did not calculate the known or potential rate of error.
177.

Moreover, as counsel knew prior to trial, the sample allegedly collected from Mr.

Jones’ clothing was a contaminated “mixture.” (R. 1094.) Ms. Rollan, however, did not
provide any testimony regarding any of the Daubert factors to specifically address the reliability
of the PCR-method of DNA extraction when dealing with such mixed samples, even though
PCR-based DNA extraction “is susceptible to error caused by contamination leading to
amplification of the wrong DNA.” National Research Council, The Evaluation of Forensic DNA
Evidence 84 (1996) [hereinafter “Forensic DNA Evidence”]. Ms. Rollan expressly cited and
acknowledged the publications of the National Research Council as sources for the reliability of
the PCR method. (R. 1005.)
178.

As a result, the jury was improperly permitted to hear Ms. Rollan’s highly

prejudicial testimony, the only evidence tending to show Mr. Jones was ever in physical contact
with the victim. See Hutcherson 677 So. 2d at 1207; Barnes, 704 at 497. Had counsel objected
and demanded that the State’s DNA analysis be subjected to the kind of rigorous and critical
examination mandated by Alabama and federal law, the trial judge would have had to exclude
Ms. Rollan’s testimony pursuant to Daubert, Turner, and Alabama Code § 36-18-30, and Mr.
Jones very likely would not have been convicted of capital murder or sentenced to death.
3.

179.

Counsel failed to object to the State’s DNA evidence on grounds that
the State failed to establish a proper chain of custody for the
contaminated blood sample allegedly obtained from Mr. Jones’
clothing.

Counsel was ineffective in failing to object to the prosecutor’s failure to establish

the chain of custody for the blood sample allegedly obtained from Mr. Jones’ clothing, which
was indisputably contaminated.

- 71 App. 236

180.

The State has the burden of showing that there has been no break in the chain of

custody to establish a sufficient predicate for admission into evidence. Suttle v. State, 565 So. 2d
1197, 1199 (Ala. Crim. App. 1990). “The purpose for requiring that the chain of custody be
shown is to establish a reasonable probability that there has been no tampering with the
evidence.” Id. at 1198 (citation omitted). Here, the State’s failure to establish the chain of
custody is particularly prejudicial because the blood sample was allegedly obtained from Mr.
Jones’ clothing by a non-testifying laboratory assistant who also handled articles of bloodstained clothing removed from the victim’s body.
a.
181.

The individual who allegedly obtained the blood sample from
Mr. Jones’ clothing did not testify at trial.

The blood sample that formed the basis of Ms. Rollan’s DNA opinion was

allegedly obtained from cuttings of Mr. Jones’ sweat pants, which cuttings Ms. Rollan received
from the State’s forensic scientist, Katherine McGeehan. (R. 1022.) Ms. McGeehan, however,
did not actually make the cuttings – one of her assistants, Holli Spiers, did. (R. 624, 626-27,
922, 1021.) Ms. Spiers did not testify at trial, and Ms. McGeehan did not testify that she was
present when the cuttings were made. At trial the prosecutor elicited the following testimony
from Ms. McGeehan:
Q

You actually made the cuttings?

A

No, I did not.

Q

Done in your presence or by your direction of another individual?

A

They were done under my direction.

(R. 627.) In responding as she did, Ms. McGeehan expressly confined her answer to the portion
of the prosecutor’s question regarding whether the cuttings were made at Ms. McGeehan’s
direction.

No foundation was laid to establish that Ms. McGeehan actually witnessed the

- 72 App. 237

cuttings being made from the sweat pants, or that she was even in the room when her assistant,
Ms. Spiers, did so.
182.

There was no testimony from Ms. Spiers to provide the “missing link” or

establish that the sample had not been tampered with or contaminated. In fact, the sample was
contaminated.
183.

As such, the State failed to establish a chain of custody for the blood

sample that formed the basis for Ms. Rollan’s DNA analysis.

Accordingly, Ms. Rollan’s

testimony was inadmissible. See Suttle, 565 So. 2d at 1198-99. Had counsel objected, the trial
judge would have excluded this highly prejudicial evidence from being heard by the jury.
Further, even if the State would have called Ms. Spiers to testify, counsel could have undermined
the credibility of the State’s crucial DNA evidence by eliciting testimony regarding the
opportunities for cross-contamination of the sample, as discussed in the next section. Either
way, had counsel objected Mr. Jones likely would not have been convicted of capital murder or
sentenced to death.
b.

184.

The individual who obtained the blood sample from Mr. Jones’
clothing also handled bloody clothing from the victim,
resulting in a contaminated sample of a type that was
particularly susceptible to false-positive results in the specific
type of DNA technique Ms. Rollan used.

The State’s failure to establish the chain of custody through testimony by Ms.

Spiers was especially prejudicial where the evidence at trial established the sample was
contaminated. See Suttle, 565 So. 2d at 1198 (“The purpose for requiring that the chain of
custody be shown is to establish a reasonable probability that there has been no tampering with
the evidence.”) (Citation omitted.)

- 73 App. 238

185.

The “missing link” in the chain of custody, Ms. Spiers, also handled bloody

clothing from the victim. Among other things, Ms. Spiers handled the victim’s blouse, (Tr. 922),
and bloody brassiere. (R. 624.)
186.

At trial, Ms. Rollan, the State’s DNA expert, testified that the sample from the

sweatpants was contaminated, because both male and female DNA were present in the sample.
The test revealed both X and Y chromosomes. While counsel did cross-examine Ms. Rollan on
this subject, he failed to tie it to the State’s failure to establish a chain of custody:
Q

And so the Y is saying that there's some DNA from a male that got mixed
in with it, correct?

A

It is somehow in the sample from the blood in human DNA from the
sweatpants.

Q

You don't know where it came from, do you?

A

I know it came from that sample.

Q

You don't know how it got into that sample?

A

I know that it was on the sweatpants. It didn't get in the sample in my
laboratory.

(R. 1093; see also id. 1075-76 (emphasis added).) Mr. Parker asked no follow-up questions.
187.

According to the National Research Council, which Ms. Rollan expressly relied

upon as authority for her PCR testimony (R. 1005), “Mixed samples are contaminated by their
very nature.” Forensic DNA Evidence 84 (emphasis added). “The important consequences of . .
. contamination are that samples might appear to be mixtures of material from several persons
and, in the worst case, that only the contaminating type might be detected. The concern is
greater with PCR-based typing methods because PCR can amplify small amounts of DNA. A
false match could occur if the genetic type of the contaminating materials by chance matched the

- 74 App. 239

genetic type of a principal (such as a suspect) in the case, or, worse, if the contaminant came
from the suspect in the case.” Id. at 83.
188.

Ms. Rollan used the PCR (polymerase chain reaction) method in this case to

“amplify” the minute amount of DNA available from the “pinpoint” sample allegedly obtained
from Mr. Jones’ sweatpants. (R. 1007-08; see id. at 637.) “Any procedure that uses PCR is
susceptible to error caused by contamination leading to amplification of the wrong DNA. The
amplification process is so efficient that a few stray molecules of contaminating DNA can be
amplified along with the intended DNA,” which can result in “false-positives.” Forensic DNA
Evidence at 71.

In this case, where Mr. Jones had been using Mr. Kirkland’s car for hours after

it was first used by the murderer, his pants could easily have contained some traces of her DNA
that could be amplified in testing. The pinpoint dot could have been another substance entirely,
but the dissolved sample may well have had Ms. Kirkland’s DNA elsewhere in the fabric.
189.

Counsel’s failure to object to the absence of proof of a chain of custody for the

critical clothing sample highly prejudiced Mr. Jones by allowing the jury to hear and be
influenced by unreliable expert testimony based upon a contaminated sample that, using the
PCR method, was associated with heightened risk of error that was not disclosed to the judge or
jury. They were actually told the opposite: that the testing was error-free. (See R. 1227–28.)
Had counsel objected or otherwise challenged the State’s failure to establish the chain of custody
for the sample, or adequately challenged the State’s failure to establish the reliability and
accuracy of the PCR technique in light of the contaminated sample, the evidence would have
been excluded or severely undermined, and Mr. Jones likely would not have been convicted of
capital murder or sentenced to death.

- 75 App. 240

4.
190.

Counsel failed to object to the State’s DNA evidence on grounds that
it violated the Confrontation Clause and the hearsay rule.

The State’s failure to call Ms. Spiers to testify also violated Mr. Jones’ rights

under the Confrontation Clause of the Sixth Amendment, but counsel failed to object.
191.

The Confrontation Clause, found in the Sixth Amendment to the United States

Constitution, provides: “In all criminal prosecutions, the accused shall enjoy the right . . . to be
confronted with the witnesses against him.” The United States Supreme Court “has emphasized
that the Confrontation Clause reflects a preference for face-to-face confrontation at trial and that
‘a primary interest secured by [the provision] is the right of cross-examination.’” Ohio v.
Roberts, 448 U.S. 56, 63 (1980), (quoting Douglas v. Alabama, 380 U.S. 415, 418 (1965)
(footnote omitted)).

Thus, even “evidence which would normally be admissible under an

exception to the hearsay rule may still be inadmissible because it violates the confrontation
clause of the Sixth Amendment.” Grantham v. State, 580 So. 2d 53, 55 (Ala. Crim. App. 1991);
see Crawford v. Washington, 541 U.S. 36 (2004).
192.

Once again, Barnes v. State, 704 So. 2d 487, 494 (Ala. Crim. App. 1997) is

instructive. There, the Court of Criminal Appeals reversed a conviction based upon DNA testing
(the only evidence physically linking the defendant to the victim) because the individual who
collected the evidence did not testify at trial:
Barnes argues that because Dr. Riddick collected the evidence, his presence at
trial was necessary. Although Barnes's objection was labeled as a “hearsay
objection” and was treated by the trial court only as a hearsay objection, Barnes
mainly objected to the introduction of the evidence regarding the autopsy
specimens without the testimony of Dr. Riddick. Barnes argues that he should
have been able to confront and question Dr. Riddick regarding the specimens
before they were introduced because Dr. Riddick was the person who actually
collected the specimens. We agree.

- 76 App. 241

193.

Similarly here, Mr. Jones was deprived of the ability to confront and question Ms.

Spiers regarding the collection of the specimen, i.e., the cutting of his pants, and the
circumstances in which it was done, before the evidence was introduced.
194.

Generally, “[v]iolations of the confrontation clause are, like many other

constitutional errors, subject to a harmless error analysis.” Grantham, 580 So. 2d at 58 (citing
Delaware v. Van Arsdall, 475 U.S. 673, 680–84 (1986)). Nevertheless, the Alabama Supreme
Court has held that the erroneous admission of DNA evidence “can never be harmless error,”
even in the presence of otherwise overwhelming evidence of guilt. Hutcherson, 677 So. 2d at
1209; see also Ex Parte Phillips, 962 So. 2d 159, 160 (Ala. 2006) (following Hutcherson). Thus,
as the Barnes court concluded, on similar facts, “we cannot find that the introduction of the
specimens taken . . . was harmless beyond a reasonable doubt.” 704 So. 2d at 496-97 (citing
Hutcherson, 677 So. 2d 1174).
195.

Had counsel objected to the State’s DNA evidence due to Ms. Spiers’ failure to

testify, the trial judge would have been required to exclude the evidence. See id. (trial court
committed reversible error in admitting DNA samples without allowing defendant opportunity to
cross-examine individual that collected specimen). Thus, had trial counsel objected, the jury
would not have heard the “devastating” evidence purporting to link Mr. Jones to the victim and
he likely would not have been convicted of capital murder or sentenced to death.
5.
196.

Counsel failed to object to Ms. Rollan’s statistical conclusions on
hearsay and Confrontation Clause grounds.

Counsel was also ineffective in failing to object to Ms. Rollan’s statistical

conclusions on hearsay and Confrontation Clause grounds.

Had they done so, the State’s

devastating DNA evidence would have been excluded and Mr. Jones likely would not have been
convicted of capital murder or sentenced to death.

- 77 App. 242

197.

At trial, Ms. Rollan testified that “[t]his combination of DNA types occurs in

approximately one of seven hundred thirty million Caucasian individuals and one of one point
four six billion African-American individuals.”

(R. 1025.)

Those seemingly impressive

statistical calculations were derived from the laboratory’s population database. (R. 1012-14.)
Ms. Rollan further testified that the “population database was actually studied by a population
geneticist out of Houston, and it was determined that our population was not skewed one way or
the other in the African-American or the Caucasian populations.” (R. 1013.)
198.

Defense counsel failed to object on either hearsay or Confrontation Clause

grounds. Under very similar facts, in Barnes, the Court of Criminal Appeals reversed the
defendant’s conviction where the defendant “made a hearsay objection to [the DNA expert’s]
testimony that the data used to compile Alabama’s population frequency statistics, upon which
her opinions and mathematical calculations were based, had been approved by a renowned expert
in the field of population genetics.” 704 So. 2d at 497. Ms. Rollan made virtually the same
objectionable hearsay statement here, likely referring to the same population geneticist. Counsel,
however, failed to object to this hearsay statement.
199.

Mr. Jones’ attorneys also failed to object to Ms. Rollan’s testimony on

Confrontation Clause grounds. As with Ms. Spiers, the State’s failure to introduce testimony by
the unnamed population geneticist deprived Mr. Jones of the opportunity to confront him or her
and cross-examine the findings and conclusions regarding the adequacy of Alabama’s DNA
population database. See id.; see also Ohio v. Roberts, 448 U.S. 56, 63 (1980); Grantham v.
State, 580 So. 2d 53, 55 (Ala. Crim. App. 1991); Crawford v. Washington, 541 U.S. 36 (2004).
This failure to object resulted in the introduction of devastating DNA evidence that “can never

- 78 App. 243

be harmless error.” Hutcherson, 677 So. 2d at 1209; see also Ex Parte Philips, 962 So. 2d at
160.
6.
200.

Counsel failed to object to the prosecutor’s mischaracterization of the
statistical methods used in DNA testing.

Counsel also failed to object to the prosecutor’s gross misstatement of the

statistical methods used in DNA testing, which resulted in the jurors being misled about how to
interpret and understand this highly complex and prejudicial evidence.
201.

As discussed in Section II.D.6.d, incorporated herein by reference, during voir

dire, the prosecutor misled the jury by mischaracterizing the State’s DNA evidence as: “In other
words, there’s seven hundred and thirty million times everything is going to be perfect, it’s going
to match.” (R. 99.) Counsel, however, failed to object.
202.

The prosecutor’s mis-explanation of the already sufficiently complex area of

DNA statistical methodology was fundamentally different from what the State’s own DNA
expert witness, Phyllis Rollan, testified, when she explained her statistical conclusions: “If you
were to reach into a random population of approximately seven hundred and thirty million
people, you would expect to pull out one person that would have this DNA profile.” (R. 1084.)
Even were that opinion admissible, it is a far cry from saying, as the prosecutor did, that “there’s
seven hundred and thirty million times everything is going to be perfect, it’s going to match.”
(R. 99.) Moreover, the prosecutor improperly conflated so-called DNA “matching” with DNA
population frequency statistics, despite the fact that the two are distinct types of evidence, both
scientifically and under Alabama law. See Hutcherson, 677 So. 2d at 1207.
203.

The prejudice flowing from this failure of counsel to object to the prosecutor’s

mischaracterization of DNA evidence during voir dire is that, from the very first time the jurors
heard about DNA in this case, they were misled about how to understand the already

- 79 App. 244

complicated statistical theory underlying the State’s evidence. The Alabama Supreme Court has
expressly recognized the risk “that the prejudicial impact of the statistics might unduly impact on
the jury.” Hutcherson, 677 So. 2d at 1207. Indeed, “[t]he prejudicial impact of both DNA
‘matching’ evidence and DNA population frequency statistics creates such a possibility for
prejudicial impact upon the jury” that the improper admission of DNA evidence “can never be
harmless error.” Id. at 1209.
204.

Had counsel objected to the State’s DNA evidence on any or all of the foregoing

grounds, that highly prejudicial evidence would not have been admitted and the jury likely would
not have convicted Mr. Jones of capital murder or sentenced him to death.
G.

Counsel failed to adequately challenge the State’s blood spatter expert.

205.

Throughout Mr. Jones’ recorded statement, Sergeant Jonathan Beeson continually

questioned him as to how he acquired specks of blood on his pants and shoes. (C. 338-94, R.
1156-58.). The implication was that Mr. Jones was lying when he asserted he had nothing to do
with Ms. Kirkland’s death and explaining that the tiny spots must have come from some other
source, such as from inside Ms. Kirkland’s car.
206.

At trial, the State sought to reinforce this point through its blood spatter expert,

Katherine McGeehan. Ms. McGeehan acknowledged that she identified only “pinpoints” of
blood on Mr. Jones’ clothing. (R. 637, 648.) Indeed, such a small amount of blood was found
on Mr. Jones’ shoes that DNA testing was not possible. (R. 354.) This was in marked contrast
to the copious amounts of blood found at the crime scene. As the prosecutor described the crime
scene:
What occurs is blood was all over the carpet. . . See the blood splattering on the
ceiling, on the walls, over here by the hutch where the blood is cast off and
thrown in big clumps and it hits here and it goes here and it’s so thick it starts
rolling down like that. It’s on the ceiling. (R. 349-50) (emphasis added).

- 80 App. 245

That’s her blood. There’s blood on the checkbook, the glasses. Blood splattered
on the wall. The blood splattering with the tremendous amount of force and
speed in relationship to the pictures. That’s her blood. Her very life was
splattered across as it hit this wall. Hit with force and destruction. It goes up
before the giant clumps, amounts, clot and start coming down this way with
other splattering. Splattering on the table. Splattering on the ceiling. Splattering
in the kitchen. All throughout her house. (R. 1186.)
[L]ook at these photographs, the excessive amount of blood was in different areas,
different places, pools. (R. 1219.)
Despite the fact that the crime scene had blood all over the carpet, on the ceiling, on the walls, on
the furniture, on the checkbook and glasses, and on the table, and in the form of “big clumps . . .
so thick it starts rolling down” and in “giant clumps,” and despite the fact that the State’s
forensic pathologist, Dr. Paredes, described a beating during which over 80 blows were inflicted
on the victim, Ms. McGeehan testified that the “pinpoints” identified on Mr. Jones’ shoes were
consistent with the State’s theory of the crime. She testified that the “pinpoints” were “caused
by blood floating in the air at a high velocity . . . the higher the velocity the smaller the stain.”
(R. 638, 648, 688.)
1.
207.

Counsel failed to challenge Ms. McGeehan’s qualifications to offer
expert opinion on the interpretation of blood spatter pattern.

As an initial matter, counsel were deficient in failing to challenge Ms.

McGeehan’s qualification to offer an opinion regarding the interpretation of blood spatter
pattern. Based upon the record, Ms. McGeehan was not qualified to offer such an opinion as
there was no testimony regarding her expertise, if any, in this area.
208.

Further, the prosecutor requested only that Ms. McGeehan be declared an expert

to “give her opinion on the testing and analysis in relationship to whether it was human blood or
components of blood.”

(R. 619.)

Indeed, as discussed below, Ms. McGeehan’s lack of

qualification in this area was revealed in her fundamental misunderstanding of the term “high

- 81 App. 246

velocity” in the context of blood spatter pattern interpretation, as well as her incorrect testimony
that “high velocity” bloodstains could result from a “stomp” of a foot. (R. 689.)
209.

Had counsel objected to Ms. McGeehan’s qualification to offer an opinion on the

interpretation of bloodstain patterns, the judge would have likely excluded her from testifying on
this subject. For example, Ms. McGeehan would not have been allowed to testify that the
bloodstain on Mr. Jones’ pants could not have been transferred there from the clothing of another
person (such as the real killer), as Mr. Jones told the police. (R. 638-39; C. 38.) Further, Ms.
McGeehan would not have been allowed to offer an opinion whether or not “if someone struck
with a cane or chair with high velocity and close proximity could pinpoint splattering gotten on
his shoes in your opinion?” (R. 660-61.) This testimony substantially prejudiced Mr. Jones as it
was the only testimony on the subject that the jury heard and because, as discussed below, it was
also incorrect.
2.
210.

Mr. Parker’s cross-examination of the State’s expert was ineffective,
counterproductive and prejudicial to Mr. Jones.

On cross-examination, Mr. Parker was totally ineffective. Instead of challenging

Ms. McGeehan on the inconsistency between the evidence at the crime scene of large clumps of
blood and the absence of any such evidence on Mr. Jones’ clothes, Mr. Parker actually reinforced
the State’s position by suggesting that pinpoint blood stains could be made by “[a] stomp or a
forceful motion with a foot down, a stomp is a good way to describe it.” (R. 689.)
211.

Mr. Parker’s questioning was particularly prejudicial to Mr. Jones in light of the

prosecutor’s opening statements “that the injuries will be consistent with someone who had taken
their foot and stomped her or kicked her right here in the face,” (R. 348), and that “she had been
beat to death by blunt-force trauma and was consistent with the hitting and striking of a chair and
a stomping,” as well as “she was stomped in the breasts.” (R. 349.)

- 82 App. 247

212.

But Mr. Parker did not stop there, he went on to suggest that small blood

pinpoints could result from being “slung off of an object that the blood is on,” (R. 689),
prejudicially creating the impression for the jury that the “pinpoint” blood stains on Mr. Jones’
clothing could have resulted from blood being slung from a murder weapon. This line of
questioning by Mr. Parker was unsupported by expert testimony, unscientific, unhelpful, and
actually highly prejudicial to Mr. Jones.
213.

Further, Mr. Parker’s suggestion that a “high velocity” type of bloodstain could be

caused by a “stomp” was flat-out wrong. Ms. McGeehan’s testimony that blunt trauma of the
type involved in this murder would result in “high velocity” bloodstains was also wrong. A high
velocity bloodstain would typically result from an event in the nature of a gunshot wound or a
high-speed machinery accident. See Stuart H. James and William G. Eckert, Interpretation of
Bloodstain Evidence at Crime Scenes (1999) (explaining that blunt force trauma produces
“medium velocity” bloodstains whereas “high velocity” bloodstain is most frequently associated
with gunshot injury). The fact that Ms. McGeehan agreed with Mr. Parker further underscores
her lack of qualifications to offer an opinion in this area.
214.

Instead, Mr. Parker should have challenged Ms. McGeehan about her failure to

testify that the “high velocity” blood spatter pattern she identified was consistent with blunt force
trauma of the type the State described. See Interpretation of Bloodstain Evidence at Crime
Scenes (explaining that blunt force trauma produces “medium velocity” bloodstains whereas
“high velocity” bloodstain is most frequently associated with gunshot injury).
215.

Mr. Parker also should have questioned Ms. McGeehan to establish that a death

due to blunt force trauma by a close-ranged assailant of the kind the prosecutor described would
have resulted in the assailant being covered in blood, just as the prosecution argued the walls,

- 83 App. 248

ceiling, floor, hutch, table, and kitchen were. (R. 349-50, 1186, 1219.) Indeed, as police officer
Beeson stated: “That head explodes and that blood splatters all over the place.” (C. 377.) Mr.
Parker also failed to challenge a fundamental error in Ms. McGeehan’s analysis: Ms. McGeehan
testified that the “pinpoints” she observed “come from high velocity.” (R. 688; see also R. 638,
648.) A qualified blood spatter pattern expert would have known that blunt force trauma is
considered to be “medium velocity.” See Interpretation of Bloodstain Evidence at Crime Scenes.
Mr. Parker failed to expose these flaws in Ms. McGeehan’s analysis, which would have
significantly undermined her credibility in the jury’s eyes.
216.

Mr. Parker’s failure to challenge Ms. McGeehan and develop this exculpatory

evidence through her was highly prejudicial to Mr. Jones’ case. The only evidence in this case
suggesting that Mr. Jones was ever in physical contact was the State’s DNA analysis of a
“pinpoint” blood stain allegedly obtained from Mr. Jones’ clothing. Separate and apart from
counsel’s failure to challenge the numerous defects in the State’s DNA evidence (described
elsewhere in this petition), no reasonable counsel would have left unchallenged the implication
from Ms. McGeehan’s testimony that the blood spatter pattern allegedly observed on Mr. Jones’
clothing was consistent with the brutal, blunt force trauma that resulted in the death of the victim.
Had counsel challenged Ms. McGeehan on these points, her testimony would have been
undermined and there is a reasonable probability that Mr. Jones would not have been convicted
of capital murder or sentenced to death.
3.

217.

Counsel failed to retain a blood spatter expert who could have assisted
in the development of an effective, non-prejudicial cross-examination
and testified that the evidence was not consistent with the State’s
theory that Mr. Jones killed Ms. Kirkland.

Additionally, counsel were ineffective for failing to procure the assistance of a

blood spatter expert.

Counsel failed to procure the necessary expert assistance needed to

- 84 App. 249

effectively challenge the State’s case. A criminal defendant’s right to the benefit of expert
assistance is constitutionally recognized and protected. See Ake v. Oklahoma, 470 U.S. 68
(1985); Griffin v. Illinois, 351 U.S. 12 (1956); Gayle v. State, 591 So. 2d 153 (Ala. Crim. App.
1991). Had counsel acquired the assistance of a blood spatter expert, there is a reasonable
probability that Mr. Jones would not have been convicted of capital murder or sentenced to
death.
218.

Counsel could have retained a blood spatter expert such as Gene N. Gietzen. A

copy of Mr. Gietzen’s curriculum vitae is attached hereto as Exhibit K. Mr. Gietzen was
available in 2004 and would have been willing to testify. Counsel’s failure to retain Mr. Gietzen,
or a similar expert, prejudiced Mr. Jones in several ways.
219.

If counsel had retained Mr. Gietzen, or a similar blood spatter expert, he would

have pointed out Ms. McGeehan’s lack of qualifications, could have assisted Mr. Parker in
developing an effective cross-examination of Ms. McGeehan, or at the very least prevented Mr.
Parker from making the blunders during cross-examination that were prejudicial to his own
client.
220.

Had counsel retained Mr. Gietzen or a similar blood spatter expert, the expert

would have exposed the errors in Ms. McGeehan’s opinions described above.
221.

Mr. Gietzen would have testified that generally accepted bloodstain analysis is

inconsistent with Ms. McGeehan’s testimony that “high velocity” bloodstains can result from “a
pool of blood being hit very hard” causing “the blood to fly in the air and the higher the velocity
the smaller the stain.” (R. 638.) This misinformed testimony reveals a fundamental error in Ms.
McGeehan’s opinion. Mr. Gietzen would have testified that Ms. McGeehan failed to understand
that, in the context of bloodstain interpretation, the velocity of force refers to the impacting

- 85 App. 250

object rather than the speed of the blood droplet. See Interpretation of Bloodstain Evidence at
Crime Scenes.
222.

Mr. Gietzen would have testified that “High velocity bloodstain is most frequently

associated with gunshot injury, but it is seen in cases involving explosions, power tool and
machinery injuries as well as in some automotive accidents.” Interpretation of Bloodstain
Evidence at Crime Scenes. None of these events was involved in the Kirkland murder.
223.

Mr. Gietzen would have testified that “blunt force trauma,” which was what the

State’s pathologist identified as the cause of the victim’s injuries (see, e.g., R. 927, 928, 941),
produces “medium velocity” bloodstains and that “Impact velocities associated with beatings and
stabbings fall within this range.” Interpretation of Bloodstain Evidence at Crime Scenes.
224.

Mr. Gietzen would have testified that, based upon his review of photographs of

this crime scene, he observed no bloodstains that he would classify as “high velocity.”
225.

Mr. Gietzen would have testified, based upon his experience investigating crime

scenes where blunt force trauma was inflicted upon the victim’s head, that once the scalp is
bleeding profusely, with additional blows to the same area, the blood will be projected away
from the victim’s body, generally in a radiating direction.
226.

Mr. Gietzen would have testified that “Multiple blows to the head with a blunt

instrument typically create considerable amount of medium velocity bloodspatter.”
Interpretation of Bloodstain Evidence at Crime Scenes.
227.

Mr. Gietzen would have testified that, because blunt force injuries are caused by

an assailant who is close enough to the victim to inflict the blows, the assailant would be
expected to receive significant larger medium-velocity bloodstains on his clothes. Interpretation
of Bloodstain Evidence at Crime Scenes.

- 86 App. 251

228.

Mr. Gietzen would have testified that, in addition to larger bloodstains, hair and

tissue would also have been deposited on the assailant.
229.

Mr. Gietzen’s testimony would have undermined the credibility of the State’s

expert, Ms. McGeehan, whose testimony otherwise was essentially unchallenged.
230.

Given the extreme importance of the blood spatter testimony in this case, no

reasonable counsel would have decided not to retain a blood spatter expert. As discussed above,
the only physical evidence in this case suggesting that Mr. Jones was ever in direct contact with
the victim was the State’s DNA analysis of a “pinpoint” blood stain allegedly obtained from Mr.
Jones’ clothing. Rebutting the State’s evidence regarding the purported consistency of the stain
pattern with the brutal, bloody beating death of the victim was essential to undermining the
State’s case. Had counsel retained Mr. Gietzen or a similar blood spatter expert, there is a
reasonable probability that Mr. Jones would not have been convicted of capital murder or
sentenced to death.
H.

Counsel failed to retain the assistance of a fingerprint expert.

231.

Defense counsel were ineffective in failing to procure the assistance of a

fingerprint expert to, at a minimum, assist in preparing to cross-examine the State’s fingerprint
expert. As noted above, a criminal defendant’s right to the benefit of expert assistance is
constitutionally recognized and protected. See Ake v. Oklahoma, 470 U.S. 68 (1985); Griffin v.
Illinois, 351 U.S. 12 (1956); Gayle v. State, 591 So. 2d 153 (Ala. Crim. App. 1991). Had
counsel acquired the assistance of these experts, there is a reasonable probability that Mr. Jones
would not have been convicted of capital murder.
232.
crime.

At trial, part of counsel’s scattershot theory was that someone else committed the

(See, e.g., R. 1204–05 (highlighting lack of fingerprint evidence).)

- 87 App. 252

Mr. Jones

consistently asserted that fact from the time he was arrested up through his trial. (See, e.g., C.
340-41 (referencing Portaque Morris, Robert Carroll, and others)); R. 1101-45; R. 1107, 1112
(defense counsel lamely accused Malik Hasan of murdering Ms. Kirkland.).) As counsel were
well aware, crime scene investigators in this case lifted numerous prints that were submitted to
the Alabama Department of Forensics for testing. At trial, the State asserted through their
expert, Shannon Fitzgerald, that many potential fingerprints could not be lifted and those raised
could not be linked to any known individuals. (R. 1174-76.)
233.

Because counsel did not acquire the assistance of a fingerprint expert, they were

unable to effectively challenge the State’s contention that prints could not be lifted from many of
the items taken from the victim’s home. Nor could they contradict the State’s assertion that the
prints could not be linked to other suspects, including those individuals referenced above.
Without the assistance of an expert, counsel, themselves not experts in fingerprint evidence,
endeavored to cross-examine the State’s expert based on their uninformed understanding of the
science behind it. (Counsel cross-examined the State’s expert for only three transcript pages.
(R. 1176-79.).) Ultimately, the jury was left to rely on the State’s expert’s assessment of this
evidence.

Failing to procure the assistance of their own expert or to expose the State’s

fingerprint analysis to any substantive scrutiny had a prejudicial effect on Mr. Jones by depriving
him of the opportunity to engage in independent review of the expert’s conclusions.
234.

Further, according to Mr. Fitzgerald’s report, “In order to adequately compare”

three of the latent prints, “a better set of fully rolled inked fingerprints and joint prints is needed
on all individuals in this case.” (Exhibit N, 2/17/00 Report of Shannon Fitzgerald Report.) The
latent prints that Mr. Fitzgerald was unable to adequately examine were all from the victim’s
vehicle, which Mr. Jones told police he had been given by others. (See, e.g., C. 340-41.)

- 88 App. 253

Although the police did not obtain a full set of rolled prints, with the aid of a fingerprint expert
the defense could have done so and established affirmatively that certain of the prints were not
those of Mr. Jones. But counsel did not obtain the assistance of such an expert.
I.

Counsel failed to challenge the State’s inability to establish a chain of custody
for critical evidence.
1.

235.

Counsel’s failure to challenge the State’s decision to release the
victim’s automobile before it was tested for the presence of the
victim’s blood or made available to the defense for independent
testing resulted in the improper admission of evidence collected from
the vehicle.

Counsel were also ineffective for failing to object to the State’s release of custody

of the victim’s automobile.

The victim’s car was a critical piece of evidence.

Indeed,

considerable evidence allegedly recovered from inside the automobile was admitted at trial.
(See, e.g., R. 593.) Moreover, there was significant debate about the amount of blood and whose
blood, if any, was present in the car. (R. 534-35.) The vehicle itself was subject to fingerprint
and DNA testing by the State. (R. 354, 875.) Yet, a short time after the offense, the car was
released from police custody and given to the victim’s daughter. (R. 397–98.)
236.

This effective destruction of crucial evidence about the source of blood on Mr.

Jones’ clothes was highly improper because counsel in this case were not even appointed until
years later. Accordingly, they were denied the opportunity to reliably test the vehicle and its
contents.

See Gurley v. State, 639 So. 2d 557 (Ala. Crim. App. 1993) (reversing capital

conviction because trial court improperly allowed witness to testify about charred remnants of
wallet that had allegedly been taken from victim at the time of death, which the State lost or
destroyed before the defendant had an opportunity to test it). Despite the clear prejudice suffered
by the defense, counsel failed to object. Had they done so, the State would have been precluded
from admitting the evidence acquired from the car.

- 89 App. 254

2.
237.

Counsel failed to object to the State’s failure to establish a chain of
custody for the crime scene video.

Furthermore, defense counsel deficiently and prejudicially failed to object to the

admission of the police videotape of the crime scene despite the fact that the State did not
establish its chain of custody. (R. 474-75.) See Ex parte Holton, 590 So. 2d 918, 920 (Ala.
1991). Without establishing a chain of custody, the videotape was inadmissible because it could
have been altered, redacted, enhanced, or changed in ways that would have distorted the crime
scene or the victim’s body. See Spradley v. State, __ So. 3d __, 2011 WL 4511226, *4-6 (Ala.
Crim. App. 2011) (State failed to establish proper foundation for admission of video recordings
and still photographs, and erroneous admission of such recordings was not harmless); see also
Logue v. State, 529 So. 2d 1064, 1068 (Ala. Crim. App. 1998) (“The purpose of laying a proper
foundation for the admission of a tape recording is to show that the [depiction on the tape] was
accurately recorded and preserved.”). Counsel’s objection would have compelled the State to
prove the chain of custody or, absent a proper chain, the videotape would have been
inadmissible. Instead, counsel’s inaction allowed the jury to view unreliable evidence in
determining culpability. Had counsel properly challenged the chain of custody of the victim’s
body, her automobile, and the crime scene video, there is a reasonable probability Mr. Jones
would not have been convicted of capital murder or sentenced to death.
J.

Counsel failed to prevent the jury from considering unqualified expert
testimony offered by the victim’s family.

238.

Defense counsel deficiently and prejudicially failed to object to unqualified expert

testimony offered by the victim’s family. Before an individual may offer specialized knowledge
on a subject, he or she must be qualified as an expert witness. See Townsend v. General Motors
Corp., 642 So. 2d 411, 423 (Ala. 1994); Ala. R. Evid. 702. In this case, however, the State

- 90 App. 255

introduced expert testimony from lay witnesses, the victim’s own family members, and counsel
failed to object.
239.

During the guilt phase of trial, the prosecution elicited specialized knowledge

from the victim’s family members. He repeatedly prefaced his questions to the victim’s daughter
by stating, “as a nurse,” or “being trained as a nurse.” The police-officer grandson was asked
questions, “in your opinion as a police officer.” (R. 420.) It was through opinion questions to
the daughter that the prosecutor unlawfully elicited inadmissible testimony that in her opinion
the blunt force her mother endured would have caused her mother to urinate, (R. 395-96), a fact
which Mr. Valeska then used to inflame the jury during closing argument, (R. 1237), even
though it was irrelevant to the issue of guilt. Similarly, the victim’s daughter and grandson
improperly expressed their opinions regarding the rate of change in blood color over a specified
period of time. (R. 382, 421.)
240.

This testimony was admitted even though no showing had been made that the

victim’s daughter’s nursing experience qualified her to testify whether blunt force trauma victims
urinate when they endure such injuries, nor had any showing been made that the victim’s
grandson’s experience as a narcotics officer qualified him to testify regarding the rate of change
in blood color over a specified period of time. Had counsel objected and demanded that these
individuals be qualified as experts, or at a minimum that a foundation be laid to explain the basis
for this specialized knowledge, this prejudicial evidence, which was particularly harmful because
it came from the victim’s family members, would not have been admitted and there is a
reasonable probability that Mr. Jones would not have been convicted of capital murder or
sentenced to death.

- 91 App. 256

K.

Counsel failed to guard against the introduction of expert testimony designed
to bolster the credibility of another state witness.

241.

Counsel deficiently and prejudicially failed to object to the prosecutor’s

introduction of testimony intended to bolster the credibility of the State’s expert witness.
Pursuant to Alabama law, evidence may not be offered to bolster the testimony of a witness
unless that witness’s character has been impeached. See Lassiter v. State, 47 So. 2d 230, 231
(Ala. Ct. App. 1950) (quoting Morgan v. State, 6 So. 761-62 (Ala. 1889)). The State did so here,
and counsel failed to object.
242.

At the guilt phase of trial, the State introduced the testimony of Katherine

McGeehan, a forensic scientist. (R. 608.) Though the State’s DNA expert, Phyllis Rollan, had
yet to testify, during Ms. McGeehan’s qualification testimony, the prosecution asked if she had
“an opinion out of all the DNA scientists in Alabama who has done more DNA testing, which
scientists in Alabama, in other words, the experts?” (R. 612.) The prosecution followed up by
asking if this would include Phyllis Rollan. Ms. McGeehan replied that “all of them are highlyqualified scientists.”

(R. 613.)

Ms. McGeehan then supplied testimony that included

information regarding Phyllis Rollan’s background and experience.
243.

Because the State considered Ms. Rollan’s DNA evidence a critical piece of

evidence in this case, testimony offered to bolster Ms. Rollan’s credibility and thus her results
was highly prejudicial. Accordingly, it was unreasonable for defense counsel to fail to object to
the improper introduction of testimony offered to bolster the credibility of a key State witness.
See Dorsey v. Chapman, 262 F.3d 1181, 1186 (11th Cir. 2001); Snowden v. Singletary, 135 F.3d
732, 737-38 (11th Cir. 1998). Had counsel done so, there is a reasonable probability that Mr.
Jones would not have been convicted of capital murder or sentenced to death.

- 92 App. 257

L.

Counsel failed to adequately investigate Malik Hasan and prepare for his
testimony.

244.

The defense called Malik Hasan as a witness, and Mr. Brantley baselessly accused

him of having killed Ms. Kirkland on December 31, 1999. (R. 1107). This failed attempt at
grandstanding in front of the jury had to cause fundamental damage to the credibility of the
defense in the eyes of the jurors.
245.

Despite having requested a subpoena to secure Mr. Hasan’s appearance at the

trial, defense counsel did nothing to prepare for Mr. Hasan’s testimony and admitted as much to
the trial court. (R. 1072-1075). Mr. Brantley told the judge that he was concerned about calling
Mr. Hasan as a witness because he did not know what the witness would say, and he attempted to
transfer the risk and the decision to offer this unknown evidence to his own client, Mr. Jones.
For that, the court rebuked Mr. Brantley, reminding him, “you’re the lawyer, not him.” (Id. at
1075).
246.

In a revealing display of defense counsel’s failure to prepare for trial, Mr.

Brantley explained his concern was that Mr. Hasan might testify he had been incarcerated on the
night Ms. Kirkland was killed, effectively eliminating him as the potential killer. (R. 1074). No
reasonable counsel would have called a witness to the stand, intending to accuse that witness of
committing a murder that happened at a time when counsel feared the witness was incarcerated.
A minimal amount of diligence, inspecting readily available public prison records, would have
revealed whether or not Mr. Hasan was incarcerated at the time of the murder.
247.

Further, in seemingly attempting to establish innocence by accusing Mr. Hasan as

the murderer, the defense undertook the burden of proving a fact which they had no basis to
believe could be proven and no obligation to prove. Mr. Brantley admitted to the court he had no
idea what Mr. Hasan would testify to once on the stand.

- 93 App. 258

248.

This strategy or approach prejudiced Mr. Jones by creating an unnecessary binary

choice for the jury to make: either Mr. Hasan was guilty or Mr. Jones was. There was no
evidence Mr. Hasan was involved in the killing of Ms. Kirkland. The binary choice presented by
the defense undermined the defendant’s ability to rely on reasonable doubt. The record is replete
with evidence from which reasonable doubt could arise. But the reasonable doubt evidence was
overshadowed by the drama in Mr. Brantley’s accusations addressed to Mr. Hasan.
249.

Mr. Parker later exacerbated Mr. Brantley’s needless creation of a binary choice.

During his closing argument, Mr. Parker fundamentally misstated the decision the jurors were to
make. He gave the jury a binary choice: “What you’re here to do is try to find out who did it
and make that determination.” (R. 1199.) He returned to the same point near the end of the
closing. “But you folks are the ones that say who did it.” (R. 1223.) Counsel’s straying from
the reasonable doubt standard was ineffective.
M.

Defense counsel failed to present evidence that Mr. Jones had a history of
joyriding and a fascination with vehicles.

250.

Mr. Jones was arrested driving the victim’s Cadillac within hours of her body

being discovered.

His consistent position, through the first seven and a half hours of

interrogations and his hour and a half long recorded statement, was that the keys to the Cadillac
belonging to the murder victim were given to him by his street friends and he was merely “joy
riding.” (See, e.g., C. 340-42.)
251.

At trial, the State introduced Mr. Jones’ post-arrest statements. His possession of

the vehicle was used by the prosecutor as evidence that he committed the murder.

The

prosecution also used various inconsistencies in Mr. Jones’ version of the events as being
indicative that he was lying as to the true reason why he possessed the vehicle, e.g., he had
murdered the owner. (See R. 1157 (prosecutor elicited testimony from Officer Beeson that Mr.

- 94 App. 259

Jones said he got the car from his brother, Portaque Morris, and that it belonged to his
grandfather); R. 547-48 (prosecutor eliciting testimony from Mr. Jones’ sister that no one in their
family owned a Cadillac).) Once the State attacked his credibility, the defense was allowed to
offer evidence rehabilitating Mr. Jones’ explanation of why he had the car. See Baxter v. State,
723 So. 2d 810, 819-20 (Ala. Crim. App. 1988); Willis v. State, 449 So. 2d 1258, 1260 (Ala.
Crim. App. 1984).
252.

There were at least six witnesses who were available to testify that Mr. Jones had

a history of “joy riding” and a fascination with cars, starting when he was very young. Mr.
Jones’ family would have testified about how he loved to drive and never turned down an offer
to run an errand if it involved driving. The defense failed to follow up any leads they received in
this regard.
253.

Mary Bell Jones, Mr. Jones’ grandmother, would have testified that Mr. Jones

was “car crazy” and loved anything that moved. He loved to “joyride,” even though he had no
driver’s license.
254.

Elaine Crook, an aunt, would have testified that Mr. Jones had a fascination with

moving vehicles of any kind. Anything that moved would capture his attention. As a child, he
was obsessed with go-carts and bicycles. Mr. Jones went joyriding in Ms. Crook’s husband’s
Isuzu Rodeo as a teenager. Mr. Jones was easily led and would certainly take a car or bicycle
offered to him, without asking any questions.
255.

Rochelle Brown, an aunt, would have testified that Mr. Jones frequently went

joyriding. No one was injured in any of these instances.
256.

Mr. Jones’ uncle, Desario Antrel “Andy” Jones, would have testified that Mr.

Jones loved cars and NASCAR racing. He wanted to become a racecar driver.

- 95 App. 260

257.

Jill Whitsett, his mother, would have testified how Mr. Jones loved cars.

258.

Jarrius Jones, Mr. Jones’ younger brother, would have testified that messing with

Mr. Jones’ cars was the only thing that made him really mad.
259.

The prosecution called Mr. Jones’ half-sister, LaKeisha Jones, as a witness at

trial. She was in the Cadillac with Mr. Jones when he was arrested. Given the opportunity to
examine this potentially important defense witness in the State’s case, Mr. Parker made no effort
to elicit available and favorable testimony from the witness. Ms. Jones would have been able to
provide important exculpatory evidence about the events surrounding the use of the Cadillac,
including that Mr. Jones was giving rides to friends and family members, that Mr. Jones had no
driver’s license, that he still voluntarily stopped for the police rather than attempting to evade
them, and that he had been driving around in the conspicuous Cadillac to McDonalds and other
very public places for an extended period that day. Mr. Jones was joyriding with his sister and
friends.
260.

The failure to develop this evidence went to the heart of the guilt determination.

Accepting a car on the street is not something most people and likely most jurors would do. But
it was totally in character for Mr. Jones, once his background was understood. Had the jury
learned that that Mr. Jones had a near-obsessive affinity for cars even though he did not own one,
and had his history of joyriding been explained, it is probable that at least some jurors would
have viewed his statements about accepting the car as having the ring of truth.
261.

What was required to raise reasonable doubt was an explanation for Mr. Jones’

possession of the car independent of having stolen it as part of a murder. Once evidence of an
alternative explanation for his presence in the vehicle was presented through the evidence that
was readily available, the State’s argument would have been seriously undermined. The State’s

- 96 App. 261

evidence showing a connection with Ms. Kirkland largely boiled down to possession of the car
and trace amounts of DNA on Mr. Jones’ pants that could have come from the car. Innocent
possession of the car was essential to the defense.
262.

Defense counsel’s failure to introduce any evidence cutting against the State’s

theory was prejudicial under the facts of this case. Mr. Jones’ possession of the victim’s car was
one of the very few circumstantial facts that supported the State’s theory connecting him to Ms.
Kirkland. Here, there was no confession, the defendant’s fingerprints or DNA were not found at
the crime scene, there were no witnesses to the murder, and he repeatedly denied killing her.
The evidence of his joyriding was important to explain his willingness to accept use of a car
from an acquaintance on the street, and tends to negate the State’s theory of guilt. Had the
evidence establishing these facts been introduced, it is likely a more favorable verdict would
have been returned.
N.

Counsel failed to protect Mr. Jones’ right to a fair and honest jury
determination by failing to investigate and prevent juror misconduct.
1.

263.

Counsel failed to investigate Juror Ponder’s attempts to speak
directly with the prosecutor.

Counsel were deficient with respect to Juror Tommy Ponder by failing to take

him under voir dire after his interactions with the prosecutor during the course of the trial.
Despite the trial court’s warnings, during a recess, Juror Ponder approached Mr. Valeska and
attempted to speak with him. (R. 219.) Despite these efforts by the juror to speak directly with
the prosecutor outside of the courtroom, defense counsel failed to investigate the circumstances
surrounding this incident. This juror’s desire to speak with Mr. Valeska could have signaled a
range of concerns from a general bias in favor of the State to inside information about the case,
but counsel did not ask to voir dire the juror nor did they probe any further. Reasonably
effective counsel would have investigated this juror and these circumstances to ensure Mr.
- 97 App. 262

Ponder was capable of making a fair and impartial determination and that he had not tainted his
fellow jurors. As the United States Supreme Court has explained, “[i]n a criminal case, any
private . . . contact . . . directly or indirectly, with a juror during a trial is, for obvious reasons,
deemed presumptively prejudicial.”

Remmer v. United States, 347 U.S. 227, 229 (1954).

Importantly, once any such private contact has occurred, “the burden rests heavily upon the
Government to establish, after notice to and hearing of the defendant, that such contact with the
juror was harmless.” Id.; see, e.g., Kerdpoka v. State of Georgia, 724 S.E.2d 419, 425 (Ga. Ct.
App. 2012) (court conducted individual voir dire of each juror to explore potential influence of
private contact with juror).
264.

While trial courts “have some flexibility in structuring an inquiry into this kind of

problem,” a trial court also “abuses its discretion if the record contains no evidence on which the
court could have relied.” United States v. Warner, 498 F.3d 666, 680 (7th Cir. 2007). Here,
counsel failed to request the hearing Mr. Jones was entitled to, Remmer, 347 U.S. at 229, to
inquire into the nature of Mr. Ponder’s contact and its potential influence on the jury. Because
counsel failed to do so, the State was not properly put to its burden of establishing that the
contact was not prejudicial, see id., and Mr. Jones was further deprived of the ability to
demonstrate actual influence because there was no hearing, see Fullwood v. R.C. Lee, 290 F.3d
663, 679 (4th Cir. 2002), as well as no record on which the trial court could rely, see Warner,
498 F.3d at 680. Counsel’s need to request such a hearing was heightened in this capital case. It
has long been acknowledged that “[w]here life or liberty is involved more care is required, and
courts are more ready to interfere where it appears that a juror has acted irregularly than in a civil
case.” Jones v. Warner, 81 Ill. 343, at *4 (1876).

- 98 App. 263

265.

Had counsel requested the hearing to which Mr. Jones was entitled, there is a

reasonable probability that Mr. Jones would not have been convicted of capital murder or
sentenced to death. See Minor v. State, 914 So. 2d 372 (Ala. Crim. App. 2004) (defendant need
only show that a jury’s verdict might have been affected by a juror’s outside contact with another
person).12
2.
266.

Counsel allowed Juror Ponder to sleep through the presentation of
testimony and exhibits.

Counsel were also ineffective for failing to ensure that jurors pay meaningful

attention to the evidence. During the guilt phase, it became apparent that Juror Tommy Ponder
was sleeping. His head was tilted back, his eyes were closed, and his mouth was open. Because
he missed the presentation of testimony and exhibits, this juror was ill-equipped to render a fair
and impartial decision based upon the evidence and should have been dismissed. See, e.g.,
United States v. Smith, 550 F.2d 277, 285-86 (5th Cir. 1977) (dismissal of sleeping jurors
warranted because it prevents them performing their duties); Rocker v. State, 443 So. 2d 1316,
1320 (Ala. Crim. App. 1983). Effective counsel, desiring to protect their client’s rights, would
not have hesitated to bring this serious matter to the court’s attention. However, Mr. Jones’
attorneys failed to do so on their own initiative. Rather, they did so only after Mr. Jones prodded
them to address the matter. (R. 826.)
267.

Further, when counsel finally alerted the trial court, they did so in a manner that

suggested they were annoyed that Mr. Jones was insisting upon protecting his constitutional
rights. (R. 826 (“We’ve got a juror over there that’s asleep, and my client is requesting me to
bring that to the attention of the Court.”).) In response, the court undoubtedly cognizant of

12

The fact that Juror Ponder served as an alternate, (R. 1287–88), does not undermine the potential for him tainting
his fellow jurors. See Minor v. State, 914 So. 2d 372 (Ala. Crim. App. 2004) (defendant need only show that jury’s
verdict might have been affected by a juror’s outside contact with another person).

- 99 App. 264

counsel’s half-hearted objection, stated, “I don’t think he’s asleep. He’s just resting his eyes.” (R.
826.) Though it was impossible for the court to know the juror was not sleeping and instead was
just “resting his eyes,” counsel let it go at that. They did not contest the court’s assertion, inquire
of others in the courtroom, or ask to take the juror under voir dire. Had counsel engaged in voir
dire of this juror, they would have learned that he had in fact been sleeping and missed parts of
the trial.
268.

Defense counsel should have asked the judge to admonish the jury to remain

attentive, as any reasonable counsel handling a capital trial would have done. With just that
smallest bit of effort, counsel could have protected against the prejudicial effect of sleeping and
inattentive jurors. Indeed, although Juror Ponder was eventually dismissed as an alternate, (R.
1287–88), the other jurors who viewed a fellow juror sleeping during the trial without a
reprimand from the court or the attorneys would have developed a diminished sense of
responsibility, believing that their decision did not require particular care. Had counsel objected,
the trial court would have been forced to issue an instruction demanding that jurors give close
scrutiny to the evidence and there is a reasonable probability that Mr. Jones would not have been
convicted of capital murder or sentenced to death.
O.

Counsel failed to object to numerous instances of prosecutorial misconduct
that infected every stage of the proceedings.

269.

A prosecutor’s sole responsibility is to seek justice; therefore, he is prohibited

from inflaming the jury, making improper suggestions or assertions of personal knowledge, and
generally engaging in conduct prohibited by law. See e.g., Berger v. United States, 295 U.S. 78,
88 (1935); Thomas v. State, 90 So. 878, 880 (Ala. 1921). During the guilt phase of Mr. Jones’
trial, the prosecutor engaged in numerous acts of misconduct. But, because defense counsel
failed to object to the prosecutor’s improper actions, the jury was permitted to consider this

- 100 App. 265

unlawful evidence and his impermissible arguments in assessing Mr. Jones’ guilt. Had counsel
objected, there is a reasonable probability that Mr. Jones would not have been convicted of
capital murder or sentenced to death.
1.
270.

The District Attorney has a history of prosecutorial misconduct, of
which trial counsel was aware.

The District Attorney who prosecuted Mr. Jones, Mr. Valeska, has a longstanding

reputation for deploying improper tactics and strategies to obtain convictions. His conduct, and
that of his office, has been the subject of much litigation, and has been repeatedly criticized by
the courts.
271.

For example, in McNair v. State, 653 So. 2d 320 (Ala. Crim. App. 1992), the

Court of Criminal Appeals remanded for a new sentencing hearing after finding that the
prosecutor, Mr. Valeska, engaged in numerous improper tactics and cautioned that his improper
conduct would not be condoned. Id. at 337-38; see also, e.g., Jennings v. State, 588 So. 2d 540,
542 (Ala. Crim. App. 1991) (reversing conviction because Mr. Valeska’s improper methods of
impeaching defendant so prejudiced the accused in the eyes of the jury that the accused was
denied a fair trial); Blackmon v. State, 574 So. 2d 1037, 1041 (Ala. Crim. App. 1990) (Mr.
Valeska made improper references to potential sentencing in closing); Ward v. State, 440 So. 2d
1227, 1230 (Ala. Crim. App. 1983) (Mr. Valeska improperly bolstered testimony of witness by
arguing facts not in evidence; conviction affirmed because defense counsel failed to object);
Hammonds v. State, 777 So. 2d 750, 764-65 (Ala. Crim. App. 1999) (Mr. Valeska improperly
commented on defendant’s decision not to testify but, unlike here, trial court gave curative
instruction), aff’d, 777 So. 2d 777 (Ala. 2000); Miller v. State, 431 So. 2d 586, 590-91 (Ala.
Crim. App. 1983) (Mr. Valeska improperly asked witness about the race of defendant’s
companion; no prejudice because counsel timely objected and prevented the question from being

- 101 App. 266

answered); Hammond v. State, 776 So. 2d 884, 892 (Ala. Crim. App. 1998) (reversing judgment
due to Mr. Valeska’s improper comments); Henderson v. State, 612 So. 2d 1256, 1260 (Ala.
Crim. App. 1992) (Houston County prosecutor showed jury a pair of ladies’ panties during
opening argument that were not admitted into evidence, introduced evidence of unrelated
offenses, and commented on defendant’s decision not to testify); Drayton v. State, 596 So. 2d 51
(Ala. Crim. App. 1991) (improper comment on failure to call witnesses available to both sides);
Middleton v. State, 495 So. 2d 726, 729 (Ala. Crim. App. 1986) (Houston County prosecutor
drew attention to absence of codefendant and questioned failure of codefendant to testify in
defendant’s trial); Cotton v. State, 481 So. 2d 413, 417 (Ala. Crim. App. 1985) (crossexamination of defendant concerning prior bad acts was reversible error); Crook v. State, 469 So.
2d 690, 694 (Ala. Crim. App. 1985) (prosecutor repeatedly referenced inadmissible evidence, but
court affirmed because defense counsel objected and obtained curative instructions); Doyle v,
State, 487 So. 2d 996, 998 (Ala. Crim. App. 1986) (prosecutor made “clearly improper” remarks
during closing about potential punishment, but court affirmed because defense counsel objected
and the court warned the prosecutor to “stick to the evidence”); Williams v. State, 620 So. 2d 82,
85 (Ala. Crim. App. 1992) (reversing because prosecutor used peremptory strike in
discriminatory fashion against African-American venire member).
272.

Of particular note, in Sheely v. State, 629 So. 2d 23, 25 (Ala. Crim. App. 1993),

Mr. Valeska improperly made statements during the guilt phase that the crime was especially
heinous and atrocious. The appellate court, however, held that the defendant had waived the
issue because defense counsel, Mr. Brantley, failed to object. Mr. Brantley knew or should have
known the importance of objecting to the prosecutor’s misconduct as well as the prejudicial

- 102 App. 267

effect that flows from the failure to do so – but nevertheless failed to object on numerous
occasions.
2.

273.

Counsel failed to protect against the prosecutor’s misconduct during
jury selection, depriving Mr. Jones of his right to be tried by a fair
and impartial jury.

As discussed in Section II.D.6 and II.D.2, incorporated herein by reference, which

is incorporated herein by reference in its entirety, counsel failed to object to numerous acts of
prosecutorial misconduct during jury selection. Counsel’s failure to object deprived Mr. Jones of
his right to be tried by a fair and impartial jury.
3.
274.

Counsel failed to object to the prosecutor’s misconduct during
opening statements.

Counsel failed to object to numerous improper statements by the prosecutor

during opening statements. Had counsel objected, there is a reasonable probability that Mr.
Jones would not have been convicted of capital murder or sentenced to death.
a.
275.

Counsel failed to object to the prosecutor’s groundless and
irrelevant statements regarding the magnitude of the crime.

The prosecutor told the jury:
[This is] the most horrible death that has ever occurred in this
circuit to an eighty year old woman. (R. 355.)

276.

This statement was improper and prejudicial for several reasons. First, there is no

evidence which would allow the prosecution to state that in the history of Houston County, no
crimes of similar magnitude ever occurred to another eighty year old woman. Dr. Paredes’
testimony on this issue was limited to his personal knowledge, while Houston County was
founded in 1903. Second, the magnitude of the crime was irrelevant during the guilt phase.
Third, this statement is one of many examples in which the prosecutor improperly sought to turn
the victim’s age into a non-statutory aggravating circumstance, which also is not relevant at the

- 103 App. 268

guilt phase. Indeed, by asking the jury to take Ms. Kirkland’s age into consideration, the
prosecutor improperly encouraged the jury to consider an invalid aggravating circumstance in
violation of state and federal law. Espinoza v. Florida, 505 U.S. 1079 (1992) (weighing of
invalid aggravating factor violates Eighth Amendment); Ponder v. State, 688 So. 2d 280 (Ala.
Crim. App. 1996). Counsel should have objected to this statement by the prosecutor. Had they
done so, the jury would not have been inflamed during the guilt phase of the trial by irrelevant
information about the victim’s age or the magnitude of the crime.
b.
277.

Counsel failed to object to the prosecutor’s statements
regarding victim impact.

Counsel also failed to object during opening statements when the prosecutor

improperly sought to play on the jury’s passions by referencing speculative victim impact
evidence during opening statements. The prosecutor continually asked the jury to consider what
Ms. Kirkland’s life was like – what she thought, what she liked, and her relationships with her
family:
She was concerned about her safety all her life. She was kind of afraid to live
alone, but she continued to live alone because was independent and determined.
(R. 333.)
278.

The prosecutor also sought to arouse sympathy for the victim by drawing the

jury’s attention to Ms. Kirkland’s stroke and highlighting her drive and determination as she
recovered from it:
[S]he had the stroke and [she] had been in good condition and so they didn’t
check on her every day. And [Ms. Kirkland] laid in the house approximately
three days before somebody found her. (R. 335.)
The stroke effected [sic] her tremendously, but she was a very determined woman
after the stroke. They said she would never walk again, but she got on those kind
of machines, treadmills, you get on. She was determined to walk again and get
around and take care of herself. And she did that. (R. 333.)

- 104 App. 269

279.

This victim impact discussion in the first phase of the trial is simply irrelevant to

any legitimate consideration of evidence by the jury, injects prejudicial and inflammatory
considerations, and undermines the reliability of the verdict. See Payne v. Tennessee, 501 U.S.
808 (1991) (finding that the Eighth Amendment does not erect a per se bar to victim impact
evidence at the penalty phase) (emphasis added); Woodson v. North Carolina, 428 U.S. 280
(1976); Hutto v. State, 178 So. 2d 810 (Ala. 1965) (reversible error for the district attorney to
show that the decedent had children); see also Spaziano v. Florida, 468 U.S. 447 (1984).
Counsel failed to object to these acts of prosecutorial misconduct, which allowed the prosecutor
to improperly testify to facts not in evidence and encourage the jury to convict Mr. Jones based
on evidence irrelevant to Mr. Jones’ guilt or innocence.
c.
280.

Counsel failed to object when the prosecutor unlawfully
injected a racial dynamic into the case.

Defense counsel also failed to object when the prosecutor interjected a racial

dynamic into the case. Despite having no relevance, the prosecutor continually highlighted Mr.
Jones’ race as well as the race of those accompanying him in the car when he was stopped by
police. (R. 351, 353.) Most notably, the prosecutor not so subtly contrasted the race of the victim
with that of Mr. Jones by using the victim’s car as a proxy, stating:
And what occurs is one of the police officers sees this white Cadillac with
Anthony [sic] Jones in the vehicle with another black female in the front seat and
another black female in the back seat and also what occurred [sic] a five year old
young black child in the vehicle.
(R. 351) (emphasis added.) Aside from generally seeking to inflame the jury, see Berger, 295
U.S. at 88, the prosecutor’s appeal to race was highly inappropriate in that it had no relevance.
See, e.g., Perez v. State, 689 So. 2d 306, 307 (Fla. Ct. App. 1997) (“It is, of course, highly
improper to interject even a reference to, let alone an accusation of racism which is neither
justified by the evidence nor relevant to the issues into any part of our judicial system. It is
- 105 App. 270

particularly reprehensible when this is done by a representative of the state in a criminal
prosecution.”) Counsel failed to object to this effort to play on racial discrimination by the
prosecutor.
4.

281.

Counsel failed to object to the prosecutor testifying in place of the
State’s witnesses, thereby allowing the prosecutor to substitute his
own words for those of the witnesses while denying Mr. Jones the
opportunity for cross-examination.

Counsel failed to object to the prosecutor testifying in place of his witnesses

through the improper use of leading questions. See Ala. R. Evid. 611(c). “The use of leading
questions is limited in order to prevent the substitution of the language of the attorney for the
thoughts of the witness as to material facts in dispute.” Williams v. State, 733 N.E.2d 919, 922
(Ind. 2000). Here, counsel’s failure to object to the prosecutor’s numerous improper leading
questions prejudiced Mr. Jones by allowing the prosecutor to put words in the mouths of
witnesses and depriving Mr. Jones of the opportunity for cross-examination.

Had counsel

objected, there is a reasonable probability that Mr. Jones would not have been convicted of
capital murder or sentenced to death.
a.
282.

Counsel failed to object to the prosecutor’s improper
examination of police officer Andy Hughes.

One of the State’s primary witnesses was Andy Hughes. Mr. Hughes offered

critical evidence relating to Mr. Jones’ arrest, his interrogation, and evidence seized from his
person. (R. 506-37.) To ensure the accuracy of this important information, it was critical that
Mr. Hughes testify from his own memory. Instead, what Mr. Hughes delivered was largely an
echoing of statements offered by the prosecutor. See Ala. R. Evid. 611(c) (“Leading questions
should not be used on the direct examination of a witness.”) For much of the testimony, the
officer was simply agreeing with statements offered by Mr. Valeska. (R. 506-37.) In fact, just

- 106 App. 271

over half of Mr. Valeska’s approximately 140 questions on direct examination were answered
with a “yes” or “no” response. (R. 506-37.)
283.

For example, the prosecutor elicited the following testimony from Mr. Hughes:

Q

Can you tell the jury, Sergeant Hughes, the color of blood when it first comes out
of the human body versus a later point in time, does it change colors?

A

Yes.

Q

Does it go to from a red to a dark or brown or almost black?

A

Yes.

Q

If I use the term blood splatter, have you ever had an occasion to work or be
involved in a homicide when there was blood splatter on the wall, clothing, or any
metal, or the ceilings, or wood? Have you seen that before December 31, 1999?

A

Yes, I have.

Q

Now, have you seen blood splattering on the clothes of human beings wearing in
the close proximity if someone was assaulted or killed?

A

Yes, I have.

Q

When you had custody of Antonio Jones, the man at the table in this courtroom
today with his lawyers, with Sergeant Gonzales, did you have occasion to see
what kind of clothing he was wearing?

A

Yes.

Q

Do you remember, in other words, I know it's been a long time, what kind of
clothing he was wearing?

A

Yes, I do.

Q

What kind of shoes was he wearing?

A

Canvas-type shoes.

Q

Light or dark?

A

Dark-colored shoes.

Q

Did you notice anything on the shoes yourself as you observed him while he was
in CID with Gonzales? Any kind of specks or splattering on the shoes?

A

Yes, I did.
- 107 App. 272

(R. 515-16.)
284.

This was highly unreliable and denied Mr. Jones his right to cross examine the

witness, as it was impossible for him to cross examine Mr. Valeska. See U.S. Const., amend. VI;
Delaware v. Van Arsdall, 475 U.S. 673, 678-79 (1986). Had defense counsel objected, Mr.
Hughes would have been forced to testify from his own knowledge and this would have
fundamentally undermined the State’s case.
b.
285.

Counsel failed to object to the prosecutor’s improper
examination of Mr. Jones’ sister, LaKeisha Jones.

Counsel also failed to object to the prosecutor’s improper leading examination of

Mr. Jones’ sister, LaKeisha Jones, who testified for the State. Of the approximately eighty-two
(82) questions asked by the prosecutor on direct examination of LaKeisha Jones, approximately
sixty-two (62), or 75%, elicited a “yes” or “no” response. (See R. 547-557.) Because Ms. Jones
offered no additional responses to most of the questions asked by the District Attorney, her
testimony consisted largely of affirmations of whatever questions the District Attorney posed.
By allowing the prosecution to testify through its witness in violation of Alabama Rule of
Evidence 611(c), counsel allowed the prosecutor to substitute his own words for those of Ms.
Jones. Further, because Mr. Jones could not cross-examine the prosecutor, Mr. Jones was denied
his Sixth Amendment right to confront the witnesses against him. See U.S. Const., amend. VI;
Delaware v. Van Arsdall, 475 U.S. 673, 678-79 (1986).
5.
286.

Counsel failed to object to the prosecutor’s improper testimonial
statements.

Mr. Jones’ attorneys were similarly deficient in failing to object to the

prosecutor’s rampant testimonial statements. Throughout the trial, the prosecutor repeatedly
interjected, offering to stipulate to facts that a witness was about to offer into testimony. (R. 256,
273, 325–26, 530, 873–75.) Under Alabama law, a party has a right to prove his case as he so
- 108 App. 273

pleases. Accordingly, unless Mr. Jones requested one, it was improper for the State to offer a
stipulation in open court because it amounted to unsworn and unconfronted testimony that Mr.
Jones was unable to rebut. See Duncan v. State, 624 So. 2d 1084, 1086 (Ala. Crim. App. 1993)
(“In Alabama, a party is not required to accept his adversary’s stipulation, but may insist on
proving the fact.”).
287.

This technique was used effectively by Mr. Valeska to emphasize his view that

certain evidence was not harmful to the prosecution. He was essentially allowed to comment on
the evidence in mid-trial through his offers of stipulations. (See, e.g., R. 256 (“Judge, we’ll
stipulate there was a recorded statement by the Defendant taken by Beeson.”); R. at 530 (“I will
stipulate at the time he was stopped at the car he was wearing a red shirt.”); R at 874–75
(interrupting Mr. Brantley’s questioning to provide commentary, via a stipulation, on the absence
of fingerprint evidence).)

In addition, the prosecutor’s interruptions constituted improper

coaching and bolstering of his witnesses. Had defense counsel objected, Mr. Jones would have
been permitted to engage in meaningful cross-examination of the State’s witnesses, which would
have precluded the State from proving its capital murder case.
6.
288.

Counsel failed to object to the prosecutor’s improper vouching for the
integrity of the State’s case.

The trial attorneys were ineffective for failing to object to the prosecutor’s

statements personally vouching for the credibility of his case. Prosecutors are prohibited from
vouching as to the guilt of the accused. The United States Supreme Court in United States v.
Young, 470 U.S. 1, 18-19 (1985), specifically condemned a prosecutor's vouching for the
credibility of a witness or expressing a personal opinion concerning a defendant's guilt. As the
Court stated:
The prosecutor's vouching for the credibility of witnesses and expressing his
personal opinion concerning the guilt of the accused pose two dangers: such
- 109 App. 274

comments can convey the impression that evidence not presented to the jury, but
known to the prosecutor, supports the charges against the defendant and can thus
jeopardize the defendant's right to be tried solely on the basis of the evidence
presented to the jury; and the prosecutor's opinion carries with it the imprimatur
of the Government and may induce the jury to trust the Government's judgment
rather than its own view of the evidence. Id.
289.

Throughout Mr. Jones’ trial, the prosecutor improperly vouched for the integrity

of the State’s case.

The prosecutor told the jury they should rely upon the prosecutor’s

experience and judgment (R. 64, 67, 88), and that he had solved the case when he made the
decision to indict Mr. Jones (R. 1229). Mr. Valeska personally vouched for the credibility of
officers who testified at trial, saying they did an outstanding job investigating this case (R. 350,
1198), and he informed the prospective jury they should expect to make it to the sentencing stage
(R. 58-60).

Alabama and federal courts have routinely guarded against such prejudicial

statements from the prosecution because the jury is apt to give them undue weight.
a.
290.

Counsel failed to object to the prosecutor’s improper vouching
for the guilt of the accused during voir dire.

The prosecutor began vouching for the integrity of the State’s case from the very

beginning of the proceedings. During voir dire, the prosecutor asked the prospective jurors to
rely upon both his own experience and judgment:
“I’ve tried more than four hundred and fifty jury trials” (R. 88:14-17);
“I’ve tried a lot of cases” (R. at 64); and
“I think I will be able to allegedly prove the things, I guarantee you I promise you
allegedly what we say” (R. at 67).
Defense counsel’s failure to object to this improper prosecutorial vouching cannot be considered
part of any “sound trial strategy.” King v. State, 518 So. 2d 191, 196 (Ala. Crim. App. 1987)
(finding failure to object to prosecutor’s vouching “fell outside the range of reasonable trial

- 110 App. 275

strategy and was an error”).13
b.

291.

Counsel failed to object to the prosecutor’s vouching that he
had solved the case prior to indictment, which improperly sent
the message that the jury should trust in the government’s
decision to prosecute Mr. Jones as proof of guilt.

At trial, one of Mr. Jones’ primary defenses seemed to be that someone else

committed the crime.

(See, e.g., R. 1204–05 (highlighting lack of fingerprint evidence).)

Indeed, Mr. Jones had consistently asserted that fact from the time he was arrested. (See, e.g., C.
340-41 (referencing Portaque Morris, Robert Carroll, and others); R. 1101-44.) And, at trial,
lacking adequate investigation, defense counsel accused Malik Hasan of murdering Ms.
Kirkland. (R. 1112.)
292.

The prosecutor did not limit his argument to the evidence presented in the case,

but rather informed the jury the case had been solved by his office before the indictment process
began. (R. 1229.) Mr. Valeska told the jury they could rely on his judgment as a District
Attorney, stating his decision not to indict anyone other than Mr. Jones was evidence Mr. Jones
committed this offense:
Well, let me ask you, good people. Did your district attorney indict Malik Hasan
for capital murder? Did your district attorney indict Robert Carroll for capital
murder of Ms. Kirkland? Did your district attorney indict Portaque Morris for
capital murder? What’s the answer? No, he didn’t. And you know why he did
not? The capital murderer sits right over there. The one and only one who did
this.
(R. 1229 (emphasis added).) The prosecutor’s assessment of the quality of its investigation and
charging process prejudicially induced the jury to “trust the Government’s judgment rather than
its own view of the evidence.” Young, 470 U.S. at 13-19. Counsel, however, failed to object.
13

Although the King court went on to affirm the defendant’s conviction, the court did so because five eyewitnesses
testified against the defendant, providing “overwhelming” evidence of the defendant’s guilt. Here, there were no
such eyewitnesses and, more importantly, Alabama courts subsequently rejected this approach, stating that “The
proper inquiry here is not whether the evidence of guilt is overwhelming, but whether a substantial right of the
[defendant] has or probably has been adversely affected.” Guthrie v. State, 616 So. 2d 914, 931 (Ala. Crim. App.
1993) (reversing judgment and granting new trial).

- 111 App. 276

c.

293.

Counsel failed to object to the prosecutor’s statements during
jury selection that vouched for Mr. Jones’ guilt by sending the
improper message that the jury need not worry about guilt,
but should focus instead on whether Mr. Jones should be
sentenced to death or life in prison.

Similarly prejudicial was the District Attorney’s statements during voir dire that

“I expect we will get to the penalty phase in this case,” (R. 60), that “I want to make sure we’re
thinking about that [death] right now,” (R. 58), and that “you will have two options in this case,
death or life without parole,” (R. 58.) In making these statements, the prosecutor conveyed his
personal expectation to the jury, implying there was no need for the jury to concern themselves
with the possibility that Mr. Jones was not guilty but instead should instead focus on the decision
to recommend death.
294.

It was highly inappropriate for the District Attorney to ask the jury to focus on

sentencing when it was not yet known whether Mr. Jones would be found guilty.

Those

statements impermissibly relieved the jury of their sense of responsibility, see Caldwell v.
Mississippi, 472 U.S. 320 (1985), by allowing them to believe that the guilt phase decision was a
foregone conclusion – one that had already been made by the government. Counsel, however,
failed to object.
d.

295.

Counsel failed to object to the prosecutor’s vouching for the
credibility of testifying police officers and the integrity of their
investigation.

Counsel also failed to object to the prosecutor’s repeated vouching for the

credibility of key testifying officers and the integrity of their investigation. During opening
statement Mr. Valeska improperly vouched for Dothan police officer Donovan Kilpatrick, who
the prosecutor subjectively described as a “fine officer.” (R. 350.) In conjunction with his
statements that “[t]he police did an outstanding job,” (R. 1198), the prosecutor improperly asked
the jury to rely on his assessment of the credibility and integrity of the case. His attempts to
- 112 App. 277

characterize and credit the testimony of Officer Kilpatrick were especially prejudicial because
Kilpatrick was one of the officers who testified about Mr. Jones’ purported confession that he
was at the scene and the absence of any recording and the substance of this most critical
statement – a significant weakness in the State’s case. (R. 835-43.) Mr. Jones argued evidence
of the unrecorded conversation was unreliable as the purported admission was recounted solely
through the testimony of officers. (R. 853-58.) Because the jury’s consideration of Mr. Jones’
statement turned on credibility determinations, it was highly inappropriate for the District
Attorney to vouch for the officer who was central to securing Mr. Jones’ statement. See Ex parte
Parker, 610 So. 2d 1181, 1183 (Ala. 1992) (improper for prosecutor to vouch for witness
credibility). Counsel, however, failed to object.
e.

296.

The prosecutor’s unchecked vouching, due to failures to object,
prejudiced Mr. Jones by relieving jurors of their sense of
responsibility and depriving Mr. Jones of an opportunity for
cross-examination.

All of this improper vouching by the prosecutor was highly prejudicial because it

relieved jurors of their sense of responsibility by suggesting their decision had already been
made by a higher authority. Young, 470 U.S. at 18-19; Berger, 295 U.S. at 88; Brooks v. Kemp,
762 F.2d 1383, 1410 (11th Cir. 1985) (“[I]t is wrong for the prosecutor to undermine [the jury’s]
discretion by implying that he, or another high authority, has already made the careful decision
required. This kind of abuse unfairly plays upon the jury’s susceptibility to credit the
prosecutor’s viewpoint.”); Ex parte Parker, 610 So. 2d at 1183 (improper for prosecutor to
vouch for witness credibility); Arthur v. State, 575 So. 2d 1165, 1185 (Ala. Crim. App. 1990)
(“The prosecutor also cannot imply to the jury that he or his office had already made the
judgment that this case, above most other capital cases, warrants the death penalty.”); Hall v.
United States, 419 F.2d 582, 587 (5th Cir. 1969) (statement that “we try to prosecute only the

- 113 App. 278

guilty” is improper because it takes “guilt as a pre-determined fact”); Guthrie v. State, 616 So. 2d
916, 932 (Ala. Crim. App. 1993) (comment that from the beginning, “everybody” had agreed
that the case was a death-penalty case could reasonably be interpreted as an invitation to the jury
to “adopt the conclusion of others, ostensibly more qualified to make the determination, rather
than deciding on its own”).
297.

The prejudice this failure caused to Mr. Jones’ case was substantial.

The

prosecutor’s improper vouching conveyed the impression to the jury that the prosecutor had
additional information that supported the State’s case and thus prejudiced Mr. Jones’ right to be
tried solely on the basis of the evidence presented at trial. See Young, 470 U.S. at 18-19. The
prosecutor’s vouching also improperly influenced the jury to trust the State’s judgment rather
than their own.

See id.

The prosecutor’s vouching also reduced the jurors’ sense of

responsibility by making them believe that guilt was a foregone conclusion, and that they need
only focus on sentencing. See Caldwell, 472 U.S. 320. When such assertions come from the
prosecutor, the defendant is denied the opportunity to defend against them. See United States v.
Hosford, 782 F.2d 936, 938-39 (11th Cir. 1986) (improper for prosecutor who has independent
personal knowledge about facts that will be controverted at trial to use this inside information to
imply to the jury that he has special knowledge or insight); Smith v. State, CR-97-1258, 2000
WL 1868419 (Ala. Crim. App. Dec. 22, 2000) (“Such conduct on the part of the prosecutor
amounts to a subtle form of testimony against the defendant, as to which the defendant may have
no effective means of cross-examination. Hence, the rule is founded upon the possible danger
that the jury, impressed by the prestige of the office of the District Attorney, will accord great
weight to the beliefs and opinions of the prosecutor”) (citation omitted). Indeed, in a similar
context, Alabama courts have recognized that a prosecutor’s vouching is not harmless error, even

- 114 App. 279

where the evidence of guilt is “strong and convincing,” because courts “cannot say that the
[vouching] error did not contribute to the verdict beyond a reasonable doubt.” See Guthrie, 616
So. 2d at 931 (citing Chapman v. California, 386 U.S. 18 (1967)). Similarly here, the foregoing
prejudice constitutes ineffective assistance of counsel under Strickland because, had counsel
objected to the prosecutor’s improper vouching, the jury would not have been improperly
influenced in this fashion and there is a reasonable probability that Mr. Jones would not have
been convicted of capital murder or sentenced to death.
7.
298.

Counsel failed to object to the prosecutor’s introduction of facts not in
evidence.

Defense counsel also failed to guard against the prosecutor’s introduction of facts

not in evidence. It was improper for the prosecutor to argue facts not in evidence, Donnelly v.
DeChristoforo, 416 U.S. 637 (1974), for it denied Mr. Jones an opportunity to rebut or explain
such assertions. Skipper v. South Carolina, 476 U.S. 1, 7 n. 1 (1986) (citation omitted).
299.

During opening statements, the prosecutor claimed to know the deceased victim’s

thoughts. “[Ms. Kirkland] was concerned about her safety all her life. She was kind of afraid to
live alone, but she continued to live alone because she was independent and determined.” (R.
333.) He further remarked that “She liked to read. And she would smoke her cigarettes sitting in
her chair.”

(R. 337.)

The State offered no evidence to support these assertions.

These

statements were clearly calculated to garner sympathy and passion. But, counsel failed to object
and demand that the court instruct the jury to ignore these inflammatory comments.
300.

Likewise, during closing arguments, the prosecutor again asserted what Ms.

Kirkland was thinking and what she could see during the incident:
And she looked up and saw it splattered all over. The very blood that
flowed through her veins. (R. 1198.)
But no evidence was introduced as to what Ms. Kirkland was thinking or what she saw. These
- 115 App. 280

assertions were clearly part of the District Attorney’s plan to inflame the jury as a means of
ensuring it brought back a conviction and sentence of death. Counsel, however, failed to object.
301.

Defense counsel also failed to object when, during closing arguments, the

prosecutor, trying to deal with the State’s failure to identify any of Mr. Jones’ fingerprints at the
scene of the crime, decided to make up evidence. Arguing facts not in evidence and claiming –
without any support – that the prosecutor knew Mr. Jones wore gloves during the commission of
the crime, Mr. Valeska improperly asserted:

“You know why they couldn’t find them

[fingerprints]? I can tell you why. He wore gloves. He wore gloves.” (R. 1195 (emphasis
added).) “They are not going to be in there because he had gloves on.” (R. 1230.) There was no
evidence showing that Mr. Jones wore gloves at any time on the night of the murder, but counsel
failed to object.
302.

Such repeated assertions about evidence that did not exist or was never

introduced, impermissibly evaded the requirement that Mr. Jones be permitted to challenge the
evidence against him. See United States v. Owens, 484 U.S. 554, 557 (1988) (Confrontation
Clause firmly establishes counsel must have an adequate opportunity to cross-examine adverse
witnesses). Had counsel objected to these emotionally charged statements, the jury would have
been forced to make a determination based solely on the evidence, and there is a reasonable
probability that Mr. Jones would not have been convicted of capital murder or sentenced to
death.
8.

303.

Counsel failed to object to the prosecutor’s statement that unreliable
testimony from the State’s witnesses could be excused due to the
length of time it took for the case to go to trial.

Mr. Jones’ attorneys failed to object to the prosecution’s suggestion that

unreliable or inaccurate testimony from the State’s witnesses could be excused due to the length
of time that passed before the case went to trial.
- 116 App. 281

During its case-in-chief, the prosecutor

repeatedly stated that it was understandable if State witnesses could not remember certain facts
because “it’s been four years” since the crime. (See, e.g., R. 489, 537.) These comments
encroached on the jury’s province by excusing failed memory and bolstering the credibility of
witnesses in spite of their failure to recall key facts. This constant refrain attempted to take
advantage of the fact the case was not timely prosecuted for reasons unrelated to the defense or
Mr. Jones. The prosecutor exploited this delay for the very reason that the Constitution prohibits
delays. See Doggett v. United States, 505 U.S. 647 (1992). Defense counsel’s failure to object
to this misconduct by the prosecutor is even more deplorable in light of counsel’s failure to assert
Mr. Jones’ right to speedy trial. (See Section II.B, incorporated herein by reference.) Had
counsel objected, the jury would have been precluded from considering this unreliable testimony,
and Mr. Jones would not have been convicted of capital murder or sentenced to death.
9.
304.

Counsel failed to object to the prosecutor’s arguments made for the
purpose of inflaming the jury.

Throughout Mr. Jones’ capital trial, the prosecutor presented arguments designed

to engender jurors’ sympathy and passion. A prosecutor’s sole responsibility is to seek justice;
therefore, he is prohibited from inflaming the jury, making improper suggestions or assertions of
personal knowledge, and generally engaging in conduct prohibited by law. See, e.g., Berger v.
United States, 295 U.S. 78, 88 (1935). Counsel, however, failed to object to the prosecutor’s
numerous efforts to inflame the passions of the jury.
a.

305.

The prosecutor asked the jury to consider emotional or
sentimental evidence of the victim’s life story that was
irrelevant to the issue of guilt.

Counsel failed to object when the prosecutor improperly sought to play on the

jury’s passions by presenting speculative victim impact evidence at the guilt phase of the trial,
asking the jury to consider what Ms. Kirkland’s life was like, her thoughts, fears, likes, and

- 117 App. 282

family relationships. (R. 333, 1181-82, 1191.) The prosecutor also sought to arouse sympathy
for the victim by drawing the jury’s attention to Ms. Kirkland’s stroke and highlighting her drive
and determination as she recovered from it. (R. 333, 335.) That evidence, of course, was
irrelevant to the issue of guilt and injected prejudicial and inflammatory considerations,
undermining the reliability of the verdict. See Payne v. Tennessee, 501 U.S. 808 (1991) (finding
that the Eighth Amendment does not erect a per se bar to victim impact evidence at the penalty
phase) (emphasis added); Woodson v. North Carolina, 428 U.S. 280 (1976); Hutto v. State, 178
So. 2d 810 (Ala. 1965) (reversible error for the district attorney to show that the decedent had
children); see also Spaziano v. Florida, 468 U.S. 447 (1984). Had counsel objected, the jury
would have been precluded from considering this prejudicial and inflammatory testimony and
Mr. Jones would have been less likely to be convicted of capital murder or sentenced to death.
b.

306.

The prosecutor improperly injected a racial dynamic into the
case, contrasting the victim’s race with that of Mr. Jones,
before a principally white jury.

Counsel failed to object when the prosecutor unlawfully interjected a racial

dynamic into the case, contrasting the race of the victim with that of Mr. Jones and his
companions. (R. 351, 353.) The only purpose for the prosecutor to make this contrast was to
inflame the jury, which was mainly white. See Berger, 295 U.S. at 88. The prosecutor’s appeal
to race was highly inappropriate in that it had no relevance. See, e.g., Perez v. State, 689 So. 2d
306, 306 (Fla. App. 3d Dist. 1997) (“It is, of course, highly improper to interject even a reference
to, let alone an accusation of racism which is neither justified by the evidence nor relevant to the
issues into any part of our judicial system. It is particularly reprehensible when this is done by a
representative of the state in a criminal prosecution.”). Had counsel objected, the jury would
have been precluded from considering this unreliable testimony and Mr. Jones would have been
less likely to be convicted of capital murder or sentenced to death.
- 118 App. 283

c.

307.

The prosecutor sought to inflame the jury by introducing
evidence of the victim’s relationship to the Dothan Police
Department.

Counsel failed to object to irrelevant, prejudicial, and inflammatory references to

the relationship between the deceased and the Dothan Police Department, where her grandson
was employed. (R. 334, 338, 339, 340, 365, 400, 426, 432, 437, 438, 441, 444, 782, 793, 1475.)
Particularly inappropriate was the fact that the victim’s grandson, former officer Brent Parrish,
testified while wearing a police uniform despite the fact that he did not normally wear a uniform
as a part of his job at the time of trial. (R. 444.)
308.

Defense counsel’s failure to object to these seemingly endless references to the

police connection, as well as to Brent Parrish’s wearing a police uniform while testifying,
allowed the State to create a highly charged atmosphere likely to inflame and persuade the jury
to act on passion rather than the evidence. Had counsel objected, the jury would have been
precluded from considering these facts in making their determination, and Mr. Jones would
likely not have been convicted of capital murder or sentenced to death.
10.
309.

Counsel failed to guard against the prosecutor’s improper comments
on Mr. Jones’ silence.

Mr. Jones’ counsel rendered unconstitutionally ineffective assistance by failing to

object to the prosecutor’s improper comment on Mr. Jones’ decision not to testify in his own
defense. The prosecutor’s comment directly violated Mr. Jones’ Fifth Amendment freedom from
self-incrimination.
310.

In his closing argument during the guilt phase, Mr. Valeska, improperly drew the

jury’s attention to the fact Mr. Jones did not testify. These comments plainly constituted
reversible error. Had defense counsel objected to these comments at trial, Mr. Jones would have
been entitled to an immediate curative instruction to the jury, if not a mistrial. Additionally, the

- 119 App. 284

issue would have been preserved for appeal, which would have resulted in reversal had the trial
court’s curative instruction been insufficient or the objection overruled. Had counsel objected,
there is a reasonable probability that Mr. Jones would not have been convicted of capital murder
or sentenced to death.
a.

311.

The prosecutor’s comment on Mr. Jones’ silence constituted
reversible error that required an immediate objection as well
as an immediate and strong response from the trial court.

A defendant’s freedom from self-incrimination includes the right not to testify,

and the right not to have his decision not to testify used against him. U.S. Const., amend. V;
Griffin v. California, 380 U.S. 609, 613–14 (1965); Malloy v. Hogan, 378 U.S. 1, 8 (1964); Ala.
Const., art. I, § 6 (“in all criminal prosecutions, the accused . . . shall not be compelled to give
evidence against himself”); Ala. Code § 12-21-220 (1975) (“On the trial of all . . .criminal
proceedings, the person on trial shall, at his own request, but not otherwise, be a competent
witness, and his failure to make such a request shall not create any presumption against him nor
be the subject of comment by counsel”); Whitt v. State, 370 So. 2d 736, 738 (Ala. 1979).
312.

Central to the defendant’s exercise of the freedom not to testify is the recognition

that no adverse inference may be drawn from a defendant’s silence. Griffin, 380 U.S. at 614-15.
The State, therefore, is prohibited from making any comment relating to a defendant’s exercise
of his Fifth Amendment right. Id. It is well settled in Alabama that a prosecutor’s direct
comment on a defendant’s decision not to testify, where the court does not immediately act to
cure it, requires reversal. Whitt, 370 So. 2d at 739. Mr. Valeska’s remark was just such a direct
comment.
313.

With comments that can fairly be described as sarcastic, the prosecutor

impermissibly drew the jury’s attention to Mr. Jones’ decision not to take the stand. During
closing arguments in the guilt phase, Mr. Valeska attempted to shore up the gaps in his case
- 120 App. 285

(such as the lack of a confession and lack of fingerprints at the scene) by insinuating that Mr.
Jones had all the answers but did not testify:
Throw out all the DNA. Who was in the house? Who is the one
that touched the cane? Who gave a description of the house? Who
was driving her car? Who has the pictures? He sits right over
there.
And I missed the testimony. (R. 1237) (emphasis added).
314.

Alabama law makes clear that these express references to the defendant’s decision

not to testify constituted direct, impermissible comments on his silence, and thus reversible error.
“Where there is a direct reference to [a] defendant’s failure to testify, it constitutes ineradicable
prejudicial error requiring reversal.” Ex parte Tucker, 454 So. 2d 552, 553 (Ala. 1984)
(emphasis added). See also Ex parte Davis, 718 So. 2d 1166, 1173 (Ala. 1998) (“jury would
naturally and necessarily construe” the statement as a direct comment on the defendant’s
decision not to testify); United States v. Muscatell, 42 F.3d 627, 631-32 (11th Cir. 1995).
315.

Numerous decisions from the Alabama courts are instructive. The comments do

not need to be as direct as Mr. Valeska’s “I missed the testimony.” Some prejudicial statements
do not even directly mention testimony. For example, in Ex parte Yarber, 375 So. 2d 1231,
1233–34 (Ala. 1979), the Alabama Supreme Court reversed a conviction because the prosecutor,
during closing argument, asked:
Where was Bud Yarber? . . . Was he somewhere else?
anything? . . . Where was Bud Yarber?

Have you heard

Similarly, in Whitt, 370 So. 2d at 737, the Alabama Supreme Court reversed a conviction
because the prosecutor improperly stated:
The only person alive today that knows what happened out there that night is
sitting right there.
Mr. Valeska’s comments were far less discrete than these. See also Meade v. State, 381 So. 2d

- 121 App. 286

656, 656 (Ala. Crim. App. 1980) (reversible error where prosecutor said “I have been sitting here
watching the defendant and I don’t know how he expects to defend himself”); Ex parte Purser,
607 So. 3d 301, 305–06 (Ala. 1992) (reversible error where prosecutor stated that only the victim
and the defendant could say what happened); Lockett v .State, 505 So. 2d 1281, 1286 (Ala. Crim.
App. 1986)(reversible error where prosecutor said “the defendant can tell you what happened”).
Mr. Valeska’s improper comments in this case go beyond those previously found to be improper
and constituting reversible error. Counsel, however, failed to object.
b.

316.

Counsel’s failure to object to the prosecutor’s improper
comment on Mr. Jones’ silence severely prejudiced Mr. Jones,
denying him the opportunity for a mistrial, immediate and
strong curative instructions.

Because counsel failed to object to the State’s clearly impermissible comment,

Mr. Jones was denied the opportunity to move for a mistrial or, at the very least, receive an
immediate curative instruction to the jury. As a result, the prosecution was allowed to suggest,
without immediate correction, that the jury was permitted to draw an adverse inference from Mr.
Jones’ decision to exercise his Constitutional right not to take the stand.
317.

Further, although the judge later included in the standard guilt-phase no-adverse-

inference jury instruction, that was not sufficient to cure the error. Under similar circumstances,
comments have been held so “prejudicial as to be ineradicable.” Ex parte Tucker, 454 So. 2d
552, 553 (Ala. 1984). That especially true where, as here, there was no an immediate curative
instruction.

Instead, the instruction came later, after all the closing arguments, further

prejudicing Mr. Jones by reminding the jury of the fact that he had not testified and that the
prosecutor had ridiculed him for not testifying. See, e.g., Hill v. Turpin, 135 F.3d 1411, 1419
(11th Cir. 1998); Ex parte Wilson, 571 So. 2d 1251, 1261 (Ala. 1990) (where trial court fails to

- 122 App. 287

act promptly to cure comment on defendant’s decision not to testify, conviction must be
reversed).
318.

Because of the virtually per se nature of Alabama’s treatment of comments like

Mr. Valeska’s, counsel’s failure to object cannot be dismissed as a valid strategic or tactical
decision, and plainly prejudiced Mr. Jones. See, e.g., Matire v. Wainwright, 811 F.2d 1430,
1438–39 (11th Cir. 1987) (failure to raise issue of comment on defendant’s silence on appeal
constituted ineffective assistance of counsel because of state rule requiring virtually per se
reversal). Counsel’s failure to raise an objection to this improper comment was so deficient that
it constituted a failure to function even as minimally competent “counsel” guaranteed by the
Sixth Amendment. Had counsel objected, there is a reasonable probability that Mr. Jones would
not have been convicted of capital murder or sentenced to death.
P.

Counsel failed to guard against the admission of penalty phase evidence
during the guilt phase of trial.

319.

Counsel were deficient and prejudiced Mr. Jones’ rights at trial by failing to

prohibit the introduction of penalty phase evidence during the guilt phase of trial. It is wellsettled that prosecutorial appeals to “passion and prejudice are offensive to the dignity and good
order with which all proceedings in court should be conducted.” See Viereck v. United States,
318 U.S. 236, 247-48 (1943); Rogers v. State, 157 So. 2d 13, 18 (Ala. 1963) (reversing where
prosecutor’s argument “calculated to engender unduly the sympathies of the jury on the one
hand, or to inflame their minds with prejudice and passion upon the other hand”); Thomas v.
State, 90 So. 878, 880 (Ala. App. 1921) (arguments calculated to inflame the jury “have no place
in a trial where on the one hand life a defendant’s life or his liberty is involved”).
320.

It is especially problematic for a trial court to admit irrelevant evidence calculated

to inflame the passions of the jury during a capital trial. See Tucker v. Zant, 724 F.2d 882, 888

- 123 App. 288

(11th Cir. 1984) (unlawful for prosecutor to inflame “jury’s passions, play[] on its fears, or
otherwise goad[] it into an emotional state more receptive to the call for imposition of death”);
Hance v. Zant, 696 F.2d 940, 951 (11th Cir. 1983) (“With a man’s life at stake, a prosecutor
should not play on the passions of the jury.”); Ex parte Crymes, 630 So. 2d 125, 126 (Ala. 1993)
(“Testimony that has no probative value on any material question of fact or inquiry is
inadmissible.”); see also Ala. R. Evid. 403 (even if probative, evidence may be discarded if
outweighed by its prejudicial nature.) Here, evidence of the brutality of Ms. Kirkland’s death
and its impact upon her family were irrelevant to the jury’s guilt phase determinations. Thus, the
only purpose for the prosecutor to introduce that evidence was to arouse the sympathy of the
jury, improperly increasing the likelihood of conviction for capital murder.
1.

321.

Counsel failed to prohibit the admission of victim impact evidence
during the guilt phase, allowing the jury to be improperly influenced
by irrelevant, emotionally charged evidence instead of being limited to
evidence relevant to Mr. Jones’ guilt.

Mr. Jones’ attorneys deficiently and prejudicially failed to object to the

introduction of sympathetic victim impact evidence at the guilt phase. State and federal law
clearly limit the admission of victim impact evidence to the penalty phase of trial. Payne v.
Tennessee, 501 U.S. 808, 827 (1991) (victim impact evidence is only relevant to a jury’s
decision as to whether death is the appropriate punishment). Thus, the Alabama Supreme Court
has warned prosecutors “that the introduction of victim impact evidence during the guilt phase of
a capital murder trial can result in reversible error.” Ex parte Rieber, 663 So. 2d 999, 1006 (Ala.
1995). In violation of this well-settled law, the State introduced such evidence at the guilt phase
of Mr. Jones’ trial, and counsel failed to object.
322.

Throughout the course of the guilt phase, the prosecution introduced and relied on

evidence bearing on the impact that Ms. Kirkland’s death had on her family. (R. 392, 438-39,

- 124 App. 289

1185, 1198.)

Specifically, the District Attorney introduced evidence about yearly family

gatherings at Christmas hosted by Ms. Kirkland and how Ms. Kirkland cared deeply about her
family, as revealed by her carrying pictures of them in her wallet. The prosecutor elicited guilt
phase testimony from the victim’s grandson, Brent Parrish – a Dothan police officer – describing
family gatherings around the holidays. (R. 438-39.) He specifically described which homes the
Kirkland/Parrish family gathered at on Christmas Eve at Ms. Kirkland’s house, and Christmas
Day, recalling that the last time he saw his grandmother she was in a good mood as the family
was together celebrating the holiday. (R. 438–39.)
323.

It is difficult to imagine more sentimental, powerful – and prejudicial – imagery

than a family’s gathering around the holidays, in the same home where the victim was killed.
The prosecutor then brought the jury back to this inadmissible evidence during closing argument
for the guilt phase, directly and improperly asking the jury to consider the impact of the loss to
the Kirkland family:
On Christmas Eve they were at her house on the 24th. The family was there
celebrating. And then Christmas Day they were at Brent’s parents’ house. The
Christmas-type season. Jovial. Live. Happy to be alive. Happy she was still on
the face of the earth. Hoping many years to live to see with her family.
(R. 1185 (emphasis added).)
324.

Similarly, the guilt phase admission of pictures of Ms. Kirkland’s deceased son

and her sister’s granddaughter, (R. 392), had no relevance to the issue of guilt. Nonetheless, a
picture of the Linda Parrish’s deceased brother and the little girl were submitted into evidence
and brought back to the jury room, without objection from counsel. (R. 392.)
325.

The District Attorney, unimpeded by objections, kept pouring on the improper

and emotional images.

He impermissibly asked the jury to consider the impact of Ms.

Kirkland’s death on her police-officer grandson, stating:

- 125 App. 290

[The officers] walked in. And they touched her little neck with the blood all over
it and the tremendous, horrible scene and the most violent death and touched her
neck, and they came back out and they looked for Brent [the victim’s grandson].
They looked for Brent. And they said, Brent, we’re sorry. We’re sorry.
(R. 1198.) Because none of this evidence had any relevance to the jury’s determination of guilt,
its only purpose was to prejudicially arouse sympathy among the jurors. Hutto v. State, 178 So.
2d 810 (Ala. 1965) (reversible error for the district attorney to show that the decedent had
children).
326.

Though this evidence had no relevance, when the only issue was whether Mr.

Jones was responsible for Ms. Kirkland’s death, counsel failed to object to the majority of this
evidence or to the prosecution’s reliance upon it in closing. Moreover, on the one occasion that
counsel did object (after already allowing no less than five questions on the subject of holiday
gatherings), counsel failed to insist that the judge rule on the objection and failed to request that
the judge instruct the jury to ignore that evidence. (R. 439.) Had counsel objected and requested
a ruling the one time he did object, the jury would have been precluded from considering this
emotionally charged evidence. Had counsel objected, there is a reasonable probability that Mr.
Jones would not have been convicted of capital murder or sentenced to death.
2.

327.

Counsel failed to object to the admission of evidence during the guilt
phase of trial that related to the “Especially Heinous, Atrocious, or
Cruel” aggravating circumstances.

Counsel also deficiently and prejudicially failed to object to the introduction of

evidence relating to the “especially heinous, atrocious, or cruel” aggravating circumstance.
While evidence that focuses on the heinous nature of a capital crime is arguably relevant to the
jury’s penalty phase determination, see Ala. Code § 13A-5-49(8), it is irrelevant to determining
culpability at the guilt phase, see Ala. R. Evid. 403.

- 126 App. 291

328.

Because counsel failed to object to the introduction of this evidence or to Mr.

Valeska’s comments about the evidence, the prosecutor was able to rely upon this irrelevant,
distracting, and sympathetic testimony and to emphasize the graphic exhibits in asking the jury
to conclude that Mr. Jones was responsible for Ms. Kirkland’s death. (R. 348-50, 1186-96, 1234,
1237-38, 1240-41.) Had the jury not been influenced by this emotional evidence, there is a
reasonable probability that Mr. Jones would not have been convicted of capital murder.
329.

In this case, a large portion of the State’s guilt phase presentation impermissibly

focused upon the allegedly heinous nature of the offense. From the beginning, the prosecutor
asked jurors to consider the extent of the injuries and the amount of suffering in determining
whether Mr. Jones was guilty. During opening arguments, he graphically recounted all of the
victim’s injuries, describing them in detail, and asking the jury to note that she was alive
throughout, a fact that had no relevance to the issue of guilt, but would stir the jurors’ emotions
such that they were made to feel someone had to be held accountable. (R. 348-50.) Counsel
failed to object to these improper statements during opening.
330.

The prosecutor repeated these improper remarks during closing, when he told the

jury to consider that Ms. Kirkland was beaten to death slowly, was still alive throughout the
ordeal, and that no one was there to help her while she suffered – all without objection from
counsel. (R. 1183, 1192, 1194.) Counsel again failed to object when the prosecutor further
aroused the jurors passions by calling to their attention that Ms. Kirkland was beaten “so bad that
she wet her pants. She could not control herself. . . .” (R. 1238; see also R. 1237: “This is Ms.
Kirkland’s underwear. This her [sic] that blood soaked through. Human beings, this is her own
urine.”)

- 127 App. 292

331.

As a further example, counsel failed to object when the prosecutor elicited the

following penalty phase evidence from the State’s pathologist, Dr. Parades:
Q

Now, Dr. Parades, can you tell the ladies and gentlemen of the jury, the
injuries she received no doubt in your mind she was alive when she
received every one of those?

A

Absolutely she was alive.

Q

And can you tell us, was she conscious in your opinion?

A

She was --

Q

From what you saw?

A

She must have been conscious, yes . . . (R. 950.)

332.

Whether or not the victim was conscious was irrelevant to the determination of

the accused’s guilt. See Tucker, 724 F.2d at 888; Ex parte Crymes, 630 So. 2d 125, 126 (Ala.
1993) (“Testimony that has no probative value on any material question of fact or inquiry is
inadmissible.”); see also Ala. R. Evid. 403.
333.

Dwelling on these inadmissible and repulsive details is a tactic calculated to

interfere with the jurors’ obligation to decide the case on the basis of evidence of the defendant’s
guilt. These arguments were all about emotional and irrational rage. The prosecutor asked the
jurors to “think about it as you’re sitting there [sic] back there, take your watch, and look at each
other and [count the seconds] and think what it was like for Ruth Kirkland as she went through
the whipping, the beating, the stomping, the kicking . . . .” (R. 1240-41.) He asked them to
consider the psychological torture Ms. Kirkland experienced as she died: “[Blood splattering] all
throughout her house. As an eighty year old woman begged for her life . . . What is fear?
Physical fear? Emotional fear? What was Ms. Ruth thinking about at that point in time?” (R.
1186.) This is raw emotion. None of this was probative of the guilt phase question of whether
Mr. Jones committed offense, but counsel failed to object.
- 128 App. 293

334.

Perhaps the most revealing and prejudicial aspect of the prosecutor’s guilt phase

closing occurred when he expressly asked the jury to consider the statutory aggravator when he
stated, “she was slowly bleeding and dying the most horrible, horrendous, heinous, and
atrocious, and cruel death on her own carpet looking up and thinking these are my chairs, this is
my home. . . .” (R. 1196-97 (emphasis added); see also R. 1234 (referring to “heinous, atrocious,
or cruel beating, evil, wicked, shockingly beating to death of an elderly lady”).)
335.

The prosecutor’s irrelevant and prejudicial references continued: “She knew she

couldn’t get out . . . . And that animal that that man that sits over there was after her inflicting
pain. Shear evil, wicked, and for sure enjoyment of his own pleasure.” (R. 1187). There is no
evidence to support this irrelevant argument.
336.

Mr. Valeska asked the jurors to put themselves in the place of the victim. “And

what the pain and injury she felt as he struck and hit her and she’s trying to get away. He’s
trying to get her attention.” (R. 1188); “She was alive. She was crawling trying to get away.” (R.
1189); “She was still alive. Lying there.” (R. 1192); “There was nobody. Nobody in the world
that reached out to these poor hands and held her hands and told her it’s going to be all right. . . .
It will be okay. You’re suffering physically, emotionally, and mentally.” (R. 1194). Such
explicit and repeated emotional arguments appealing to a person’s sense of personal fear are
inadmissible and these general topics are statutorily confined to the penalty phase of a capital
trial. See Ala. Code 13A-5-49(8).
337.

Had counsel objected to these statements, the jury would not have gone into

deliberations on the guilt phase of Mr. Jones’ trial having been exposed to these prejudicial,
emotionally charged, and aggravating circumstances. Accordingly, had counsel objected, there

- 129 App. 294

is a reasonable probability that Mr. Jones would not have been convicted of capital murder or
sentenced to death.
Q.

Counsel’s election to devote a substantial portion of their efforts at the trial
and on appeal to a legally invalid defense based on a misunderstanding of the
law, was prejudicial to Mr. Jones’ defense.

338.

A substantial portion of the defense effort at trial centered on a misguided effort

to highlight facts tending to show that no property was actually taken from inside Ms. Kirkland’s
house. That the Cadillac was kept in a carport outside the house, that there was some cash left in
the house in plain sight, that nothing could be identified as missing from the spilled purse, and
similar facts were developed in Mr. Parker’s cross examinations and discussed at length in his
closing argument. Mr. Parker sought to show there was no evidence that any money was taken,
(R. 342, 422-24), and the victim’s change purse in the car still had cash inside of it when found
by officers. (R. 342, 767-68.) He emphasized Ms. Kirkland’s car was routinely parked away
from the house and the lack of direct evidence the car keys were taken from inside the house.
(R. 409-11.)
339.

The closing relied heavily on this argument – that there was a lack of evidence of

actual theft from the residence – filling many pages of the transcript of the closing. (R. 1200-05,
1232-33). However, as the prosecutor correctly pointed out to the jurors, and as the jury
instructions demonstrated, theft is not a necessary element of the crime of burglary. (R. 1231,
1255-1256). Mr. Parker was under the mistaken impression that a completed theft was needed in
order for a burglary to be committed.
340.

The elements of burglary are included in criminal law classes in the first year of

law school. Entering a dwelling with intent to commit a crime is all that is needed to establish a
burglary. The Alabama statute is typical, and it requires only that a defendant “knowingly and
unlawfully enters or remains unlawfully in a dwelling with the intent to commit a crime
- 130 App. 295

therein.” Ala. Code § 13A-7-6. As the Alabama courts have made clear, “To constitute a
burglary, it is not necessary that a theft be actually committed.” McGuillon v. State, 477 So. 2d
477, 484 (Ala. Crim. App. 1985).
341.

Showing that nothing was actually taken from the house was irrelevant. In order

to succeed with the defense Mr. Parker was pursuing, he needed evidence that, if Mr. Jones was
in the house, he was there legally or without the intent to commit a crime. No such evidence or
argument was offered.
342.

This same fallacious argument was also raised on appeal, in the belated brief filed

by Mr. Brantley and Mr. Parker. This was one of only three issues asserted in the appeal. Even
after hearing the jury instructions and the State’s closing argument, the defense attorneys
continued with a legally invalid defense.
343.

Mr. Jones was convicted of capital murder during a burglary under Section 13A-

5-40(a)(4) of the Code of Alabama. (C. 11-12,286.) So it was essential that his counsel
understand what burglary is.
344.

There is a somewhat analogous decision of the Supreme Court in Ex parte David

Ray Duren, 590 So. 2d 369 (Al. 1991). There the defense attorney knowingly presented a legally
invalid defense, after having made a decision that no legally valid defense was available. Id. at
373. The attorney argued the defendant did not intend to kill the murder victim but rather her
companion. Because Alabama recognizes the theory of transferred intent, that was not a
defense. Id. at 371. However, the defense attorney explained he “knew that, due to the doctrine
of transferred intent, this was not a legally valid defense,” and he gave several reasons
supporting his decision to take that approach before the jury. That deliberate and reasoned
decision-making was relied on by the Court to expressly find the “decision was not

- 131 App. 296

unreasonable” and counsel was “trying to make the best of a bad situation for his client.” Id. at
373.
345.

The same cannot be said of Mr. Brantley and Mr. Parker’s presentation of a

legally invalid defense in this case. There was no reasoned tactical decision to present a defense
that was known to be legally baseless. Mr. Parker has admitted that it was only after making this
argument that he later found out the law only requires intent and not an actual theft.
346.

The risk and prejudice to Mr. Jones in making the no-actual-theft argument was

substantial. That argument essentially conceded his presence at the murder scene, and seemed to
also concede that he committed the murder. The only argument being made to protect Mr. Jones
from capital murder was that the aggravating factor, the burglary, was not present. That
argument had no chance of success. If Mr. Jones was in the house and committed the murder,
there is no rational basis for counsel to argue the necessary intent was absent. No effective
counsel would have bought into that baseless theory of defense. It was an unacceptable mistake
that clearly led to Mr. Jones’ conviction for capital murder and sentence of death.
347.

As the appellate court concluded, once it is conceded that the defendant was in the

house and committed the murder, “it is readily apparent that Jones entered Mrs. Kirkland’s house
with the intent to commit a theft.” Jones v. State, 987 So. 2d 1156, 1168 (Ala. Crim. App. 2006).
If counsel had not taken this legally invalid and high-risk approach to the defense, it is likely that
Mr. Jones would not have been convicted of capital murder or sentenced to death.
R.

Counsel’s profound ineffectiveness at the guilt phase prejudiced Mr. Jones.

348.

The above referenced errors, cumulatively as well as individually, denied Mr.

Jones the effective assistance of counsel at the guilt phase of his capital trial in violation of the
Alabama Constitution, and the Fourth, Fifth, Sixth, Eighth, and Fourteenth Amendments to the

- 132 App. 297

United States Constitution, See United States v. Cronic, 466 U.S. 648, 659 (1984); Dobbs v.
Zant, 506 U.S. 357, 359 (1993) (explaining that “an inadequate or harmful closing argument,
when combined . . . with a failure to present mitigating evidence, may be highly relevant to the
ineffective-assistance determination . . . .”) (emphasis added); Miller v. Anderson, 255 F.3d 455
(7th Cir. 2001) (counsel ineffective in murder capital case for failing to adequately prepare and
present defense; prejudice found where court considered counsel’s error’s in the aggregate),
vacated on other grounds, 268 F.3d 485 (7th Cir.); Daniel v. Thigpen, 742 F. Supp. 1535, 1561
(M.D. Ala. 1990).
349.

But for counsel’s deficient performance, Mr. Jones would not have been

convicted of capital murder and sentenced to death. Strickland v. Washington, 466 U.S. 668
(1984); Williams v. Taylor, 529 U.S. 362, 399 (2000) (holding state court correct in concluding
that “the entire post-conviction record, viewed as a whole and cumulative of mitigation evidence
presented originally” raised reasonable probability that result of sentencing proceeding would
have been different) (emphasis added).
III.

Mr. Jones was denied effective assistance during the penalty and sentencing phases
of his trial due to, among other things, counsel’s failure to investigate and present
readily available mitigation evidence.
350.

During the penalty phase, the trial court and the jury must consider “any aspect of

the defendant’s character or record and any of the circumstances of the offense that the defendant
proffers as a basis for a sentence less than death.” Lockett v. Ohio, 438 U.S. 586, 604 (1978).
Accordingly, trial counsel must investigate and present such information. Brownlee v. Haley,
306 F.3d 1043, 1067 (11th Cir. 2002) (counsel ineffective where failed to obtain or present
evidence of psychiatric disorders and history of drug abuse). They “ha[ve] a duty to conduct a
reasonable investigation, including an investigation of the defendant’s background, for possible
mitigating evidence.” Porter v. Singletary, 14 F.3d 554, 557 (11th Cir. 1994); see also Baxter v.
- 133 App. 298

Thomas, 45 F.3d 1501 (11th Cir. 1995) (finding counsel ineffective in penalty phase due to lack
of investigation into mental health mitigating evidence); Harris v. Dugger, 874 F.2d 756 (11th
Cir. 1989) (finding counsel ineffective because of lack of investigation into family background
and other mitigating evidence); Middleton v. Dugger, 849 F.2d 491 (11th Cir. 1988) (finding
counsel ineffective for failure to request readily discoverable documentary mitigating evidence).
351.

A petitioner alleging ineffective assistance of counsel at the penalty phase of a

capital case must demonstrate that (1) his counsel performed deficiently, and (2) his counsel’s
deficient performance resulted in prejudice. Wiggins v. Smith, 539 U.S. 510, 521 (2003) (citing
Strickland v. Washington, 466 U.S. 668, 687 (1984)).
352.

To establish deficient performance, the petitioner must demonstrate that his

counsel’s performance “‘fell below an objective standard of reasonableness.’” Wiggins, 539
U.S. at 521 (quoting Strickland, 466 U.S. at 688). Thus, “the proper measure of attorney
performance [is] simply reasonableness under prevailing professional norms.” Id.
353.

When a petitioner alleges that his counsel performed deficiently by failing to

present available mitigating evidence, the inquiry is whether the investigation supporting
counsel’s decisions with regard to the presentation of evidence “was itself reasonable.” Smith v.
State, 85 So. 3d 1063, 1082 (Ala. Crim. App. 2010) (quoting Wiggins v. Smith, 539 U.S. 510,
523 (2003)). See also Johnson v. Sec’y, DOC, 643 F.3d 907, 931 (11th Cir. 2011) (“The
question under Strickland is not whether [the defendant’s] trial counsel’s overall performance at
the sentence stage was exemplary or even average, but whether he conducted an adequate
background investigation or reasonably decided to end the background investigation when he
did.”). “‘In cases where sentencing counsel did not conduct enough investigation to formulate an
accurate life portrait of a defendant, [courts] have held the representation beneath professionally

- 134 App. 299

competent standards.’” State v. Gamble, 63 So. 3d 707, 713 (Ala. Crim. App. 2010) (citation
omitted). .
354.

Under the prevailing professional norms of 2004—the year in which Mr. Jones’

trial was held—capital defense counsel had a duty to seek “all reasonably available mitigating
evidence,” Wiggins v. Smith, 539 U.S. 510, 524 (2003), and to “‘formulate an accurate life
portrait of [the] defendant,’” Gamble, 63 So. 3d at 713 (citation omitted). See Wiggins, 539 U.S.
at 524 (holding that counsel was ineffective for “abandon[ing] their investigation of petitioner’s
background after having acquired only rudimentary knowledge of his history from a narrow set
of sources.”).
355.

Counsel must not only investigate all relevant guilt phase evidence, including

charging documents, potential witnesses, information held by law enforcement, physical
evidence, and the crime scene, but because “Alabama’s sentencing scheme broadly allows the
accused to present evidence in mitigation” at the penalty phase, Harris v. State, 947 So. 2d 1079,
1115 (Ala. Crim. App. 2004), overruled in part by, Ex parte Jenkins, 972 So. 2d 159, 164 (Ala.
2005) (internal quotation marks emitted), counsel must also investigate the defendant’s medical
history, educational history, employment and training history, family and social history, prior
adult and juvenile correctional experience, and religious and cultural influences. See ABA
Guidelines 10.7 Commentary. Under Alabama law, mitigation evidence may consist of anything
that could be considered mitigating, without limitation or definition. Ala Code Section 13A-552. Mitigating evidence is admissible without regard to the rules of evidence, such as the rules
on hearsay. Green v. Georgia, 442 U.S. 95, 97 (1979) (per curium); Roberts v. State, 735 So. 2d
1244, 1265-66 (Ala. Crim. App. 1997).

- 135 App. 300

356.

Thus, Mr. Jones’ counsel were required, at the very least, to collect available

records regarding the defendant and his family members and to conduct interviews with the
defendant, his family members, and others so as to obtain a reliable portrait of (1) the places and
conditions in which the defendant was raised, (2) the defendant’s family, medical, mental health,
and educational history; and (3) the individuals who influenced the defendant’s life and the ways
in which they did so. See Williams v Taylor, 529 U.S. 362, 395 (2000) (holding that counsel
performed deficiently because “[t]hey failed to conduct an investigation that would have
uncovered extensive records graphically describing [the defendant’s] nightmarish childhood”);
Johnson, 643 F.3d at 932 (holding that counsel performed deficiently because counsel failed to
“thoroughly question[] [the defendant] about his childhood and background” and accepted the
denials of family members regarding substance abuse without corroborating them); Williams v.
Allen, 542 F.3d 1326, 1340 (11th Cir. 2008) (holding that counsel performed deficiently because
they failed to conduct sufficient interviews with the defendant’s family members and failure to
present additional family members was a result of negligence and not strategy); Gamble, 63 So.
3d at 715 (holding that counsel performed deficiently when they “failed to request any of the
multitude of records concerning [the defendant] and his family that were readily available”);
American Bar Association Guidelines for the Appointment and Performance of Counsel in Death
Penalty Cases 10.7 (2003) (“Counsel at every stage have an obligation to conduct thorough and
independent investigations relating to the issues of both guilt and penalty.”) (hereinafter “ABA
Guidelines”).14
357.

Beyond those tasks, counsel inherit additional duties once they discover “red

flags” indicating problems in the client’s life or development. Rompilla v. Beard, 545 U.S. 374,
14

The American Bar Association Guidelines for the Appointment and Performance of Defense Counsel in Capital
Cases outline counsel’s duties in additional detail. See id. Guideline 10.7.

- 136 App. 301

392 (2005); see Williams v. Allen, 542 F.3d at 1340 (“[T]he information that trial counsel did
acquire would have led a reasonable attorney to investigate further.”). Thus, “[i]n assessing the
reasonableness of an attorney’s investigation . . . a court must consider not only the quantum of
evidence already known to counsel, but also whether the known evidence would lead a
reasonable attorney to investigate further.” Wiggins, 539 U.S. at 527. In Wiggins, the presentence investigation report and some Department of Social Services records revealed that the
defendant had a miserable childhood and spent most of his life in foster care. The defendant’s
counsel failed to investigate further despite those red flags, and they were found ineffective as a
result. Id. at 527, 538; see also Williams v. Allen, 542 F.3d at 1340 (holding that counsel
performed deficiently when they failed to pursue leads revealed in the pre-sentence investigation
report).
358.

It is standard practice in Alabama and elsewhere for capital defense counsel to

retain a mitigation specialist to work with counsel on the penalty phase investigation. See State
v. Gamble, 63 So. 3d 707, 716 (Ala. Crim. App. 2010) (affirming the circuit court’s finding that
“there was no legitimate reason not to seek the services of a mitigation specialist”). Also, the
American Bar Association Guidelines for the Appointment and Performance of Defense Counsel
in Capital Cases, which the United States Supreme Court has referred to as “guides to
determining what is reasonable,” Wiggins, 539 U.S. at 523, state that capital defense teams must
include a mitigation specialist. Guideline 4.1(A)(1).
359.

Even where some evidence is presented, representation is ineffective if testimony

is presented in a truncated fashion and only constitutes only a “hollow shell” of the mitigation
evidence that was available. Collier v. Turpin, 177 F.3d 1184 (11th Cir. 1999); Middleton v.
Dugger, 849 F 2d 491 (11th. 1988) (failure to present evidence of childhood brutal treatments

- 137 App. 302

and neglect); Armstrong v. Dagger, 833 F.2d 1430 (11th Cir. 1987) (failure to present evidence
of petitioners character). Similarly, where counsel presents some evidence but does more harm
than good, representation is ineffective. King v. Strickland, 748 F.2d 1462 (11th Cir. 1984).
360.

Attorneys who fail to conduct or lead a reasonable investigation cannot make a

reasonable strategic decision about what to present and what not to present. State v. Smith, 85
So. 3d 1063, 1082 (Ala. Crim. App. 2010) (“[I]t is clear that labeling a decision as ‘strategic’
does not render that decision above reproach; rather, counsel must have performed an adequate
enough investigation to make an informed and educated decision. ‘[A] strategic decision that is
based on an incomplete investigation may not be strategic or reasonable.’”) (citation omitted);
see Williams, 529 U.S. at 396 (explaining that counsel have an obligation “to conduct a thorough
investigation of the defendant’s background” and cannot make a strategic decision not to
introduce records when they did not obtain the records); see also Williams v. Allen, 542 F.3d at
1337 (“‘[S]trategic choices made after less than complete investigation are reasonable precisely
to the extent that reasonable professional judgments support the limitations on investigation.’”)
(quoting Strickland, 466 U.S. at 690-91).
361.

To establish that counsel’s deficient performance resulted in prejudice at the

penalty phase of a capital case, the petitioner must demonstrate “that there is a reasonable
probability that, but for counsel’s unprofessional errors, the result of the [sentencing] proceeding
would have been different.” Wiggins, 539 U.S. at 534. The petitioner “need not show that
counsel’s deficient conduct more likely than not altered the outcome in the case.” Strickland,
466 U.S. at 694. Instead, he simply must show that there is a reasonable probability that they
jury would not have recommended the death penalty and that Mr. Jones would not have been
sentenced to death.

- 138 App. 303

362.

Courts have found prejudice in cases in which the defendant’s counsel failed to

present available mitigating evidence regarding the defendant’s life and background. See Porter
v. McCollum, 130 S. Ct. 447, 454 (2009) (“Had [the defendant’s] counsel been effective, the
judge and jury would have learned of the ‘kind of troubled history we have declared relevant to
assessing a defendant’s moral culpability.’”) (quoting Wiggins, 539 U.S. at 535)). Specifically,
courts have found prejudice where the omitted evidence would have demonstrated that the
defendant was raised in an environment of:
a. instability, see Hardwick v. Crosby, 320 F.3d 1127, 1177 (11th Cir. 2003)
(finding prejudice where counsel failed to present evidence of the defendant’s
“unstable” and “dysfunctional” background, including evidence of petitioner’s
mental health, alcohol, drug abuse, physical abuse and mental abuse); Gamble, 63
So. 3d at 720 (finding prejudice where counsel failed to present evidence that the
defendant and his sister moved frequently and “were passed around among their
relatives”); Lewis v. Dretke, 355 F.3d 364 (5th Cir. 2003) (presentation of
incomplete evidence where grandmother testified but examination failed to
thoroughly develop true picture of tortured childhood experience and where
unexamined siblings could have been called);
b. poverty, see Rompilla v. Beard, 545 U.S. 374, 392 (2005) (finding prejudice
where the defendant’s childhood home “had no indoor plumbing” and the
defendant “slept in the attic with no heat”); Ferrell v. Hall, 640 F.3d 1199, 1230
(11th Cir. 2011) (finding prejudice where counsel failed to present witnesses who
could have explained that “[the defendant and his family] lived in run-down
shacks, how they were repeatedly evicted from their homes, how when the
defendant was only five one of these homes burned to the ground, and how the
boys often went hungry”);
c. physical abuse, see Porter, 130 S. Ct. at 454 (2009) (finding prejudice where
counsel failed to present evidence of the defendant’s “childhood history of
physical abuse”); Williams v. Taylor, 529 U.S. at 395 (finding prejudice where
counsel failed to present evidence that the defendant had been “severely and
repeatedly beaten” as a child); Williams v. Allen, 542 U.S. at 1342 (finding
prejudice where counsel failed to present evidence that the defendant’s household
was “one in which severe beatings and other forms of violence occurred on a near
constant basis”); and
d. substance abuse, see Gamble, 63 So. 3d at 719-20 (finding prejudice where the
defendant’s parents and guardians had severe substance abuse problems and
forced the defendant to assist in drug sales when he was a child); see also Walbey
v. Quarterman, 309 Fed. App’x 795, 797, 803-06 (5th Cir. 2009) (finding
- 139 App. 304

prejudice where counsel failed to present evidence that the defendant ingested
drugs and alcohol “before age 5”).
e. cognitive limitations or mental health problems, see Porter, 130 S. Ct. at 454
(finding prejudice where counsel failed to discover and present evidence
regarding the defendant’s “brain abnormality, difficulty reading and writing, and
limited schooling”); Cooper v. Sec’y, Dept. of Corr., 646 F.3d 1328, 1355 (11th
Cir. 2011) (finding prejudice where the defendant “had only a seventh-grade
education and had learning deficits”).
363.

The fact that counsel presented some mitigating evidence at trial does not

foreclose a finding of prejudice. See Sears v. Upton, 130 S. Ct. 3259, 3266 (2010) (“We have
never limited the prejudice inquiry under Strickland to cases in which there was only‘ little or no
mitigation evidence’ presented.”).

Indeed, courts have found prejudice even where trial

counsel’s presentation addressed the critical mitigation issues but failed to do so thoroughly and
with reliable evidence.

See Cooper, 646 F.3d at 1354 (finding prejudice where “‘[t]he

description, details, and depth of abuse in [the defendant’s] background that were brought to
light in the evidentiary hearing in the state collateral proceeding far exceeded what the jury was
told’”) (quoting Johnson, 643 F.3d at 936).
364.

In reviewing the prejudice element of an ineffective assistance of counsel claim,

courts must evaluate “the totality of the available mitigating evidence.” Williams v. Taylor, 529
U.S. 362, 397 (2000). The prejudice inquiry is not whether there is a reasonable probability of a
different result if counsel had discovered and presented one individual item of omitted evidence
or another individual item of omitted evidence.

Rather, the inquiry is whether there is a

reasonable probability of a different result if counsel had presented all the evidence they would
have discovered if they had conducted a reasonable investigation. See Williams v. Taylor, 529
U.S. at 397 (holding that the state court erred by failing to consider the totality of the evidence);
Strickland, 466 U.S. at 695 (“[A] court hearing an ineffectiveness claim must consider the

- 140 App. 305

totality of the evidence before the judge or jury.”); Gamble, 63 So. 3d at 721-22 (evaluating the
cumulative effect of the various types of mitigating evidence that counsel failed to discover).
365.

In assessing counsel’s deficiencies, the reviewing court must evaluate “the pattern

of counsel’s deficiencies … in their totality,” not weighing each error individually. Goodman v.
Bertrand, 467 F.3d 1022, 1030 (7th Cir. 2006). Wiggins v. Smith, 539 U.S. 510 (2003), holds
that counsel’s conduct falls short where the investigation did not encompass “‘efforts to discover
all reasonably available mitigating evidence and evidence to rebut any aggravating
circumstances that may be introduced by the prosecutor.’” Wiggins, 539 U.S. at 525 (citation
omitted). Prejudice was found because counsel could have discovered powerful evidence of
physical torment and a horrible upbringing.
Had the judge and jury been able to place [the defendant’s] life history ‘on the
mitigating side of the scale’ and appropriately reduced the ballast on the
aggravating side of the scale, there is clearly a reasonable probability that
advisory jury - and the sentencing judge – “would have struck a different
balance,”… Porter, 130 S. Ct. at 454 (quoting Wiggins, 539 U.S. at 537).
Similarly, in Hooks v. Workman, 689 F.3d 1148, 1203 (10th Cir. 2012), prejudice was found
where:
Evidence of family and social history was sorely lacking; the mental health
evidence presented was inadequate and quite unsympathetic; and [counsel] not
only failed to rebut the prosecution’s case in aggravation but actually bolstered
it…”
366.

As explained in significant detail below, this is a case in which counsel’s penalty

phase investigation fell far below the objective standard of reasonableness and trial counsel’s
deficiencies “were so serious as to deprive [Mr. Jones] of a fair trial, a trial whose result is
reliable.” Strickland, 466 U.S. at 687. If counsel had conducted a reasonable investigation and

- 141 App. 306

discovered the available mitigating evidence, and there is a reasonable probability that they jury
would not have recommended the death penalty and that Mr. Jones would not have been
sentenced to death. See Strickland, 466 U.S. at 694; Williams, 529 U.S. at 420 (rejecting lower
court’s holding that “mere” difference in outcome was not enough to find prejudice under
Strickland). For the sake of expediency, Mr. Jones hereby expressly incorporates Section I,
supra, into his penalty phase ineffectiveness allegations.
A.

Defense counsel prejudiced Mr. Jones and rendered ineffective assistance of
counsel during the sentencing phase by failing to properly prepare expert
and lay witnesses, failing to properly investigate and present mitigation
evidence, and failing to object to prosecutorial misconduct.

367.

Mr. Jones’ defense counsel failed in every aspect of the penalty phase. They

failed to adequately investigate Mr. Jones’ background, failed to introduce mitigating evidence in
their actual possession or which was readily discovered, and, compounding their failures in
developing and presenting mitigating evidence, elicited extremely damaging testimony from
their own witnesses.
368.

Trial counsel failed to adequately investigate even the most readily-available

sources. Although Mr. Jones’ family members repeatedly attempted to contact trial counsel in
advance of Mr. Jones’ trial, their efforts were mostly unsuccessful. Before trial, counsel spoke
with only two of Mr. Jones’ relatives, and then only in a series of brief interactions: Mr. Jones’
mother, Jill Whitsett and his sister, LaKeisha Jones. A third relative, Mr. Jones’ aunt, Marilyn
Walker, received a subpoena and appeared to testify during the penalty phase but counsel did not
interview her in advance of that testimony. These three women were the only family members
called to testify in the penalty phase. Due to the meager pre-trial preparation, trial counsel failed
to elicit favorable mitigation evidence within these witnesses’ knowledge.

Instead, further

highlighting counsel’s ineffectiveness, elicited extremely damaging testimony from these

- 142 App. 307

witnesses. Section III.A.1, incorporated herein by reference, explores the evidence that would
have been available from these witnesses to trial counsel had they accurately investigated,
prepared and questioned these witnesses.
369.

In addition to failing to perform in depth interviews of these three family

members, trial counsel failed to interview any other of Mr. Jones’ family members. During the
brief interviews with Jill and LaKeisha, defense counsel only elicited limited information, such
as the name of one of Mr. Jones’ teachers, Edwina Culp (who was called to testify in the penalty
phase).

And while Jill and LaKeisha provided contact information for additional family

members, including Mr. Jones’ grandmother, Mary Bell Jones, there was no follow up with those
potential witnesses. As is described further below, in addition to his grandmother, Mr. Jones had
numerous relatives who could have offered mitigating evidence, including, though not limited to:
Mr. Jones’ uncles, Desario “Andy” Jones, Ricky Jones, James Jerome Rich, and Anthony
Brown, Sr.; his brothers, Gregory and Jarrius Jackson; his aunts, Elaine Crook and Rochelle
Brown; his cousins, Erika and Chanterelle Jones; his father Reginald Jones; or his stepfathers,
Demetrius Whitsett and Gregory Jackson. All of these witnesses were readily identifiable and
available to trial counsel yet counsel failed to contact any of them. As is set forth at length in
Section III.A.2, incorporated herein by reference, those family members would have provided
valuable mitigation evidence.
370.

Counsel also failed to adequately investigate and present record evidence. These

included records pertaining to education, employment, welfare, birth, alcohol and drug abuse,
and the Department of Human Resources (“DHR”). While defense counsel did obtain some
documentary evidence via subpoenas, including: DHR records; and Dothan City Schools
disciplinary records, not a single one of these records was admitted into evidence. Defense

- 143 App. 308

counsel thus failed to present the mitigating evidence contained within those documents by either
seeking to admit the records into evidence or reviewing them with any of the witnesses they
called.

Additionally, trial counsel failed to obtain additional readily-available evidence,

including criminal records for Mr. Jones’ mother and his stepfather Demetrius Jones which
would have provided evidence of extreme instability in Mr. Jones’ home. Furthermore, counsel
failed to seek any records from Florida schools, Florida child protection services or other Florida
sources despite knowing that Mr. Jones had spent a significant part of his childhood living in
Florida. Had counsel acquired these records and effectively presented the mitigating evidence
they contained, there is a reasonable probability that they jury would not have recommended the
death penalty and that Mr. Jones would not have been sentenced to death.
371.

Inexplicably, defense counsel failed to retain a mitigation specialist to perform a

thorough mitigation investigation. As a result, the only investigation that took place was the one
done by defense counsel and an inexperienced investigator they retained shortly before trial and
who performed minimal pre-trial investigative work consisting mainly of reviewing the records
described above. Their failure to properly investigate precluded them from making strategic
decisions and detrimentally impacted their performance at both the guilt and penalty phases of
Mr. Jones’ capital trial.
372.

Trial counsel also repeatedly failed to object to the District Attorney’s misconduct

throughout the penalty phase, allowing the prosecution to distort the evidence presented and
invent non-statutory “aggravating factors” that appealed to the jury’s emotions. Trial counsel’s
errors culminated in their failure to tender appropriate jury instructions from which the jury
could easily have found that the mitigating evidence outweighed the aggravating circumstances.
One juror voted against the death penalty. Only two more were needed to eliminate the death

- 144 App. 309

recommendation. But for trial counsel’s unprofessional errors, there is a reasonable probability
that a jury would not have recommended the death penalty and that Mr. Jones would not have
been sentenced to death.
373.

Trial counsel also failed to request appropriate jury instructions regarding

mitigation. As set forth in this Amended Petition, evidence was available to support additional
mitigation instructions on extreme physical abuse, extreme emotional abuse and extreme drug
abuse. Rather than proving and obtaining jury instructions on the most powerful mitigation
factors, trial counsel asked for and obtained those presenting far weaker mitigation factors, with
inadequate proof presented even on those.
374.

Thus, Mr. Jones’ can easily establish that his trial counsel performed deficiently

by failing to present available mitigating evidence. State v. Gamble, 63 So. 3d 707, 713 (Ala.
Crim. App. 2010) (“In cases where sentencing counsel did not conduct enough investigation to
formulate an accurate life portrait of a defendant, [courts] have held the representation beneath
professionally competent standards.”).

Further, Mr. Jones was prejudiced by his counsel’s

failure to present available mitigating evidence regarding Mr. Jones’ life and background. See
Porter v. McCollum, 130 S. Ct. 447, 454 (2009) (“Had [the defendant’s counsel] been effective,
the judge and jury would have learned of the ‘kind of troubled history we have declared relevant
to assessing a defendant’s moral culpability.’” (quoting Wiggins, 539 U.S. at 535)).
375.

Once he has established that his counsel’s performance was deficient, Mr. Jones

must next demonstrate that he was prejudiced by his counsel’s failures. Wiggins v. Smith, 539
U.S. 510, 521 (2003). In preparation for filing this Amended Petition and for Mr. Jones’ Rule 32
hearing, undersigned counsel for Mr. Jones have sought to conduct the type of investigation that
trial counsel should have conducted in preparation for the penalty phase of his trial. While this

- 145 App. 310

investigation is by no means complete, this section sets forth the numerous mitigating facts that
Mr. Jones’ family members could have testified to at his trial – and will testify to at the Rule 32
hearing. The sheer volume and nature of the mitigating evidence available but not presented
establishes that trial counsel’s deficiencies prejudiced Mr. Jones and that there is a reasonable
probability that the jury would not have recommended the death penalty and that Mr. Jones
would not have been sentenced to death if trial counsel had presented all the evidence they would
have discovered if they had conducted a reasonable investigation. Williams v. Taylor, 529 U.S.
362, 397 (2000) (courts must evaluate “the totality of the available mitigating evidence” in
determining prejudice due to ineffective assistance of counsel); Gamble, 63 So. 3d at 721-22
(evaluating the cumulative effect of the various types of mitigating evidence that counsel failed
to discover).
1.

376.

Counsel failed to adequately elicit favorable evidence from Jill
Whitsett, LaKeisha Jones, and Marilyn Walker during the penalty
phase.

Following Mr. Jones’ arrest, but well before trial, Jill Whitsett, Mr. Jones’ mother,

persistently called defense counsel’s office. It was only two weeks before trial and only after
numerous phone calls and attempts to contact counsel did Mr. Jones’ attorneys finally interview
Jill, her daughter LaKeisha Jones and Mr. Jones’ aunt, Marilyn Walker. These were the only
three family members the defense ever interviewed and the only family members called as
mitigation witnesses.
377.

Trial counsel’s questioning of all three was perfunctory, lasting only a few hours,

and utterly failed to elicit the type of evidence repeatedly deemed to be crucial to the penalty
phase. They acquired minimal useful information and what little information they did obtain,
they failed to make use of by following up with other family members and non-relatives.

- 146 App. 311

Consequently, trial counsel’s “decision” to only call these three family members cannot be
considered strategic. Wiggins, 539 U.S. at 487-88 (trial counsel ineffective where failure to
adequately investigate precluded making informed strategic decision). Indeed, for the decision
to have been meaningful, trial counsel would have been required to have alternatives from which
to choose. But, because counsel failed to reach out to anyone else or to properly interview those
few family members they did speak to, they instead gambled that those three relatives would
offer the most useful information at trial.

Thus, trial counsel performed deficiently.

See

Williams v. Allen, 542 F.3d 1326, 1340 (11th Cir. 2008) (holding that counsel performed
deficiently because they failed to conduct sufficient interviews with the defendant’s family
members and failure to present additional family members was a result of negligence and not
strategy).
378.

Moreover, counsel’s deficient interactions with the three individuals they did call

to testify resulted in each witness being improperly utilized during the penalty phase testimony.
Consequently, all three women offered little useful evidence not because they had none to share
but because counsel failed to apprise them of the purpose and scope of mitigation evidence to be
presented during the penalty phase. See Collier v. Turpin, 177 F.3d 1184, 1201-02 (11th Cir.
1999) (trial counsel’s performance failed to meet the standard of objective reasonableness
required by the Sixth Amendment where counsel presented no more than a “hollow shell of the
testimony necessary for a particularized consideration of relevant aspects of the character and
record of [a] convicted defendant before the imposition upon him of a sentence of death.”)
Indeed, their combined direct examination testimony lasted just twenty transcript pages. (R.
1347-59, 1390-93, 1399-1403.)

- 147 App. 312

379.

To make matters worse, rather than elicit helpful evidence, the defense attorneys

repeatedly elicited the most harmful evidence conceivable, including opinions from two of the
three family members that Mr. Jones had no worth as a human being – something condemned in
Sears v. Upton, 130 S. Ct. 3259, 3262 (2010) (defense counsel’s presentation backfired when
evidence it affirmatively introduced was used by prosecution to counter evidence of mitigation).
Mitigating Evidence Available From Mr. Jones’ Mother, Jill Whitsett
380.

While Mr. Jones’ mother, Jill, met with defense counsel prior to testifying at the

penalty phase, her interviews were perfunctory and none lasted longer than an hour. Trial
counsel failed to explain to Jill what type of evidence would be useful in mitigation and, as her
trial testimony evinces, she firmly believed that only positive information about Mr. Jones’
background and upbringing would warrant a sentence of life imprisonment. (R. 1347-59.) As a
result, even though she was well aware of her son’s dysfunctional upbringing and his numerous
struggles, Jill did not volunteer any significant detail pertaining to his turbulent life, transient
lifestyle, the impact of family trauma on his emotional and mental development, his pervasive
exposure to drug use, and her inability to address his numerous issues, even as they reached a
breaking point.
381.

In order to illustrate the scope of the mitigation evidence that trial counsel’s

deficient investigation failed to uncover, set forth below is a side-by-side comparison of some of
the testimony trial counsel elicited from Jill during the penalty phase in contrast to the mitigating
evidence that Jill could have offered had trial counsel properly investigated and asked the correct
questions. Further, the chart highlights some of the damaging testimony that trial counsel, due to
their lack of pre-trial preparation, elicited from Jill. The chart is only meant to highlight some of
the most egregious mitigating evidence that trial counsel failed to discover and present. Set forth

- 148 App. 313

immediately below are additional facts that Jill could have testified to in mitigation in order to
paint an accurate life portrait of Mr. Jones.
Testimony Elicited at Trial
Mr. Brantley’s questioning began with
a perfunctory inquiry as to where Jill lived
when Tony was growing up. Jill answered by
stating she lived in Houston County for
approximately 16 years and moved to Panama
City, FL when Tony was about eight to nine
years old. (R. 1348-49.) Of a total of 20
transcript pages of family testimony, this
empty portion of Jill’s direct exam fills 1¼ of
the pages.

Highlights of Evidence Not Elicited
Had she been asked to provide detail,
Jill would have testified that she lived in at
least twenty-five different homes with Tony
and the rest of her children. See Section
III.A.4, incorporated herein by reference. They
often moved because their electricity was shut
off or they were being evicted. As many as ten
people lived in a single home, with as many as
five people sleeping in one room.
Some of their homes were rat infested
and insect ridden. They would try to kill the
rats by throwing things at them or throwing
them in the fireplace. Sometimes the rats
would not die and would escape from the
fireplace and run through the apartment while
on fire. When this occurred, some of Tony’s
family members would scream “the rats are
gonna burn down the house.”
Thus, Tony was prejudiced by
counsel’s failure to introduce evidence of the
instability and extreme poverty that Tony
experienced. See Hardwick v. Crosby, 320
F.3d 1127, 1177 (11th Cir. 2003); Gamble, 63
So. 3d at 720; Rompilla v. Beard, 545 U.S.
374, 392 (2005); Ferrell v. Hall, 640 F.3d
1199, 1230 (11th Cir. 2011).

- 149 App. 314

Mr. Brantley asked Jill about Tony’s
The
questioning
was
grossly
lack of a father figure.
incomplete and failed to elicit the mitigating
evidence that Mr. Brantley should have been
Q: And did Tony ever have a elicited. He failed to ask any questions about
relationship with his father.
the man who actually raised Tony since the age
of 11 – Demetrius “Meechie” Whitsett.
A: No, sir.
Demetrius is a repeat felon and career drug
dealer who regularly beat Tony and his mother
Q: Did that give you problems on down while recruiting Tony to join his drug business
the road with Tony, the fact that he didn’t have as early as fifteen. (See Section III.A.5,
a father figure in the household?
incorporated herein by reference.)
A: Some. (R. 1349.)

Thus, Tony was prejudiced by
counsel’s failure to introduce evidence of the
instability and exposure to drugs that Tony
experienced. See Gamble, 63 So. 3d at 719-20
(finding prejudice where the defendant’s
parents and guardians had severe substance
abuse problems and forced the defendant to
assist in drug sales when he was a child).

Mr. Brantley asked Jill whether DHR
This testimony left the misleading
visited her home from time to time. impression that DHR visited the home only
Specifically, on the issue of abuse, he asked:
once. Trial counsel was in possession of DHR
records showing numerous visits starting when
Q: On one occasion here in Houston Tony was a baby. Trial counsel exonerated the
County they came to your house and – with witness as to her role in egregious child abuse
regards to you’re abusing your children, didn’t (“I’m not saying you did it”).
they? I’m not saying you did it, but that’s the
reason they were there?
Mr. Brantley failed to elicit that Tony
was beaten hundreds of times by his mother,
A: Yes, sir. (R. 1352.)
his grandmother, his aunts, and Demetrius for a
variety of reasons including forgetting his bible
verses, using swear words, or failing to cut up
and bag Demetrius’s drugs correctly. (See
Section III.A.5, incorporated herein by
reference.) Rather than stating in his question
“I’m not saying you did it,” Tony’s counsel
was required to develop the evidence of life
time abuse and hardship pertaining to his
client.
Thus, Tony was prejudiced by
counsel’s failure to introduce evidence of the
severe and constant physical abuse that Tony
experienced. See Porter, 130 S. Ct. at 454;

- 150 App. 315

Williams v. Taylor, 529 U.S. at 395; Williams
v. Allen, 542 U.S. at 1342.
Mr. Brantley also asked Jill to render
Through this utterly inept questioning,
her opinion as to the quality of Tony’s the appearance was rendered that Tony had a
childhood and upbringing rather than eliciting normal upbringing, raised by a mother who did
facts about his childhood and upbringing.
her best. Her self-serving opinion as to her
own competency as a mother was not relevant.
Q: Now, without getting into whether The only competent approach was to develop
you did it or not, do you believe a home the facts, not ask her opinion as to whether she
environment you had for Tony was a good believed she was a good mother.
home environment for him?
Thus Tony was prejudiced by counsel’s
A: It was the best I had. (R. 1352.)
presentation of evidence that was more harmful
than mitigating. See, e.g., King v. Strickland,
748 F.2d 1462 (11th Cir. 1984).
Mr. Brantley asked her if she took
Defense counsel failed to elicit that she
Tony to Dr. Ted Williams, Dr. Nelson Mandel, had taken him off his prescription medications
and Dr. Ann Jacobs. She answered yes. (R. years before Tony allegedly committed the
1354.) Mr. Brantley elicited that Tony was crime.
They failed to elicit that the
given Prozac, Tenex, Ritalin, and Zoloft. The medications made him drowsy and caused him
medications made him much calmer. (R. to drool so other drugs had to be given to
1356.)
counter these effects.
Most importantly, counsel failed to link
the deprivation of medicine through expert
medical testimony to the underlying criminal
conduct at issue. LaKeisha, his sister, testified
that he was much ‘calmer’ when he was being
medicated.
This establishes that counsel
understood the beneficial effect the
medications had on Tony’s behavior. What
was required was a psychiatrist who could
testify as to the effect on his behavior by
having been taken off the drugs so long. At a
Rule 32 hearing, testimony will be offered by
Dr. DeFrancisco, or other medical expert, as to
the effects the drugs at issue would have had
on Tony and the effect of the absence of the
drugs.
Thus, Tony was prejudiced by
counsel’s failure to introduce evidence of
Tony’s cognitive limitations and mental health
problems. See Porter, 130 S. Ct. at 454;

- 151 App. 316

Cooper v. Sec’y, Dept. of Corr., 646 F.3d
1328, 1355 (11th Cir. 2011).
The next question illustrates the utter
Defense counsel elicited even Tony’s
lack of witness preparation and one of several mother’s reservations as to whether he could
examples where defense counsel elicited be of any value in prison. As explained below,
harmful information about their client:
Tony demonstrated human qualities that should
have been addressed.
Q: You think he could be helpful to
other inmates?
Thus, Tony was prejudiced by
counsel’s presentation of evidence that was
A: Yes, sir. I don’t know. (R. 1358.)
more harmful than mitigating. See, e.g., King
v. Strickland, 748 F. 3d 1462 (11th Cir. 1984).
Additional Mitigating Evidence Jill Whitsett Could Have Offered
382.

Dysfunction, Extreme Poverty, and Instability:
a.

Tony’s family life was shaped by traumatic events that pervaded his
childhood. These events permanently disrupted his family structure,
leaving the adults in his life emotionally unavailable for him, and absence
that became increasingly critical in light of Tony’s developmental
difficulties. When Tony was a toddler, his eighteen-month old brother,
Marvin, died in the hospital after being hospitalized with burns.

b.

When Tony was a toddler, the trailer where he lived with his family was
destroyed in a fire started by one of the Jones children who was playing
with matches unsupervised. See Section III.A.4, incorporated herein by
reference.

c.

In fact, a jury would have considered Jill’s testimony that she dropped out
of high school in the tenth grade and had five children between ages 17 to
22 with four different men. The Jones children lacked a stable fatherfigure. Tony’s biological father, Reginald Jones, was never married to Jill
and was virtually absent from his son’s life. (See III.A.2, ¶¶ 429-430,
incorporated herein by reference.) Reginald never paid child support for
Tony, thereby exacerbating the family’s impoverished state.

d.

They jury was never aware that Jill moved her family back and forth
between at least twenty-five residences spanning from Dothan, AL to
Panama City, FL for years (see Section III.A.4, incorporated herein by
reference), and that DHR visited their home at least twice. If DHR saw
that there was food in the home, they would leave. She suspected that her
mother, Mary Bell Jones, called DHR with allegations of abuse and
neglect. Although defense counsel submitted evidence of DHR visits

- 152 App. 317

during the penalty phase, counsel provided no context for three records,
rendering the essentially meaningless for the jury.
383.

384.

Drugs:
a.

Had counsel properly prepared Jill to testify, she would have understood
the importance of testifying openly about the widespread and prolonged
use of drugs in the Jones’ family home. She would have also explained to
the Jury that Mr. Jones’ childhood, including his formative years, were
spent in various houses where illicit drugs were regularly sold illegally.
(See Section III.A.5, incorporated herein by reference.) She would have
testified that his childhood exposure to illegal substances led him to begin
using drugs at an early age, he was beaten on a weekly basis for the
majority of his life, and lived in multiple roach and rodent infested
residences.

b.

Jill never worked and, therefore, depended on welfare, food stamps,
disability checks, and the drug dealing profits from her future husband –
Demetrius “Meechie” Whitsett. (See Section III.A.5, incorporated herein
by reference.) Jill met Demetrius at a night club in Panama City. He was
eight years younger than Jill and only nine years older than Tony. He was
a known drug dealer and, as a review of court records would have
revealed, soon after Jill met him, Demetrius was incarcerated on drug
trafficking charges.
(See Section III.A.5, incorporated herein by
reference.) She began dating Demetrius while he was still incarcerated in
Florida and married him two weeks later. Although Demetrius was
violent, jealous, and controlling, Jill chose to remain with him despite the
detrimental impact on her family. Demetrius did not allow anyone in the
Jones family to have friends or go out. Demetrius was a repeat felon that
beat Jill in front of her children.

Learning Disabilities and Mental Health:
a.

385.

Jill would have informed that jury that Tony was a “special needs” child
who stuttered. He did not start walking until he was almost a year old.
After he finally learned to walk, he had to wear leg braces to straighten his
legs. Years later, when Tony was in the third or fourth grade, his
physicians diagnosed him with Attention Deficit Hyperactivity Disorder
(“ADHD”). The psychiatric medications he took to minimize the effects of
his ADHD “messed him up.” Jill subsequently began receiving disability
checks on Tony’s behalf.

Physical Abuse:
a.

Mr. Brantley similarly failed to elicit testimony from Jill describing how
Tony was also beaten by various family members at least once a week for
a variety reasons from age five until his eighteenth birthday. That

- 153 App. 318

amounts to hundreds of beatings. This number is conservative because
Tony’s aunts and his grandmother also beat him with numerous objects
including belts and electrical extension cords. Tony’s grand-mother
would swear at him and also hit him with her hand.

386.

b.

Tony was beaten repeatedly for a variety of reasons. Jill beat Tony
because she wanted him to know his bible verses, and she would not be
around forever to make sure that he learned them. She pasted a copy of
the 23 Psalm on his wall and would quiz Tony about it. If he made
mistakes, he would be beaten.

c.

Tony was also beaten for cursing. If he said “f**k” he would be beaten
four times because that word had four letters. If he said “f**k you” he
would be beaten seven times. Tony was beaten for not telling the truth,
receiving bad grades, and fighting with other kids. Jill would most often
have Demetrius beat Tony although she personally did so many times
herself. When Tony got mad at Jill and Demetrius or decided that he
could no longer endure the roaches, rats, drugs, beatings, emotional abuse,
and constant hunger, he would run to his grandmother’s house or she
would come and get him.

d.

Demetrius would also beat Tony for another reason. When Tony was
approximately fifteen, Demetrius enlisted him into his drug selling
business, calling it “man’s work.” (See Section III.A.5, incorporated
herein by reference.) If Tony made errors cutting or bagging drugs,
Demetrius would beat Tony. In fact, Demetrius exposed the entire family
to the drug business by selling drugs out of their houses and local
businesses. From the time Tony was young, Demetrius would take Tony’s
family to Florida to buy and sell drugs. Jill would cry in front of her
children when she thought the police were following them.

Tony’s Character:
a.

Tony was very protective of his family and frequently watched them
overnight just to make sure they were safe. Although Tony loved all of
his siblings, he was closest to his sister, LaKeisha, and was very protective
of her. LaKeisha was hearing impaired and wore a box with a string
wrapping around her neck and a headphone to her ears. Tony became
infuriated when anyone teased or bullied her and fought with anyone that
tried to pick on her. Tony would also get mad if a teacher stopped him
from seeing LaKeisha during the school day and would curse at anyone
who attempted to impede his visit. As a result, Tony and LaKeisha were
frequently suspended from school.

b.

Jill would have testified about Tony’s love of animals. On one occasion,
Tony and his mom called the police because a stray puppy that Tony
adopted fell ill. Tony’s uncle and best friend, Desario “Andy” Jones,
- 154 App. 319

would have provided similar testimony had defense counsel called him as
a witness.
Mitigating Evidence Available From Mr. Jones’ Sister, LaKeisha Jones
387.

LaKeisha Jones is Tony’s half-sister.

As with her mother, LaKeisha’s

interactions with her brother’s counsel were perfunctory and she was asked only superficial
questions.

As a result of counsel’s deficient investigation, during the penalty phase, Mr.

Brantley’s entire defense examination of LaKeisha filled only four and a half pages. Trial
counsel did nothing to develop the Jones’ family history of violence and multigenerational
poverty. As a result, LaKeisha’s knowledge of Tony’s traumatic and chaotic upbringing never
surfaced and thus was not considered by the jury in mitigation.
388.

Set forth below is a side-by-side comparison of some of the testimony trial

counsel elicited from LaKeisha during the penalty phase in contrast to the mitigating evidence
that LaKeisha could have offered had trial counsel properly investigated and presented the
available evidence. The chart is only meant to highlight some of the most egregious mitigating
evidence that trial counsel failed to discover and present. Set forth immediately below this chart
are additional facts that LaKeisha could have testified to in mitigation in mitigation in order to
paint an accurate life portrait.
Testimony Elicited at Trial
Highlights of Evidence Not Elicited
Mr.
Brantley
asked
LaKeisha
Had defense counsel been competent,
perfunctory questions about whether she they would have elicited testimony about how
believed Tony could contribute positively to Tony protected her from bullies who teased her
prison life. She answered yes. (R. 1400.)
because of her hearing aid as well as others
who tried to make unwanted sexual advances
towards her.
Thus, Tony was prejudiced by
counsel’s failure to introduce positive evidence
regarding Tony’s character. See Ala Code
Section 13A-5-52.

- 155 App. 320

She was asked whether his not taking
Defense counsel did not link the lack of
medications affected his behavior. She testified medical treatment to his violent conduct.
he was calmer when under medication. (R.
1401-02.)
Thus, Tony was prejudiced by
counsel’s failure to introduce evidence of
Tony’s cognitive limitations and mental health
problems. See Porter, 130 S. Ct. at 454;
Cooper v. Sec’y, Dept. of Corr., 646 F.3d at
1355.
Additional Mitigating Evidence LaKeisha Jones Could Have Offered
389.

390.

Dysfunction, Extreme Poverty, and Instability:
a.

LaKeisha could have provided key testimony corroborating the Jones
family’s impoverished upbringing. She would have testified that the Jones
family lived in numerous different places during her childhood. Not only
did the Jones family live in several different locations in Dothan, AL, Jill
moved her and her brothers back and forth between Dothan and Panama
City, FL. (See Section III.A.4, incorporated herein by reference.) While
shuffling kids between both cities, her mother partied a lot and had a lot of
different boyfriends.

b.

LaKeisha and her brothers would go hungry a lot. She would have
recalled numerous occasions where she and her three other siblings would
have to share a small pack of noodles intended to feed only one person
because there was nothing else in the house to eat and Jill failed to provide
them with additional food. Each child’s portion of the small pack of
noodles did nothing ease their hunger so they remained hungry. As a
result, DHR would come to their house claiming that their mother was
unfit. LaKeisha suspected that her grandmother – Mary Bell Jones –
called them.

c.

The jury would have learned that Tony’s eighteen month old brother,
Marvin Jones, died tragically as a result of hospital negligence. Marvin’s
death was extremely difficult for the family and their mother did not take
it well. Jill would tell LaKeisha that Marvin had come back from death
and “visited” her twice.

Tony’s Character:
a.

LaKeisha would have provided insight into her special relationship with
Tony and confirmed his role as the protector of the Jones family. Tony
tried to be “the man of the house” and would stay up at night just to watch
over the family. He was very generous and would therefore split any

- 156 App. 321

money or candy he received with LaKeisha and their brothers.
“looked up” to Tony and followed him everywhere.

391.

She

b.

LaKeisha wore a hearing aid when she was younger. She felt that the
hearing aid made her look “retarded,” so she did not want to wear it.
People would tease and bully her but Tony was always there to protect
her. In fact, Tony would punish anyone if “they messed with her.” He
would set times for them to meet at school so that he could look at her and
make sure that she was okay. Tony would get very upset if he was unable
able to meet her at the scheduled visit.

c.

LaKeisha would have also testified about an incident where Tony came to
her defense after a classmate tried to stick his hand under her skirt.
During the penalty phase, the District Attorney elicited testimony from
Tony’s mother that Tony had gotten in trouble for fighting at school
because Tony “always fight [sic] for [LaKeisha].” (R. 1362-63), Defense
counsel did not seek any further explanation regarding this testimony so it
remained uncontextualized. LaKeisha would have provided valuable
testimony regarding the true cause of some of the fights but the jury never
learned that Tony was fighting in defense of his sister because defense
counsel failed to elicit this testimony.

Drugs:
a.

LaKeisha would have corroborated her mother’s testimony that Demetrius
“Meechie” Whitsett was a drug dealer and saw him make drug sales. (See
Section III.A.5, incorporated herein by reference.) She witnessed
everyone in the house smoking marijuana on a regular basis.

Mitigating Evidence Available From Mr. Jones’ Aunt, Marilyn Walker
392.

Marilyn is Tony’s aunt. Unlike Jill and LaKeisha, Marilyn was not interviewed

by either Mr. Brantley or Mr. Parker prior to appearing to testify during the penalty phase. She
was unaware that she would be called to testify until she received a subpoena in the mail. Prior
to taking the stand, neither Mr. Brantley nor Mr. Parker told her that the jury had already
convicted her nephew of capital murder.
393.

As with Tony’s mother and sister, Mr. Brantley’s direct examination of Marilyn

both omitted crucial information and elicited extremely harmful testimony. Her entire direct

- 157 App. 322

examination fills eight transcript pages. The chart below sets forth some of the testimony trial
counsel elicited from Marilyn, and the prejudicial effect of counsel’s defective examination.
Testimony Elicited at Trial
Highlights of Evidence Not Elicited
Ms. Walker was the second family
Mr. Brantley asked Ms. Walker
whether Tony had worth as a human being:
member from whom the defense elicited
testimony that Tony had no worth as a human
Q: Now, do you believe that Tony being. The answers were purely the result of no
possess worth as a human being and merit and witness preparation. Ms. Walker will testify
goodness to the point he can contribute she did not know why she was testifying and
positively in a prison environment? Do you was confused by the question.
believe that?
Marilyn’s response was extremely
prejudicial, suggesting to the jury that even
A. No, I do not.
Tony’s family did not care whether he lived or
Caught unaware, defense counsel tried died.
The prejudice from counsel’s
to recover:
uninformed choice to call Marilyn was
compounded when on cross-examination, the
Q: Now, tell us, what, if anything, do District Attorney had Marilyn repeat her
you believe that he could do to contribute to damaging testimony:
the other inmates down there as far as helping
Q. I want to go back to this if I
them, getting along with them, talking to them?
could. And this is the last question or
one or two. If he did this crime he
A: First, let me say, if he commit this
should be punished is what you said.
crime, if he commit this crime, whatever
punishment is given him, he deserves the
A. That's what I said.
punishment.
(R. 1398-99.)
(R. 1391-92.)

Mr. Brantley asked whether Mr. Jones’
behavior improved when he was on his
medications. She answered:
He was always a good person as long
as – he was, first of all, on medication. As long
as he took his medication, he was a good
person… (R. 1392-93.)

Thus, Tony was prejudiced by
counsel’s presentation of evidence that was
more harmful than mitigating. See, e.g., King
v. Strickland, 748 F. 3d 1462 (11th Cir. 1984).
This was an extremely important basis
for mitigation, which had a very high
likelihood to influence the jurors. These
details should have been developed through
family members who observed the effect of the
medications on Mr. Jones. Competent defense
counsel would have supplemented the record
with additional medical testimony.
Thus, Tony was prejudiced by
counsel’s failure to introduce evidence of
Tony’s cognitive limitations and mental health

- 158 App. 323

problems. See Porter, 130 S. Ct. at 454;
Cooper v. Sec’y, Dept. of Corr., 646 F.3d at
1355.
Additional Mitigating Evidence Marilyn Walker Could Have Offered
394.

Learning Disabilities and Mental Health:
a.

395.

396.

Dysfunction, Extreme Poverty, and Instability:
a.

Tony’s mom liked to party and go clubbing. She would either leave the
children by themselves or bring multiple men to the house. As a result,
Ms. Walker would drop by frequently to check on Tony and his siblings.
She frequently discovered that Jill’s children were hungry and that there
was no food for the children to eat because Tony’s mother had run out of
food stamps.

b.

Ms. Walker would have corroborated testimony that Jill moved her family
back and forth between Panama City, FL and Dothan, AL frequently
when Mr. Jones was growing up. (See Section III.A.4, incorporated herein
by reference.) While in Panama City, Tony and his siblings lived with
another family forcing Tony to live with seven other people in a threebedroom apartment in the projects. Jill Whitsett also began dating her
future husband – Demetrius “Meechie” Whitsett while he was still
incarcerated in Florida.

Drugs:
a.

397.

Marilyn could have testified that Tony was a quiet child. Tony was a
follower rather than a leader. Ms. Walker also thought that Tony was a
“little slow.” She knew that he suffered from Attention Deficit
Hyperactivity Disorder (“ADHD”).

As soon as Demetrius got out of jail, the Jones family moved back to
Dothan, AL and Demetrius began selling drugs out of the same house he
shared with Jill and her children. Other times, he would deliver the drugs
with the help of some of his fellow drug dealers. (See Section III.A.5,
incorporated herein by reference.) When Demetrius was not selling
drugs, he smoked marijuana with Ms. Walker while the children were
present. She would have admitted under the oath that the children saw
and smelled the marijuana.

Physical Abuse:
a.

Ms. Walker also observed Demetrius and Jill beating Mr. Jones. They
would use their hands, belts, and extension cords. In one instance, she
saw Tony’s bleeding from wounds caused by a beating. Marilyn first

- 159 App. 324

observed Tony being beaten when he was six to eight years old. Tony
would cry and scream when being beaten. Additionally, Demetrius also
beat Jill and the rest of her children and, at times, Tony would jump in to
try to protect his mother from the beatings.
2.

398.

Trial counsel deficiently and prejudicially failed to interview or call as
witnesses additional family members who would have provided
additional testimony about the abuse, neglect, and extreme poverty
Mr. Jones experienced.

Tony’s counsel was similarly deficient in failing to contact other family members

who could have provided critical mitigation evidence. A proper penalty phase investigation
requires that counsel “locate and interview the client’s family members, [as well as] virtually
everyone else who knew the client and his family, including neighbors, teachers, clergy, case
workers, doctors, correctional, probation or parole officers, and others.” ABA Guidelines 10.7
Commentary.
399.

Set forth below is evidence that some of Tony’s closest family members could

have offered had trial counsel contacted them, and that they will be able to offer at Mr. Jones’
Rule 32 hearing. Among these key witnesses are Mary Bell Jones, Tony’s grandmother; Elaine
Crook and Rochelle Brown, Tony’s maternal aunts; Desario “Andy” Jones, Tony’s maternal
uncle and best friend; Gregory and Jarrius Jackson, Tony’s brothers; Gregory Jackson, his
stepfather who was married to Tony’s mother for a few years; and James Jerome Rich, Anthony
Brown, Sr., and Ricky Jones; his maternal uncles.
400.

As set forth below, the evidence these family members could have offered would

have been wide-ranging, revealing physical abuse, extreme poverty, instability and dysfunction
in the home, repeated exposure to drugs, and mental health and cognitive issues. As such, trial
counsel’s failure to discover and present it was prejudicial. See Hardwick, 320 F.3d at 1177;
Gamble, 63 So. 3d at 719-20; Rompilla, 545 U.S. at 392; Ferrell, 640 F.3d at 1230; Porter, 130

- 160 App. 325

S. Ct. at 454 (2009); Williams v. Taylor, 529 U.S. at 395; Williams v. Allen, 542 U.S. at 1342;
Cooper, 646 F.3d at 1355. Had counsel properly investigated and presented to the jury this
readily-available mitigating evidence, there is a reasonable probability that they jury would not
have recommended the death penalty and that Mr. Jones would not have been sentenced to death.
See Strickland, 466 U.S. at 494.
Mitigating Evidence Available From Mr. Jones’ Grandmother, Mary Bell Jones
401.

Mary Bell Jones is Tony’s grandmother. She was not interviewed by the defense

and was not called to testify. Had she been called as a witness, she too would have provided
invaluable mitigation evidence.
402.

Dysfunction, Extreme Poverty, and Instability:
a.

She would have corroborated testimony from Jill, Marilyn, and LaKeisha
regarding the family’s multiple residences and generational poverty.
While in Dothan, the family moved between several different residences,
living alternately in a trailer, in houses on South Park Street, Woods
Street, Catalpa Avenue, and Boulevard Street, or in the projects at McRae
Homes. When the family ran out of money, Jill and all four children
would move in with Mary Bell Jones, who was at the time still raising her
own younger children and other grandchildren. (See Section III.A.4,
incorporated herein by reference.) Tony, due in large part to his
developmental problems, could never adjust to this instability.

b.

She would have corroborated testimony from other family members about
the impact Marvin’s death had on the entire Jones family. She received a
call from the medical center that there was a staph infection outbreak and
that she should bring Marvin some slippers. She was later informed of his
death due to accidental overdose at the hospital she was scrambling to buy
slippers. After Tony learned of his brother’s death, he cried a lot and
typically ran into his room and continued crying. It was very difficult for
Tony to understand what was going on. Tony wanted go to the hospital
and pick up his younger breath long after he had passed away. Even
though the Jones family needed counseling to cope with Marvin’s death,
no one ever received any. Jill was remorseful for neglecting young
Marvin, preoccupied with her own insecurities, and oblivious to the pain
that her other children were experiencing. While all of these events were
happening, Tony himself was in serious need of counseling to deal with
the loss and required specialized services to help him with his
developmental difficulties. However, he received neither.
- 161 App. 326

c.

403.

404.

405.

Mary Bell would have testified about one incident where she had to drive
to Panama City, FL to pick up Tony because Jill got caught making Tony
steal from either a Target or K-Mart. According to Jill Whitsett’s readily
available criminal record, on October 13, 1993, the Panama City, Florida
Police arrested Jill for shoplifting at a K-Mart after she placed stolen socks
in her purse and put stolen clothes under her dress. Rather than abide by
the terms of her judgment and sentence, she failed to pay her cost of
supervision and applicable fines, failed to complete her community
service, and failed to complete a Shoplifter’s Anonymous course. Mary
Bell watched Jill’s children while Jill was supposedly completing her
community service. After a warrant was issued for Jill’s arrest, she
convinced the Court to convert her community service hours into a
$637.50 fine. (See Exhibit M, Jill Whitsett Criminal Records.)

Learning Disabilities and Mental Health:
a.

Tony was hyperactive growing up and began taking medication in the
second or third grade. At times, Tony would take too much medication
and would sit around and stare. She believed that the medication helped
Tony’s hyperactivity and did not understand why he stopped taking it.

b.

Tony ran away a lot to escape his nightmarish living conditions. He
would leave for two or three days and no one would know where he went.
He would simply appear at whatever residence the Jones family was living
in at the time wearing dirty clothes.

Physical Abuse:
a.

Tony’s grandmother would have explained that she reported Jill to the
DHR due to her daughter’s neglect of her grandchildren. Mary Bell called
the Department of Human Resources (“DHR”) on Tony’s mother on
multiple occasions. She felt that Mr. Jones and his siblings did not have
enough food and that Demetrius beat Tony. She would have described an
incident where Tony ran away due to Demetrius’s beatings.

b.

Mary Bell would have provided further testimony about the negative
effect Demetrius “Meechie” Whitsett had on Tony’s family. (See Section
III.A.5, incorporated herein by reference.) She would have explained that
while Demetrius was the only consistent male figure in Tony’s life when
he was growing up, this was to Tony’s detriment. Demetrius was a mean
man with violent tendencies. Demetrius and Jill were the primary reasons
Tony ran away from home so much.

Drugs:
a.

Mary Bell would also have testified Tony’s mother, Jill, habitually used
drugs while Tony was growing up.

- 162 App. 327

b.

Additionally, she would have testified that Demetrius provided for the
family by selling drugs from whatever residence the Jones family lived in
at the time and all of the children were old enough to know what was
going on. The family’s frequent trips back and forth from Dothan, AL to
Panama City, FL were related to Demetrius’s drug dealing. (See Section
III.A.5, incorporated herein by reference.) Tony and his siblings knew
that Demetrius was a drug dealer and Demetrius openly sold drugs from
the family’s residences. She would have further testified that when he was
a teenager, Tony regularly accompanied Demetrius on drives through the
neighborhood to sell drugs, and Demetrius regularly provided Tony with
marijuana. Demetrius forced Tony to become an errand boy, which
required him to ferry drugs between local drug dealers and drug buyers.

c.

Mary Bell would have testified that Demetrius provided drugs to Tony’s
uncle Andy, who was the same age as Tony.

Mitigating Evidence Available From Mr. Jones’ Aunt, Elaine Crook
406.
childhood.

Elaine Crook, Tony’s aunt, was intimately familiar with Tony’s troubled
Had counsel contacted Elaine, she would have testified that she had intimate

knowledge about Tony’s background because Tony and his uncle, Desario “Andy” Jones, spent
numerous summers with her as children.
407.

Learning Disabilities and Mental Health
a.

408.

Tony stuttered growing up and was not used to anyone paying attention to
him. He was hyper-active, took Ritalin, and required a lot of her attention.

Dysfunction, Extreme Poverty, and Instability:
a.

Elaine would also have testified about Tony’s desperate living conditions
in Dothan, AL and Panama City, FL. Tony and his family moved back
and forth between the two cities on multiple occasions. (See Section
III.A.4, incorporated herein by reference.) During the time Tony lived in
Panama City, FL, Elaine noticed that Tony and his siblings were suffering
from malnutrition. This instability had a severe impact on Tony because
he was not receiving the specialized services that he needed, he was not
learning in the schools that he attended, and he had to leave the schools
almost as soon as he began to adjust to each new setting.

b.

Elaine was troubled by Tony’s environment in Dothan, AL. She knew
that Tony was not used to living in a clean, structured home. Many of

- 163 App. 328

Tony’s Dothan, AL homes were overrun with cockroaches. He would run
away a lot and sleep under these houses rather than going inside.
c.

409.

She too would have testified about the negative impact Marvin’s death had
on the Jones family. The Jones family never sought therapy to cope with
the incident and refuses to speak to even speak about it.

Drugs:
a.

Elaine will describe Jill as a “bad parent” who frequently used hard drugs.

b.

Elaine would have testified that she and other family members allowed
Tony access to alcohol as early as age fourteen.

Mitigating Evidence Available From Mr. Jones’ Brother, Jarrius Jackson
410.

Jarrius Jackson is Tony’s half-brother. He was never interviewed by defense

counsel and did not testify at Tony’s trial. Had defense counsel interviewed or called Jarrius as a
witness, he would have testified about the important role Tony played in his life and would have
described what their life was like growing up with Demetrius Whitsett.
411.

412.

Tony’s Character:
a.

Jarrius would have testified that Tony was a central figure in the family
and that he had been forced to take over Tony’s role since his
incarceration. Tony tried to keep him focused and taught him to be
respectful to his elders. Tony also taught him to control his temper, clean
up, and do well in school.

b.

Tony was very close with their sister LaKeisha. He was LaKeisha’s
guardian and would protect her from anyone that attempted to harm her.
People teased LaKeisha because she wore a hearing aid.

Learning Disabilities and Mental Health:
a.

413.

Jarrius recalled that Tony stuttered a lot when they were younger and that
Tony was in special education classes.

Dysfunction, Extreme Poverty, and Instability:
a.

Tony had to be the central male figure in the home because neither his nor
his siblings’ fathers participated in their lives. Therefore, he and his
siblings were forced to choose between two paths: smoking dope or
selling dope. In their view, those were the only two options available to
them in Dothan, Alabama. As a result, Jarrius left Dothan, AL simply
- 164 App. 329

because he did not want his children to grow up like he did. His living
conditions were so deplorable growing up living with his mother Jill and
grandmother Mary Bell that he would wake up early in the morning and
try to leave the house before anyone could notice his absence.
b.
414.

Jarrius would have testified about DHR visiting their home and his mom
forcing them to cleanup prior to their arrival.

Drugs:
a.

Jarrius and the rest of the family knew that Demetrius sold crack cocaine.
Demetrius also had drug dealing relationships with Tony and Jarrius.
Demetrius would take Jarrius on drug runs.

b.

Jarrius would also have corroborated testimony about multiple police drug
raids on the Jones’ home. The police normally raided their home during
the day but his mom would try to clean everything up before his sister and
brothers returned from school.

Mitigating Evidence Available From Mr. Jones’ Brother, Gregory Jones-Jackson
415.

Gregory Jones-Jackson is Tony’s younger half-brother. Defense counsel failed to

contact him prior to Tony’s trial.
416.

Tony’s Character:
a.
Tony would take him and their younger brother Jarrius everywhere he
went. Gregory would have described Tony as a good guy and one who
would never have committed the type of crime he was convicted of. Tony
often fought for his sister LaKeisha battling with schoolmates who attempt
to make fun of her for wearing a hearing aid.

417.

Dysfunction, Extreme Poverty, and Instability:

418.

a.

Gregory would have testified about how the Jones family lived in an area
of Dothan, AL called the “Bottom” where local street gangs like the
CRIPS got into gun battles in the middle of the street. (See Section
III.A.4, incorporated herein by reference.)

b.

Gregory would have corroborated testimony about DHR coming to the
Jones home and inquiring about their living arrangements. DHR’s inquiry
began when someone saw welts on his sister LaKeisha.

Learning Disabilities and Mental Health:
a.

Gregory would have testified about the effects Tony’s medication had on
his behavior. Tony became lethargic and would fall asleep all of the time.
The side effects were so extreme that Tony could not go anywhere while
- 165 App. 330

medicated because the medications would make him immobile.
Therefore, Mary Bell and his mother decided to take Tony off his
medication.
419.

Drugs:
a.

420.

Demetrius “Meechie” Whitsett entered the family when Gregory was 11
years old. He recalled his mother trying to convince Demetrius to stop
selling drugs. Once, while living in Florida, the police forcibly entered
their apartment and ransacked it in search of drugs while he and his
siblings were at school. They returned home from school and found their
apartment in disarray. The police never found anything because
Demetrius did not store his drugs in the house. Gregory also recalled
another incident when he was 16 or 1 and the police raided the Jones home
again. Demetrius was arrested again for selling drugs.

Physical abuse:
a.

Gregory also recalled being beaten by Demetrius. He also recalled
receiving extreme forms of punishment from his mother. She would place
his sister and brothers on the bed, place a foot or leg or their back, and flog
their buttocks.

Mitigating Evidence That Would Have Been Available From Mr. Jones’ Uncle,
Desario “Andy” Jones
421.

Desario “Andy” Jones was Tony’s maternal uncle. Andy was interviewed by

post-conviction counsel in 2009 and has since passed away. He was born a month after Tony and
was Tony’s closest male friend while growing up. Set forth below is testimony he would have
been able to offer on behalf of Tony during the penalty phase.
422.

Tony’s character:
a.

423.

To Andy, Tony was a protector, a friend, and a brother. Andy would have
testified that Tony was a good person and would never have committed a
violent act against someone unless provoked. Tony loved pets and bugs.
He was not the type of person who bullied others or initiated fights; he
would only intervene on behalf of his family.

Learning Disabilities and Mental Health:
a.

Andy would have corroborated mitigation testimony that Tony started
taking medicine for hyperactivity in middle school which made him sleepy
and “zombie-like.”

- 166 App. 331

424.

Drugs:
a.

Andy also would have provided additional testimony about Demetrius’s
drug dealing. Andy met Demetrius shortly after Demetrius had been
released from prison in Panama City, FL. Demetrius and the rest of the
Jones family moved next door to Andy. Andy knew Demetrius sold drugs
and personally witnessed large numbers of cars visiting their home. Andy
himself purchased marijuana from Demetrius and encouraged his friends
to do so.

Mitigating Evidence Available From Mr. Jones’ Aunt and Uncle, Rochelle Brown and
Anthony Brown, Sr.
425.

Rochelle Brown is Tony’s maternal aunt and Anthony Brown, Sr. is her husband.

The Browns often looked after Tony while his mother, Jill, was at work.
426.

Dysfunction, Extreme Poverty, and Instability:
a.

Had either witness been called by the defense, they would have testified
that despite being a quiet, loveable child, Mr. Jones grew up on welfare,
was passed around to multiple family members, ran away from home, and
was forced to move on multiple occasions because his mother could not
manage her money appropriately.

b.

Rochelle would have testified that Tony ran away from home as early as
eight years old. Both Rochelle and Anthony would drive around the
neighborhood looking for Tony but they would never find him. He would
return home a couple of days later.

c.

Rochelle would have testified about Mr. Jones’ mother partying at clubs,
dating multiple men, and leaving others to watch her children. Tony even
complained to Rochelle that his mother did not treat him well.

d.

Rochelle’s testimony could have further corroborated testimony that Tony
and his siblings moved back and forth to Panama City (see Section III.A.4,
incorporated herein by reference), and repeatedly went without food. On
one occasion, Rochelle went to Panama City, FL with Tony’s
grandmother, Mary Bell, and found Tony and his siblings without food.
In response, Mary Bell took the kids and returned to Dothan, AL.

e.

The Browns would also have corroborated testimony describing the
impact that Marvin Jones’ death had on the entire family. Marvin was
only 18 months at the time of his death. The Browns would have
described an incident where Marvin accidently poured hot liquid on
himself while his mother was home. He was subsequently rushed to the
hospital and later died of what Rochelle thought was a drug overdose. Jill
- 167 App. 332

received a large settlement because of Marvin’s death. At the time of the
incident, Jill was married to Gregory Jackson even though he was not
Marvin’s father and they separated after Marvin’s death. Tony and
LaKeisha were forced to deal with the death of their younger brother alone
as their mother’s partying dramatically increased. Jill left her kids at
home alone or with any relative who would keep them while she was out.
f.

427.

428.

Rochelle (as well as Mary Bell and Elaine) would have reported that Jill
received a medical malpractice settlement from the hospital after Marvin
died but rather than take the opportunity to provide for her other children,
she squandered this money almost immediately. She bought cars for
herself and other relatives, including her sister, Marilyn. She took weeklong trips to New York with a man known to snort cocaine and use other
illicit drugs. On account of these excursions, she became an even more
absent parent, even though there was no stable father in the children’s
lives. The proceeds from the hospital settlement lasted just months. Jill
did not invest in anything lasting, nor did she seek counseling for herself
or for her children.

Physical Abuse:
a.

The Browns felt that Tony never received the personal attention he
needed. Tony would say things to Rochelle indicating that he was not
being treated very well at home. Mr. Brown would have testified that Mr.
Jones was never affirmed by his mother for having a gift or talent and that
his mother never communicated to him that he was loved unconditionally
or that he was intrinsically valuable.

b.

Instead, the Browns would have testified that he was repeatedly beaten
with belts and extension cords and never received an explanation for why
he was being beaten. The beatings would leave scares, welts, and bruises
on his body. Anthony would also testify that his mother would come
home, wake up Tony, and beat him for things he had done earlier in the
day.

c.

The Browns would have further testified specifically about the severe
beatings Tony received from his stepfather Demetrius. Tony resented
being beaten by Demetrius but held in his anger due to fear of his
stepfather.

Drugs:
a.

Anthony would have testified that he knew Demetrius to sell marijuana
and powder cocaine from the home he shared with Tony and even taught
Tony how to serve as a “lookout” while standing guard at various posts.

b.

Rochelle would have testified that Tony’s mother used powder cocaine.
- 168 App. 333

Mitigating Evidence Available From Mr. Jones’ Father, Reginald Jones
429.

Reginald Jones, Tony’s father, would have testified about the trivial role he

played in Tony’s life.
430.

Dysfunction and Instability:
a.

Reginald moved from New Orleans, Louisiana to Dothan, Alabama when
he was in the sixth grade. In Dothan, Reginald became a high school
football star and began having casual sex with a number of women,
including Jill. Reginald would have testified that learned Jill was giving
birth to Tony because Reginald broke his ankle so he went to the hospital
and discovered that Jill and another woman were giving birth to his two
children at the same time in the same hospital.

b.

Reginald would have further testified and corroborated testimony from Jill
and Mary Bell that Reginald only saw Tony a few times while growing up.
Jill and her sister Marilyn told him that he should not “come around” to
see Tony because they were mad about the number of women he dated.
On the few occasions he did get to see Tony, he could only do so at certain
times because Tony was either in school or had to be home before curfew.
Reginald even had to sneak to take Tony trick-or-treating.

c.

Reginald moved to Louisiana after graduating from high school. After
moving to Louisiana, Reginald would have testified that he only saw Tony
once more, when Tony was 15 or 16. He tried to get Tony to come to
Louisiana to stay with him but Tony did not want to leave his family
behind. Reginald gave Tony less than $100 and never saw him face to
face again.

Additional Witnesses From Whom Mitigating Evidence Might Have Been Available
431.

In preparation for the penalty phase, trial counsel had a duty to conduct a

thorough investigation that included interviews of family members and others with potentially
mitigating evidence. See Williams v. Allen, 542 F.3d 1326, 1340 (11th Cir. 2008) (holding that
counsel performed deficiently because they failed to conduct sufficient interviews with the
defendant’s family members and failure to present additional family members was a result of
negligence and not strategy). In addition to the family members listed above, trial counsel also
failed to contact and examine numerous other individuals who played meaningful roles in Tony’s

- 169 App. 334

life, including neighbors, friends, teachers, doctors, social workers, counselors, and
acquaintances.
432.

Additional family members from whom mitigating evidence could have been

gathered include Mr. Jones’ uncles Ricky Jones and James Jerome Rich; his cousins, Erika and
Chanterelle Jones; and his stepfathers, Demetrius Whitsett and Gregory Jackson. Additionally,
Mr. Jones’ friends and acquaintances should have been interviewed, including, Camilla Bolden,
Acaris Gordon, Jeffrey Dozier, Onario Thompson, Rashad Thompson, and April Brunson; his
physicians, Dr. Ted Williams (a pediatrician who saw Tony for a myriad of mental health
treatments), Dr. Roby Hicks, and Dr. Sam C. West (psychiatrists who saw Tony for mental
health evaluation); Tony’s counselors and teachers at the schools he attended; and the
Department of Human Resources social workers who visited Mr. Jones’ family throughout his
childhood.
433.

Reed Smith Attorneys Steven A. Miller and Richard K. Wray filed Verified

Applications for Admission to Practice on January 30, 2013 and have since committed
substantial resources to Mr. Jones’ post-conviction relief. Although counsel has been able to
gather the crucial mitigation evidence outlined above, undersigned counsel is still seeking
additional information regarding the mitigating evidence that might have been in these
witnesses’ possession through discovery and further investigation and will supplement this
section of the petition with those details as soon as they become available.
3.

434.

Defense counsel deficiently and prejudicially failed to investigate and
introduce mitigating evidence contained in DHR records in their
possession.

The defense was in possession of several pages of Alabama Department of

Human Resources (“DHR”) files reporting on Mr. Jones’ troubled family beginning in 1982,
when Mr. Jones was an infant.

(See Exhibit E, DHR Records.)
- 170 App. 335

These reports were not

introduced at trial, despite containing extensive mitigating evidence that could have been
corroborated by the testimony of Mr. Jones’ family members. Among the issues raised in the
DHR reports:
a.

DHR documented unstable, impoverished, emotionally abusive, and
possibly neglectful home when Mr. Jones was an infant, and his mother
herself still a child. (Exhibit E, DHR case reports, 1/28/82 –
((illegible)/28/85.)

b.

DHR documented that Mr. Jones’ mother was pregnant with another child,
due in June 1982, only months after Mr. Jones was born. (Exhibit E, DHR
case report, 1/28/82.)

c.

DHR documented that, when Mr. Jones was an infant, he and his mother
had to live with his grandmother, who was emotionally abusive. (Exhibit
E, DHR case report, 1/28/82.)

d.

When Mr. Jones was one year old, his mother left her mother’s home with
him and spent months living in an unknown location. (Exhibit E, DHR
case reports, 2/24/82; 3/9/82.)

e.

When Mr. Jones was three, his maternal grandmother reported to DHR
that his mother, Jill, was an inadequate care provider and did not
adequately supervise her children. (Exhibit E, DHR case report, 8/31/84.)

f.

When Mr. Jones was three, his mother had another child, Marvin, who
was born with syphilis and required regular medical care, which his
maternal grandmother worried his mother could not provide. (Exhibit E,
DHR case report, 8/31/84.)

g.

When Mr. Jones was four, in July 1985, the family’s home (shared with
Jill Jones, three other children, and Gregory Jackson) burned down,
displacing the family. (Exhibit E, DHR case report, 7/16/85.)

h.

When Mr. Jones was four, his younger brother Marvin, died in the hospital
after suffering grease burns at home. (Exhibit E, DHR case report,
(illegible)/28/85.)

i.

When Mr. Jones was 9, DHR investigated allegations (made by his
maternal grandmother). Mr. Jones’ grandmother alleged that Jill Jones,
with her children, had moved in with a drug user, left the children home
alone or with the drug user, refused to get a job, and generally failed to
care for the children. DHR made no finding of neglect (Exhibit E, DHR
Report of Suspected Case of Child Abuse/Neglect, 3/5/90.)

- 171 App. 336

j.

435.

When Mr. Jones was 10, DHR investigated allegations made by a
neighbor that his mother neglected him and his siblings by leaving them
home alone in the evening, selling their food stamps rather than feeding
the children, and leaving them to roam their apartment complex alone
during the day. The report also alleged that Mr. Jones’ mother used drugs.
While the children reported that their mother did not do drugs, Tony
expressed a familiarity with drugs and people in the neighborhood who
did drugs. The report further detailed the instability of the Jones
household, with some of Mr. Jones’ siblings being in the custody of other
relatives, including his grandmother, rather than living with Mr. Jones and
his mother. DHR made no finding of neglect (Exhibit E, DHR Report of
Suspected Case of Child Abuse / Neglect, 8/13/91.)

The DHR record evidence was neither investigated by counsel in interviews with

family members nor presented by defense counsel as mitigation evidence. Only fleeting
reference during direct examination was made to the DHR visits to Mr. Jones’ home. (R. at
1351-52.)

The DHR history was in fact far more extensive and trial counsel’s failure to

introduce any such evidence allowed the prosecutor to argue that there was no evidence of a
troubled background:
You heard from the testimony the Defense witnesses got up there, from his
mother, his aunt, that he didn't have a bad life. That the house had been checked
on by human resources. The reports were not founded in any manner or fashion.
Not one time did the Defense ask any members of his family, were you using
drugs. Mother, did anybody in the family use drugs. Did they drink alcohol. Did
they treat him bad. Did he have a bad life. (R. 1474.)
436.

Further, the extensive DHR history raised numerous “red flags” regarding

mitigating evidence in Mr. Jones’ development and background that required further
investigation. See Rompilla, 545 U.S. at 392; see Williams v. Allen, 542 F.3d at 1340 (“[T]he
information that trial counsel did acquire would have led a reasonable attorney to investigate
further.”). Trial counsel’s failure to follow up on the extensive DHR history was patently
unreasonable. Wiggins, 539 U.S. at 527 (“In assessing the reasonableness of an attorney’s
investigation . . . a court must consider not only the quantum of evidence already known to
counsel, but also whether the known evidence would lead a reasonable attorney to investigate
- 172 App. 337

further.”) Much like defense counsel in Wiggins, who was found ineffective for failing to
investigate mitigating evidence found in a pre-sentence investigation report and some
Department of Social Services records. Mr. Jones’ trial counsel failed to investigate further
despite glaring red flags in the DHR reports. Id. at 527, 538. See also Williams v. Allen, 542
F.3d at 1340 (holding that counsel performed deficiently when they failed to pursue leads
revealed in the pre-sentence investigation report).
437.

Counsel’s deficient investigation resulted in their failure to discover and present

to the jury mitigating evidence, including evidence of abuse, neglect, abject poverty, instability,
and drug use by his mother. Had counsel presented such mitigating evidence to the jury, there is
a reasonable probability that they jury would not have recommended the death penalty and that
Mr. Jones would not have been sentenced to death. See Strickland, 466 U.S. at 494.
4.

438.

Defense Counsel Was Deficient in Failing to Develop ReadilyAvailable Evidence of Instability in Mr. Jones’ Childhood, Resulting
In Prejudice to Mr. Jones.

As further evidence of counsel’s prejudicial failures, counsel failed to investigate

and/or elicit testimony regarding all of the different places Mr. Jones lived while growing up.
Mr. Jones lived in more than twenty-five different residences before his arrest at age eighteen.
He never knew how long he would be living in one place or with whom he would be living the
next day. Many of the residences were in disrepair or infested with rats; others were in projects
dominated by drugs and prostitution.

They did not ask Mr. Jones’ mother Jill, his sister

LaKeisha Jones, his aunts Elaine and Marilyn or his grandmother Mary Bell about the family’s
specific residences despite the fact that ample records were readily available including: DHR
records, school records, as well as the criminal records of both Jill and Demetrius Whitsett
(which counsel never obtained).

- 173 App. 338

439.

At the penalty phase of the trial, counsel elicited testimony from Jill that lead the

jury to believe that her frequent moves between Panama City, Florida, and Dothan, Alabama
were orderly, peaceful, beneficial to her family, and well-planned. (R. 1348-49.) Counsel even
referred to Mr. Jones’ childhood environment as “that house,” as if Mr. Jones grew up in a fixed
and stable setting. (R. 1495.) However, if counsel had asked Jill, LaKeisha, Elaine, Marilyn, or
Mary Bell about the places Mr. Jones lived when growing up—or if counsel had consulted the
available DHR, school, and criminal records—they would have learned that Mr. Jones’
upbringing was defined by instability. Specifically, counsel would have learned the following
from those five witnesses and the aforementioned records:
No.

ESTIMATED
DATE(S)

COMMENT(S)

ADDRESS

When Mr. Jones was an infant, he lived at
1017 Blackshear Drive in Dothan, Alabama,
with his mother Jill, his grandmother Mary
Bell Jones, his uncle Andy Jones, his uncle
James “JJ” Rich, and other family members.
Jill and Mary Bell Jones could have testified
regarding that fact.

1

1981

2

1984

On several occasions, Jill took Mr. Jones
and his sister LaKeisha Jones, whose father
1017 Blackshear Drive
was Jill’s boyfriend Brian Duckett, to live in
Dothan, AL 36303
other places for weeks at a time. As DHR
stated in a report dated March 9, 1982, “[Jill]
Jones has been out of the county for at least
two weeks that we know of and we’ve been
given no indication that she’s returning.”
But then Jill and the children returned to
Blackshear Drive, again living with Mary
Bell Jones and other family members. Jill
and Mary Bell Jones could have testified to
that fact.
Around 1984, Jill and her children
moved to the Park Way Trailer Park in
Park Way Trailer Park
Dothan, Alabama. They moved to get away
Dothan, AL
from Jill’s family. Gregory Jackson, whom
Jill had married, also lived with them. Jill

- 174 App. 339

3

1985

1017 Blackshear
Street Dothan, AL
36303

4

1987

84 McRae Homes
Dothan, AL 36301

5

1988

708 Montana Street
Dothan, AL 36303

6

1988

713 Catalpa Ave.
Dothan, AL 36301

7

1989

13 McRae Homes
Dothan, AL 36301

8

1989

23 McRae Homes
Dothan, AL 36301

9

1989

10

1990

11

1991

708 Montana Street
Dothan, Alabama

12

1992

1025 Everitt Ave, #E2 Panama City, FL,
32401

13

1993

1343-C Roosevelt Dr.
Panama City, FL

Whitsett could have testified to those facts.
The trailer burned to the ground on
July 15, 1985, so they moved back to
Blackshear Drive with Mary Bell Jones and
other family members. A DHR report dated
July 16, 1985, confirms the date of the trailer
fire. Beyond the DHR records, Jill Whitsett
could have testified to those facts.
At the entrance to the McRae projects,
there were drug dealers on the right,
prostitutes on the left, and a lady selling
popsicles in the middle.
Jill, Gregory
Jackson, and the children lived in the McRae
projects for several years.

Jill and the rest of her children moved in
with Mary Bell after Jill’s electricity was
repeatedly cut-off for nonpayment.
Following the brief stay on Catalpa
Avenue, Jill and her children moved back to
McRae Homes. But this time they lived with
Larry Williams, Jill’s boyfriend. They lived
in 28 McRae Homes, 13 McRae Homes, and
23 McRae Homes. A DHR record dated
August 13, 1991, and titled Report of
Suspected Case of Child Abuse/Neglect lists
23 McRae Homes as their address.

1004 Linden Street
Dothan, AL 36303
1001 N Bell Street
Dothan, AL 36303
Jill and her children move in with Marilyn
Walker, Jill’s sister, prior to moving to
Panama City, FL.
In or around 1992, Jill and her children
moved to Panama City, Florida. There, they
lived in the Gardner Dickinson housing
projects at 1025 Everitt Avenue.
The
probable cause affidavit from Jill’s theft case
in Panama City, which was case number 938004 in Bay County, Florida, lists 1025
Everitt Avenue as Jill’s address.
Jill and her children then moved to 1343
Roosevelt Drive in Panama City, Florida.

- 175 App. 340

14

1993

704 Bay Ave.
Panama City, FL

15

1995

624 Catalpa Ave.
Dothan, AL 36301

16

1996

622 Catalpa Ave.
Dothan, AL 36301

17

1997

211 Virginia Drive #1
Dothan, AL 36301

18

1997

473 East Andrews
Ave. Ozark, Alabama

19

1997

1528 S. Park Ave.

The violation of probation affidavit from
Jill’s theft case, dated April 12, 1994, lists
the Roosevelt Drive address.
Jill and her children then moved into 704
Bay Avenue in Panama City, Florida. The
house at 704 Bay Avenue had giant rats, and
Jill shot at them with a gun. She tried to put
the bread on the top of the doorframe so the
rats could not get it, but they got it anyway.
Beyond the records, Jill could have testified
to those facts.
In 1995, Jill and her children left Panama
City and moved back to Dothan. They lived
with Mary Bell Jones at 624 Catalpa Avenue
in Dothan, Alabama. A Juvenile Court
Services Referral Form to DHR dated
October 30, 1995, lists 624 Catalpa Avenue
as Mr. Jones’ address.
In 1996, they moved to another place on
Catalpa Avenue in Dothan—specifically, 622
Catalpa Avenue.
Demetrius “Meechie”
Whitsett, whom Jill had married while he
was in jail for possession of crack cocaine
with intent to distribute in case number 931827 in Bay County, Florida, joined them at
this address upon his release. Jill and Mary
Bell Jones could have testified to those facts.
Jill, Demetrius Whitsett, and the children
then moved to 211 Virginia Drive in Dothan,
Alabama. Demetrius Whitsett dealt drugs
out of the house and was arrested for doing
so on January 29, 1997, as documented in
case number CC-97-5513 in Houston
County. Mr. Jones’ Dothan High School file
confirms that Mr. Jones lived at the Virginia
Drive address in 1997.
Beyond those
records, Jill Whitsett and Mary Bell Jones
could have testified to those facts.
Shortly after Demetrius Whitsett’s January
1997 arrest, Mr. Jones lived for a brief period
of time at a boys’ home at 473 East Andrews
Avenue in Ozark, Alabama. Around that
same time, Jill and her children, at times
including Tony, moved to 1528 South Park
Avenue in Dothan, Alabama. That address is
listed on Demetrius Whitsett’s Consolidated

- 176 App. 341

20

1998

440.

102 Woods Drive
Dothan, AL 36301

Appearance Bond in case number CC-975513 in Houston County. The landlord
sought to evict Jill, Demetrius Whitsett, and
the children on November 25, 1998, as
demonstrated by case number DV-98-0883
in Houston County.
Jill and her children then moved in with
Mary Bell Jones at 102 Woods Drive in
Dothan, Alabama. That address is listed on
Mr. Jones’ Southeast Alabama Medical
Center records dated January 22, 1999. In
addition to the records, Jill could have
testified to those facts.

In addition to those addresses, undersigned counsel are aware that Mr. Jones lived

at; a house infested with rats on Edgewood Avenue in Dothan, Alabama; a residence on
Boulevard Street in Dothan, Alabama; 680 Leslie Avenue in Mobile, Alabama; and at least four
other boys’ homes or youth facilities. Undersigned counsel are seeking additional information
on those places through discovery and further investigation and intend to supplement this section
of the petition with those details as soon as they become available.
441.

The constant moving described above was extremely harmful to Mr. Jones’

development. As a child, it left him with uncertainty as to whether he would have food to eat or
a place to sleep the following day. It disrupted his education by forcing him to change schools
repeatedly, exposed him to negative influences, and eliminated the possibility of long-term
positive influences. Enduring such ghastly living conditions was particularly traumatic for Mr.
Jones – an individual born into multi-generational poverty and subsequently diagnosed with
behavioral and mental health issues at an early age.
442.

Trial counsel’s failure to learn that Mr. Jones had a completely unstable

upbringing that included constant moving and more than twenty-five residences constitutes
ineffective assistance of counsel. See Hardwick, 320 F.3d at 1177 (finding prejudice where

- 177 App. 342

counsel failed to present evidence of the defendant’s “unstable” and “dysfunctional”
background); Gamble, 63 So. 3d at 720 (finding prejudice where counsel failed to present
evidence that the defendant and his sister moved frequently). This is particularly true given the
misleading evidence counsel presented at trial and the other risk factors that were present
through Mr. Jones’ upbringing, as described in the other sections of this petition.
443.

Had counsel properly investigated and presented to the jury this glaring evidence

of instability and dysfunction in Mr. Jones’ background, all clear mitigation evidence, there is a
reasonable probability that the jury would not have recommended the death penalty.

See

Strickland, 466 U.S. at 494.
5.

444.

Defense counsel deficiently and prejudicially failed to discover and
present Demetrius Whitsett’s criminal background, which was
mitigating evidence of drugs in Mr. Jones’ home.

While Tony was living in Panama City, Florida with his mother and siblings, his

mother met and began dating Demetrius Whitsett, a man who was eight years her junior (and
only nine years older than Tony) and a convicted drug dealer. Shortly before he was supposed to
move into the same household as Jill and Tony, Demetrius was again arrested and incarcerated
for drug-related offenses in Florida. Despite his incarceration, Tony’s mother married Demetrius
while he was imprisoned. Upon his release from prison, Demetrius moved to Alabama and Tony
lived in the same household as him.
445.

Defense counsel offered no evidence regarding Demetrius’s long history of drug

convictions or of Tony’s exposure to the drug trade from an early age. A review by defense
counsel of court records in Alabama and Florida would have established that, during the time
Tony lived in the same household as Demetrius, Demetrius sold crack cocaine and was
repeatedly arrested and incarcerated. Further, Demetrius’s involvement in the drug trade was no
secret to anyone in the Jones family. Had defense counsel inquired about and elicited such
- 178 App. 343

testimony, any and all of Tony’s siblings could have testified to Demetrius’s drug dealing and
related criminal convictions, as well as Demetrius’s drafting Tony into the drug trade.
446.

In 1990, when Demetrius was 17 years old, he was arrested in Bay County,

Florida for possession of a controlled substance and possession of drug paraphernalia. (Exhibit
O, Court Order Report of Disposition, Case No. 90-2618.) He was placed on probation for a
period of four years (id.); however, his probation was revoked in July 1992 for failing to meet
the conditions of his probation, including failing to perform drug testing or perform mandatory
community service.

(Exhibit O, Violation Report Form, State of Florida Department of

Corrections, Case No. 846264.) Demetrius’s probation officer noted that Demetrius had “[N]o
regards for the judicial system.” (Id.) Also in July 1992, Demetrius pled guilty to one count
each of delivery of cocaine to a person under 18, resisting arrest, and driving while his license
was suspended/revoked. (Exhibit P, Judgment dated July 24, 1992, Case No. 92-627.) He was
sentenced to five and a half years’ incarceration for the new offenses and violation of probation.
(Exhibit O, Sentence report dated July 24, 1992, Case No. 90-2618; Exhibit P, Plea, Waiver and
Consent, July 24, 1992, Case No. 92-627.)
447.

Had they been interviewed by defense counsel and called to testify on this issue,

family members Jill, Mary Bell, Marilyn, Jarrius, Anthony, and Rochelle could all have testified
that Demetrius forced Tony to work with him in the drug trade. Demetrius’s conviction for
delivery of cocaine to a person under 18 would have provided evidence to corroborate such
testimony – Demetrius was convicted of delivering crack cocaine to a minor in order for that
minor to engage in the sale of crack cocaine. (See Exhibit P, Information dated April 2, 1992,
Case No. 92-0627.) By failing to adequately investigate the prevalence of drugs in Tony’s

- 179 App. 344

household, defense counsel’s failure to adequately investigate and present this potentially
mitigating evidence.
448.

By September 1993, Demetrius had been released from prison and was again

arrested in Bay County for possession of a controlled substance (in Demetrius’s case, crack
cocaine) with intent to distribute. (Exhibit Q, April 20, 1994 Judgment, Case No. 93-1827, Bay
County, Florida.)

For this offense, Demetrius was sentenced to four and a half years’

incarceration. (Id. at Sentence, Case No. 93-1827.) Upon his release from prison, Demetrius
moved to Alabama and moved into the home that Tony lived in with his mother and siblings.
449.

Demetrius was again arrested for drug offenses in Alabama. Records reveal that

Demetrius was indicted for selling marijuana in January 1997 to an undercover agent on or near
the premises of a residence located at 211 Virginia Drive in Dothan. (See Exhibit R, Complaint
dated May 9, 1997, Warrant No. WR 97 005513; Indictment by Grand Jury, Case No. CC-971231.) The address where Demetrius made the drug sale was the same address where Tony, who
was fifteen at the time, resided with his mother and siblings. Demetrius pled guilty and was
sentenced to twelve years confinement. (See Exhibit R, Conviction Report Case No. CC-971231.)
450.

By the time Tony’s trial began in March 2004, Demetrius had been charged with

additional drug offenses and, in November 2004, was sentenced to 12 years’ imprisonment in
federal prison for drug possession with intent to distribute.

(See Exhibit S, Case No.

03000560CFMA file, Bay County, Florida; 8/23/04 Judgment in a Criminal Case, Case No.
5:04cr35-001/MCR, United States District Court for the Northern District of Florida.)
451.

Defense counsel was ineffective in failing to investigate and present evidence of

Demetrius’ drug convictions and activities while living in the same home as Tony.

- 180 App. 345

The

evidence was readily available and would have served as powerful evidence of the dysfunctional
home environment in which Tony was raised, surrounded by drugs and other instability. See
Gamble, 63 So. 3d at 719-20 (finding prejudice where the defendant’s parents and guardians had
severe substance abuse problems and forced the defendant to assist in drug sales when he was a
child); see Hardwick, 320 F.3d at 1177 (finding prejudice where counsel failed to present
evidence of the defendant’s “unstable” and “dysfunctional” background).
452.

Had counsel properly investigated and presented to the jury this glaring evidence

of exposure to drugs, instability and dysfunction in Tony’s background, there is a reasonable
probability that they jury would not have recommended the death penalty and that Mr. Jones
would not have been sentenced to death. See Strickland, 466 U.S. at 494.
6.
453.

The defense failed to properly investigate and present evidence of long
term emotional issues.

Mr. Jones suffered from emotional issues as early as kindergarten. The trial

attorneys had a report from Ann Jacobs, Ph.D., referencing conditions issues as early as
kindergarten, and hence, they had the type of critical information about Mr. Jones’ mental health
issues which “stared” defense counsel in the face. Wiggins, 539 U.S. at 527-28.
454.

Dr. Jacobs is a licensed psychologist who evaluated Mr. Jones in 1995, when he

was 14, upon a referral from the Houston County Juvenile Court Services. In her report of
Psychological Evaluation dated December 4, 1995, she noted that his behavioral issues
commenced in kindergarten. (Exhibit G, 12/4/95 Psychological Evaluation at AJ 00024.) When
he became angry, he flew into a rage. (Id.) He also experienced crying spells when enraged and
made suicidal statements. (Exhibit G at AJ 00025.) Mr. Jones exhibited schizoid qualities, his
contact with reality was tenuous and he was depressed. (Exhibit G at AJ 00026.) He was also

- 181 App. 346

learning disabled. (Id.) Dr. Jacobs formally diagnosed Mr. Jones with Early Childhood Onset
Conduct Disorder and Depression. (Exhibit G at AJ 00027.)
455.

Defense counsel had a copy of Dr. Jacobs’ report but did not call her as a witness,

although she did receive a trial subpoena. According to trial counsel’s notes, Dr. Jacobs stated
that she did not recall Mr. Jones and, as a result, she was excused from appearing to testify. Dr.
Jacobs practices in Dothan, Alabama and was available to testify. Even if she did not recall
having evaluated Mr. Jones, that was not a basis for not calling her to testify. Her report was
signed and she could have identified her signature. (Exhibit G at AJ 00027.) She then could
have testified about her report under the highly relaxed evidentiary rules governing the
sentencing phase in death penalty cases. Alabama Rule of Evidence 803(5); Sears v. Upton, 130
S. Ct. 3259 (2010); Green v. Georgia, 442 U.S. 95, 97 (1979); Roberts v. State, 735 So. 2d 1244,
1265-66 (Ala. Ct. App. 1997).

Her testimony would have provided important evidence

regarding the effect that the disorders she observed when she evaluated Mr. Jones would have
had on him and his behavior.

The decision not to call her cannot be deemed strategic

considering the defense’s ineffective efforts to present some mental health issues through Dr.
DeFrancisco’s testimony. (See, e.g., R. 1434, 1442.)
456.

Dr. Jacobs’ report also placed the defense on notice of Mr. Jones’ mental health

history, with issues as early as kindergarten, which would have triggered an obligation to
investigate further and seek additional school, medical and mental health records and evidence
from Mr. Jones’ relatives, acquaintances, physicians, and others. See Rompilla, 545 U.S. at 392;
Williams v. Allen, 542 F.3d at 1340 (“[T]he information that trial counsel did acquire would have
led a reasonable attorney to investigate further.”); see also Wiggins, 539 U.S. at 527 (“[I]n
assessing the reasonableness of an attorney’s investigation . . . a court must consider not only the

- 182 App. 347

quantum of evidence already known to counsel, but also whether the known evidence would lead
a reasonable attorney to investigate further.”).
457.

At a minimum, even if Dr. Jacobs had not been called, trial counsel could have

introduced records from DHR, school and other sources under the applicable evidentiary rules.
All were easily admissible under relaxed standards governing capital sentencing. See, e.g., Sears
v. Upton, 130 S. Ct. at 3263 (finding ineffective assistance of counsel where defense failed to
present mitigation evidence that was admissible under the Due Process Clause.

“We

have…recognized that reliable hearsay evidence that is relevant to a capital defendant’s
mitigation defense should not be excluded by rote application of a state hearsay rule.”); Green v.
Georgia, 442 U.S. at 97 (per curiam) (“Regardless of whether the proffered testimony comes
within Georgia’s hearsay rule, under the facts of this case its exclusion constituted a violation of
the Due Process Clause…. The excluded testimony was highly relevant to a critical issue in the
punishment phase of the trial”); Chambers v. Mississippi, 410 U.S. 284, 302 (1973) (“In these
circumstances, where constitutional rights directly affecting the ascertainment of guilt are
implicated, the hearsay rule may not be applied mechanistically to defeat the ends of justice.”).
458.

Dr. Jacobs’ report constituted evidence of significant, long term mental illness

that should have been investigated and presented in mitigation. Defense counsel’s deficient
investigation resulted in prejudice to Mr. Jones. See Porter, 130 S. Ct. at 454 (finding prejudice
where counsel failed to discover and present evidence regarding the defendant’s “brain
abnormality, difficulty reading and writing, and limited schooling”); Cooper, 646 F.3d at 1355
(finding prejudice where the defendant “had only a seventh-grade education and had learning
deficits”). There is a reasonable probability that if the defense counsel had conducted a proper
investigation and presented the available mitigating evidence of Mr. Jones’ history of mental

- 183 App. 348

illness and cognitive impairment, the jury would not have recommended the death penalty and
Mr. Jones would not have been sentenced to death. See Strickland, 466 U.S. at 494.
7.
459.

The defense failed to properly investigate and present evidence of long
term mental illness via their expert witness, Dr. Robert DeFrancisco.

Instead of calling Dr. Jacobs, the defense relied heavily on Robert DeFrancisco,

Ph.D. to present mitigation evidence from an expert witness’ perspective. Unfortunately, this
aspect of the case was handled as incompetently as the rest of the case. With regards to Dr.
Jacobs’ report (which Dr. DeFrancisco did receive), counsel failed to elicit the underlying facts
and details, including emotional illness starting in kindergarten. Counsel did not advise Dr.
DeFrancisco of Mr. Jones’ social history.

Defense counsel did not even meet with Dr.

DeFrancisco to prepare him to testify. Although Dr. DeFrancisco has testified hundreds of
times, this is the only time he recalls in his career where the lawyers calling him as a witness did
not prepare him for his testimony.
460.

Dr. DeFrancisco was retained by the defense for the sole purpose of performing

“psychological evaluation and forensic evaluation for Mental State at the Time of the Offense”.
(C. 299-305.)

His examination of the defendant was limited to determining whether “he

certainly would be capable of assuming the role of Defendant at this time.” (C. 305.) Dr.
DeFrancisco did not consider himself to be a mitigation witness and did not conduct a mitigation
investigation. Because of the limited nature of his inquiry, he spent a total of 2.5 hours with Mr.
Jones and administered only two tests. (C. 300.) He was not asked to perform a psychopathy
test or a comprehensive reading test (R. 1453); was not asked to seek independent corroboration
of Mr. Jones’ drug or substance abuse (R. 1454); was not given his school records or Dr.
Williams’ records (R. 1455, 1443); did not independently investigate his family history of drug
abuse, trauma, and instability (R. 1457); and did not review his county jail records. (R. 1459,

- 184 App. 349

1478-79.) Dr. DeFrancisco did not know that Mr. Jones was been beaten hundreds of times
since early childhood and grew up in a drug ridden, utterly impoverished household. He did not
know that Mr. Jones’ stepfather taught him to become a drug dealer while a teenager. He did not
know the details of the extreme poverty and deprivation in which he was raised.

Dr.

DeFrancisco also did not know of the repeated acts of kindness to family members rendered by
Mr. Jones growing up. He was unaware that he would try to protect his younger sister when she
was bullied and teased at school because she wore obtrusive hearing aids. He did not know that
Mr. Jones would attempt to protect his mother when she was being beaten by his stepfather.
These facts are particularly significant in connection with defense counsel’s inexcusable
questioning as to whether Mr. Jones is a “sociopath.” (See Section III.A.8, incorporated herein
by reference.)
461.

During his testimony at the penalty phase, Dr. DeFrancisco merely answered the

questions asked. He was not asked to explain details of Mr. Jones’ emotional illnesses and the
documented linkage of extreme poverty, physical abuse, emotional abuse and drug abuse to
conduct.
462.

Dr. DeFrancisco, in addition to being board certified in forensic psychology, is

also certified in psychopharmacology. He is an expert on the medications utilized to treat mental
illness. He has been qualified as an expert by the Alabama courts to testify in the field of
medicines use to treat mental illnesses and their effectiveness and side effects. He was never
questioned about his psychopharmacological expertise. Had he been asked to do so, he would
have described the medications that had been prescribed for Tony (Ritalin, Zoloft, Tenex, and
Wellbutrin) and their effects.

- 185 App. 350

463.

Dr. DeFrancisco could further have testified that, if the evidence established that

Mr. Jones’ mother discontinued giving him his medications or lowered his dosage against
doctor’s orders, that omission would also have aggravated his mental health condition. The
above testimony will be supplemented by an additional expert on the medications. Although
counsel has been able to gather the crucial mitigation evidence outlined above, undersigned
counsel is still seeking additional information regarding trial counsel’s failure to properly
investigate and present evidence of long term mental illness via Dr. DeFrancisco and will
supplement this section of the petition with those details as soon as they become available.
8.
464.

Dr. DeFrancisco’s truncated and incomplete testimony does not cure
the ineffectiveness of counsel or resulting prejudice.

The ineffectiveness of counsel caused by their failure to elicit evidence from Dr.

Jacobs, family members and introduce documentary records is not cured by the fact that counsel
defense called Dr. DeFrancisco, or others, as witnesses. Even where some evidence is presented,
when it is done so in a truncated fashion and constitutes only a “hollow shell” of the mitigation
evidence that was available, representation is ineffective. Collier v. Turpin, 177 F. 3d 1184 (11th
Cir. 1999). The Supreme Court has clearly stated that claims of ineffective assistance of counsel
are not limited to cases in which no mitigation evidence was presented. Sears v. Upton, 130 S.
Ct. at 3266 (“We have never limited the prejudice inquiry under Strickland to cases in which
there was only ‘little or no mitigation evidence’ presented.”); see also Cooper, 646 F. 3d at 1354
(finding prejudice where “‘[t]he description, details and depth of abuse in [the defendant’s]
background that were brought to light in the evidentiary hearing far exceeded what the jury was
told.’”) (quoting Johnson, 643 F.3d at 936). The precedent is clear: where incomplete evidence
was presented regarding a defendant’s mental illness, representation was both ineffective and
prejudice is established. See, e.g., Porter, 130 S. Ct. at 454 (finding prejudice where counsel

- 186 App. 351

failed to discover and present evidence regarding the defendant’s “brain abnormality, difficulty
reading and writing, and limited schooling”); Cooper, 646 F.3d at 1355 (finding prejudice where
the defendant “had only a seventh-grade education and had learning deficits”).
465.

The Direct examination of Dr. DeFrancisco failed to elicit key evidence of which

defense counsel and the witness were aware. Most importantly, it was never elicited that Mr.
Jones problems started in kindergarten. Trial counsel knew this because they possessed Dr.
Jacobs’ report. The defense also utterly failed to have Dr. DeFrancisco explain to the jury what
mental illness were at play and those illnesses’ origins. They also failed to elicit the causal
connections between the mental illnesses suffered by Mr. Jones and his upbringing.

The

misplaced emphasis was on why he did not succeed academically in school due to his low IQ
and hyperactivity. (R. 1431-36.) Their glaring failure was to muster the detailed evidence that
Mr. Jones had enormous issues from early childhood, with a likely explanation being severe
abuse and neglect. What was required in order to effectively present the mitigation evidence was
a multi-hour tutorial for the jury and judge so that they would understand Mr. Jones’ afflictions
and causal factors. Instead, the presentation was “seat of the pants” and cursory.
466.

The prejudice that resulted from defense counsel’s failure to have Dr.

DeFrancisco supplement his presentation from available records in detail, and to independently
present and that evidence, is objective. In his closing argument for the penalty phase, the
prosecutor argued that the defense failed to establish mitigating factors due to the lack of
evidence that was presented:
Dr. DeFrancisco, what he tells you is it important, what the Defendant tells you,
his demeanor. Oh, yes, he had a drug problem, alcohol, cocaine, marijuana. He
took all these drugs. I said, excuse me, excuse me, did you ever hear the Defense
one time, one stinking time ask his own witness, his own mother, his own aunt,
his own sister about whether he had a drug problem in any manner or fashion, he
used drugs, cocaine, marijuana in any manner or fashion. Zero. None.

- 187 App. 352

(R. 1479.)
You heard from the testimony the Defense witnesses got up there, from his
mother, his aunt, that he didn't have a bad life. That the house had been checked
on by human resources. The reports were not founded in any manner or fashion.
Not one time did the Defense ask any members of his family, were you using
drugs. Mother, did anybody in the family use drugs. Did they drink alcohol. Did
they treat him bad. Did he have a bad life.
(R. 1474.)
467.

But for the failures of the defense counsel, no such prosecution closing argument

would have been possible. Rather than allowing the prosecutor to point out that the mitigation
case was not proven by the defense, it would have been corroborated by witness after witness,
buttressed by third party records.
468.

Lawyers in capital cases are ineffective where they bolster the State’s aggravation

case or vilify their own client. Hooks v. Workman, 689 F.3d 1148, 1203 (10th Cir. 2012)
(prejudice found where “mental health evidence presented was inadequate and quite
unsympathetic; and [counsel] not only failed to rebut the prosecution’s case in aggravation but
actually bolstered it…”). Here, Mr. Jones’ lawyers asked the most harmful question imaginable
in a death penalty case:
Q: What is a sociopath?
A: A sociopath is person who acts out, commits crimes without conscious,
without remorse, without guilt. Do you want me to expound on that?
Q: Well, let me ask you this. In your determination is Antonio Jones a
sociopath?
A. So say – I would say he has sociopathic traits and trends which are
understood by his background and his basic personality makeup. Yes, he has
those traits.
(R. 1440.)

- 188 App. 353

469.

Dr. DeFrancisco did not know he would be asked these questions and he was

taken by surprise. At a Rule 32 hearing he will testify that his answer was inaccurate and
incomplete given the absence of information he was provided. He did not know that Mr. Jones
showed a pattern of protective behavior to loved ones, including his sister and mother. Dr.
DeFrancisco was unaware that Mr. Jones protected his mother from physical assault by
Demetrius. He did not know that Mr. Jones tried to protect his sister in school against bullies
who teased her about her hearing aids. These qualities are inconsistent with sociopathy and Dr.
DeFrancisco would have answered the question in a very different manner if he had received this
information. He would have testified that Mr. Jones did have healthy emotional impulses and
the persons like him could have benefitted from long term therapy where they gain insights into
proper behavior. Such evidence would have been valuable mitigation. Instead, the jury heard
only evidence that Mr. Jones was a sociopath, evidence that vilified Mr. Jones and could only
have bolstered the State’s aggravation case. Hooks, 689 F.3d at 1203.
470.

Once they blundered into this line of questioning, trial counsel was ineffective by

failing to place his disorder in context. Available to them were DHR records showing numerous
interventions, the report of Dr. Jacobs showing his illnesses originated as early as age six (when
children are not volitional), as well heart wrenching details about how he was raised (hundreds of
beatings, rat infested homes, moving 20-plus times, being hungry, being emotionally abused,
etc.).
471.

Had Dr. DeFrancisco been properly prepared to testify and had counsel engaged

in a thorough and meaningful direct examination of this expert witness, the jury would have been
presented with valuable mitigation evidence and there is a reasonable probability that the jury

- 189 App. 354

would not have recommended the death penalty and Mr. Jones would not have been sentenced to
death. See Strickland, 466 U.S. at 494.
472.

Had counsel performed at the required standards a robust and coherent view of

how Mr. Jones’ developmental and emotional illnesses would have been developed to the allow
the jury and judge to “reduce the ballast on the aggravating side of the scale.” Porter, 130 S. Ct.
at 454. The mitigation evidence was relevant “because of the belief, long held by this society,
that defendants who commit criminal acts that are attributable to a disadvantaged background, or
to emotional and mental problems, may be less culpable than defendants who have no such
excuse.” California v. Brown, 479 U.S. 538, 545 (1987) (O’Connor, J., concurring).
9.
473.

The Defense Failed to Properly Prepare and Examine Edwina Culp.

Defense counsel’s lack of preparation was again apparent during the examination

of Edwina Culp, Mr. Jones’ GED teacher at the Alfred Saliba Family Services Center. Rather
than eliciting and capitalizing on favorable testimony Ms. Culp could offer, trial counsel
deficiently and prejudicially examined her. Indeed, counsel’s eight-page-long direct examination
consisted of only three pages of particularized testimony. The other five pages consisted of
qualifying testimony and generalized questions. (R. 1372-80.)
474.

When counsel did ask particularized questions, they either asked questions that

Ms. Culp was unqualified to answer or questions that were devoid of context. For example, Ms.
Culp testified that she taught Mr. Jones between 1998 and 1999 and that Mr. Jones was “kind,”
“meek,” “not aggressive,” “not a troublemaker,” and quiet. (R. 1379.) Trial counsel, however,
failed to appreciate the value and import of this testimony and, as a result, failed to provide
context for the jury’s understanding.
475.

At other times, counsel asked Ms. Culp questions that she was unqualified to

answer. Counsel asked her whether someone with an intelligence quotient (IQ) of eighty-one
- 190 App. 355

would have difficulty retaining information. (R. 1378.) Counsel failed to point out that the IQ
test of Mr. Jones that was in question had been hastily administered and that, therefore, its results
were unreliable. Furthermore, Ms. Culp was unable to offer favorable testimony in response and
instead equivocated because she was not qualified to answer the question. (R. 1378.) When
counsel asked Ms. Culp whether Mr. Jones’ classification (between the sixth and eighth grade
level, at age sixteen) was common in the general population, Ms. Culp replied that she was not
qualified to answer the question. (R. 1387.)
476.

Further, when counsel asked Ms. Culp about Mr. Jones’ disabilities, she said she

thought that he had Attention Deficit Disorder (ADD). (R. 1388.) Counsel’s lack of familiarity
with Mr. Jones’ background precluded them from recognizing the mistake and correcting Ms.
Culp’s testimony by introducing evidence that Mr. Jones in fact had been diagnosed with
Attention Deficit Hyperactivity Disorder (ADHD). Nevertheless, Ms. Culp was allowed to
conjecture on the general effect of ADD until the trial court sustained the prosecution’s objection
that she was unqualified to do so. (R. 1389.) On cross examination, the prosecution asked about
Mr. Jones’ excessive absences from school. (R. 1382.) Because trial counsel had failed to
adequately investigate the issue during interviews of Mr. Jones and his family, they were
unaware that the absences were due in part to Mr. Jones’ mother’s insistence that he not attend
school while he was incapacitated by the heavy dosage of mind-altering medications that he was
taking and were, as a result, unable to offer testimony rebutting any negative impact Ms. Culp’s
testimony might have had. Furthermore, Ms. Culp’s lack of qualification to provide testimony
regarding the effect of Mr. Jones’ diagnosis underscored the defense’s need for an expert who
could actually provide that potentially mitigating evidence.

- 191 App. 356

477.

Had Ms. Culp been properly prepared to testify and had counsel engaged in a

thorough and meaningful direct examination of this witness, the jury would have been presented
with valuable mitigation evidence and there is a reasonable probability that the jury would not
have recommended the death penalty. See Strickland, 466 U.S. at 494.
10.
478.

Defense counsel’s failures to investigate and present mitigating
evidence were individually and cumulatively prejudicial.

Had counsel conducted an adequate investigation, the jury would have been

presented with the “‘kind of troubled history [courts] have declared relevant to assessing a
defendant’s moral culpability.’” Porter, 130 S. Ct. at 454 (quoting Wiggins, 539 U.S. at 535).
Courts have found prejudice where, as here, due to a deficient investigation, defense counsel
fails to discover and present evidence of instability, poverty, physical abuse, substance abuse and
exposure, and mental and cognitive issues. See, e.g., Hardwick, 320 F.3d at 1177; Gamble, 63
So. 3d at 719-20; Rompilla, 545 U.S. at 392 (“no indoor plumbing” and the defendant “slept in
the attic with no heat”); Ferrell, 640 F.3d at 1230; Porter, 130 S. Ct. at 454; Williams v. Taylor,
529 U.S. at 395; Williams v. Allen, 542 U.S. at 1342; Cooper, 646 F.3d at 1355; Sewell v.
Anderson, 663 F.3d 783, 796

(6th Cir. 2011) (prejudice found where “[i]n contrast [the

presented mitigation case] family members offered first-hand, eye witness accounts of specific
examples of extreme poverty and abuse”).
479.

Here, because of the sheer ineptitude of trial counsel’s investigation and

presentation of testimony, the defense presented an utterly inaccurate picture of an essentially
stable home environment, something that the prosecutor jumped on in his closing:
You heard from the testimony the Defense witnesses got up there, from his mother, his
aunt, that he didn't have a bad life. That the house had been checked on by human
resources. The reports were not founded in any manner or fashion. Not one time did the
Defense ask any members of his family, were you using drugs. Mother, did anybody in
the family use drugs. Did they drink alcohol. Did they treat him bad. Did he have a bad
life.” (R. 1474.)
- 192 App. 357

480.

What little evidence was offered in mitigation was woefully inadequate and

ineffectively presented. Foust v. Houk, 655 F.3d 524 (6th Cir. 2011) (prejudice found where
“the testimony at the mitigation hearing ‘only scratched the surface of [petitioner’s] horrific
childhood’”) (citation omitted); Cooper, 646 F.3d at 1353 (prejudice was found where counsel
failed to adequately interview family members with knowledge of abuse and the mother’s
testimony “did not begin to describe the horrible abuse” described by the petitioner’s brother and
sister); James v. Ryan, 679 F.3d 780, 810 (9th Cir. 2011) (prejudice was found where “federal
habeas counsel developed a detailed picture of [petitioner’s] troubled childhood, his mental
illness, and his downward spiral of depression and drug abuse in the year before the murder.
Such a portrait, attention to [petitioner’s] ‘character and record,’ as well as the ‘possibility of
compassionate or mitigating factors stemming from the diverse failures of humankind’ is a
‘constitutionally indispensable part of the process of inflicting the penalty of death’”) (citation
omitted); Bond v. Beard, 539 F.3d 256, 280 (3d Cir. 2008) (post-conviction testimony “painted a
very different picture than that presented at the penalty hearing.” The evidence showed that the
defendant “endur[ed] an extremely troubled and deprived childhood.” The Court noted that
“Strickland permits relief where, as here, trial counsel presented some mitigation evidence but
could have introduced evidence that was upgraded dramatically in quality and quantity.”).
B.

Trial counsel were ineffective because they failed to retain the assistance of a
forensic pathologist.

481.

Counsel were also ineffective in failing to secure the services of an independent

forensic pathologist to rebut the State’s expert. As noted above, a criminal defendant’s right to
the benefit of expert assistance is constitutionally recognized and protected.

See Ake v.

Oklahoma, 470 U.S. 68 (1985); Griffin v. Illinois, 351 U.S. 12 (1956); Gayle v. State, 591 So. 2d

- 193 App. 358

153 (Ala. Crim. App. 1991). Had counsel acquired the assistance of a forensic pathologist, there
is a reasonable probability that they jury would not have recommended the death penalty and that
Mr. Jones would not have been sentenced to death.
482.

During the guilt phase of Mr. Jones’ trial, the State called Dr. Alfredo Paredes,15 a

forensic pathologist, to testify regarding his examination of the victim’s bodies and the cause of
death. (R. 909.) Dr. Paredes testified that the victim’s injuries occurred while she was standing
up. The defense sought to prove that the victim’s injuries could have occurred while she was
unconscious and laying down. However, without an expert of their own, members of the jury
were not inclined to adopt the defense’s seemingly unsupported theory over what appeared to be
scientific evidence.

Further, defense counsel compounded their failure to present expert

testimony by bafflingly arguing during the defense’s opening statement in the sentencing phase,
that “[i]f a person is unconscious when their body is being mutilated, they are not aware, they
don’t know what’s going on. If they are aware of it, it’s the worse crime and deserves more
punishment, and that’s why the statute provides for that.”

(R. 1308.) (emphasis added).

Considering that the only expert testimony was from Dr. Paredes, who testified the victim had
been conscious for at least part of the beating, defense counsel effectively conceded that his
client should be sentenced to death if the jury accepted Dr. Paredes’ testimony.

By not

presenting an alternative to Dr. Paredes’ testimony, the defense essentially left no alternative for
the jury but to accept Dr. Paredes’ testimony.
483.

Had counsel hired an independent pathologist, this expert could have established

that the victim’s injuries could have been sustained in a different manner than that asserted by
the State, including while the body was in state custody. (See infra Section III.C, incorporated
herein by reference. ) Further, an independent pathologist could have established that a person
15

In the record, Dr. Paredes’s last name is incorrectly spelled “Parades.”

- 194 App. 359

of Ms. Kirkland’s age and condition would likely have been rendered unconscious soon after the
beating began. However, the absence of a defense forensic pathologist left unrebutted Dr.
Paredes’ conclusion that Ruth Kirkland sustained most of her injuries while standing, that she
was conscious during most of the assault, that some of the fractures did not occur during
transportation, that some of the injuries were not bruises common to old age, and that these
injuries caused her death.
C.

Counsel’s failure to challenge the lack of evidence of the chain of custody for
the victim’s body resulted in the improper admission of autopsy reports and
other testimony regarding the victim’s injuries.

484.

During the guilt phase, Dr. Alfredo Paredes testified that the victim died from

blunt force trauma, resulting from several body blows, including skull injuries and multiple rib
fractures. (R. 909-78.) However, the validity of Dr. Paredes’ examination, which assumed that
all of Ms. Kirkland’s bruises and injuries were caused by her assailant, was critically undermined
by the State’s failure to prove the chain of custody for the victim’s body. Indeed, there is simply
no evidence to establish who retrieved the body from the crime scene, how it was handled, where
it was transported, how it was stored, and how it eventually arrived in Dr. Paredes’ custody two
days after it was taken from the crime scene. (R. 1095.)
485.

Without this evidence, it is plausible that certain of the injuries or marks sustained

by Ms. Kirkland’s body were incurred during the transportation process. See Ex parte Holton,
590 So. 2d 918, 920 (Ala. 1991) (reaffirming that the State must establish a chain of custody
without breaks in order to lay a sufficient predicate for admission of evidence). Defense counsel
failed to object to Dr. Paredes’ testimony on chain of custody grounds. Had they, the trial court
would have been required to prohibit the admission of the autopsy reports and testimony

- 195 App. 360

regarding the victim’s alleged injuries and the jury would have concluded that Ms. Kirkland’s
injuries did not reflect intentional murder.
D.

Defense counsel failed to guard against prosecutorial misconduct at the
penalty and sentencing phases.

486.

Defense counsel’s ineffectiveness at the penalty phase was not limited to their

failure to investigate and present mitigation evidence. They also failed to object to several
instances of prosecutorial misconduct. They abdicated their constitutional obligation to Mr.
Jones and rendered the adversarial process meaningless, resulting in a death recommendation
after only thirty-seven minutes of deliberation. (R. 1530.) Counsel failed to object when the
prosecutor unlawfully infringed upon Mr. Jones’ right against self-incrimination, misstated the
law, argued facts not in evidence, relied on nonstatutory aggravating circumstances, and made
inflammatory remarks. But for counsel’s inaction, the jury would not have been exposed to
prosecutorial misconduct – or the trial court would have given curative instructions – and there is
a reasonable probability that Mr. Jones would not have been sentenced to death.
487.

Defense counsel deficiently and prejudicially failed to object to the prosecutor’s

unlawful comments on Mr. Jones’ silence. It is well settled that a “comment on the refusal to
testify is a remnant of the ‘inquisitorial system of criminal justice,’ which the Fifth Amendment
outlaws.” Griffin v. California, 380 U.S. 609, 614 (1965) (adding, “[i]t is a penalty imposed by
courts for exercising a constitutional privilege. It cuts down on the privilege of making its
assertion costly.”); see also Mitchell v. United States, 526 U.S. 314, 329 (1999) (holding that the
Griffin “rule against negative inferences at a criminal trial apply with equal force at
sentencing…. to protect a defendant from being the unwilling instrument of his or her own
condemnation”).

- 196 App. 361

488.

During his penalty phase closing, the prosecutor, speaking about Mr. Jones, asked

the jury, “[d]id you watch him during the trial when they testified, when his own mother was
crying? He was cold as he could be. Didn’t effect [sic] him in any manner or fashion. In no
way.” (R. 1479.) This comment violated Griffin because only Mr. Jones could have rebutted the
prosecutor’s argument, and the prosecutor may not ask the jury to draw negative inferences from
a defendant’s silence. Counsel, however, failed to protect Mr. Jones’ constitutional right and
allowed the jury to rely on his silence as a factor in their sentencing determination. See Arthur v.
State, 575 So. 2d 1165, 1186 (Ala. Crim. App. 1990) (noting that “comment on the defendant’s
failure to testify is to be scrupulously avoided”). Had counsel objected, the jury would have
been precluded from drawing inferences from Mr. Jones’ silence and there is a reasonable
probability that they jury would not have recommended the death penalty and that Mr. Jones
would not have been sentenced to death.
489.

Defense counsel deficiently and prejudicially failed to object to the District

Attorney’s misstatement of the law regarding mitigation. The District Attorney specifically
referred to the mitigating circumstances at issue in the case as “excuses.” He stated, “[a]nd Mr.
Brantley evidently he wants to stand up here and says because [Mr. Jones] didn’t have a father,
didn’t have a father figure, he has low intelligence. These are excuses.” (R. 1497.) Later, he
stated: “Used to be a sin was a sin. Now DeFrancisco says it ain’t nothing but a syndrome, an
excuse, a justification.”

(R. 1499.)

The prosecutor’s statement not only misstated Dr.

DeFrancisco’s testimony, it misstated the law.
490.

Mitigating circumstances are not excuses.

An excuse relieves a person of

criminal guilt. See Black’s Law Dictionary 649 (9th ed. 2009). A mitigating circumstance “does
not bear on the question of a defendant’s guilt” and “does not justify or excuse a wrongful act or

- 197 App. 362

offense.” Id. at 277. Instead, a mitigating circumstance weighs in favor of a lesser degree of
punishment without excusing the crime; it is any fact or condition that provides “a basis for a
sentence of life imprisonment without parole instead of death.” Ala. Code § 13A-5-52. See also
Woodson v. North Carolina, 428 U.S. 280, 304 (1976) (“A process that accords no significance
to relevant facets of the character and record of the individual offender or the circumstances of
the particular offense excludes from consideration in fixing the ultimate punishment of death the
possibility of compassionate or mitigating factors stemming from the diverse frailties of
humankind.”).
491.

A capital defendant has an Eighth Amendment right to present “relevant

mitigating evidence, including evidence . . . that falls short of constituting a legal excuse.”
Waters v. Thomas, 46 F.3d 1506, 1524 (11th Cir. 1995); see also Eddings v. Oklahoma, 455 U.S.
104, 113-16 (1982) (holding that a capital defendant has a right to present evidence that is
“useful in explaining” his behavior even if it does not “excuse” that behavior).
492.

Here, by equating mitigating circumstances with excuses, the District Attorney

misstated the law. Yet defense counsel failed to object to that misstatement. Counsel did not
have a tactical or strategic reason for their failure. Had counsel properly objected, the jury’s
understanding of mitigation would not have been tainted, and there is a reasonable probability
that the jury would not have recommended the death penalty. See Strickland, 466 U.S. at 494.
493.

Defense counsel deficiently and prejudicially failed to object to arguments about

vulnerable victim, police officer grandson, and deterrence. Defense counsel deficiently and
prejudicially failed to object to the District Attorney’s argument that the jury should consider the
victim’s familial relationship to a police officer, focus on the age of the victim, and vote for
death for the purpose of deterring others.

- 198 App. 363

494.

The District Attorney specifically referred to the fact that the victim’s grandson

was a police officer, (R. 1475), and also argued as follows:
[Senior citizens] built this community. They invested in this community. You
know who they are. You know them when you see them on the street. Whether
they walk down the street and they use a cane and they are white or black and
whether they cross the street, they are senior citizens. We owe them the
constitution. We owe them justice and law. Take the sword of justice in this
case, take this cane, and ram it right through his guilty heart and give him death
and have the courage, the courage in this case to make sure they know
everywhere in this community . . . . Tell people in this community the eightyyear-old women are just as important as Mr. Brantley says some eighteen-yearold is who took the law into his own hands and became judge, jury, and
executioner. It’s important you send a message twelve to zero in this case.
(R. 1508-09.) See also S. 7 (the District Attorney arguing at the judicial sentencing proceeding
that the death penalty was appropriate in this case “to deter others”).
495.

The prosecutor’s statements were meant to inflame the jury members and appeal

to their emotions while simultaneously encouraging them to sentence Mr. Jones to death for
reasons that are wholly immaterial and improper. Under Alabama law, a victim’s age and
familial relationship to a police officer are irrelevant to the sentencing determination in a capital
case because they constitute non-statutory aggravation. See Knight v. State, 907 So. 2d 470, 483
(Ala. Crim. App. 2004) (“‘A trial court may consider only those aggravating circumstances listed
in § 13A-5-49 in fixing the death penalty.’”) (citations omitted); Ala. Code § 13A-5-49
(identifying the aggravating circumstances). For the same reason, it is improper for a prosecutor
to argue that the jury should vote for death to “send a message” to others. In addition, any
argument about deterring others necessarily contemplates a non-individualized sentence and
therefore violates the Eighth Amendment. See Woodson, 428 U.S. at 304 (holding that for
sentencing purposes a capital defendant must be judged as a “uniquely individual human being”).

- 199 App. 364

Nevertheless, defense counsel failed to object to the District Attorney’s improper arguments.
They did not have a strategic reason for that failure.
496.

Had counsel properly objected to the District Attorney’s arguments invoking

improper sentencing considerations, the jury would have limited its sentencing analysis to the
statutory aggravating circumstances and the mitigating circumstances. There is a reasonable
probability that if the jury had conducted a proper analysis, it would not have recommended the
death penalty and Mr. Jones would not have been sentenced to death. See Strickland, 466 U.S. at
494.
497.

Defense counsel deficiently and prejudicially failed to object to improper

testimony regarding Mr. Jones having filed a lawsuit and using profanity. Defense counsel failed
to object to prosecutorial misconduct in introducing non-Aggravating factors. The State relied
on only two aggravating factors in seeking the death penalty; commission of a capital offense
while engaging in a burglary; and committing a specially heinous, atrocious or cruel murder. (R.
1299-1300.) Under Alabama law the State is limited to the aggravating factors it can present. See
Knight, 907 So. 2d at 483 (“‘A trial court may consider only those aggravating circumstances
listed in § 13A-5-49 in fixing the death penalty.’”) (citations omitted).
498.

After the defense rested its mitigation case, the State called Houston County Jail

Administrator Lucy Williams as a rebuttal witness.

Her testimony was mainly geared to rebut

the poorly presented testimony by certain family members that Mr. Jones might have value in a
prison environment working with other prisoners. (R. 1405-1414.) However, the State greatly
exceeded the allowable scope of rebuttal evidence by presenting evidence on factors having
nothing to do with right to put someone to death or the belief of family members he might help
other prisoners.

As evidence of Mr. Jones’ bad prison behavior, the prosecutor elicited

- 200 App. 365

testimony that Mr. Jones not only filed a lawsuit, but that it was a federal lawsuit. (R. 1408.)
Filing lawsuits is constitutionally protected and cannot constitute a basis for consideration of the
death penalty. Seeking judicial redress is a constitutionally protected right and does not
constitute any evidence whatsoever relevant to the State’s request to put someone to death.
Bounds v. Smith, 430 U.S. 817, 821 (1977) (“It is now established beyond doubt that prisoners
have a constitutional right of access to the courts.”) By pointing out to the jury that it was a
federal suit, the prosecutor made a thinly veiled reference to historical tension between the
federal courts and certain regions of the country.
499.

The prosecutor also elicited testimony that Mr. Jones used curse words (R. 1363,

1395) and then used this fact to suggest to the jury that Mr. Jones character as “a bully [who]
likes to intimidate, do things, chooses what he wants…” (R. 1480) warranted sentencing him to
death. This too is constitutionally permitted and cannot serve as the basis for a death penalty. A
person’s use of obscene language is protected under the first amendment and is equally irrelevant
to the death penalty. See Cohen v. California, 403 U.S. 15, 25-26 (1971). Filing lawsuits and
swearing are not recognized under Alabama law as aggravating factors. Adequate defense
counsel would have objected, moved to strike any responsive answer, and sought curative
instructions.
500.

The presentation of improper aggravating factors is grounds for reversal.

Brownlee v. Haley, 306 F.3d 1043 (11th Cir. 2002). While trial counsel attempted to keep out
evidence that Mr. Jones had filed a lawsuit, they objected only that the evidence was irrelevant as
it went to Mr. Jones’ conduct. (R. 1406-1408.) Unfortunately, due to the defense’s own earlier
line of questioning regarding how Mr. Jones would contribute in prison, the court allowed the
testimony to come in as rebuttal. (R. 1408.) At no point did trial counsel argue that this was

- 201 App. 366

evidence being improperly introduced as non-statutory aggravating factors.

Had counsel

objected to the introduction of improper aggravating factors, there is a reasonable probability that
the jury would not have recommended the death penalty and that Mr. Jones would not have been
sentenced to death. Brownlee, 306 F.3d 1076-79; Strickland, 466 U.S. at 494.
501.

Defense counsel deficiently and prejudicially failed to object to duplicitous and

cumulative testimony introduced by the State at the penalty phase. The State called Dr. Paredes
at the penalty phase to provide the same testimony he provided at the guilt phase even though all
the guilt-phase evidence was incorporated at the penalty phase.

Indeed, at both phases, Dr.

Paredes described the victim’s injuries, (R. 928-78, 1310-27); explained the cause of her death,
(R. 949, 1328); and suggested that she was alive and conscious during the incident, (R. 950,
1309-10).
502.

Rule 403 of the Alabama Rules of Evidence prohibits evidence if its probative

value is “substantially outweighed by the danger of unfair prejudice, confusion of the issues, or
misleading the jury, or by considerations of undue delay, waste of time, or needless presentation
of cumulative evidence.”
503.

Dr. Paredes’ penalty-phase testimony was cumulative and prejudicial because the

State had already presented the same testimony at the guilt phase. Also, as explained above, the
State failed to establish a chain of custody for the handling of the victim’s body. (See Section
III.C, incorporated herein by reference.) Without any strategic reason, counsel did not object to
Dr. Paredes’ penalty-phase testimony on either of those grounds.
504.

Had counsel objected to Dr. Paredes’ penalty-phase testimony for the reasons

explained above, the State would not have been permitted to overwhelm the jury with excessive
testimony about the victim’s injuries. Without that excessive testimony, there is a reasonable

- 202 App. 367

probability that the jury would not have recommended the death penalty and Mr. Jones would
not have been sentenced to death.
505.

Defense counsel deficiently and prejudicially failed to object to the District

Attorney’s improper argument regarding the sentences imposed in other cases. The District
Attorney addressed the facts of four other capital cases when examining Dr. Paredes in an effort
to demonstrate that the offense in this case was heinous, atrocious, and cruel as compared to
other cases. (R. 1328-30.) Ala. Code § 13A-5-49(8) (defining the aggravating circumstance that
an offense was especially heinous, atrocious, and cruel). However, the District Attorney then
took the additional step of informing the jurors in his closing argument that the defendants in
those cases received the death penalty. He stated:
You remember I asked before Dr. Parades? I asked about Artez Hammonds with Marilyn
Mitchell. I asked about Ms. Keel. I asked about Beckworth and Walker who killed
Bessie Thweatt. I asked about Ella Foy Riley who was killed in Abbeville. And Dr.
Parades took all those four capital murder cases that I prosecuted, each and every one of
them, and they got death, that this was the worse [sic] case that he had ever seen for a
human being that had beat to death and suffered in this manner or fashion.
(R. 1497.)
506.

Alabama law and the Eighth Amendment prohibit consideration of the sentences

imposed in other cases in a capital sentencing proceeding. As the Alabama Court of Criminal
Appeals explained in Coulter v. State, 438 So. 2d 336 (Ala. Crim. App. 1982):
In the sentencing phase of the trial, the fact that [another defendant] did not receive the
death penalty is no more relevant as a mitigating factor for the defendant than the fact
that [another defendant] did receive the death penalty would be as an aggravating
circumstance against him. Simply put, [another defendant’s] sentence has no bearing on
the defendant’s character or record and it is not a circumstance of the offense.

- 203 App. 368

Id. at 345, aff’d, 438 So. 2d 352 (Ala. 1983); see Ex parte Tomlin, 909 So. 2d 283, 287 (Ala.
2003) (same principle); see also Woodson, 428 U.S. at 304 (holding that for sentencing purposes
a capital defendant must be judged as a “uniquely individual human being”).
507.

Here, the District Attorney violated the law by informing the jury of the sentences

imposed in other cases. The District Attorney’s argument was that the jury should recommend
the death penalty for Mr. Jones because other defendants who committed similar or worse crimes
received the death penalty. That argument was improper. Nevertheless, Mr. Jones’ counsel
failed to object to it. In fact, they compounded the improper testimony by essentially agreeing
with it in the defense’s opening statement to the penalty phase when Mr. Parker paraphrased Dr.
Paredes’ view of the case by stating that “[t]his may very well be the worse one [beating] that
he’s [Dr. Paredes] seen. And I would imagine so.” (R. 1304.) (emphasis added).
508.

Their failure to object was not a strategic matter. They simply misunderstood the

applicable law. See Kimmelman v. Morrison, 477 U.S. 365, 385-87 (1986) (holding that an
attorney performed deficiently where he failed to file a motion because he did not understand the
applicable law).
509.

Had counsel objected to the District Attorney’s argument, the trial court would

have ensured that the jury did not consider the sentences imposed in other cases and did not vote
for a death sentence in an effort to be consistent with other cases.

Therefore, there is a

reasonable probability that, but for counsel’s failure to object to the District Attorney’s improper
argument, the jury would not have recommended the death penalty and Mr. Jones would not
have been sentenced to death. See Strickland, 466 U.S. at 494.
E.

The defense failed to request appropriate jury instructions.

510.

Related to counsel’s failure to investigate and present powerful evidence was their

very serious failure to request appropriate mitigation jury instructions. Only three mitigation
- 204 App. 369

factors were presented to the jury for deliberation at the request of the defense. These were:
hyperactivity or hyperkinesia; growing up without the benefit of a father or father figure;
growing up in a home periodically requiring assistance of the Department of Human Resources.
(C. 275-84.) All of this was unpersuasive because counsel never developed the evidence that
might support the jury finding facts supporting these mitigation findings. This prejudice was
established by the prosecutor’s own words, who effectively argued that there was no evidence
Mr. Jones had a tragic upbringing. (R. 1473-74).
511.

Had defense counsel presented the readily discoverable and available evidence,

the jurors would have been given a lengthy set of additional jury instructions which it could have
used to find that the mitigating factors outweighed the aggravating factors. These would have
included: having been beaten by virtually every adult member of his family since age five –
literally hundreds of times; chronic use of drugs; drug usage encouraged by adult family
members; being enlisted to help his step father in his illegal drug dealing occupation; extremely
low end intellectual functioning; extreme poverty and an upbringing that can only be described
as tragic.
512.

The failure to tender appropriate jury instructions was as serious an error as could

occur. Once the jury found the existence of an aggravating factor beyond a reasonable doubt, it
was required to weigh the aggravating factors against the mitigating factors. They were not given
the most persuasive factors on which the jury could have deliberated, nor did they competently
prove those that were given. As in Wiggins, the proper balancing of the scales between
aggravating and mitigating factors did not occur.

- 205 App. 370

F.

Counsel failed to argue that the death penalty is unconstitutional in this case
because Mr. Jones was barely past 18 years of age and suffers from mental illness
and low intelligence.
513.

Counsel was deficient in failing to argue to the trial court that the death penalty is

unconstitutional for Mr. Jones who was 18 years old at the time of the crime and suffers from
severely diminished mental capacity.
514.

The same social science data that prompted the United States Supreme Court to

declare the death penalty unconstitutional for those younger than 18 applies with equal force to
those just over age 18, as Mr. Jones was at the time of this crime. See Roper v. Simmons, 543
U.S. 551, 569 (2005). That is especially true when a teenager has mental health issues, including
untreated ADHD and serious learning impairments, as was the case here. (C. 315-17, R. 142943.) The lack of maturity and an “underdeveloped sense of responsibility,” in such individuals
results in “impetuous and ill-considered actions and decisions.” Roper, 543 U.S. at 569.
515.

Recognizing that teenagers engage in reckless behavior, the State of Alabama has

chosen to make the age of majority in the State nineteen, see Ala. Code 5 26-1-1 (1975), the
minimum age for jury service nineteen, see Ala. Code § 12-16-60(a)(1) (1975), and prohibits the
purchase of alcohol to any individual under the age of twenty-one. See Ala. Code § 28-1-5
(1975).
516.

Where Mr. Jones is within months of being conclusively determined to be

ineligible for the death penalty due to his youth and immaturity, his diminished mental capacity
surely renders him ineligible for the death penalty. Due to the ineffectiveness of his counsel only
a small portion of the available evidence about Mr. Jones mental deficiencies was introduced.
Nevertheless, there was uncontroverted evidence in the record that he spent much of his
childhood in special education classes, struggled academically, and only attended school until the
eleventh grade. (C. 299-305, R. 1356-57, 1428-36.) Evidence also established that he has an IQ
- 206 App. 371

of 81 and is functioning at the fifth or sixth grade level. (R. 1430, C. 302.) Counsel should have
argued on appeal that this evidence placed the 18-year-old Mr. Jones within the class of
offenders encompassed by the Supreme Court’s decision in Atkins v. Virginia, 536 U.S. 304
(2002). Had such an argument been made, it is likely the court would have reversed the death
sentence in this case.
517.

The combination of Mr. Jones’ age at the time of the offense and his level of

intellectual functioning place him on the borderline of eligibility for the death penalty with
respect to each category.

The combination of the two renders him ineligible.

See, e.g.,

Brownlee, 306 F.3d at 1052, 1070-75 (concluding that relief is warranted for those whose
characteristics border “right on the edge” of death penalty ineligibility because they “suffer[]
some of the same limitations of reasoning, understanding, and impulse control” as those that fall
within the class.”).
518.

Mr. Jones’ “diminished capacity[y] to understand and process information, to

communicate, to abstract from mistakes and learn from experience, to engage in logical
reasoning, to control impulses, and to understand the reactions of others,” places him squarely
within the class of offenders the Supreme Court has concluded are exempt from sentences of
death. Atkins, 536 U.S. at 318.
519.

For these reasons, the imposition of a death sentence in this case is both

inappropriate and a violation of Mr. Jones’ rights to due process and to be free from cruel and
unusual punishment pursuant to the Eighth and Fourteenth Amendments to the United States
Constitution, corresponding portions of the Alabama Constitution, and Alabama law.

Had

counsel argued this to the trial court, there is a reasonable probability Mr. Jones would not have
been sentenced to death.

- 207 App. 372

520.

Trial counsel was also ineffective by failing to argue this combination of

mitigating factors to the jury. See Ala Code Section 13A-5-52 (in the penalty phase, defendants
are permitted to offer “any aspect of a defendant’s character or record and any of the
circumstances of the offense … and any other relevant mitigating circumstance…”); Gamble, 63
So. 3d at 713 (counsel are required to “formulate an accurate life portrait of [the]
defendant”). The failure to present mitigating evidence regarding a defendant’s cognitive
abilities has been found to be prejudicial. Porter, 130 S. Ct. at 454. Had counsel argued to the
jury in the penalty phase that Mr. Jones should not be sentenced to death because the
combination of Mr. Jones’ age at the time of the offense and his level of intellectual functioning
place him on the borderline of eligibility for the death penalty with respect to each category,
there is a reasonable probability that they jury would not have recommended the death penalty
and that Mr. Jones would not have been sentenced to death. See Strickland, 466 U.S. at 494.
IV.

The State withheld favorable and material evidence from the defense, while
knowingly introducing false evidence to obtain a death sentence, in violation of
federal and state law.
521.

The State withheld evidence that was favorable and material to Mr. Jones despite

counsel’s requests. (C. 81-83, 121-23, 124-32.) See Brady v. Maryland, 373 U.S. 83, 87 (1963);
Giglio v. United States, 405 U.S. 150 (1972). Further, the prosecutor knowingly and falsely
denied that there was drug use in Mr. Jones’ childhood home. See Napue v. Illinois, 360 U.S.
264, 270 (1959); Ex parte Womack, 541 So. 2d 47, 59 (Ala. 1988). The State’s conduct in this
regard violated Mr. Jones’ rights under the Fifth, Sixth, Eighth, and Fourteenth Amendments of
the United States Constitution, the Alabama Constitution, and Alabama law. These violations
require that Mr. Jones’ conviction and death sentence be vacated and he be granted a new trial
because the constitutions of the United States and the State of Alabama require it, Ala. R. Crim.

- 208 App. 373

P. 32.1(a), and because these violations present newly discovered material facts that were not
known to Mr. Jones or his counsel at trial. Ala. R. Crim. P. 32.1(e).
A.

The State violated Brady v. Maryland and Napue v. Illinois by relying on false
testimony about drug use in Mr. Jones’ childhood home.

522.

Mr. Jones’ conviction was unconstitutional and must be reversed because District

Attorney Valeska misled the jury about crucial mitigating evidence during the penalty phase.
Mr. Jones’ mother, Jill Whitsett, testified at the sentencing phase, and told the jury that she did
not use illicit drugs or abuse alcohol. (R. 1347.) In reality, Ms. Whitsett had not only used
illegal drugs herself, she had purchased and given illicit drugs to her own children, including Mr.
Jones, for their use. In fact, the head of Mr. Jones’ household, his stepfather, Demetrius
Whitsett, was a long-time drug dealer who was well known to and had been convicted of drug
offenses by Mr. Valeska’s office.
523.

When the defense’s forensic psychologist, Dr. Robert DeFrancisco, contradicted

Ms. Whitsett’s testimony about drug use, (R. 1436, 1442), Mr. Valeska not only repeated Ms.
Whitsett’s statement that she did not use drugs or alcohol, (R. 1445–46), but used this disputed
evidence that he knew to be false in his closing argument:
The man [Dr. DeFrancisco] said in the report that society had
wrong [Mr. Jones]. Society had wronged him. That he had had a
tough life. You heard from the testimony the Defense witnesses got
up there, from his mother, his aunt, that he didn’t have a bad life.
That the house had been checked on by human resources. The
reports were not founded in any manner or fashion. Not one time
did the Defense ask any members of his family, were you using
drugs. Mother, did anybody in the family use drugs. Did they
drink alcohol. Did they treat him bad. Did he have a bad life.
(R. 1473–74, emphasis added.)
Were you sitting in the courtroom watching his mother when those
things were coming out [in Dr. DeFrancisco’s testimony] about

- 209 App. 374

how horrible a mother she was, how she reacted over there? She
got up and left the courtroom. She wasn’t a bad mother.
(R. 1479–80; emphasis added.)
524.

These statements were objectively false, and Mr. Valeska, the District Attorney,

knew that they were false. Only a few years before Mr. Jones was arrested, the Houston County
District Attorney’s Office had prosecuted Demetrius Whitsett for the sale of controlled substance
after he was arrested at the home Jill and Demetrius Whitsett shared with Jill’s son, Mr. Jones.
(See Exhibit MR Complaint dated May 9, 1997, Warrant No. WR 97 005513; Indictment by
Grand Jury, Case No. CC-97-1231).

Additionally, at the time of Mr. Jones’ prosecution,

Demetrius Whitsett was under federal indictment for trafficking crack cocaine.
525.

As a result, the State had ample information to corroborate Dr. DeFrancisco’s

testimony regarding drug use in the family home and the type of environment in which Mr. Jones
was raised. It was not a good life. For Mr. Valeska to represent otherwise to the jury was a
direct violation of Mr. Jones’ Fourteenth Amendment right to due process.
526.

Due process is violated when a prosecutor suppresses evidence favorable to the

accused that is material to guilt or punishment. Brady v. Maryland, 373 U.S. 83, 88 (1963). Due
process is also violated when the prosecution knowingly uses false evidence, including false
testimony, Napue v. Illinois, 360 U.S. 264, 269-70 (1959) (“a State may not knowingly use false
evidence, including false testimony, to obtain a tainted conviction”); Ex parte Womack, 541 So.
2d 47, 59 (Ala. 1988), A due process violation also occurs when the prosecutor is silent in the
face of testimony that he knows to be false. Alcorta v. Texas, 355 U.S. 28, 31 (1958). Where
information is clearly favorable to the accused, the prosecutor must disclose it even if the defense
does not request it.

U.S. v. Agurs, 427 U.S. 97, 107 (1976).

- 210 App. 375

All knowledge held by a

prosecutor’s office is imputed to the prosecutor himself, and is sufficient to trigger the duty to
disclose. Giglio v. U.S., 405 U.S. 150, 154 (1972).
527.

Evidence is “material” for Brady purposes if “the favorable evidence could

reasonably be taken to put the whole case in such a different light as to undermine confidence in
the verdict.”

Kyles v. Whitley, 514 U.S. 419, 435 (1995).

Materiality is not limited to

substantive issues; evidence that affects a witness’ credibility is also material for Brady purposes.
U.S. v. Bagley, 473 U.S. 667, 677 (1985); Giglio, 405 U.S. at 154.
528.

The evidence about the pervasiveness of unlawful activity in Mr. Jones’

childhood home was clearly material to the issue of his punishment. Mr. Valeska had knowledge
of the history of drugs in Mr. Jones’ childhood home when he allowed Ms. Whitsett’s false
testimony to pass without challenge, and then adopted the false testimony in his effort to have
the death penalty imposed. In January 1997 – when Mr. Jones was 15 – Mr. Whitsett was
arrested for selling marijuana to an undercover police officer, a Class B felony for which he was
eventually sentenced to 12 years in prison. The arrest occurred at the home Mr. Whitsett shared
with Mr. Jones, his mother, and his siblings. (See Exhibit R, Complaint dated May 9, 1997,
Warrant No. WR 97 005513; Indictment by Grand Jury, Case No. CC-97-1231). He was
prosecuted by the Houston County District Attorney’s Office, where Mr. Valeska himself served
as District Attorney. (Exhibit R, Case Action Summary, Case No. CC-97-1231). That arrest of
Mr. Jones’ stepfather for dealing drugs out of his house occurred when Mr. Jones was fifteen
years old, just three years before Mr. Jones’ arrest in this case.
529.

Furthermore, in the course of prosecuting Mr. Whitsett, Mr. Valeska’s office

surely became aware of his extensive criminal history, including a 1990 conviction in Florida for
possession of a controlled substance (Exhibit O, Court Order Report of Disposition, Case No.

- 211 App. 376

90-2618), a 1992 Florida conviction for delivery of cocaine to a person under 18 and resisting
arrest (Exhibit P, Judgment dated July 24, 1992, Case No. 92-627), and a 1993 Florida
conviction for possession of crack cocaine with intent to distribute (Exhibit Q, Judgment dated
April 20, 1994, Case No. 93-1827.) This history, all of which was known to Mr. Valeska, makes
clear that, contrary to the prosecution’s closing argument, Mr. Jones was raised in a household
dominated by illegal drugs.
530.

The evidence of illegal drug use in Mr. Jones’ childhood home and illegal drug

sales by family members would have cast the sentencing in such a different light that there is a
reasonable probability that, had Mr. Valeska not suppressed and actively denied that evidence,
Mr. Jones would not have been sentenced to death. The substantive value of this evidence was
significant, as the influence of drugs in the home colored much of Mr. Jones’ childhood
experience.
531.

Furthermore, Mr. Valeska used his false denial of drug use in the home to

wrongly attack the credibility of Dr. DeFrancisco, the defense’s sole expert witness regarding
sentencing. (R. 1479–80). Mr. Valeska’s suppression of this information, and his use of it to
send Mr. Jones to his death by negating a mitigating factor and discrediting the defense’s expert
witness, violate due process and require reversal. Kyles, 514 U.S. at 435.
532.

To the extent that the defense could or should have raised the issue of Mr.

Whitsett’s drug convictions, this is yet another instance of the ineffective assistance of counsel
that tainted Mr. Jones’ trial and sentencing. Mr. Parker and Mr. Brantley’s failure to directly
challenge Ms. Whitsett’s and Mr. Valeska’s false statements, whether caused by mere inattention
or by a failure to make an adequate investigation into their client’s background, cannot have been

- 212 App. 377

a tactical decision, and prejudiced Mr. Jones by allowing Mr. Valeska to falsely negate a
mitigating factor while also wrongly discrediting the defense’s expert witness.
533.

Mr. Jones’ conviction and sentence must be vacated in light of this constitutional

violation, as required by the constitutions of the United States and the State of Alabama. Ala. R.
Crim. P. 32.1(a). Furthermore, Alabama Rule of Criminal Procedure 32.1(e) requires that Mr.
Jones’ sentence be vacated because: these newly discovered material facts about the state’s use
of false testimony were not known to Mr. Jones or his counsel at trial; these new facts are not
cumulative to known facts; these facts do not amount to mere impeachment evidence; and Mr.
Jones would probably not have been sentenced to death had the proper facts been before the
court. Ala. R. Crim. P. 32.1(e).
B.

The State violated Brady by withholding evidence surrounding Mr. Jones’
custodial interrogation.

534.

Mr. Jones’ conviction was unconstitutional in violation of Brady because the State

suppressed evidence of police interrogation before Jones was alleged to have waived his
Miranda rights. This evidence, had it been made available to the defense, would have rendered
Mr. Jones’ eventual statement to police inadmissible as fruit of the earlier statements, and thus
presented a reasonable probability of acquittal.
535.

Mr. Jones was arrested around 9 p.m. on December 31, 1999. (R. 809). His

clothes were removed at the police station around 10:11 p.m. (Id. at 523, 537). Officers Jon
Beeson and Frank Meredith testified at trial that the police obtained the first Miranda “waiver” –
though it was unsigned – from Mr. Jones at 1:35 a.m. on January 1, 2000 (Id. at 285, 809).
Officer Beeson testified that “the original waiver” was obtained “at one-thirty-five [] when we
did the driving around.” (Id. at 1160). The police interrogated Mr. Jones between 9 p.m. and

- 213 App. 378

1:35 a.m. before they began “driving around.” They received material information that led to
subsequent searches and that officers used during later interrogations.
536.

The prosecution did not provide any report of a police interrogation between 9

p.m. and 1:35 a.m., nor did the prosecution provide a complete account explaining this time gap.
LaKeisha Jones, who was also in custody at that time, saw her brother’s head smashed against a
door during that period. No report of that incident was disclosed. Because any statement
obtained before 1:35 a.m. would have violated the requirements of Miranda v. Arizona, 384 U.S.
436 (1966), the subsequent statements, which were fruits of the first, would have been similarly
suppressed.
537.

Mr. Jones’ conviction and sentence must be vacated in light of this constitutional

violation, as required by the constitutions of the United States and the State of Alabama. Ala. R.
Crim. P. 32.1(a). Furthermore, Alabama Rule of Criminal Procedure 32.1(e) requires that Mr.
Jones’ conviction be vacated because: the state’s suppression of evidence was not known to Mr.
Jones or his counsel at trial; the newly discovered facts are not cumulative to known facts; these
facts do not amount to mere impeachment evidence; and these facts establish that Mr. Jones is
innocent. Ala. R. Crim. P. 32.1(e).
C.

The State violated Brady by suppressing evidence of other suspects
investigated by police.

538.

Mr. Jones’ conviction was unconstitutional in violation of Brady because the State

suppressed evidence of several other people who police investigated in connection with the
offense. But the State did not provide the defense with any information – such as audio or video
tape recordings, transcripts, or police reports – about all other suspects’ statements. In fact, the
prosecutor claimed during a pretrial hearing that he need not provide the defense with
information about any state witnesses who were unlikely to testify. (M. 13-4). This self-

- 214 App. 379

imposed standard has no bases in Alabama’s Rules of Evidence, and does not comport with the
Brady disclosure requirements.

The evidence was discoverable because it would have

corroborated Mr. Jones’ version of events, thereby exculpating Mr. Jones and creating a
reasonable probability of acquittal.
539.

Mr. Jones’ conviction and sentence must be vacated in light of this constitutional

violation, as required by the constitutions of the United States and the State of Alabama. Ala. R.
Crim. P. 32.1(a). Furthermore, Alabama Rule of Criminal Procedure 32.1(e) requires that Mr.
Jones’ conviction be vacated because: the state’s suppression of evidence was not known to Mr.
Jones or his counsel at trial; the newly discovered facts are not cumulative to known facts; these
facts do not amount to mere impeachment evidence; and these facts establish that Mr. Jones is
innocent. Ala. R. Crim. P. 32.1(e).
D.

The State violated Brady by suppressing evidence of radio calls documenting
when police first entered the crime scene.

540.

Mr. Jones’ conviction was unconstitutional in violation of Brady because the state

suppressed evidence of radio calls made by and to Officer Brent Parrish, the victim’s grandson,
who was the first police officer at the scene. Mr. Parrish was on duty with Officer Doug McGill
when he received a call from his mother, asking him to check on his grandmother. (R. 425–26).
Mr. Parrish testified that when he arrived, he saw her door ajar and immediately called for
assistance over his police radio. (Id. at 340, 441).
541.

Radio calls are routinely recorded, but the state did not provide the defense with

either the recording or a transcript of Mr. Parrish’s call for assistance. This information as
material to: (1) impeach Officer Parrish’s testimony that he did not enter his grandmother’s
house despite the impulse to discover whether she was in danger and he could render help; (2)
impeach Officer McGill’s testimony that the two officers waited for backup before entering the

- 215 App. 380

house and, contrary to police training and procedure, did not enter the house to determine
whether someone inside needed police or medical attention; and (3) establish the timeline of the
police investigation – an especially important task in light of the difficulty several state’s
witnesses had recalling that night’s events at trial.
542.

Mr. Jones’ conviction and sentence must be vacated in light of this constitutional

violation, as required by the constitutions of the United States and the State of Alabama. Ala. R.
Crim. P. 32.1(a). Furthermore, Alabama Rule of Criminal Procedure 32.1(e) requires that Mr.
Jones’ conviction be vacated because: the state’s suppression of evidence was not known to Mr.
Jones or his counsel at trial; the newly discovered facts are not cumulative to known facts; these
facts do not amount to mere impeachment evidence; and these facts establish that Mr. Jones is
innocent. Ala. R. Crim. P. 32.1(e).
E.

The State violated Brady by suppressing evidence of unidentified
fingerprints at the crime scene and on the murder weapons.

543.

Mr. Jones’ conviction was unconstitutional in violation of Brady because the state

suppressed evidence of unmatched fingerprints that were found on the cane and chair leg that
were purportedly used in the assault.

The State called Shannon Fitzgerald, a latent print

examiner, during its rebuttal, to testify as to fingerprints found at the scene. (Id. at 1169.) Mr.
Fitzgerald testified that he could not find any known match to the fingerprints he found. (Id. at
1174–76).
544.

The State, however, did not disclose to the defense any evidence about whether

the prints matched Ms. Kirkland, Robert Carroll, or any of the officers that responded to the
scene. The presence of Ms. Kirkland’s or any other person’s prints on the cane or chair leg
would have seriously undermined the state’s theory that Mr. Jones was an assailant. This
evidence, if disclosed, may have shown that the responding officers carelessly entered the scene

- 216 App. 381

of the murder of Officer Parrish’s grandmother, and may have contaminated the scene in the
process. Mr. Jones’ conviction and sentence must be vacated in light of this constitutional
violation, as required by the constitutions of the United States and the State of Alabama. Ala. R.
Crim. P. 32.1(a). Furthermore, Alabama Rule of Criminal Procedure 32.1(e) requires that Mr.
Jones’ conviction be vacated because: the state’s suppression of evidence was not known to Mr.
Jones or his counsel at trial; the newly discovered facts are not cumulative to known facts; these
facts do not amount to mere impeachment evidence; and these facts establish that Mr. Jones is
innocent. Ala. R. Crim. P. 32.1(e).
F.

The State violated Brady by suppressing evidence of police interviews of
restaurant employees who could rebut evidence of blood on Mr. Jones’
clothing.

545.

Mr. Jones’ conviction was unconstitutional in violation of Brady because the state

suppressed evidence of police interviews of employees of a McDonald’s restaurant that Mr.
Jones had visited shortly before his arrest. Officer Andy Hughes testified that, when he arrested
Mr. Jones, he noticed blood spots on his sweatpants and sneakers. (Id. at 507–28). However,
Mr. Jones’ sister, LaKeisha Jones, who was in the car when he was arrested, testified that she
saw no blood. (Id. at 558). The police department’s interviews with McDonald’s employees
could have corroborated Ms. Jones’ testimony that there was no blood on Mr. Jones’ clothing, as
well as corroborating the timeline of events. None of this evidence was ever made available to
Mr. Jones, however. The State’s suppression of this evidence was in clear violation of Mr.
Jones’ Brady right to disclosure of favorable evidence.
546.

Mr. Jones’ conviction and sentence must be vacated in light of this constitutional

violation, as required by the constitutions of the United States and the State of Alabama. Ala. R.
Crim. P. 32.1(a). Furthermore, Alabama Rule of Criminal Procedure 32.1(e) requires that Mr.
Jones’ conviction be vacated because: the state’s suppression of evidence was not known to Mr.
- 217 App. 382

Jones or his counsel at trial; the newly discovered facts are not cumulative to known facts; these
facts do not amount to mere impeachment evidence; and these facts establish that Mr. Jones is
innocent. Ala. R. Crim. P. 32.1(e).
V.

Mr. Jones was denied effective assistance of counsel on appeal.
547.

Mr. Parker and Mr. Brantley were also ineffective in handling Mr. Jones’ direct

appeal. It is well established that “a criminal defendant has a constitutional right to counsel
during the first appeal as of right.” Williams v. Turpin, 87 F.3d 1204, 1209 (11th Cir. 1996)
(citing Evitts v. Lucey, 469 U.S. 387, 398 (1985); Douglas v. People, 372 U.S. 353, 356-57
(1963)). “The standards for determining whether appellate counsel was ineffective are the same
as those for determining whether trial counsel was ineffective.” Powers v. State, 38 So. 3d 764,
769 (Ala. Crim. App. 2009).
548.

As discussed in Section I, incorporated herein by reference, Mr. Parker and Mr.

Brantley suffered from a conflict of interest during the appeal as a result of Mr. Parker’s
prosecution by Mr. Valeska, the same prosecutor that prosecuted Mr. Jones. That conflict of
interest precluded them from fully challenging the State’s case on appeal, including the omission
of numerous instances of prosecutorial misconduct.
549.

Further, Mr. Parker and Mr. Brantley were extraordinarily inattentive to the

appeal of Mr. Jones’ capital murder conviction and death sentence. As further discussed in
Section I, through the summer and fall of 2004, Mr. Parker and Mr. Brantley sought multiple
extensions to file Mr. Jones’ appellate brief due, among other things, to the pending trial date in
Mr. Parker’s DUI case. Even then, they missed the deadline for filing Mr. Jones’ appellate brief.
It was only after the appellate court reminded them that the brief was due that they filed Mr.
Jones’ brief. (See Exhibit A, Correspondence with Court of Criminal Appeals.)

- 218 App. 383

550.

The brief Mr. Parker and Mr. Brantley filed was wholly deficient, and raised only

three issues on appeal, including an entirely fallacious argument based on Mr. Parker’s
misunderstanding of the elements of burglary. (Exhibit D, 3/11/05 Brief of the Appellant.)
A.

Mr. Jones’ counsel failed to raise numerous meritorious issues on direct
appeal.
1.

551.

Counsel failed to raise the trial court’s denial of Mr. Jones’ Batson
motion as an issue on appeal.

Counsel were deficient on appeal in failing to raise the trial court’s erroneous

denial of Mr. Jones’ Batson motion. As discussed in Section II.D.3, which is incorporated herein
by reference, the prosecutor committed a Batson violation but the trial court denied Mr. Jones’
motion. Had counsel raised this issue on appeal, the Court of Criminal Appeals would have
reversed Mr. Jones’ conviction. See Eagle v. Linahan, 279 F.3d 926 (11th Cir. 2001) (appellate
counsel ineffective for failing to raise preserved, meritorious Batson claim on direct appeal).
552.

During jury selection, the prosecutor used his peremptory strikes in a racially

discriminatory manner. The prosecutor’s misconduct is supported by the presence of many
factors the Alabama Supreme Court recognized in Ex parte Branch, 526 at 622-24.
a.
553.

The prosecutor’s pattern of strikes reveals racial
discrimination.

The prosecutor excluded 75% of the qualified prospective African-American

jurors. (R. 224-30.) See Cochran v. Herring, 43 F.3d 1404, 1410 (11th Cir. 1995) (finding
Batson violation where prosecutor removed 78% of black prospective jurors).
b.
554.

The prosecutor’s office has a history of engaging in racially
discriminatory jury selection.

This prosecutor’s office has been reversed at least six times for Batson violations.

See McCray v. State, 738 So. 2d 911, 914 (Ala. Crim. App. 1998) (Houston county prosecutor’s
“admission that race was the motivating and deciding factor in the state’s removal of at least one
- 219 App. 384

prospective black juror from the venire” required reversal); Morris v. City of Dothan, 659 So. 2d
979 (Ala. Crim. App. 1994); Ashley v. State, 651 So. 2d 1096 (Ala. Crim. App. 1994)
(prosecutor had not refuted prima facie case of discrimination); Andrews v. State, 624 So. 2d
1095 (Ala. Crim. App. 1993) (reason for challenged strike not sufficiently race neutral where no
voir dire on matter); Williams v. State, 620 So. 2d 82 (Ala. Crim. App. 1992) (same); Rogers v.
State, 593 So. 2d 141, 141-42 (Ala. Crim. App. 1991) (reversing on Batson grounds where
District Attorney’s Office struck all African-Americans from jury venire).
c.
555.

The prosecutor’s manner of questioning during voir dire was
desultory.

The prosecutor engaged in nothing more than desultory voir dire, with very little

follow up to his general questions. (R. 55-121.) Identified jurors were not asked to provide
answers to specific questions.

The State, however, cannot immunize itself from a Batson

analysis by asking general questions and then speculating as to what more specific questions
would have elicited. Batson, 476 U.S. at 97; Ex parte Branch, 526 So. 2d 609, 623 (Ala. 1987).
d.
556.

The prosecutor’s proffered reasons establish his race-based
disparate treatment.

The prosecutor’s disparate treatment is further revealed by the fact that

prosecutor’s proffered reasons for striking black jurors were equally applicable to white jurors
that the prosecutor did not strike. See Yancey v. State, 813 So. 2d 1 (Ala. Crim. App. 2001)
(reversing, in part, because District Attorney’s proffered reasons for striking revealed disparate
treatment); Madison v. State, 545 So. 2d 94 (Ala. Crim. App. 1987) (reversing where
prosecutor’s reasons for striking black jurors were not applied equally to white jurors). For
example, when asked to state his reasons for striking Ms. Sewell, a black juror, the prosecutor
asserted that he struck Ms. Sewell because she had “a tie to Mr. Brantley [defense counsel] that
he had represented her in the past.” (R. 232-33.) Yet, the prosecutor did not strike either Mr.
- 220 App. 385

Sanders or Mr. Watson, both white jurors, who also had ties to defense counsel. (R. 74-75.) The
fact that Ms. Sewell was struck by the State was especially surprising given that her only other
response during jury questioning recounted the burglary of her home. (R. 156-57.) Similarly,
although the prosecutor purportedly struck Mr. Peterson, in part, because he knew one of the
experts that had worked with Mr. Jones, (R. 235), the prosecutor did not strike white jurors who
knew experts that had worked with Mr. Jones, (R. 79-81).
e.
557.

The prosecutor’s engaged in disparate examination.

Alabama and federal courts have routinely recognized that disparate questioning

evidences the State’s attempt to strike black jurors. See Miller-El v. Dretke, 545 U.S. 231, 255
(2005); Branch, 526 So. 2d at 624. Here, the prosecutor directly questioned jurors who had not
volunteered responses, singling out jurors who were African-American. (R. 65-67.) Neither
black juror who was singled out sat on Mr. Jones’ jury. (R. 222.)
558.

Additionally, counsel improperly permitted the prosecution to isolate and single

out African-American venire members. During general voir dire, the prosecutor, Mr. Valeska
asked very few questions directed at individual venire members. However, when he did address
specific individuals, he focused primarily, upon African-Americans. (See e.g. R. 60-67, 106.)
559.

In particular, the prosecutor probed six of the twelve African-American venire

members. Mr. Valeksa’s direct questioning of white venire members occurred at a far lower rate
than the fifty percent ratio of African-Americans. This practice of alienating particular jurors is
highly impermissible. Defense counsel’s silence allowed the prosecution to goad particular jurors
into offering responses that he could later use as purported race-neutral reasons for striking
African-American venire members.

- 221 App. 386

f.
560.

The prosecutor removed the majority of eligible black
potential jurors.

The prosecutor removed six of the eight black jurors left after strikes for cause.

(R. 224-30.) Thus, the prosecutor successfully precluded 75% of the eligible black jurors from
sitting on Mr. Jones’ jury.
g.
561.

The prosecutor’s reasons for striking the six black potential
jurors were pretextual.

The prosecutor’s proffered reasons for striking the six black venire members were

pretextual. Miller-El, 545 U.S. at 248-49, 65; Batson, 476 U.S. at 97-98; Branch, 526 So. 2d at
624. Here, the prosecutor failed “to engage in any meaningful voir dire examination” with black
jurors on the subjects about which he claimed concern. Ex parte Travis, 776 So. 2d 874, 881
(Ala. 2000). That failure constitutes “evidence suggesting that the explanation is a sham and a
pretext for discrimination.” Id. As discussed below, the prosecutor’s illogical and baseless
reasons for striking back jurors cannot support a finding that his strikes were race neutral.
(i)
562.

Juror Wright

Despite the fact that Juror Wright had himself been the victim of a robbery, the

prosecutor struck this African-American potential juror.16 (R. 156, 235-37.) When asked about
his victimization, Mr. Wright explained that within the past five years someone broke into his
home and stole all of his VCRs. (R. 156.) The prosecutor claimed that Mr. Wright laughed as
he recounted his own robbery. (R. 235-37.) As its basis for striking Mr. Wright, the prosecutor
asserted that Mr. Wright’s alleged laughter regarding his own victimization indicated that he
could not take this case seriously. (R. 235-37.) Yet, the record makes clear that Mr. Wright took
his victimization seriously enough to report the incident to police. (R. 156.) Consequently, the
more natural and logical explanation for his alleged laughter was its expression serving as a
16

The State also struck Juror Sewell, a black juror, who was a burglary victim. (R. 156-57.)

- 222 App. 387

manifestation of his frustration with his assailants never having been caught. (R. 156.)
Regardless, the State had no way of knowing the motive behind Mr. Wright’s laughter because it
failed to question him on the subject. See Ex parte Travis, 776 So. 2d at 881 (prosecutor failed
“to engage in any meaningful voir dire examination” with potential juror on subjects about which
prosecutor claimed concern).
(ii)
563.

Juror McGriff

Similarly illogical is the prosecutor’s explanation for striking Juror McGriff. The

prosecutor asserted that he struck Ms. McGriff because she had a nephew17 who worked as a
corrections officer at the jail where Mr. Jones was housed. (R. 231.) The State asserted that her
nephew probably had contact with Mr. Jones and it was leery of this connection because Mr.
Jones was likely to put on jailers to testify to his demeanor.
564.

This proffered reason was pretextual. First, the prosecutor failed to ask any

questions to explore Ms.’ McGriff’s connection with Mr. Jones. The State never explored her
relationship with her nephew, her knowledge of his work, or, specifically, his contact with. Mr.
Jones.18 Second, the prosecutor’s proffered reason is belied by the fact that if Ms. McGriff had
any bias as a result of her nephew’s law enforcement work, it would almost certainly be bias in
favor of the State, not Mr. Jones.
(iii)
565.

Juror Peterson

Aside from the questions that resulted in the disparate striking of Juror Peterson,

see supra, the prosecutor also asserted that he was striking Juror Peterson because his brother

17

The State’s inability to properly identify the family member also reveals the transparency of its purported
reasons. The State referred to the family member as either Ms. McGriff’s brother or husband. (R. 231.) The family
member was, in fact, Ms. McGriff’s nephew. (R. 132.)
18
The prosecutor also asserted, as his basis for striking Ms. McGriff, that its records indicated that she failed to
acknowledge that she operated a vehicle without a license. (R. 230-31.) Again, the prosecutor failed to explore its
alleged area of concern. As a result, Ms. McGriff was denied the opportunity to explain why she did not answer the
question.

- 223 App. 388

sought mental help and he was sympathetic to those with mental health problems. (R. 233.) Yet,
the record clearly shows that Juror Peterson never stated that he was sympathetic. While
justifying this strike, the prosecutor argued that he would have struck Juror Moulton, a white
juror, who also had a family member with mental health problems, had she not been struck for
cause. (R. 234.) However, that explanation is unsatisfactory because unlike Juror Peterson,
Juror Moulton expressly informed the prosecutor , “And I do have sympathy for people that have
mental health problems.” (R. 200) (emphasis added). By failing to ask any follow-up questions
of Juror Peterson, the State never learned the nature of Juror Peterson’s brother’s mental status or
how it impacted this potential juror’s life and feelings. The prosecutor cannot insert words into
the mouths of potential jurors in order to justify his strikes, especially where the prosecutor failed
to engage in more probing questioning.
(iv)
566.

Juror Moore

Similarly, the prosecutor’s general questioning cannot justify his strike of Juror

Moore. The prosecutor allegedly struck Juror Moore because he may have been kin to Erica
Jones, who visited Mr. Jones in prison. (R. 232.) The latter piece of information (that Erica
Jones was visiting Mr. Jones) was acquired by the State internally, not through questioning of
Mr. Moore. (R. 232.) By failing to ask follow-up questions, the prosecutor never learned
whether Mr. Moore was in fact related to Erica Jones, whether he knew that Eric Jones was
connected to Mr. Jones, or whether had knowledge that she visited him. His ability to serve as a
juror turned not on the answers to general questions that were asked of him, but on unknown
answers to these more directed questions that were not asked.

Likewise, the prosecutor’s

assertion that it struck Mr. Moore, in part, on account of his conviction for assault in the third
degree is unsatisfactory. (R. 231–32.) Without asking any questions, the prosecutor failed to
show how Mr. Moore’s conviction was relevant to the case at bar. Yet, third degree assault
- 224 App. 389

applies to a broad range of activity, which may or may not have any bearing on Mr. Moore’s
ability to impartially evaluate the facts of the present case. See Ala. Code § 13X-6-22(a).
Without more questioning, the prosecutor had no information about the nature of Mr. Moore’s
offense and thus no basis for striking.
567.

As noted above, the State cannot immunize itself from a Batson analysis by

asking general questions and then speculating as to what more specific questions would have
elicited. Batson, 476 U.S. at 97; Branch, 526 So. 2d at 623. Moreover, many of the responses
offered by the prosecutor in this case are simply illogical in that the justifications are not
supported by the record or that the responses militate in favor of the prosecutor keeping struck
jurors. In light of the long history of racial discrimination by this District Attorney’s office, it is
self-evident that the prosecutor’s proffered justifications were simply “a sham and a pretext for
discrimination.” See Ex parte Travis, 776 So. 2d at 881. The prosecutor violated Batson. Had
counsel raised this issue on appeal, the appellate court would have reversed Mr. Jones’
conviction.
2.
568.

Counsel failed to raise the numerous instances of prosecutorial
misconduct on appeal.

Counsel were deficient in failing to raise the numerous other instances of

prosecutorial misconduct as an issue on appeal. As discussed in Sections II.O, II.D.2, II.D.6,
II.P, and III.D, which are incorporated herein by reference, this District Attorney’s office has a
history of misconduct that has been recognized by the appellate courts.

The prosecutor’s

misconduct at Mr. Jones’ trial included the following, all of which counsel failed to raise on
appeal:
Commenting on Mr. Jones’ decision not to testify;
Vouching for the integrity of the State’s case and its witnesses;
Injecting a racial dynamic into the case;
- 225 App. 390

Testifying in place of the State’s witnesses and made other testimonial statements;
Introducing penalty phase evidence during the guilt phase of trial;
Inflaming the jury;
Improperly death-qualifying the jury;
Incorrectly telling the jury that the elderly are entitled to greater protection under
Alabama law;
Mischaracterizing the statistical basis of the State’s DNA evidence;
569.

Despite these numerous instances of prosecutorial misconduct. Counsel failed to

raise any on appeal. Had counsel raised the prosecutor’s misconduct on appeal, there is a
reasonable probability that the appellate court would have reversed Mr. Jones’ conviction.
3.

570.

Counsel failed to argue on appeal that the death penalty is
unconstitutional in this case because Mr. Jones was only 18 years old
and has diminished mental capacity.

Counsel was deficient in failing to argue on appeal that the death penalty is

unconstitutional for Mr. Jones who was 18 years old at the time of the crime and suffers from
severely diminished mental capacity.
571.

The same social science data that prompted the United States Supreme Court to

declare the death penalty unconstitutional for those younger than 18 applies with equal force to
those just over age 18, as Mr. Jones was at the time of this crime. See Roper v. Simmons, 543
U.S. 551, 569 (2005). That is especially true when a teenager has mental health issues, including
untreated ADHD and serious learning impairments, as was the case here. (C. 316-17, R. 142943). The lack of maturity and an “underdeveloped sense of responsibility,” in such individuals
results in “impetuous and ill-considered actions and decisions.” Roper, 543 U.S. at 569.
572.

Recognizing that teenagers engage in reckless behavior, the State of Alabama has

chosen to make the age of majority in the State nineteen, see Ala. Code 5 26-1-1 (1975), the
minimum age for jury service nineteen, see Ala. Code § 12-16-60(a)(1) (1975), and prohibits the

- 226 App. 391

purchase of alcohol to any individual under the age of twenty-one. See Ala. Code § 28-1-5
(1975).
573.

Where Mr. Jones is within months of being conclusively determined to be

ineligible for the death penalty due to his youth and immaturity, his diminished mental capacity
surely renders him ineligible for the death penalty. Due to the ineffectiveness of his counsel only
a small portion of the available evidence about Mr. Jones mental deficiencies was introduced.
Nevertheless, there was uncontroverted evidence in the record that he spent much of his
childhood in special education classes, struggled academically, and only attended school until the
eleventh grade. (C. 299-305, R. 1356-57, 1428-36.) Evidence also established that he has an IQ
of 81 and is functioning at the fifth or sixth grade level. (R. 1430, C. 302.) Counsel should have
argued on appeal that this evidence placed the 18-year-old Mr. Jones within the class of
offenders encompassed by the Supreme Court’s decision in Atkins v. Virginia, 536 U.S. 304
(2002). Had such an argument been made, it is likely the court would have reversed the death
sentence in this case.
574.

The combination of Mr. Jones’ age at the time of the offense and his level of

intellectual functioning place him on the borderline of eligibility for the death penalty with
respect to each category. The combination of the two renders him ineligible. See, e.g., Brownlee
v. Haley, 306 F.3d 1043, 1052, 1070-75 (11th Cir. 2002) (concluding that relief is warranted for
those whose characteristics border “right on the edge” of death penalty ineligibility because they
“suffer[] some of the same limitations of reasoning, understanding, and impulse control” as those
that fall within the class.”).
575.

Mr. Jones’ “diminished capacity to understand and process information, to

communicate, to abstract from mistakes and learn from experience, to engage in logical

- 227 App. 392

reasoning, to control impulses, and to understand the reactions of others,” places him squarely
within the class of offenders the Supreme Court has concluded are exempt from sentences of
death. Atkins, 536 U.S. at 318.
576.

For these reasons, the imposition of a death sentence in this case is both

inappropriate and a violation of Mr. Jones’ rights to due process and to be free from cruel and
unusual punishment pursuant to the Eighth and Fourteenth Amendments to the United States
Constitution, corresponding portions of the Alabama Constitution, and Alabama law.

Had

counsel raised this issue on appeal, there is a reasonable probability that the appellate court
would have vacated his death sentence.
B.

Mr. Jones’ counsel were ineffective in failing to argue on appeal that the trial
court erroneously placed the burden of proof on Mr. Jones’ during the
hearing on the suppression of his statements.

577.

Additionally, Mr. Jones’ appellate counsel were ineffective in their presentation

of issues they did raise on appeal. Despite the numerous meritorious issues available, Mr. Parker
and Mr. Brantley raised only three issues on direct appeal, including one argument that was
fallacious as a matter of law. (Exhibit D, 3/11/05 Brief of the Appellant.)
578.

On appeal, Mr. Parker and Mr. Brantley argued that the trial court erred in finding

that Mr. Jones’ statements had been voluntarily made. Counsel’s sole argument in that regard
was that the trial court failed to give due weight to the coercive effect of the electric chair.
Counsel failed to argue, however, that the trial court erroneously placed the burden of proof on
Mr. Jones during the suppression hearing.
579.

At the beginning of the suppression hearing, defense counsel correctly asserted

that, once it had been raised, the State had the burden to prove the voluntariness of Mr. Jones’
statements as a predicate to their admission. (R. 251–52.) However, the trial judge insisted that

- 228 App. 393

because it was a defense motion, the defense bears the burden. (R. 251–52.) This is incorrect as
a matter of law.
580.

It is well-established that the State bears the burden of proving statements were

voluntary. See Missouri v. Seibert, 542 U.S. 600, 609 n.1 (2004) (noting that the prosecution
bears the burden of proving the Miranda waiver and the voluntariness of the confession);
Jackson, 836 So. 2d 979, 982 (“The burden is on the State to show voluntariness . . . ”).
Although typically “trial court’s ruling on a motion to suppress will not be disturbed unless it is
palpably contrary to the great weight of the evidence,” id., 836 So. 2d at 982, the trial court’s
error in allocating the burden of proof made any fact finding unreliable and deference by the
appellate court inappropriate.
581.

Had counsel challenged the trial court’s error in placing the burden of proof on

Mr. Jones for his motion to suppress, the Court of Criminal Appeals would have reversed Mr.
Jones’ conviction.
C.

Counsel’s deficiencies at the appellate phase prejudiced Mr. Jones.

582.

The above referenced errors, cumulatively as well as individually, denied Mr.

Jones the effective assistance of counsel at the appellate stage in violation of the Alabama
Constitution, and the Fourth, Fifth, Sixth, Eighth, and Fourteenth Amendments to the United
States Constitution, See United States v. Cronic, 466 U.S. 648, 659 (1984); Dobbs v. Zany, 506
U.S. 357, 359 (1993); Miller v. Anderson, 255 F.3d 455 (7th Cir. 2001) (finding prejudice in the
aggregate); Daniel v. Thigpen, 742 F. Supp. 1535, 1561 (M.D. Ala. 1990).
583.

But for counsel’s deficient performance on appeal, Mr. Jones’ conviction and

death sentence would have been reversed.

- 229 App. 394

CONCLUSION
584.

Antonio Jones was denied his rights to due process, a fair trial, and a reliable

sentence as guaranteed by the Fifth, Sixth, Eighth, and Fourteenth Amendments to the United
States Constitution, the corresponding provisions of the Alabama Constitution, and Alabama law
because the prosecution did not disclose exculpatory and impeachment under Brady.
585.

Mr. Jones was also deprived the effective assistance of counsel throughout his

entire trial. Mr. Jones’ defense counsel failed to subject the prosecution’s case to adversarial
testing at either the culpability or sentencing phase, investigate substantial mitigation evidence
that were available, and present meaningful evidence to mitigate the sentence.
586.

This Court, after a full evidentiary hearing of all the claims raised herein or any

supplement to this petition, should be set aside Mr. Jones’ conviction and sentence and grant him
a new trial.

- 230 App. 395

PRAYER FOR RELIEF
FOR THESE REASONS, and such other reasons as may appear to the Court upon further
pleading and a full evidentiary hearing, Mr. Jones respectfully requests this Court to grant the
following relief:
(A)

conduct a full evidentiary hearing at which petitioner may offer proof concerning
allegations of constitutional violations at his trial;

(B)

provide petitioner with sufficient funds to present witnesses, experts, and other evidence
in support of the allegations in this petition;

(C)

after a full and complete heating, order that petitioner be relieved of his
unconstitutionally obtained capital conviction and death sentence; and

(D)

grant any additional or alternative relief as may seem just, equitable, and proper under
state and federal law.

Respectfully submitted on this the 4th day of April, 2013.
Counsel for Antonio Devoe Jones
/s/ Steven A. Miller
Steven A. Miller (admitted pro hac vice)
Richard K. Wray (admitted pro hac vice)
REED SMITH LLP
10 South Wacker Drive
Chicago, IL 60606-7507
(312) 207-1000
Fax (312) 207-6400
-andCarmen F. Howell (HOW077)
Attorney for Petitioner
P.O. Box 312558
Enterprise, Alabama 36330
(334) 347-0843

- 231 App. 396

App. 397

Certificate of Service
I hereby certify I have electronically filed the foregoing with the Clerk of Court using the
CM/ECF system which will send notification of such filing to those attorneys registered on this
4th Day of April, 2013, to wit, the attorneys of record named below.
/s/ Carmen F. Howell
OF COUNSEL
Kevin W. Blackburn
Assistant Attorney General
ALABAMA OFFICE OF THE ATTORNEY GENERAL
501 Washington Avenue
Montgomery, AL 36130-0152
(334) 353-8807
kblackburn@ago.state.al.us

App. 398

